Exhibit A

USCA Case #20-1016

Document #1903252

Filed: 06/22/2021

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

Argued March 8, 2021

Decided June 22, 2021
No. 20-1016

ENVIRONMENTAL DEFENSE FUND,
PETITIONER
v.
FEDERAL ENERGY REGULATORY COMMISSION,
RESPONDENT
SPIRE MISSOURI INC. AND SPIRE STL PIPELINE LLC,
INTERVENORS

Consolidated with 20-1017
On Petitions for Review of Orders
of the Federal Energy Regulatory Commission
Natalie M. Karas argued the cause for petitioner
Environmental Defense Fund. With her on the briefs were Erin
Murphy, Jason T. Gray, Kathleen L. Mazure, Matthew L. Bly,
and Sean H. Donahue.
Henry B. Robertson argued the cause and filed the briefs
for petitioner Juli Steck.

Page 1 of 37

USCA Case #20-1016

Document #1903252

Filed: 06/22/2021

2
Jennifer Danis and Edward Lloyd were on the brief for
amicus curiae Dr. Susan Tierney in support of petitioners.
Randy M. Stutz was on the brief for amicus curiae the
American Antitrust Institute in support of petitioners.
Anand R. Viswanathan, Attorney, Federal Energy
Regulatory Commission, argued the cause for respondent.
With him on the brief were David L. Morenoff, Acting General
Counsel, and Robert H. Solomon, Solicitor.
Jonathan S. Franklin argued the cause for intervenors
Spire STL Pipeline LLC and Spire Missouri Inc. in support of
respondent. With him on the brief were Christopher J. Barr,
Jessica R. Rogers, Matthew J. Aplington, Thomas E. Hirsch III,
David T. Kearns, Daniel Archuleta, and Sean P. Jamieson.
Paul Korman, Michael R. Pincus, and Michael Diamond
were on the brief for amicus curiae Interstate Natural Gas
Association of America in support of respondent.
Before: TATEL and MILLETT, Circuit Judges, and
EDWARDS, Senior Circuit Judge.
Opinion for the Court filed by Senior Circuit Judge
EDWARDS.
EDWARDS, Senior Circuit Judge: In the action leading to
this petition for review, the Federal Energy Regulatory
Commission (the “Commission” or “FERC”) issued a
certificate of public convenience and necessity (“Certificate”)
under section 7(c) of the Natural Gas Act, 15 U.S.C.
§ 717f(c)(1)(A), to Intervenor-Respondent Spire STL Pipeline
LLC (“Spire STL”) to construct a new natural gas pipeline in
the St. Louis area. The Commission may issue such a

Page 2 of 37

USCA Case #20-1016

Document #1903252

Filed: 06/22/2021

3
Certificate only if it finds that construction of the new pipeline
“is or will be required by the present or future public
convenience and necessity.” Id. § 717f(e).
Pursuant to the Commission’s “Certificate Policy
Statement,” Certification of New Interstate Natural Gas
Pipeline Facilities, 88 FERC ¶ 61,227 (Sept. 15,
1999), clarified, 90 FERC ¶ 61,128 (Feb. 9, 2000), further
clarified, 92 FERC ¶ 61,094 (July 28, 2000), FERC first
considers whether there is a market need for the proposed
project. If there is a need for the pipeline, FERC then
determines whether there will be adverse impacts on “existing
customers of the pipeline proposing the project, existing
pipelines in the market and their captive customers, or
landowners and communities affected by the route of the new
pipeline.” Id. at 61,745. If adverse impacts on these
stakeholders will result, the Commission “balanc[es] the
evidence of public benefits to be achieved against the residual
adverse effects.” Id. In analyzing the need for a particular
project, the Certificate Policy Statement makes it clear that the
Commission will “consider all relevant factors.” See id. at
61,747 (emphasis added).
The issue in this case arose in 2016, when Spire STL
announced its intent to build a pipeline in the St. Louis
metropolitan area. In August of that year, Spire STL held an
“open season” during which it invited natural gas “shippers” to
enter into preconstruction contracts, also known as “precedent
agreements,” for the natural gas the pipeline would transport.
But no shippers committed to the project during the open
season. Instead, after the open season finished without any
takers, Spire STL privately entered into a precedent agreement
with one of its affiliates, Laclede Gas Company – now known
as Intervenor-Respondent Spire Missouri Inc. (“Spire

Page 3 of 37

USCA Case #20-1016

Document #1903252

Filed: 06/22/2021

4
Missouri”) – for just 87.5 percent of the pipeline’s projected
capacity.
In January 2017, Spire STL applied to the Commission for
a Certificate. It conceded that the proposed pipeline was not
being built to serve new load, as natural gas demand in the St.
Louis area is projected to stay relatively flat for the foreseeable
future. Rather, Spire STL claimed that the pipeline would result
in other benefits, such as enhancing reliability and supply
security, providing access to new sources of natural gas supply,
and eliminating reliance on propane “peak-shaving” during
periods of high demand. As evidence of need, Spire STL
principally relied on its precedent agreement with Spire
Missouri. In September 2017, the Commission – pursuant to its
obligations under the National Environmental Policy Act
(“NEPA”) – released an Environmental Assessment (“EA”) for
construction and operation of the proposed pipeline, finding
that they would have no significant environmental impact.
Petitioner Environmental Defense Fund (“EDF”), along
with several other parties, challenged Spire STL’s Certificate
application. EDF contended, inter alia, that the precedent
agreement between Spire STL and Spire Missouri should have
only limited probative value in FERC’s assessment of Spire
STL’s application because the two companies were corporate
affiliates. In addition, Petitioner Juli Steck, then known as Juli
Viel, contested the efficacy of the EA.
On August 3, 2018, in an Order Issuing Certificates
(“Certificate Order”), FERC granted the authorizations for the
new pipeline. See Joint Appendix (“J.A.”) 932. FERC’s
decision acknowledged that the pipeline was not meant to serve
new load demand. Nevertheless, FERC rejected arguments that
a market study should be undertaken to establish the need for
the project. Rather, the Commission’s decision principally

Page 4 of 37

USCA Case #20-1016

Document #1903252

Filed: 06/22/2021

5
focused on the precedent agreement between Spire STL and
Spire Missouri in finding that there was market need for the
project. And the Commission stated that it would not “second
guess” Spire Missouri’s purported “business decision” in
entering into the precedent agreement with Spire STL, even
though the shipper and the pipeline were affiliates. J.A. 968. In
November 2019, by a 2-1 vote, FERC denied requests for
rehearing filed by EDF and Steck. These two parties now seek
review in this court.
EDF asserts that the Commission’s decision to award a
Certificate to Spire STL was arbitrary and capricious because
the Commission uncritically and exclusively relied on the
affiliated precedent agreement to find need and because the
Commission failed to sufficiently justify its conclusion that the
new pipeline’s benefits would outweigh its adverse effects.
Steck, in turn, renews many of her challenges to the
Commission’s environmental analysis, including its EA.
For the reasons explained below, we find that Petitioner
Steck lacks standing to pursue her claims. However, we find no
jurisdictional infirmities in EDF’s petition for review. On the
merits, we agree with EDF that the Commission’s refusal to
seriously engage with nonfrivolous arguments challenging the
probative weight of the affiliated precedent agreement under
the circumstances of this case did not evince reasoned and
principled decisionmaking. In addition, we find that the
Commission ignored record evidence of self-dealing and failed
to seriously and thoroughly conduct the interest-balancing
required by its own Certificate Policy Statement. Therefore,
FERC’s Certificate Order and Order on Rehearing do not
survive scrutiny under the applicable arbitrary and capricious
standard of review. See Minisink Residents for Env’t Pres. &
Safety v. FERC (“Minisink”), 762 F.3d 97, 105-06 (D.C. Cir.
2014). Because “vacatur is the normal remedy” in

Page 5 of 37

USCA Case #20-1016

Document #1903252

Filed: 06/22/2021

6
circumstances such as we find in this case, we vacate FERC’s
Orders and remand the case to the Commission for appropriate
action. See Allina Health Servs. v. Sebelius, 746 F.3d 1102,
1110 (D.C. Cir. 2014).
I. BACKGROUND
A. Statutory and Regulatory Background
The Natural Gas Act provides the Commission with
authority “to regulate the transportation and sale of natural gas
in interstate commerce.” City of Oberlin v. FERC, 937 F.3d
599, 602 (D.C. Cir. 2019). To safeguard the public, “Section 7
of the Act requires an entity seeking to construct or extend an
interstate pipeline for the transportation of natural gas to obtain
[a Certificate] from the Commission.” Id. (citing 15 U.S.C.
§ 717f(c)(1)(A)). The Commission may issue Certificates only
if, among other things, it finds that the proposed construction
or extension “is or will be required by the present or future
public convenience and necessity; otherwise such application
shall be denied.” 15 U.S.C. § 717f(e). In deciding whether to
issue Certificates under this standard, the Commission must
“evaluate all factors bearing on the public interest.” Atl. Refin.
Co. v. Pub. Serv. Comm’n of N.Y., 360 U.S. 378, 391 (1959)
(emphasis added). And there is good reason for the
thoroughness and caution mandated by this approach: A
Certificate-holder may exercise eminent domain against any
holdouts in acquiring property rights necessary to complete the
pipeline. 15 U.S.C. § 717f(h).
In its Certificate Policy Statement, the Commission has set
forth the “analytical steps” that guide its dispositions of
Certificate applications. See 88 FERC at 61,745. The first
question the Commission considers is “whether the project can
proceed without subsidies from [the applicant’s] existing
customers.” Id. “To ensure that a project will not be subsidized

Page 6 of 37

USCA Case #20-1016

Document #1903252

Filed: 06/22/2021

7
by existing customers, the applicant must show that there is
market need for the project.” Myersville Citizens for a Rural
Cmty., Inc. v. FERC (“Myersville”), 783 F.3d 1301, 1309 (D.C.
Cir. 2015).
If there is market need, the Commission then determines
whether there are likely to be adverse impacts on “existing
customers of the pipeline proposing the project, existing
pipelines in the market and their captive customers, or
landowners and communities affected by the route of the new
pipeline.” 88 FERC at 61,745. If adverse impacts on these
stakeholders will result, “the Commission balances the adverse
effects with the public benefits of the project, as measured by
an ‘economic test.’” Myersville, 783 F.3d at 1309 (quoting 88
FERC at 61,745). “Adverse effects may include increased rates
for preexisting customers, degradation in service, unfair
competition, or negative impact on the environment or
landowners’ property.” Id. (citing 88 FERC at 61,747-48).
Public benefits generally include “meeting unserved demand,
eliminating bottlenecks, access to new supplies, lower costs to
consumers, providing new interconnects that improve the
interstate grid, providing competitive alternatives, increasing
electric reliability, or advancing clean air objectives.” Id.
(quoting 88 FERC at 61,748).
As to market need and interest-balancing, the Certificate
Policy Statement further provides:
Rather than relying only on one test for need, the
Commission will consider all relevant factors
reflecting on the need for the project. These might
include, but would not be limited to, precedent
agreements, demand projections, potential cost
savings to consumers, or a comparison of projected
demand with the amount of capacity currently serving

Page 7 of 37

USCA Case #20-1016

Document #1903252

Filed: 06/22/2021

8
the market. The objective would be for the applicant
to make a sufficient showing of the public benefits of
its proposed project to outweigh any residual adverse
effects . . . .
The amount of evidence necessary to establish
the need for a proposed project will depend on the
potential adverse effects of the proposed project on
the relevant interests. Thus, projects to serve new
demand might be approved on a lesser showing of
need and public benefits than those to serve markets
already served by another pipeline. However, the
evidence necessary to establish the need for the
project will usually include a market study. . . . Vague
assertions of public benefits will not be sufficient.
88 FERC at 61,747-48 (emphases added).
The Certificate Policy Statement also specifically
addresses the significance of precedent agreements in
demonstrating need:
Although the Commission traditionally has
required an applicant to present [preconstruction]
contracts to demonstrate need, that policy . . . no
longer reflects the reality of the natural gas industry’s
structure, nor does it appear to minimize the adverse
impacts on any of the relevant interests. Therefore,
although contracts or precedent agreements always
will be important evidence of demand for a project,
the Commission will no longer require an applicant
to present contracts for any specific percentage of the
new capacity. Of course, if an applicant has entered
into contracts or precedent agreements for the
capacity, . . . they would constitute significant
evidence of demand for the project.

Page 8 of 37

USCA Case #20-1016

Document #1903252

Filed: 06/22/2021

9
Eliminating a specific contract requirement
reduces the significance of whether the contracts are
with affiliated or unaffiliated shippers, which was the
subject of a number of comments. A project that has
precedent agreements with multiple new customers
may present a greater indication of need than a
project with only a precedent agreement with an
affiliate. The new focus, however, will be on the
impact of the project on the relevant interests balanced
against the benefits to be gained from the project. As
long as the project is built without subsidies from the
existing ratepayers, the fact that it would be used by
affiliated shippers is unlikely to create a rate impact
on existing ratepayers.
Id. at 61,748-49 (emphases added).
B. The Instant Case
For the last two decades, natural gas consumption in the
St. Louis area has been roughly flat. And when the Commission
issued the Certificate Order in this case, all parties agreed that
future demand projections were not expected to increase. See
Certificate Order, J.A. 979 (noting that “[a]ll parties” agreed
that natural gas demand forecasts “for the region are flat for the
foreseeable future”); see also, e.g., J.A. 583 (July 2017 report
prepared by Concentric Energy Advisors on behalf of Spire
Missouri and submitted to the Commission stating that Spire
Missouri “does not expect any significant growth or decline
in . . . forecasted demand over time”); Spire STL Pipeline LLC
Docket Nos. CP17-40-000 and 001 Response to Data Request
at 9, Accession No. 20180313-5193 (Mar. 13, 2018) (Spire
STL submission to the Commission stating that its “gas supply
annual demand requirement” was projected to “remain

Page 9 of 37

USCA Case #20-1016

Document #1903252

Filed: 06/22/2021

10
relatively constant” at “average historical usage” levels for the
next 20 years).
As of 2016, five natural gas pipelines served the St. Louis
region. At that time, a majority of Spire Missouri’s natural gas
supply was provided via pipelines owned and operated by
Enable Mississippi River Transmission, LLC (“Enable MRT”).
It is undisputed that, prior to Spire STL’s application in this
case, Spire Missouri had declined to subscribe to proposals for
new natural gas pipelines in the region, stating that the
proposed new pipelines did not make operational and economic
sense for its customers.
In 2016, Spire STL announced its intent to construct a new
natural gas pipeline to serve homes and businesses in the St.
Louis area. Following an amendment to its Certificate
application, the final length of the proposed pipeline was
approximately 65 miles. The initial estimated cost of the
project was approximately $220 million, with a proposed
overall rate of return of 10.5 percent – a return on equity of 14
percent and a cost of debt of seven percent.
Between August 1, 2016 and August 19, 2016, Spire STL
held an “open season,” during which it sought to enter into
precedent agreements with natural gas shippers. After an
unsuccessful open season, Spire STL then entered into a single
precedent agreement with its affiliate, Spire Missouri, for 87.5
percent of the pipeline’s 400,000 dekatherm-per-day transport
capacity. Spire STL indicated that other shippers expressed
interest, but it did not enter precedent agreements with any of
them.
On January 26, 2017, Spire STL applied to the
Commission for a Certificate to begin construction of the
proposed pipeline. The stated purpose of the pipeline was to
“enhance reliability and supply security; reduce reliance upon

Page 10 of 37

USCA Case #20-1016

Document #1903252

Filed: 06/22/2021

11
older natural gas pipelines; reduce reliance upon mature natural
gas basins . . . ; and eliminate reliance on propane peakshaving infrastructure.” J.A. 89. In particular, the new pipeline
would provide gas from newly accessed sources in the Rocky
Mountains and Appalachian Basin; avoid transecting the New
Madrid Seismic Zone, unlike other pipelines in the area; and
reduce use of propane for “peaking” during periods of high
demand, which purportedly has negative environmental,
operational, and cost-related impacts.
Spire STL made it clear that its new pipeline “was not
[being] developed to serve new demand.” J.A. 265. It further
stated that “conjecture” as to whether Spire Missouri might
“reduce its contract entitlements on other pipelines” as a result
of contracting for capacity on the proposed pipeline “would be
inappropriate.” J.A. 104. The application also asserted that the
proposed project was “the result of a fair process undertaken
by [Spire Missouri] to examine competitive alternatives and
select the one that would best meet its needs.” J.A. 105. In
materials it later submitted to the Commission, Spire Missouri
acknowledged that it used propane peaking on only three days
between 2013 and 2018 – a consecutive three-day period in
January 2014.
Several parties either protested or conditionally protested
Spire STL’s application, including the Missouri Public Service
Commission (the “Missouri Commission”) – a state body that
regulates natural gas shippers – and Enable MRT. In its
conditional protest, the Missouri Commission expressed
skepticism as to the “need for the project,” J.A. 143, while also
urging FERC to undertake a particularly thorough review of the
impact the project might have on customers of existing
pipelines given that “the St. Louis market is static and there is
no demonstrated need . . . for . . . new capacity,” see J.A. 152.
In its protest, Enable MRT claimed that the project “ha[d] been

Page 11 of 37

USCA Case #20-1016

Document #1903252

Filed: 06/22/2021

12
shielded from a truly competitive market,” J.A. 155, and that
“where a proposed project does not have precedent agreements
for all of the capacity of the project and the project’s only
precedent agreement is with a single affiliated shipper with
predominantly captive retail customers, the mere existence of
such a precedent agreement is insufficient to show adequate
market demand,” J.A. 161. See also J.A. 181 (“As a[] [shipper]
with captive retail customers, [Spire Missouri] can pass
through to those customers the costs associated with its
contract with Spire [STL]. Rather than pay lower rates to
receive gas from an unaffiliated pipeline, Spire [STL] and
[Spire Missouri] can maximize the revenue and return earned
by their corporate parent by having [Spire Missouri] pay to
receive service from Spire’s Project.”). Enable MRT also
highlighted certain public-facing comments by Spire Missouri
and Spire STL’s corporate parent indicating that construction
of the pipeline would increase shareholder earnings. And in
later submissions to the Commission, Enable MRT asserted
“that the affiliate relationship between [Spire Missouri] and
Spire STL [had] thwarted fair competition,” J.A. 812, and that
economic risks of the pipeline would be shifted onto Spire
Missouri’s “captive ratepayers [for natural gas] and the
ratepayers of pipelines that would experience decontracting
due to” the new pipeline, J.A. 813.
In May 2017, EDF sought to intervene and filed a protest.
It raised several arguments regarding the probative weight of
the precedent agreement between Spire STL and Spire
Missouri in demonstrating market need for the proposed
pipeline, given their affiliated relationship. In particular, EDF
expressed concerns regarding the growing trend for
utility holding companies [to] enter[] into affiliate
transactions whereby the retail utility affiliate
commits to new long term capacity with its pipeline

Page 12 of 37

USCA Case #20-1016

Document #1903252

Filed: 06/22/2021

13
developer affiliate. The essence of this financing
structure is to take a cost pass-through for a retail gas
or electric distribution utility – a contract for natural
gas transportation services – and pay those
transportation fees to an affiliated pipeline developer
entitled to accrue return on its investment from that
same revenue. Thus ratepayer costs which may not be
justified by ratepayer demand are being converted
into shareholder return.
J.A. 550 (footnote omitted). EDF also requested that the
Commission “apply heightened scrutiny” to the Certificate
application given the affiliated relationship between Spire STL
and Spire Missouri. See J.A. 556-58; see also J.A. 856
(asserting that “there is a gap . . . between state and federal
regulatory oversight of affiliate precedent agreements, such as
the one Spire STL has submitted in this proceeding to
demonstrate market need”). And it asserted that “[w]here, as
here, there is evidence of self-dealing calling into question the
need for a project, th[e] Commission should take steps to
ensure that customers are protected.” J.A. 558; see also J.A.
559 (explaining why “record evidence” should have resulted in
“enhanced regulatory scrutiny” in this case); J.A. 855
(reiterating “that the pursuit of earnings growth must be
balanced against the inherent risk to customers embedded in
[this] affiliate transaction”).
In September 2017, Commission staff published an
Environmental Assessment for the proposed pipeline,
including their finding of no significant impact from
constructing and operating the pipeline. In reaching that
conclusion, the EA noted that the pipeline “was not developed
to serve new demand.” J.A. 765, 768.

Page 13 of 37

USCA Case #20-1016

Document #1903252

Filed: 06/22/2021

14
On October 30, 2017, Petitioner Steck moved to intervene.
In comments to the Commission, she alleged that there were
several deficiencies in the EA, “particularly in its treatment of
the purpose and need for the project and of climate change.”
J.A. 791. She therefore requested preparation of either a full
Environmental Impact Statement or a revised EA.
On August 3, 2018, by a 3-2 vote, the Commission issued
the Certificate Order, granting a Certificate to Spire STL.
Therein, the Commission referenced the concerns of the
protestors and intervenors regarding the affiliated precedent
agreement, see, e.g., J.A. 938-40, 944-47, 950-51, and noted
that “[a]ll parties, including Spire, agree that the new capacity
is not meant to serve new demand, as load forecasts for the
region are flat for the foreseeable future,” J.A. 979. The
Commission also found that data provided by Spire STL and
Enable MRT “show[ed] that the difference in the cost of gas
delivered to Spire Missouri via the proposed [pipeline] as
compared with gas accessed via” current pipelines “was not
materially significant.” J.A. 980.
The Commission purported to apply the Certificate Policy
Statement in reaching its decision. See J.A. 940-41; see also
J.A. 941 n.31 (“[T]he current Certificate Policy Statement
remains in effect and will be applied to natural gas certificate
proceedings pending before the Commission as appropriate.”
(citation omitted)). However, the Commission’s decision
appeared to rely entirely on the precedent agreement between
Spire STL and Spire Missouri in finding that there was market
need for the project. See J.A. 963 (“The fact that Spire Missouri
is affiliated with the project’s sponsor does not require the
Commission to look behind the precedent agreements to
evaluate project need. . . . [T]he Commission may reasonably
accept the market need reflected by the applicant’s existing
contracts with shippers and not look behind those contracts to

Page 14 of 37

USCA Case #20-1016

Document #1903252

Filed: 06/22/2021

15
establish need.” (footnotes omitted)); J.A. 967 (“We disagree
with [Enable] MRT’s stance that the mere existence of a
precedent agreement is insufficient to show adequate market
demand when a project is subscribed by affiliates for less than
the full project capacity.” (footnote and internal quotation
marks omitted)). FERC also explicitly rejected calls for a
market study to assess the need for a new pipeline. See J.A.
966-67. And it dismissed arguments that Spire STL had
engaged in anticompetitive behavior, while finding that
whether Spire Missouri or its corporate parent had engaged in
anticompetitive behavior was irrelevant to its determination.
Rather, according to the Commission, any concerns regarding
anticompetitive behavior could only be addressed by the
Missouri Commission, as “Spire Missouri is not regulated by
this Commission and thus we have no authority to dictate its
practices for procuring services.” J.A. 964.
The Commission explained that it was generally unwilling
to consider arguments raising “issues fall[ing] within the scope
of the business decision of a shipper,” even if the shipper and
the pipeline were affiliates. J.A. 968; see also J.A. 943 (“The
Commission is not in the position to evaluate Spire Missouri’s
business decision to enter a contract with Spire [STL] for
natural gas transportation, which . . . will be evaluated by the
[Missouri Commission].”). In particular, FERC was unwilling
to assess the challenges that protestors had raised questioning
the purported justifications that Spire STL had offered in
support of the proposed new pipeline. As the Commission
phrased it:
The lengthy arguments the protestors make regarding
whether Spire Missouri should have chosen to utilize
existing infrastructure to meet the project purposes or
committed to capacity on previously proposed
projects, whether retiring Spire Missouri’s propane

Page 15 of 37

USCA Case #20-1016

Document #1903252

Filed: 06/22/2021

16
peaking facilities and replacing them with capacity
from the [proposed pipeline] is a cost effective
approach, whether choosing a transportation path that
avoids the New Madrid fault is unnecessarily
cautious, and even, in the first instance, the extent to
which the [proposed pipeline] will provide economic
and rate benefits to Spire Missouri’s customers, all go
to the reasonableness and prudence of Spire
Missouri’s decision to switch transportation
providers.
J.A. 968. As to why Spire Missouri had declined to subscribe
to, or otherwise endorse, “prior failed [pipeline] projects” in the
area, the Commission found that such questions were “not
necessarily relevant to [its] decision” and explicitly declined to
resolve any related factual questions. See J.A. 968-69.
Regarding its balancing of the benefits and adverse
impacts of the project, the Commission, without deeper
analysis, simply concluded
that the benefits that the [proposed pipeline] will
provide to the market, including enhanced access to
diverse supply sources and the fostering of
competitive alternatives, outweigh the potential
adverse effects on existing shippers, other pipelines
and their captive customers, and landowners or
surrounding communities. Consistent with the criteria
discussed in the Certificate Policy Statement and
[Natural Gas Act] section 7(e), . . . we find that the
public convenience and necessity requires approval of
Spire [STL]’s proposal.
J.A. 986.

Page 16 of 37

USCA Case #20-1016

Document #1903252

Filed: 06/22/2021

17
Finally, the Commission rejected the vast majority of
challenges to its Environmental Assessment, including those of
Petitioner Steck.
Commissioners LaFleur and Glick dissented. Both
believed that the Commission should have looked behind and
beyond the precedent agreement in evaluating market need,
given the facts of the case and the affiliated nature of the two
Spire entities. Commissioner Glick noted that “[t]here are
several potential business reasons why [Spire STL]’s corporate
parent might prefer to own a pipeline rather than simply take
service on it, such as the prospect of earning a 14 percent return
on equity rather than paying rates to [Enable] MRT or another
pipeline company.” J.A. 1058. In addition, both dissenting
Commissioners would have found that adverse impacts of the
proposed pipeline outweighed benefits.
Several parties filed rehearing requests, including Steck on
August 31, 2018 and EDF on September 4, 2018. In her
request, Steck renewed several of her challenges to the EA and
also objected to the Commission’s environmental analysis in
the Certificate Order. EDF argued that the precedent agreement
was not dispositive evidence of market need. It also challenged
Spire STL’s contentions as to the benefits of the new pipeline,
including possible cost savings to Spire Missouri and whether
the new pipeline was needed to allow Spire Missouri to cease
using propane peaking facilities. And more generally, EDF
argued that the Commission had failed to adequately balance
costs and benefits in the Certificate Order.
On October 1, 2018, the Secretary of the Commission
issued a tolling order solely “to afford additional time for
consideration of the matters raised.” J.A. 1107. It appears that
during the period between the issuance of the Certificate Order
and September 2019, Spire STL completed virtually all

Page 17 of 37

USCA Case #20-1016

Document #1903252

Filed: 06/22/2021

18
construction of the pipeline. See J.A. 1135 (notice of Enable
MRT withdrawing its petition for rehearing and asserting that
“[i]n the year in which the [rehearing requests] ha[d] been
pending, Spire STL . . . ha[d] nearly completed construction of
the proposed pipeline”). During that period, Spire STL also
submitted a revised cost estimate to the Commission of almost
$287 million, or approximately $67 million more than it had
originally estimated.
On November 21, 2019, the Commission issued an Order
on Rehearing (the “Rehearing Order”), denying the requests for
rehearing on the merits. The Commission reaffirmed its belief
that it “is not required to look behind precedent agreements to
evaluate project need, regardless of the affiliate status of the . . .
shipper.” J.A. 1149 (footnote omitted). It also asserted that it
had “evaluated the record and did not find evidence of
impropriety or self-dealing to indicate anti-competitive
behavior or affiliate abuse.” J.A. 1152 (footnote omitted). And
it reiterated that, in its view, it was “not in the position to
evaluate Spire Missouri’s business decision to enter a contract
with Spire STL for natural gas transportation.” J.A. 1152
(footnote omitted).
The Commission also stated that several of the benefits
Spire STL touted in its application and subsequent submissions
to the Commission were “sufficient to overcome any concerns
of overbuilding.” J.A. 1155. As to cost, the Commission
clarified that the Certificate Order had “evaluated cost
differences of gas delivered to Spire Missouri from both the”
proposed new pipeline and Enable MRT’s existing system and
found that they “were not materially significant.” J.A. 1159
(citing J.A. 980). Finally, the Rehearing Order found that the
EA, and the Commission’s resulting environmental analysis,
were sound.

Page 18 of 37

USCA Case #20-1016

Document #1903252

Filed: 06/22/2021

19
Commissioner Glick again dissented. He argued that the
Commission had acted arbitrarily and capriciously by refusing
to engage with counterevidence or seriously consider
countervailing arguments as to market need and benefits of the
pipeline. See, e.g., J.A. 1183 (“Whatever probative weight that
[precedent] agreement has, the Commission cannot simply
point to the agreement’s existence and then ignore the evidence
that undermines the agreement’s probative value.”); J.A. 1185
(“The Spire companies’ obvious financial motive coupled with
the abundant record evidence casting doubt on the need for the
project ought to have caused the Commission to carefully
scrutinize the record to determine whether the [proposed
pipeline] is actually needed or just financially advantageous to
the Spire companies.”). In his view, the issuing of the
Certificate to Spire STL had also represented “an unreasonable
application of the . . . Certificate Policy Statement.” J.A. 1188.
Steck and EDF filed their petitions for review in this court
on January 21, 2020.
II. ANALYSIS
A. Standard of Review
The Commission’s award of a Certificate is reviewed
under the Administrative Procedure Act’s arbitrary and
capricious standard. See Minisink, 762 F.3d at 105-06 (citations
omitted); 5 U.S.C. § 706(2)(A). Under this standard, an action
by the Commission may be set aside “if the agency has relied
on factors which Congress has not intended it to consider,
entirely failed to consider an important aspect of the problem,
offered an explanation for its decision that runs counter to the
evidence before the agency, or is so implausible that it could
not be ascribed to a difference in view or the product of agency
expertise.” Motor Vehicle Mfrs. Ass’n of U.S., Inc. v. State
Farm Mut. Auto. Ins. Co., 463 U.S. 29, 43 (1983). Thus, the

Page 19 of 37

USCA Case #20-1016

Document #1903252

Filed: 06/22/2021

20
overarching question in this case is whether “the Commission’s
‘decisionmaking [wa]s reasoned, principled, and based upon
the record.’” Myersville, 783 F.3d at 1308 (quoting Am. Gas
Ass’n v. FERC, 593 F.3d 14, 19 (D.C. Cir. 2010)). “A passing
reference to relevant factors . . . is not sufficient to satisfy the
Commission’s obligation to carry out ‘reasoned’ and
‘principled’ decisionmaking”; this means that “[t]he
Commission must ‘fully articulate the basis for its decision.’”
Am. Gas Ass’n, 593 F.3d at 19 (quoting Mo. Pub. Serv.
Comm’n v. FERC, 234 F.3d 36, 41 (D.C. Cir. 2000)). When the
Commission’s explanation for a contested action is lacking or
inadequate, it will not survive judicial review and the matter
will be returned to FERC for appropriate action. See, e.g., Mo.
Pub. Serv. Comm’n, 234 F.3d at 42.
B. Standing
The “irreducible constitutional minimum” of standing
requires three elements. Spokeo, Inc. v. Robins, 136 S. Ct.
1540, 1547 (2016) (citation omitted). “The plaintiff must have
(1) suffered an injury in fact, (2) that is fairly traceable to the
challenged conduct of the defendant, and (3) that is likely to be
redressed by a favorable judicial decision.” Id. (citation
omitted). The party invoking federal jurisdiction bears the
burden of demonstrating standing. Id. (citation omitted).
Generally, “[t]o establish injury in fact, a plaintiff must show
that he or she suffered an invasion of a legally protected interest
that is concrete and particularized and actual or imminent.” Id.
at 1548 (citation and internal quotation marks omitted).
However, where a party alleges procedural injury, “courts relax
the normal standards of redressability and imminence.” Sierra
Club v. FERC, 827 F.3d 59, 65 (D.C. Cir. 2016) (citing
Summers v. Earth Island Inst., 555 U.S. 488, 496-97 (2009)).

Page 20 of 37

USCA Case #20-1016

Document #1903252

Filed: 06/22/2021

21
In a NEPA procedural injury case, the causation
requirement is met when a “causal chain” contains “at least two
links: one connecting the omitted [NEPA analysis] to some
substantive government decision that may have been wrongly
decided because of the lack of [proper NEPA analysis] and one
connecting that substantive decision to the plaintiff’s
particularized injury.” Id. (alterations in original) (citation
omitted). In other words, “[i]t must be substantially probable
that the substantive agency action that disregarded a procedural
requirement created a demonstrable risk, or caused a
demonstrable increase in an existing risk, of injury to the
particularized interests of the plaintiff.” Id. (citation and
internal quotation marks omitted).
1. Steck’s Standing
Steck does not have standing to pursue her claims against
FERC in this court. She does not own land transected by Spire
STL’s pipeline and has not had property rights taken via
eminent domain. Instead, Steck asserts in a declaration that she
lives “half a mile from” the new Chain of Rocks meter and
regulation station (the “Chain of Rocks Station”) at “the
southern end of the pipeline,” Final Br. of Pet’r Juli Steck
Addendum 1 (hereinafter “Steck Decl.”) ¶ 4; that the metering
station “sits between . . . blind curves,” id. ¶ 5; that the station
“is a looming eyesore and a traffic hazard” which “is not in
keeping with the character of [her] neighborhood,” and which
she passes approximately three times per week, id. ¶ 7; and that
the now-completed construction of the pipeline “interfered
with [her] use and enjoyment of” a local park through which
part of the pipeline was built, id. ¶¶ 9-10, and that she
“experienced the noise, dust, diesel fumes, and traffic stops
from construction both at home and in” the park, id. ¶ 8.

Page 21 of 37

USCA Case #20-1016

Document #1903252

Filed: 06/22/2021

22
Steck claims that the “blind curves” near the metering
station are a “traffic hazard” to which she objects. Even if this
is sufficient to show a cognizable injury-in-fact, Steck has not
met her burden on causation as to this alleged injury. This is so
because she does not claim that the blind curves resulted from
the construction of the Chain of Rocks Station. Therefore, she
has not shown that issuance of a Certificate to Spire STL
caused any “traffic hazard” that now exists.
In addition, any alleged injuries that Steck suffered during
the now-completed construction of the pipeline and metering
station cannot support standing for want of redressability.
Those alleged injuries, including that Spire’s “drill[ing] under
[a] lake” to construct the pipeline interfered with her “use and
enjoyment of the [nearby] park,” id. ¶ 9, ended when the
construction was completed. Nor does Steck assert that there is
any lasting impact from these prior injuries. Therefore, a
favorable judicial decision will not redress her alleged injuries.
Steck also alleges that the metering station “is a looming
eyesore,” id. ¶ 7, as if to suggest that this constitutes a
cognizable injury-in-fact. It is true that some intangible injuries
may be concrete enough to support standing. See Spokeo, 136
S.Ct. at 1549. And “[t]he Supreme Court has recognized that
harm to ‘the mere esthetic interests of [a] plaintiff . . . will
suffice’ to establish a concrete and particularized injury”
sufficient to support standing. Sierra Club v. Jewell, 764 F.3d
1, 5 (D.C. Cir. 2014) (third alteration in original) (quoting
Summers, 555 U.S. at 494). However, Steck’s claims that
allude to aesthetic injuries do not correspond with the types of
aesthetic interests that the Supreme Court has said will suffice
to establish concrete and particularized injuries.
At no point in her declaration does Steck indicate any ways
in which the new metering station injures her specific aesthetic

Page 22 of 37

USCA Case #20-1016

Document #1903252

Filed: 06/22/2021

23
interests, beyond labeling it a “looming eyesore” that “is not in
keeping with the character of [her] neighborhood.” See Steck
Decl. ¶ 7. She never alleges that she used and enjoyed the land
on which the station now exists; that she intended to use the
land in the future; or that her planned future uses of the land
have been foreclosed by the construction. In other words, she
never indicates how she derived aesthetic value from the land
as it had existed before the construction. See, e.g., Sierra Club
v. Morton, 405 U.S. 727, 735 (1972) (holding that
environmental group lacked standing because “[n]owhere in
the pleadings or affidavits did the [group] state that its members
use [the affected area] for any purpose, much less that they use
it in any way that would be significantly affected by the
proposed actions of the respondents” (emphases added)); Lujan
v. Defs. of Wildlife, 504 U.S. 555, 565-66 (1992) (explaining
that “a plaintiff claiming injury from environmental
damage must use the area affected by the challenged activity”
(emphasis added)); Friends of the Earth, Inc. v. Laidlaw Env’t
Servs. (TOC), Inc., 528 U.S. 167, 181-83 (2000) (explaining
that organizations’ members would have had standing as a
result of the detailed ways in which the challenged actions had
led them to modify their prospective behavior, reduced their
property values, or otherwise diminished their enjoyment of the
affected areas); Jewell, 764 F.3d at 5-6 (recounting detailed
declarations explaining the ways in which the challenged
action would diminish declarants’ ability to “use, enjoy, and
appreciate,” or “ability to visit and enjoy,” affected areas
(citations omitted)).
Steck does not even allege that she can see the new station
from her property. Rather, the only aesthetic injury that might
be implied from her declaration is that she must look at an
“eyesore” several times per week while driving past. Viewed
in full frame, Steck’s alleged aesthetic injuries reflect nothing
more than generalized grievances, which cannot support

Page 23 of 37

USCA Case #20-1016

Document #1903252

Filed: 06/22/2021

24
standing. See Lujan, 504 U.S. at 573-74 (explaining that
generalized grievances do not raise Article III cases or
controversies for standing purposes).
At oral argument, Steck’s counsel was unable to identify
any authority that would allow mere incidental viewership of
something unappealing to qualify as an injury-in-fact for
standing purposes. See Oral Arg. Tr. at 27:21-28:23. This is not
surprising, for we can find nothing in the existing case law to
suggest that a person who incidentally views something
unpleasant has suffered an injury-in-fact for purposes of
standing. In her brief, Steck cites Sierra Club v. FERC for the
proposition that “[a]esthetic and recreational harm [may]
bestow[] standing.” Final Br. of Pet’r Juli Steck 10 (citing 827
F.3d 59, 66 (D.C. Cir. 2016)). However, the declaration in
support of standing in Sierra Club is strikingly different from
Steck’s declaration in this case. The declarant in Sierra Club
“fishe[d], boat[ed], and seasonal duck hunt[ed] frequently
around” the affected areas. 827 F.3d at 66 (citation and
alterations omitted). The declarant further averred that the
resulting “‘increase in liquefied natural gas vessel
traffic’ . . . w[ould]: (1) harm his aesthetic interests in the
[nearby] waterways . . . ; (2) inconvenience him, given the
‘large exclusion zone the Coast Guard maintains around
tankers’; and (3) ‘diminish his use and enjoyment of the
waterways.’” Id. (citation and alterations omitted). He also
noted that, because of the “existing levels of operation” in the
affected areas, he had “moved his ‘primary boat’” away from
them. Id. (citation omitted). These concrete injuries, including
those to his aesthetic interests, are a far cry from those asserted
by Steck, who has neither altered her behavior nor explained
why she has any particularized connection to the land on which
the metering station now sits.

Page 24 of 37

USCA Case #20-1016

Document #1903252

Filed: 06/22/2021

25
Finally, Steck claims that she has suffered a procedural
injury as a result of the Commission’s alleged failure to comply
with its NEPA obligations. See Final Br. of Pet’r Juli Steck 10;
Steck Decl. ¶ 10; see also Oral Arg. Tr. at 27:18-20, 33:19-25.
Steck argues that this procedural injury is “an independent
source of standing.” Oral Arg. Tr. at 33:24-25. “But
deprivation of a procedural right without some concrete interest
that is affected by the deprivation—a procedural right in
vacuo—is insufficient to create Article III standing.” Summers,
555 U.S. at 496; see also Spokeo, 136 S. Ct. at 1550 (explaining
that a plaintiff “cannot satisfy the demands of Article III by
alleging a bare procedural violation”). Because Steck has failed
to allege a concrete injury that is “tethered to” the
Commission’s issuance of the Certificate, she has not shown a
viable Article III injury. Sierra Club v. FERC, 827 F.3d 36, 43
(D.C. Cir. 2016) (quoting WildEarth Guardians v. Jewell, 738
F.3d 298, 305 (D.C. Cir. 2013)).
In sum, on the record before us, we hold that Steck has
failed to satisfy her burden of demonstrating standing. We
therefore dismiss her petition for review.
2. EDF’s Standing
EDF clearly has standing to pursue its claims.
“An association has standing to bring suit on behalf of its
members when: (1) its members would otherwise have
standing to sue in their own right; (2) the interests it seeks to
protect are germane to the organization’s purpose; and (3)
neither the claim asserted nor the relief requested requires the
participation of individual members in the lawsuit.” Nat’l
Lifeline Ass’n v. FCC, 983 F.3d 498, 507-08 (D.C. Cir. 2020)
(citation and internal quotation marks omitted). EDF’s
members include at least four individuals who own land
transected by Spire STL’s pipeline, each of whom have had

Page 25 of 37

USCA Case #20-1016

Document #1903252

Filed: 06/22/2021

26
property rights taken via eminent domain. These EDF members
also allege various ways in which the presence of the pipeline
has harmed, and continues to harm, their property, economic,
aesthetic, and emotional interests.
“[A] landowner made subject to eminent domain by a
decision of the Commission has been injured in fact because
the landowner will be forced either to sell its property to the
pipeline company or to suffer the property to be taken through
eminent domain. . . . [I]t is enough that [eminent domain
proceedings] have been deemed authorized and will proceed
absent a sale by the owner.” Gunpowder Riverkeeper v. FERC,
807 F.3d 267, 271-72 (D.C. Cir. 2015) (citing B&J Oil & Gas
v. FERC, 353 F.3d 71, 74-75 (D.C. Cir. 2004)). Moreover,
“credible claims of exposure to increased noise and . . .
disruption of daily activities . . . are sufficient to satisfy Article
III’s injury-in-fact requirement.” Sierra Club v. FERC, 867
F.3d 1357, 1366 (D.C. Cir. 2017) (quoting Sierra Club, 827
F.3d at 44). Those injuries were caused by the Commission’s
orders, which allowed for the exercise of eminent domain
against the EDF members’ land, and vacatur of those orders
likely will allow those injuries to be redressed. See City of
Oberlin, 937 F.3d at 604-05. “And nobody disputes that the
prevention of this sort of injury is germane to [EDF]’s
conservation-oriented purposes, or cites any reason why these
individual members would need to join the petition in their own
names.” Sierra Club, 867 F.3d at 1366. Thus, EDF has
associational standing.
C. EDF’s Petition Was Timely
The Natural Gas Act requires that, prior to obtaining
judicial review, an aggrieved party must have sought rehearing
before the Commission “unless there [wa]s reasonable ground
for failure so to do.” 15 U.S.C. § 717r(b). The Act also states

Page 26 of 37

USCA Case #20-1016

Document #1903252

Filed: 06/22/2021

27
that “[u]nless the Commission acts upon the application for
rehearing within thirty days after it is filed, such application
may be deemed to have been denied.” Id. § 717r(a) (emphasis
added). As to the timing of judicial review, the act provides that
an aggrieved party “may obtain a review” of a Commission
order “by filing” a petition for review “within sixty days after
the order of the Commission upon the application for
rehearing.” Id. § 717r(b).
In Allegheny Defense Project v. FERC, 964 F.3d 1 (D.C.
Cir. 2020) (en banc), we confronted the Commission’s thenconsistent practice of issuing “tolling orders” following
rehearing requests. See id. at 9-11. The tolling orders were
fashioned so that they “d[id] nothing more than prevent
[rehearing requests] from being deemed denied by agency
inaction and preclude . . . applicant[s] from seeking judicial
review until the Commission act[ed]” on the merits. Id. at 9.
This court found that such tolling orders were insufficient for
FERC to avoid a “deemed denial” per 15 U.S.C. § 717r(a). Id.
at 18-19.
In this case, EDF filed a request for rehearing with the
Commission on September 4, 2018. On October 1, 2018, the
Secretary issued a tolling order that did nothing more than
“afford additional time for consideration of the matters raised”
in rehearing requests. J.A. 1107; see Allegheny Def. Project,
964 F.3d at 6-7 (same language in tolling order at issue). The
Commission did not dispose of the merits of the rehearing
requests in this case until November 21, 2019, when it issued
the Rehearing Order. See J.A. 1144. EDF then filed its petition
for review in this court on January 21, 2020. According to the
Spire Intervenor-Respondents (but not the Commission),
EDF’s petition for review was untimely because, under
Allegheny Defense Project, the requests for rehearing were
“deemed denied” as of October 4, 2018. And, since the petition

Page 27 of 37

USCA Case #20-1016

Document #1903252

Filed: 06/22/2021

28
for review was submitted more than 60 days thereafter, the
court lacks jurisdiction. See Br. for Intervenors-Resp’ts Spire
STL Pipeline LLC and Spire Missouri Inc. 1-2. We reject this
argument.
In Texas-Ohio Gas Co. v. Federal Power Commission, 207
F.2d 615 (D.C. Cir. 1953), we held that the 60-day requirement
of Section 717r(b) did not preclude our consideration of a
petition for review from a final denial of relief, even if there
had been a deemed denial in the interim and the petition for
review was filed more than 60 days following that deemed
denial. See id. at 616-17. Allegheny Defense Project did not
disturb this binding precedent, which is squarely controlling in
this case.
Moreover, in Allegheny Defense Project, the petitioners
filed two sets of petitions for review. See 964 F.3d at 6-9. The
first set was filed in March and May 2017, within 60 days of
the March 2017 tolling order, see id. at 6-7, while the second
was filed in December 2017 and January 2018, after the
Commission rejected the merits of the rehearing requests, see
id. at 8-9. Though this court found that the tolling order failed
to prevent a deemed denial as of March 2017, the court
proceeded to evaluate the merits of both sets of petitions for
review, including the later set of petitions filed more than 60
days following the date of “deemed denial.” See id. at 19.
EDF filed its petition for review on January 21, 2020,
within the period allowed by statute “after the order of the
Commission upon the application for rehearing.” 15 U.S.C.
§ 717r(b). The petition for review was therefore timely and we
may consider the merits of EDF’s contentions.

Page 28 of 37

USCA Case #20-1016

Document #1903252

Filed: 06/22/2021

29
D. FERC’s Grant of a Certificate of Public
Convenience and Necessity Was Arbitrary and
Capricious
Under established law, precedent agreements are
“always . . . important evidence of demand for a project.”
Minisink, 762 F.3d at 111 n.10 (quoting 88 FERC at 61,748).
And, in some cases, such agreements may demonstrate both
market need and benefits that outweigh adverse effects of a
new pipeline. See City of Oberlin, 937 F.3d at 605-06;
Myersville, 783 F.3d at 1311. But there is a difference between
saying that precedent agreements are always important versus
saying that they are always sufficient to show that construction
of a proposed new pipeline “is or will be required by the present
or future public convenience and necessity.” 15 U.S.C.
§ 717f(e).
According to the Commission’s Certificate Policy
Statement, “the evidence necessary to establish the need for [a]
project will usually include a market study. . . . Vague
assertions of public benefits will not be sufficient.” 88 FERC
at 61,748. In addition, the Certificate Policy Statement
indicates that pipelines built for reasons other than demand
growth might require greater showings of need and public
benefits. See id. (“[P]rojects to serve new demand might be
approved on a lesser showing of need and public benefits than
those to serve markets already served by another pipeline.”).
The Policy Statement also explicitly states that “[a] project that
has precedent agreements with multiple new customers may
present a greater indication of need than a project with only a
precedent agreement with an affiliate.” Id. In addressing why
it is unnecessary for the Commission to categorically discount
the value of affiliated precedent agreements when assessing
applications to construct new pipelines, the Policy Statement
explains that, in all cases, the Commission invariably focuses

Page 29 of 37

USCA Case #20-1016

Document #1903252

Filed: 06/22/2021

30
on “the impact of the project on the relevant interests balanced
against the benefits to be gained from the project.” Id. Finally,
it is noteworthy that nothing in the Certificate Policy Statement
suggests that a precedent agreement is conclusive proof of need
in a situation in which there is no new load demand, no
Commission finding that a new pipeline would reduce costs,
only a single precedent agreement in which the pipeline and
shipper are corporate affiliates, the affiliate precedent
agreement was entered into privately after no shipper
subscribed during an open season, and the agreement is not for
the full capacity of the pipeline.
In this case, the Commission was presented with strong
arguments as to why the precedent agreement between Spire
STL and Spire Missouri was insufficiently probative of market
need and benefits of the proposed pipeline. Indeed, those
arguments drew on the Commission’s own Certificate Policy
Statement for support. But rather than engaging with these
arguments, the Commission seemed to count the single
precedent agreement between corporate affiliates as conclusive
proof of need. Nothing in the Certificate Policy Statement
endorses this approach.
Furthermore, we can find no judicial authority endorsing a
Commission Certificate in a situation in which the proposed
pipeline was not meant to serve any new load demand, there
was no Commission finding that a new pipeline would reduce
costs, the application was supported by only a single precedent
agreement, and the one shipper who was party to the precedent
agreement was a corporate affiliate of the applicant who was
proposing to build the new pipeline. This is hardly surprising
because evidence of “market need” is too easy to manipulate
when there is a corporate affiliation between the proponent of
a new pipeline and a single shipper who have entered into a
precedent agreement. See Chinook Power Transmission, LLC,

Page 30 of 37

USCA Case #20-1016

Document #1903252

Filed: 06/22/2021

31
126 FERC ¶ 61,134, 61,767 (2009) (explaining that, in a
different context, the Commission “will apply a higher level of
scrutiny” to certain affiliate transactions “due to the absence of
arms’ length negotiations as a basis for the commitment,
concerns that the affiliate would receive unduly preferential
treatment, further concerns that a utility affiliate contract could
shift costs to captive ratepayers of the affiliate and subsidize
the . . . project inappropriately, and the lack of transparency
that would surround the arrangement”).
Moreover, in this case the Commission failed to
adequately balance public benefits and adverse impacts. This
is a serious problem in a case in which there is no new load
demand and only one affiliated shipper. In the Certificate
Order, the Commission’s balancing of costs and benefits
consisted largely of its ipse dixit “that the benefits that the
[proposed pipeline] will provide to the market, including
enhanced access to diverse supply sources and the fostering of
competitive alternatives, outweigh the potential adverse effects
on existing shippers, other pipelines and their captive
customers, and landowners or surrounding communities.” J.A.
986. The Commission pointed to no concrete evidence to
support these assertions.
In the Rehearing Order, the Commission made a
superficial effort to remedy the obvious deficits of the
Certificate Order by noting that Spire Missouri had articulated
several public benefits for the proposed pipeline. See J.A.
1155-56. However, the Commission never addressed the
claims raised by EDF and others challenging whether these
purported benefits were likely to occur. Instead of evaluating
the legitimate claims that had been raised, the Commission
simply stated that it had “no reason to second guess the
business decision of” Spire Missouri as reflected in the
precedent agreement. Rehearing Order, J.A. 1155; see also

Page 31 of 37

USCA Case #20-1016

Document #1903252

Filed: 06/22/2021

32
Rehearing Order, J.A. 1159 (declining to evaluate extent to
which Spire Missouri’s customers would experience economic
benefit from pipeline construction because doing so would
“second guess the business decisions of an end user”). Before
this court, EDF has continued to challenge the Commission’s
failure to appropriately scrutinize the costs and alleged benefits
of the project. See Final Opening Br. of Pet’r EDF 39-40; see
also Final Reply Br. of Pet’r EDF 15-18 (asserting that
purported benefits of proposed pipeline were invoked post hoc
by the Commission, unlikely to be realized, or pretextual).
Under the circumstances presented in this case – with flat
demand as conceded by all parties, no Commission finding that
a new pipeline would reduce costs, and a single precedent
agreement between affiliates – we agree with EDF that the
Commission’s approach did not reflect reasoned and principled
decisionmaking.
The Commission and the Spire Intervenor-Respondents
advance several arguments in response, but none carry the day.
First, they rely on isolated statements this court has made while
reviewing previous Commission grants of Certificates. In
Minisink, we echoed the Certificate Policy Statement in
explaining that precedent “agreements ‘always will be
important evidence of demand for a project.’” 762 F.3d at 111
n.10 (quoting 88 FERC at 61,748). Similarly, in Myersville, we
noted that the petitioners had “‘identif[ied] nothing in the
policy statement or in any precedent construing it to suggest
that it requires, rather than permits, the Commission to assess
a project’s benefits by looking beyond the market need
reflected by the applicant’s existing contracts with shippers.’”
783 F.3d at 1311 (quoting Minisink, 762 F.3d at 111 n.10). In
City of Oberlin, we upheld the Commission’s decision to treat
both affiliated and unaffiliated precedent agreements as
evidence of market need, as “it is Commission policy to not
look behind precedent or service agreements to make

Page 32 of 37

USCA Case #20-1016

Document #1903252

Filed: 06/22/2021

33
judgments about the needs of individual shippers.” 937 F.3d at
606 (quoting Myersville, 783 F.3d at 1311). And in
Appalachian Voices v. FERC, No. 17-1271, 2019 WL 847199,
(D.C. Cir. Feb. 19, 2019) (per curiam) (unpublished), the court
upheld the Commission’s decision not to distinguish between
affiliated and unaffiliated precedent agreements under the facts
of that case. See id. at *1. According to the Commission and
the Spire Intervenor-Respondents, these cases stand for two
broad propositions: (1) that the Commission generally need not
look behind precedent agreements in determining whether
there is market demand; and (2) that affiliated precedent
agreements should almost always be treated the same as
unaffiliated precedent agreements. We disagree, because it is
quite clear that our case law does not go so far as Respondents
claim.
In both Minisink and Myersville, the precedent agreements
at issue were not alleged to be between affiliated entities. See
Minisink, 762 F.3d at 111 n.10; Myersville, 783 F.3d at 1307,
1309-10. Thus, those cases presented significantly different
facts than the instant Certificate application. Appalachian
Voices was an unpublished opinion, meaning that the panel
found its opinion to be of “no precedential value” when
disposing of the case. See D.C. CIR. R. 36(e)(2). Moreover,
unlike in this case, the Certificate applicant in that case had
submitted a market study to the Commission to show the need
for, and benefits of, the proposed project. See Mountain Valley
Pipeline, LLC, 161 FERC ¶ 61,043, 61,297 (2017).
In City of Oberlin, the pipeline applicant had entered into
four precedent agreements with affiliate shippers but had
entered eight precedent agreements in total. See 937 F.3d at
603. The facts of that case are therefore easily distinguishable,
and the evidence of market demand was much stronger than in
the instant case, where there is but a single precedent

Page 33 of 37

USCA Case #20-1016

Document #1903252

Filed: 06/22/2021

34
agreement and it is with an affiliated shipper. It is true that City
of Oberlin says that FERC can put precedent agreements with
affiliates on the same footing as non-affiliate precedent
agreements (i.e., it may “fully credit[]” them), but only so long
as FERC finds “no evidence of self-dealing” or affiliate abuse
and the pipeline operator “bears the risk for any unsubscribed
capacity.” Id. at 605. And tellingly, the Commission made an
uncontested finding that there was “no evidence of selfdealing” or affiliate abuse in City of Oberlin. See id.
Here, by contrast, EDF and others have identified
plausible evidence of self-dealing. This evidence includes that
the proposed pipeline is not being built to serve increasing load
demand and that there is no indication the new pipeline will
lead to cost savings. FERC’s failure to engage with this
evidence did not satisfy the requirements of reasoned
decisionmaking. Indeed, as noted above, FERC’s ostrich-like
approach flies in the face of the guidelines set forth in the
Certificate Policy Statement. The challenges raised by EDF
and others were more than enough to require the Commission
to “look behind” the precedent agreement in determining
whether there was market need. If it was not necessary for the
Commission to do so under these circumstances, it is hard to
imagine a set of facts for which it would ever be required.
Because the Commission declined to engage with EDF’s
arguments and the underlying evidence regarding self-dealing,
its decisionmaking was arbitrary and capricious.
Next, the Commission contends that its balancing of
benefits and adverse impacts was sufficient because the Natural
Gas Act “vests the Commission with ‘broad discretion to
invoke its expertise in balancing competing interests and
drawing administrative lines.’” Br. for Resp’t FERC 42
(quoting Minisink, 762 F.3d at 111). The Commission’s
discretion in this sphere is, indeed, broad, but it may not go

Page 34 of 37

USCA Case #20-1016

Document #1903252

Filed: 06/22/2021

35
entirely unchecked. The Commission must provide a cogent
explanation for how it reached its conclusions. As discussed,
FERC failed to balance the benefits and costs in both the
Certificate Order and Rehearing Order.
Finally, Respondents claim that there is evidence in the
record supporting their assertions as to the benefits of the
pipeline, even in the absence of increasing demand or potential
cost savings. However, it is not enough that such evidence may
exist within the record; the question is whether the
Commission’s decisionmaking, as reflected in its orders, will
allow us to conclude that the Commission has sufficiently
evaluated that evidence in reaching a reasoned and principled
decision. See SEC v. Chenery Corp., 318 U.S. 80, 87-88, 93-95
(1943); SEC v. Chenery Corp, 332 U.S. 194, 196 (1947). Based
on the Certificate Order and Rehearing Order, we cannot say
that the Commission has done so. It is not surprising that the
Commission failed to seriously engage with the question of
whether these benefits were real or illusory given that it took
the position that it would “not second guess the business
decisions” of the pipeline shipper in this case. Certificate
Order, J.A. 968.
In sum, it was arbitrary and capricious for the Commission
to rely solely on a precedent agreement to establish market
need for a proposed pipeline when (1) there was a single
precedent agreement for the pipeline; (2) that precedent
agreement was with an affiliated shipper; (3) all parties agreed
that projected demand for natural gas in the area to be served
by the new pipeline was flat for the foreseeable future; and (4)
the Commission neglected to make a finding as to whether the
construction of the proposed pipeline would result in cost
savings or otherwise represented a more economical alternative
to existing pipelines. In addition, the Commission’s cursory

Page 35 of 37

USCA Case #20-1016

Document #1903252

Filed: 06/22/2021

36
balancing of public benefits and adverse impacts was arbitrary
and capricious.
III. REMEDY
The final question that we must address concerns remedy.
The Spire Intervenor-Respondents urge that, if we set aside
FERC’s certification, we should remand without vacatur. EDF,
in turn, contends that vacatur is appropriate. “The decision
whether to vacate depends on the seriousness of the order’s
deficiencies (and thus the extent of doubt whether the agency
chose correctly) and the disruptive consequences of an
interim change that may itself be changed.” Allied-Signal, Inc.
v. Nuclear Regul. Comm’n, 988 F.2d 146, 150-51 (D.C. Cir.
1993) (citation and internal quotation marks omitted).
However, “[v]acatur ‘is the normal remedy’ when we are faced
with unsustainable agency action.” Brotherhood of Locomotive
Eng’rs & Trainmen v. Fed. R.R. Admin., 972 F.3d 83, 117
(D.C. Cir. 2020) (quoting Allina Health Servs. v. Sebelius, 746
F.3d 1102, 1110 (D.C. Cir. 2014)).
Based on these considerations, we believe that vacatur is
appropriate. Given the identified deficiencies in the
Commission’s orders, it is far from certain that FERC “chose
correctly,” see Allied-Signal, 988 F.2d at 150 (citation
omitted), in issuing a Certificate to Spire STL. We understand
that the pipeline is operational, and thus there may be some
disruption as a result of the “interim change,” see id. at 150-51
(citation omitted), i.e., de-issuance of the Certificate, caused by
vacatur. However, we have identified serious deficiencies in
the Certificate Order and Rehearing Order. And “the
second Allied–Signal factor is weighty only insofar as the
agency may be able to rehabilitate its rationale.” Comcast
Corp. v. FCC, 579 F.3d 1, 9 (D.C. Cir. 2009) (citation omitted).

Page 36 of 37

USCA Case #20-1016

Document #1903252

Filed: 06/22/2021

37
The Commission’s ability to do so is not at all clear to us at this
juncture.
Furthermore, remanding without vacatur under these
circumstances would give the Commission incentive to allow
“build[ing] first and conduct[ing] comprehensive reviews
later.” Standing Rock Sioux Tribe v. Army Corps of Eng’rs, 985
F.3d 1032, 1052 (D.C. Cir. 2021). We certainly do not wish to
encourage such an approach given the significant powers that
accompany a certificate of public convenience and necessity.
See 15 U.S.C. § 717f(h) (allowing holder of Certificate to
exercise eminent domain); see also Rehearing Order, J.A.
1195-96 (Glick, Comm’r, dissenting) (noting that “Spire STL
prosecuted eminent domain actions against over 100 distinct
entities . . . involving well over 200 acres of privately owned
land”). See generally Rehearing Order, J.A. 1202 (Glick,
Comm’r, dissenting) (“A regulatory construct that allows a
pipeline developer to build its entire project while
simultaneously preventing opponents of that pipeline from
having their day in court ensures that irreparable harm will
occur before any party has access to judicial relief.”).
IV. CONCLUSION
For the foregoing reasons, we dismiss Juli Steck’s petition
for review and grant EDF’s petition for review. We vacate the
Certificate Order and Rehearing Order and remand to the
Commission for further proceedings.

Page 37 of 37

Exhibit B

USCA Case #20-1016

Document #1912949

Filed: 09/07/2021

Page 1 of 1

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

____________

No. 20-1016

September Term, 2021
FERC-CP17-40-000
FERC-CP17-40-001
FERC-CP17-40-002
Filed On: September 7, 2021

Environmental Defense Fund,
Petitioner
v.
Federal Energy Regulatory Commission,
Respondent
-----------------------------Spire Missouri Inc. and Spire STL Pipeline,
LLC,
Intervenors
-----------------------------Consolidated with 20-1017

BEFORE:

Tatel and Millett, Circuit Judges; and Edwards, Senior Circuit Judge
ORDER

Upon consideration of respondent-intervenors’ petition for panel rehearing and the
responses thereto; the motion of respondent-intervenors for leave to file a reply, and the
lodged reply; and the motions of MoGas Pipeline LLC, the American Gas Association, and
Interstate Natural Gas Association of America for leave to file amici curiae briefs in support
of respondent-intervenors’ petition for rehearing, the supplement to the motion of MoGas
Pipeline, and the lodged briefs, it is
ORDERED that the motions for leave to file a reply and for leave to file amici curiae
briefs in support of the petition be denied. The Clerk is directed to note the docket
accordingly. It is
FURTHER ORDERED that the petition be denied.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:

/s/
Daniel J. Reidy
Deputy Clerk

Exhibit C

USCA Case #20-1016

Document #1912952

Filed: 09/07/2021

Page 1 of 2

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

____________

No. 20-1016

September Term, 2021
FERC-CP17-40-000
FERC-CP17-40-001
FERC-CP17-40-002
Filed On: September 7, 2021

Environmental Defense Fund,
Petitioner
v.
Federal Energy Regulatory Commission,
Respondent
-----------------------------Spire Missouri Inc. and Spire STL Pipeline,
LLC,
Intervenors
-----------------------------Consolidated with 20-1017

BEFORE:

Srinivasan, Chief Judge; Henderson*, Rogers, Tatel, Millett,
Pillard, Wilkins, Katsas, Rao, Walker, and Jackson, Circuit Judges;
and Edwards, Senior Circuit Judge
ORDER

Upon consideration of respondent-intervenors’ petition for rehearing en banc and
the responses thereto; the motion of respondent-intervenors for leave to file a reply,
and the lodged reply; and the motions of MoGas Pipeline LLC, the American Gas
Association, and Interstate Natural Gas Association of America for leave to file amici
curiae briefs in support of respondent-intervenors’ petition for rehearing en banc, the
supplement to the motion of MoGas Pipeline, and the lodged briefs, it is
ORDERED that the motions for leave to file briefs of amici curiae in support of
the en banc petition be granted. The Clerk is directed to file the lodged briefs. It is

*Circuit Judge Henderson did not participate in this matter.

USCA Case #20-1016

Document #1912952

Filed: 09/07/2021

Page 2 of 2

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

____________

No. 20-1016

September Term, 2021

FURTHER ORDERED that the motion for leave to file a reply be denied. The
Clerk is directed to note the docket accordingly. It is
FURTHER ORDERED that the petition for rehearing en banc be denied.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:

Page 2

/s/
Daniel J. Reidy
Deputy Clerk

Exhibit D

USCA Case #20-1016

Document #1916411

Filed: 10/01/2021

Page 1 of 1

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

____________

No. 20-1016

September Term, 2021
FERC-CP17-40-000
FERC-CP17-40-001
FERC-CP17-40-002
Filed On: October 1, 2021

Environmental Defense Fund,
Petitioner
v.
Federal Energy Regulatory Commission,
Respondent
-----------------------------Spire Missouri Inc. and Spire STL Pipeline,
LLC,
Intervenors
-----------------------------Consolidated with 20-1017

BEFORE:

Tatel and Millett, Circuit Judges; and Edwards, Senior Circuit Judge
ORDER

Upon consideration of the motion of intervenor-respondents Spire STL Pipeline
and Spire Missouri Inc. for stay of the mandate, the opposition thereto, and the reply, it
is
ORDERED that the motion be denied.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:

/s/
Daniel J. Reidy
Deputy Clerk

Exhibit E

164 FERC ¶ 61,085
UNITED STATES OF AMERICA
FEDERAL ENERGY REGULATORY COMMISSION
Before Commissioners: Kevin J. McIntyre, Chairman;
Cheryl A. LaFleur, Neil Chatterjee,
Robert F. Powelson, and Richard Glick.
Spire STL Pipeline LLC

Docket Nos. CP17-40-000
CP17-40-001
ORDER ISSUING CERTIFICATES
(Issued August 3, 2018)

1.

On January 26, 2017, Spire STL Pipeline LLC (Spire) filed an application, as
amended, 1 pursuant to section 7(c) of the Natural Gas Act (NGA) 2 and Part 157 of the
Commission’s regulations 3 requesting authorization to construct and operate a new,
65-mile-long interstate natural gas pipeline system, extending from an interconnection
with Rockies Express Pipeline LLC (REX) in Scott County, Illinois, to interconnections
with both Spire Missouri Inc. (Spire Missouri) 4 and Enable Mississippi River
Transmission, LLC (MRT) in St. Louis County, Missouri (Spire STL Pipeline Project or
Spire Project). Spire also requests approval of its proposed pro forma gas tariff, a blanket
certificate under Part 157, Subpart F of the Commission’s regulations to perform certain
routine construction activities and operations, and a blanket certificate under Part 284,
Subpart G of the Commission’s regulations to provide open-access firm and interruptible
natural gas transportation and transportation-related services.
2.
For the reasons discussed below, the Commission grants the requested
authorizations, subject to the conditions described herein.

1

Spire amended its application on April 21, 2017, in Docket No. CP17-40-001.

2

15 U.S.C. § 717f(c) (2012).

3

18 C.F.R. pt. 157 (2017).

4

Spire Missouri was formerly known as Laclede Gas Company.

Docket Nos. CP17-40-000 and CP17-40-001
I.

-2-

Background and Proposal

3.

Spire is a limited liability company organized and existing under the laws of
Missouri. Spire has requested certificate authorization to construct, operate, and maintain
the Spire STL Pipeline Project. 5 As a new company, Spire does not currently own any
existing interstate natural gas pipeline facilities and is not engaged in any jurisdictional
natural gas transportation or storage operations. Upon receipt of its requested certificate
authorizations and commencement of pipeline operations, Spire will become a natural gas
company, as defined by section 2(6) of the NGA, subject to the Commission’s
jurisdiction.
Spire Missouri is a local distribution company (LDC) and affiliate of Spire. It
4.
provides natural gas distribution service to approximately 650,000 customers in the
St. Louis metropolitan area and surrounding counties in eastern Missouri. Spire
Missouri’s rates and services are regulated by the Missouri Public Service Commission
(Missouri PSC). Over 87 percent of Spire Missouri’s upstream firm transportation
capacity is currently under contract with MRT. 6
MRT is an approximately 670-mile-long interstate pipeline that extends from
5.
Texas to Illinois. MRT’s East Line brings natural gas supplies from pipeline
interconnections in central Illinois west to the St. Louis area. The East Line terminates at
a delivery point with Spire Missouri at Chain of Rocks in St. Louis County, Missouri.
A.

New Facilities

Spire proposes to construct and operate two segments of new, 24-inch-diameter
6.
steel pipeline, totaling 65 miles in length. The first segment will originate at a new

5

Spire is an indirect wholly-owned subsidiary of Spire Inc. (formerly The Laclede
Group, Inc.). Spire Inc. is a natural gas public utility holding company which, through its
gas utilities, provides service to approximately 1.7 million customers in Alabama,
Mississippi, and Missouri.
6

In addition to MRT, Spire Missouri receives natural gas directly from MoGas
Pipeline LLC (MoGas). Spire Missouri also holds firm transportation capacity on five
other pipelines that do not directly interconnect with Spire Missouri: Natural Gas Pipeline
Company of America LLC (NGPL), Trunkline Gas Company, LLC (Trunkline),
Panhandle Eastern Pipe Line Company, LP (Panhandle), Enable Gas Transmission (EGT),
and REX. NGPL and Trunkline interconnect with MRT and can access supplies flowing
on REX. MoGas also can access supplies flowing on REX through its interconnection
with REX.

Docket Nos. CP17-40-000 and CP17-40-001

-3-

interconnection with REX in Scott County, Illinois, 7 and extend approximately 59 miles
south through Green and Jersey Counties in Illinois before crossing the Mississippi River
and extending east through St. Charles County, Missouri, and across the Missouri River
into St. Louis County, Missouri. This pipeline segment will terminate at a new
interconnection with Spire Missouri’s Lange Delivery Station. The second segment of
the proposed pipeline, known as the North County Extension, will extend six miles from
the Spire Missouri/Lange interconnection 8 through the northern portion of St. Louis
County and terminate at a new, bi-directional, interconnection with both MRT and
Spire Missouri. This interconnection will require reconfiguration of MRT’s existing
Chain of Rocks interconnection with Spire Missouri. 9
Spire also proposes to construct and operate three new, aboveground, meter and
7.
regulation stations: (1) the REX Receipt Station in Illinois; (2) a Spire Missouri/Lange
Delivery Station in Missouri; and (3) the bi-directional Chain of Rocks Station (with
two individual meters referred to as MRT-Chain of Rocks and Spire Missouri-Chain of
Rocks). 10 In addition, Spire will install pig launchers and receivers at each meter and
regulation station. Spire does not propose any compression for its pipeline. The Spire
pipeline is designed to provide 400,000 dekatherms (Dth) per day of firm transportation
service.
Spire’s proposed pipeline will have two physical delivery points into Spire
8.
Missouri’s system – one at the Spire Missouri/Lange Delivery Station and the other at the
7

REX is a bi-directional interstate natural gas pipeline that extends from Wyoming
and northwestern Colorado to Ohio.
8

The original and amended applications referred to the interconnection as the
Laclede/Lange Delivery Station; this order will refer to the interconnection as the Spire
Missouri/Lange Delivery Station throughout the document.
9

In its January 26, 2017 application, Spire proposed to acquire, operate, and
refurbish Spire Missouri’s Line 880, an approximately 7-mile-long, 20-inch-diameter
natural gas pipeline that extends from the Spire Missouri/Lange Delivery Station to the
interconnection with MRT at the Chain of Rocks delivery point. In its amended
application, Spire altered this proposal and replaced it with the proposal to construct and
operate the North County Extension. Spire proposes to construct the North County
Extension in close proximity to Line 880, but in a less densely populated area with fewer
residential properties.
10

Originally, Spire proposed to construct a fourth meter and regulation station by
reconfiguring the existing Spire Missouri/Redman Station located on Line 880 in
St. Louis County, but the adoption of the North County Extension as Spire’s preferred
route eliminated the need for this proposed station.

Docket Nos. CP17-40-000 and CP17-40-001

-4-

Spire Missouri/Chain of Rocks Station, both of which are located in St. Louis County.
Following the proposed modification of the existing Chain of Rocks interconnection with
MRT, Spire will deliver into Spire Missouri’s facilities at Chain of Rocks both the new
gas supplies transported by the project, as well as any existing MRT’s gas deliveries to
Spire Missouri. Thus, although MRT will continue to make physical deliveries at
Chain of Rocks, those deliveries will be received into Spire’s facilities for redelivery to
Spire Missouri, rather than directly into Spire Missouri’s facilities. In addition, the new
bi-directional Chain of Rocks Station will enable Spire to also make physical or
displacement deliveries into MRT’s system at the Chain of Rocks Station, to the extent
permitted by MRT. All changes associated with the MRT Chain of Rocks interconnect
will be performed at the sole cost of Spire.
Spire estimates that the cost of the proposed facilities will be approximately
9.
$220,276,167. 11
B.

Market Support and Need

10.

Spire held an open season for all interested shippers from August 1 to 19, 2016.
Following the open season, Spire entered into a binding precedent agreement with
Spire Missouri as a foundational shipper for 350,000 Dth per day of firm transportation
service, which represents 87.5 percent of the total design capacity of the project. The
precedent agreement is for a 20-year term. 12 Spire Missouri is the only shipper that
subscribed for capacity on the project. 13
11.

Spire states that its proposed pipeline is intended to connect the St. Louis area to
competitively priced and productive natural gas supply areas in the eastern and western
United States. Specifically, Spire contends that the proposed pipeline, by directly
interconnecting with the bi-directional REX pipeline system, will offer access to multiple
supply basins including the Rocky Mountain and the Appalachian Basins, increasing
the supply diversity for Spire Missouri which, in turn, will increase the reliability of
Spire Missouri’s system and the security of its supply, as well as result in access to
lower-priced gas supplies. Spire notes that current transportation paths to the St. Louis
area generally require service across multiple pipelines and, as a consequence, “rate
11

See Spire April 21, 2017 Amended Application at 10.

12

Spire requests confidential treatment of the precedent agreement and has
included a form of protective agreement in Exhibit Z of its application.
13

Spire states that it received expressions of interest from other prospective
shippers during and after the open season and is hopeful that additional precedent
agreements will be executed for the 12.5 percent of unsubscribed project capacity prior to
the in-service date for the pipeline. Spire March 17, 2017 Answer at 6.

Docket Nos. CP17-40-000 and CP17-40-001

-5-

stacking” on upstream pipelines must occur. Spire also states that the creation of
a new firm transportation path for gas supply to the St. Louis area will eliminate Spire
Missouri’s need to rely on propane peak-shaving facilities behind its city gate to meet
critical system requirements during periods when demand exceeds Spire Missouri’s
transportation and storage withdrawal capabilities.
C.

Proposed Services and Rates

12.

Spire proposes to provide open-access firm and interruptible transportation
service, as well as interruptible parking and lending service, under Rate Schedules FTS,
ITS, and PALS, respectively. 14 Spire proposes to provide these services at both costbased recourse rates and negotiated rates. 15 Spire states that it will provide transportation
service to Spire Missouri under Rate Schedule FTS at negotiated rates. Under the
negotiated rate agreement, if its initial, authorized maximum recourse rate increases in
the future due to construction cost overruns, Spire states that it may also increase Spire
Missouri’s negotiated reservation rate by the same percentage increase as the recourse
rate, subject to a cap.
D.

Blanket Certificates

Spire requests a Part 284, Subpart G blanket certificate of public convenience and
13.
necessity pursuant to section 284.221 of the Commission’s regulations authorizing it to
provide transportation service to customers requesting and qualifying for transportation
service under its proposed tariff, with pre-granted abandonment authorization. 16
14.
Spire also requests a blanket certificate of public convenience and necessity
pursuant to section 157.204 of the Commission’s regulations authorizing future facility
construction, operation, and abandonment as set forth in Part 157, Subpart F of the
Commission’s regulations. 17

14

Spire January 26, 2017 Application at Exhibit P-1.

15

The terms of Spire’s negotiated rate authority are detailed in section 6.18 of the
General Terms and Conditions of its tariff.
16

18 C.F.R. § 284.221 (2017).

17

18 C.F.R. § 157.204 (2017).

Docket Nos. CP17-40-000 and CP17-40-001
II.

-6-

Procedural Issues
A.

Notice, Interventions, Protests, and Comments

15.

Notice of Spire’s application in Docket No. CP17-40-000 was published in the
Federal Register on February 17, 2017. 18 Notice of Spire’s amended application in
Docket No. CP17-40-001 was published in the Federal Register on May 5, 2017. 19
Spire Missouri, Ameren Services Company (Ameren), MRT, MoGas Pipeline, LLC
(MoGas), Southern Star Central Gas Pipeline, Inc., Panhandle, REX, and the Missouri
PSC filed timely, unopposed motions to intervene in Docket No. CP17-40-000. MVP
Gas Services, LLC filed a timely motion to intervene in Docket No. CP17-40-001.
Ms. Juli Viel intervened during the comment period for the Environmental Assessment.
Timely, unopposed motions to intervene are granted by operation of Rule 214 of the
Commission’s Rules of Practice and Procedure. 20
16.

EQT Energy, LLC, a natural gas marketer with firm transportation capacity on
REX, and the Plumbers’ and Pipefitters’ Welfare Educational Fund, a landowner, filed
late motions to intervene in Docket No. CP17-40-000. The Environmental Defense Fund
(EDF) filed a late motion to intervene in Docket No. CP17-40-001. The Commission
granted the late motions to intervene. 21
17.

MRT, the Missouri PSC, EDF, and Ameren, the second largest shipper on both
MRT and MoGas, protested Spire’s application. On March 17, 2017, Spire filed a
motion to answer the protests, prompting numerous rounds of answers to answers by the
protestors, Spire Missouri, and Spire. MRT and EDF filed protests to Spire’s amended
application. These protests led to answers to answers from Spire, Spire Missouri, MRT,
and EDF. Although the Commission’s Rules of Practice and Procedure generally do not
permit answers to protests or answers to answers, 22 our rules also provide that we may,
for good cause, waive this provision. 23 We will accept all the responsive pleadings filed
in this proceeding because they have provided information that assisted us in our
decision-making process.

18

82 Fed. Reg. 11,028 (2017).

19

82 Fed. Reg. 21,224 (2017).

20

18 C.F.R. § 385.214(c) (2017).

21

Secretary of the Commission April 19, 2018 Notice Granting Late Interventions.

22

18 C.F.R. § 385.213(a)(2) (2017).

23

18 C.F.R. § 385.101(e) (2017).

Docket Nos. CP17-40-000 and CP17-40-001

-7-

18.

The overriding concern of the protestors is that Spire’s proposed new pipeline is
unneeded to meet what is described as flat demand in the St. Louis metropolitan area.
They allege that the project will create adverse revenue and rate impacts to existing
competing pipelines and their captive customers, as well as the captive customers of
Spire Missouri, as a result of Spire Missouri’s decontracting of capacity on pipelines
where it currently holds firm transportation contracts. They also argue that the precedent
agreement between Spire and Spire Missouri cannot be presumed to demonstrate
significant market need because Spire Missouri is an affiliate of Spire with captive retail
customers who will be at risk for the project costs. Further, the protestors assert that the
purpose of the project is not to fulfill a genuine need for additional capacity or access to
new supplies, but simply to increase the rate base and earnings of Spire’s parent
company, Spire Inc., and that the project is an uneconomic option for Spire Missouri’s
ratepayers. The protestors also raise concerns regarding unfair competition and market
power by Spire and Spire Missouri due to their affiliate relationship. The protestors
maintain that the benefits of the project are outweighed by the potential adverse impacts.
Spire Missouri, REX, the Industrial Energy Consumers of America, the Natural
19.
Gas Supply Association, and the Independent Petroleum Association of America filed
comments in support of Spire’s proposed project. 24 Senator Richard Durbin of Illinois,
Representatives Darrin LaHood and Rodney Davis of Illinois, Missouri State Senators
Gina Walsh and William Eigel, and Missouri State Representatives Tommie Pierson filed
letters in support of the project.
B.

Motion to Stay the Proceeding or Reject the Application

On February 17, 2017, prior to Spire filing its amended application, MRT filed a
motion to either: (1) stay the proceeding until Spire decides whether to acquire Line 880
or construct the North County Extension; or (2) reject Spire’s application and require
Spire to refile an application to accurately reflect the project’s scope. On February 21,
2017, Spire filed an answer in opposition to MRT’s motion.
20.

21.
The Commission finds MRT’s motion moot, as Spire filed, on April 21, 2017, an
amended application proposing to construct the North County Extension.

24

In addition, the St. Louis County Soil & Water Conservation District; the
U.S. Department of the Interior, National Park Service, Lewis and Clark Historical Trail;
and the Tribal Historic Preservation Officer for the Miami Tribe of Oklahoma filed
environmental comments in response to Spire’s January application. The Commission
will address these comments in the environmental analysis section of this order.

Docket Nos. CP17-40-000 and CP17-40-001
C.

-8-

Requests for Evidentiary Hearing

MRT and EDF request an evidentiary hearing to examine what they assert are
22.
generalized and unsupported claims of benefits contained in Spire Missouri’s Concentric
Study. 25 EDF argues that the Concentric Study and Spire Missouri’s answers raise
several specific issues of material fact that require a hearing to resolve. 26 EDF also
requests a hearing to examine the extent of market need for the project, including an
analysis of impacts to captive customers of other pipelines, to ensure that the affiliate
precedent agreement in this case represents bona fide market need.
Although the Commission’s regulations provide for a hearing, neither section 7 of
23.
the NGA nor our regulations require that such hearing be a formal, trial-type evidentiary
hearing. 27 When, as is usually the case, the written record provides a sufficient basis for
resolving the relevant issues, it is our practice to provide for a hearing based on the
written record. 28 That is the case here. We have reviewed the requests for an evidentiary
hearing and conclude that all issues of material fact relating to Spire’s proposals are
capable of being resolved on the basis of the written record. Accordingly, we will deny
the requests for an evidentiary hearing.
D.

Motion to Lodge

24.

On January 9, 2018, EDF filed a motion to lodge an excerpted transcript and
EDF’s Initial Post-Hearing Brief from Spire Missouri’s rate case proceeding before the
Missouri PSC in Case Nos. GR-2014-0215 and GR-2017-0216. EDF states that the
transcript and initial brief contain arguments concerning issues that substantially overlap
with matters pending in this proceeding, and involve the Commission’s analysis of need
25

Concentric Energy Advisors, Inc. prepared the study for Spire Missouri to
evaluate the benefits to Spire Missouri’s customers that would result from the Spire STL
Pipeline Project capacity. Spire Missouri July 14, 2017 Answer at app. B.
26

EDF July 31, 2017 Answer at 8-9.

27

See Minisink Residents for Envtl. Pres. & Safety v. FERC, 762 F.3d 97,
114 (D.C. Cir. 2014) (Minisink) (stating “FERC’s choice whether to hold an evidentiary
hearing is generally discretionary.”).
28

See NE Hub Partners, L.P., 83 FERC ¶ 61,043, at 61,192 (1988), reh’g denied,
90 FERC ¶ 61,142 (2000); Pine Needle LNG Co., LLC, 77 FERC ¶ 61,229, at 61,916
(1996). Moreover, courts have recognized that even where there are disputed issues, the
Commission need not conduct an evidentiary hearing if the disputed issues “may be
adequately resolved on the written record.” Minisink, 762 F.3d at 114 (quoting Cajun
Elec. Power Coop., Inc. v. FERC, 28 F.3d 173, 177 (D.C. Cir. 1994).

Docket Nos. CP17-40-000 and CP17-40-001

-9-

under the Certificate Policy Statement. Specifically, EDF contends that the transcript and
initial brief demonstrate that there is a gap in federal and state oversight of affiliate
precedent agreements because the Missouri PSC relies, in part, on the Commission’s
regulation of interstate pipeline rates to confirm their reasonableness as part of the
Missouri PSC’s after-the-fact prudency review, but the Commission declines to look at
the specific terms of affiliate precedent agreements in approving new pipeline
infrastructure. 29 Given the relevance of the transcript and initial brief, EDF requests that
the Commission grant its motion and include both as part of the record in this case. EDF
filed the transcript and initial brief with its motion; therefore, it is part of our record and
we find EDF’s motion to lodge unnecessary.
III.

Discussion

25.

Since the proposed facilities will be used to transport natural gas in interstate
commerce, subject to the jurisdiction of the Commission, the construction and operation
of the facilities are subject to the requirements of subsections (c) and (e) of section 7 of
the NGA.
A.

Application of Certificate Policy Statement

The Certificate Policy Statement provides guidance for evaluating proposals to
26.
certificate new pipeline construction. 30 The Certificate Policy Statement establishes
criteria for determining whether there is a need for a proposed project and whether the
proposed project will serve the public interest. The Certificate Policy Statement explains
that in deciding whether to authorize the construction of major new facilities, the
Commission balances the public benefits against the potential adverse consequences.
The Commission’s goal is to give appropriate consideration to the enhancement of
competitive transportation alternatives, the possibility of overbuilding, subsidization by
existing customers, the applicant’s responsibility for unsubscribed capacity, the
avoidance of unnecessary disruptions of the environment, and the unneeded exercise of
eminent domain in evaluating new pipeline construction.
27 .

Under this policy, the threshold requirement for pipelines proposing new projects
is that the pipeline must be prepared to financially support the project without relying on
subsidization from its existing customers. The next step is to determine whether the
applicant has made efforts to eliminate or minimize any adverse effects the project might
29

Spire filed an answer in opposition to the motion and MRT filed an answer in
support of the motion to lodge. Spire Missouri filed an answer to MRT’s answer.
30

Certification of New Interstate Natural Gas Pipeline Facilities, 88 FERC
¶ 61,227 (1999), clarified, 90 FERC ¶ 61,128, further clarified, 92 FERC ¶ 61,094 (2000)
(Certificate Policy Statement).

Docket Nos. CP17-40-000 and CP17-40-001

- 10 -

have on the applicant’s existing customers, existing pipelines in the market and their
captive customers, or landowners and communities affected by the route of the new
pipeline. If residual adverse effects on these interest groups are identified after efforts
have been made to minimize them, the Commission will evaluate the project by
balancing the evidence of public benefits to be achieved against the residual adverse
effects. This is essentially an economic test. Only when the benefits outweigh the
adverse effects on economic interests will the Commission proceed to consider the
environmental analysis where other interests are addressed. 31
1.

Subsidization

As discussed above, the threshold requirement for pipelines proposing new
28.
projects is that the pipeline must be prepared to financially support the project without
subsidization from existing customers. Because Spire is a new pipeline entrant with no
existing customers, the Commission has consistently found that there is no potential for
subsidization or degradation of service to existing customers on Spire’s system. 32
However, MRT argues that because Spire and Spire Missouri are both wholly
owned by the same entity, Spire Inc., Spire Missouri’s existing captive retail customers
should be viewed as customers of Spire for purposes of the Certificate Policy Statement’s
no-subsidization requirement. MRT then claims that Spire Missouri’s existing retail
customers will subsidize the project because Spire Missouri can pass-through to those
customers the costs associated with its gas transportation contracts. 33 In addition, MRT
contends that the cost overrun provision in the negotiated rate agreement with Spire
Missouri represents an additional subsidization of the project by Spire Missouri and its
ratepayers. 34 MRT also argues that Spire failed to adequately reflect the costs of the
29.

31

On April 19, 2018, the Commission issued a Notice of Inquiry seeking
information and stakeholder perspectives to assist the Commission as it determines
whether, and if so how, it should review its approach under the current Certificate Policy
Statement. However, until such time as the Commission decides to revise the Certificate
Policy Statement, the current Certificate Policy Statement remains in effect and will be
applied to natural gas certificate proceedings pending before the Commission as
appropriate. Certification of New Interstate Natural Gas Facilities, Notice of Inquiry,
163 FERC ¶ 61,042 (2018).
32

See Mountain Valley Pipeline, LLC, 161 FERC ¶ 61,043, at P 32 (2017), order
on reh’g, 163 FERC ¶ 61,197 (2018) (Mountain Valley); Atlantic Coast Pipeline, LLC,
161 FERC 61,042, at P 28 (2017), order denying reh’g, 163 FERC ¶ 61,098 (2018)
(Atlantic Coast).
33

MRT February 27, 2017 Protest at 28.

34

Id. at 38. Further, MRT argues that pro forma general terms and conditions

Docket Nos. CP17-40-000 and CP17-40-001

- 11 -

Chain of Rocks meter and regulation station, the interconnection of which MRT contends
will require it to make additional expenditures. 35 MRT also states that Spire Missouri’s
customers are currently entitled to revenues ranging from 70 to 100 percent of the income
from certain off-system sales and capacity releases made by Spire Missouri. Thus, MRT
asserts that if Spire is constructed, Spire Missouri’s current income derived from released
capacity and interruptible transportation will be diminished. 36
The Missouri PSC acknowledges that the intent of the threshold requirement is to
30.
ensure that existing customers do not subsidize new customers, but argues that the
pipeline must be prepared to shoulder some of the risks of its project even if it is a new
pipeline. Thus, the Missouri PSC claims that this project impermissibly shifts all of the
risk of construction away from Spire, the pipeline, and to its customer, Spire Missouri. 37
The Missouri PSC argues that the Commission should not approve or validate the
Precedent Agreement because the Missouri PSC has declined to pre-approve or pre-reject
the agreement and would not do so until a future Actual Cost Adjustment case is filed
with the Missouri PSC. 38

a.

Commission Determination

The Commission’s requirement of no subsidization under the first prong of the
31.
Certificate Policy Statement relates to the subsidization impacts on existing customers of
the pipeline applicant. The affiliate relationship between Spire and Spire Missouri does
not make Spire Missouri’s retail customers effectively Spire’s customers, as MRT
appears to argue. Thus, where an applicant is a new pipeline entrant with no existing
customers, this threshold test is inapplicable. 39
Furthermore, the Commission does not consider it subsidization for a shipper to
32.
pay rates designed to recover the costs of facilities constructed to serve that shipper.
Spire Missouri’s payment of rates for transportation service on the Spire STL Pipeline
(GT&C section) 18.5, affording Spire the right to seek to recover from other shippers the
costs of the rate reductions it negotiated with Spire Missouri (i.e., the difference between
its negotiated rates and maximum recourse rates), places the risk of the project on
unaffiliated parties. Id. at 30-31.
35

Id. at 30.

36

Id.

37

Missouri PSC February 27, 2017 Protest at 5.

38

Missouri PSC March 23, 2018 Answer at 3.

39

Certificate Policy Statement, 88 FERC at 61,746.

Docket Nos. CP17-40-000 and CP17-40-001

- 12 -

Project is not a “subsidy” because Spire Missouri will receive a service and benefits
associated with the service in exchange for its payment of rates. 40 The extent to which it
is appropriate for Spire Missouri to in turn pass those costs through to its rate payers is
not within the Commission’s jurisdiction. 41
33.

The Missouri PSC expresses concern that Spire has shifted all the risk for
construction of its project onto its shipper. We note that the Commission’s Certificate
Policy Statement encourages pipelines and their shippers to negotiate cost sharing
agreements in their precedent agreements. 42 Such contract provisions provide certainty
to both parties involved should certain situations arise before construction commences.
We recognize that Spire and Spire Missouri are affiliates, but to an extent, that may
actually limit Spire’s ability to divest itself of risk, as responsibility for cost recovery will
remain within the corporate family. We also point out that Spire’s recourse rates will be
based on the design capacity of its pipeline, thereby placing it at risk for any
unsubscribed capacity. The recourse rate is derived from the pipeline’s billing
determinants based on the project’s design capacity, not subscribed capacity. Thus, a
customer who pays the recourse rate will only be responsible for its share of costs
associated with the design capacity and bears no responsibility for any unsubscribed
capacity. 43 The Commission is not in the position to evaluate Spire Missouri’s business
decision to enter a contract with Spire for natural gas transportation, which as described
below will be evaluated by the state commission.
34.

MRT’s claim that it will subsidize the construction costs associated with
interconnecting the Chain of Rocks meter and regulation station with Spire STL Pipeline
Project are unfounded. The record does not show that upgrades to the Chain of Rocks
40

See Order Clarifying Certificate Policy Statement, 90 FERC at 61,393.

41

See, e.g., Florida Southeast Connection, LLC, 154 FERC ¶ 61,080, at P 67 n.39
(2016), order on reh’g, 156 FERC ¶ 61,160 (2016), vacating sub nom Sierra Club v.
FERC, 867 F.3d 1357 (D.C. Cir. 2017) (Sabal Trail) (where the Commission rejected an
argument of a protestor that the project would result in subsidization because the Florida
Public Service Commission issued an order stating that shipper Florida Power & Light
may pass the costs of the pipeline onto its ratepayers).
42

Certificate Policy Statement, 88 FERC at 61,746 (“This does not mean that the
project sponsor has to bear all the financial risk of the project; the risk can be shared with
the new customers in preconstruction contracts, but it cannot be shifted to existing
customers.”). See also Mountain Valley Rehearing Order, 163 FERC ¶ 61,197 at P 56.
43

See Cameron Interstate Pipeline, LLC, 160 FERC ¶ 61,009, at P 11 (2017);
Alliance Pipeline L.P., 142 FERC ¶ 62,048, 64,099 (2013); Kinder Morgan Interstate Gas
Transmission LLC, 122 FERC ¶ 61,154, at P 28 (2008).

Docket Nos. CP17-40-000 and CP17-40-001

- 13 -

meter and regulation station, as discussed below, 44 would require additional costs for
interconnection or operational requirements beyond those for which Spire states it will
pay. 45 Moreover, although the point will be bidirectional, Spire does not propose to flow
gas from Spire through the Chain of Rocks station onto MRT’s system.
2.

Need for the Project

The protestors challenge the need for the Spire STL Pipeline Project. They argue
35.
that Spire has not demonstrated sufficient need for the project, for the following reasons:
(1) a single precedent agreement with an affiliated LDC is inadequate to demonstrate
project need; (2) the project does not serve an increase in demand for natural gas in the
St. Louis market; (3) existing infrastructure can meet the project purposes; (4) similar,
previously proposed projects were rejected by Spire Missouri; (5) the precedent
agreement entered into by Spire Missouri will not be reviewed by the Missouri PSC until
after the project is in service; and (6) Spire Missouri’s decision to contract for capacity to
increase system reliability is insufficient to support project need.

a.

Precedent Agreement with Affiliated LDC

MRT and EDF argue that the Commission should not rely on the precedent
36.
agreement with Spire Missouri as evidence of need because: (a) the two companies are
affiliates and Spire Missouri, an LDC, can pass on the costs of the project to its
predominantly captive retail customers; (b) it is the only precedent agreement supporting
the project; and (c) it is for less than 100 percent of the project capacity. They argue that
without looking behind the precedent agreement the Commission cannot determine
whether the project is needed since affiliated shippers have no incentive to seek out the
lowest cost transportation for their gas. They argue that, instead, an affiliated LDCshipper is incentivized to contract with an affiliated pipeline because the costs, including
the rate of return of 14 percent, are recoverable from captive ratepayers. MRT asserts
that the project would not be financially viable if not for the fact that Spire Missouri will
have the ability to recover the costs of transportation service from its captive retail
customers and then Spire Missouri will make payments for transportation service to an
affiliate (i.e., essentially to itself). The protestors argue that all of these facts call into
question the true need for the project, and require heightened scrutiny by the Commission
in determining whether there is an actual market need for the project.
Both MRT and EDF rely on the Commission’s statement in the Certificate Policy
37.
Statement that “a project that has precedent agreements with multiple new customers may
44
45

See infra PP 191-197.

Spire is proposing to install, at its sole cost, a bi-directional interconnect with
MRT at the Chain of Rocks station. Spire March 13, 2018 Data Response at 27.

Docket Nos. CP17-40-000 and CP17-40-001

- 14 -

present a greater indication of need than a project with only a precedent agreement with
an affiliate.” 46 EDF posits that the affiliate model distorts the economic theory
underpinning of the Certificate Policy Statement – that arms-length precedent agreements
demonstrate significant market need. 47 Additionally, MRT maintains that although the
Commission may require different amounts of evidence to determine need, the Certificate
Policy Statement states that “the evidence necessary to establish the need for the project
will usually include a market study,” and can include generally available market studies
showing projections of market growth. 48 MRT contends that whereas market studies
would not be required where a project is fully subscribed by non-affiliated parties, here,
with a single affiliate shipper “the mere existence of such a precedent agreement is
insufficient to show adequate market demand.” 49 Ameren also asserts that Spire’s
application is deficient in failing to include a market study. 50 MRT further asserts that
given the flat market in St. Louis and complete absence of incremental demand for new
capacity, the obvious primary impetus of the project is to increase rate base and earnings
at the wholesale level, supported or “backstopped” by Spire Missouri and its underlying
retail ratepayers. 51
MRT argues that the fact that Spire has entered into a single precedent agreement
38.
for its project with an affiliated shipper in and of itself provides evidence of impropriety
or abuse in the formation of the precedent agreement and renders the agreement the
product of improper and unfair competition. MRT claims that “[Spire Missouri] and its
corporate parent decided upon the project and subsequently Spire held an open season.
Spire received no capacity subscriptions. [Spire Missouri] then requested 350,000 Dth
per day.” 52 MRT complains that Spire Missouri neither made any request for proposals
for 350,000 Dth per day of load, nor prospectively issued a statement of standards to be

46

Certificate Policy Statement, 88 FERC at 61,748.

47

EDF May 23, 2017 Protest at 6-7 (citing Granite State Gas Transmission, Inc.,
83 FERC ¶ 61,194, at 61,820 (1998)).
48

MRT February 27, 2017 Protest at 7-8.

49

Id. at 8. “[Spire Missouri] has not submitted any evidence that Spire has satisfied
a competitive market test demonstrating a need for the Project.” MRT July 31, 2017
Answer at 4.
50

Ameren February 27, 2017 Protest at 8.

51

MRT April 3, 2017 Answer at 1-3.

52

MRT February 27, 2017 Protest at 37-38.

Docket Nos. CP17-40-000 and CP17-40-001

- 15 -

used to review and judge the merits of any responses made to such a request. 53 MRT
asserts that Spire Missouri’s evaluation process for new transportation was not
transparent to non-affiliated parties and that Spire Missouri has not provided information
regarding proposals from other unaffiliated project sponsors it considered. Thus, MRT
argues that Spire, due to its affiliate relationship, is familiar with Spire Missouri’s
methods to assess proposed pipeline projects and has been afforded an unfair advantage
over competitors not privy to such information. 54 Further, MRT argues that Spire
Missouri now relies upon certain project benefits which it refused to accept when
associated with an earlier non-affiliated project, 55 and that the precedent agreement
includes terms that are more favorable to its affiliate than Spire Missouri was willing to
offer to an earlier non-affiliated project sponsor. 56
MRT further argues that the NGA “protects the public against the monopsony
39.
power of shippers,” 57 which it argues Spire Missouri is exercising by “strong-arming”
existing interstate pipelines serving St. Louis to shift costs away from Spire Missouri to
other customers on those systems. MRT points to the fact that effective March 1, 2017,
Spire Missouri was able to amend the rate under its existing firm transportation
agreement with MoGas without modification of its full maximum daily quantity level. 58
MRT argues that the Commission has an obligation to ensure that monopsonist market
power is not being exercised, and cannot presume that fair competition is currently taking
place. 59 EDF questions Spire and Spire Missouri’s jointly filed response to Commission
53

MRT July 31, 2017 Answer at 3.

54

Id. at 4.

55

MRT Protest February 27, 2017 at 38. See discussion of prior unsuccessful
projects, infra at PP 57-60.
56

MRT July 31, 2017 Answer at 4 n.4.

57

MRT April 3, 2017 Answer at 6 (citing Maritimes & Northeast Pipeline, L.L.C.,
154 FERC ¶ 61,084, at P 31 (2016) (Maritimes)).
58

Id. MRT states that as of the proposed in-service date of the Spire STL Pipeline
Project (October 31, 2018), the rate under the MoGas-Spire Missouri agreement will drop
from a monthly maximum recourse rate of $12.385 per Dth to $6.386 per Dth, resulting in
$4.5 million of annual costs that may be shifted to other billing determinants on MoGas’
system.
59

In addition, MRT argues that due to overlapping personnel and the intermixing
of roles within the Spire corporate family arising from the affiliate relationship between
Spire and Spire Missouri, the Spire STL Pipeline Project will result in unfair competition.
See MRT April 3, 2017 Answer at 8-10. We address these arguments regarding the

Docket Nos. CP17-40-000 and CP17-40-001

- 16 -

staff’s February 21, 2018 data request. 60 EDF believes the joint preparation of the data
response by Spire and Spire Missouri engaged in unfair competition by mixing the roles
of personnel between entities.
MRT also argues that the Commission should permit it to review the terms of the
40.
precedent agreement to understand the substance of Spire’s and the Missouri PSC’s
discussion of the precedent agreement. 61 MRT states that the unavailability of the
precedent agreement is particularly troubling since it is the only contractual support for
the project. 62 MRT further argues that since the negotiated rate agreement between Spire
and Spire Missouri will have to be publicly filed when Spire commences service, it
should be permitted to review, subject to a protective agreement, the precedent agreement
and the Missouri PSC’s redacted comments on the precedent agreement now, at what it
states is a crucial stage.
In response to the protestors’ arguments, Spire asserts that its precedent agreement
41.
with its affiliate Spire Missouri, for 87.5 percent of the firm capacity created by the
project, is substantial and compelling evidence of market need, and that the protestors’
arguments that the precedent agreement should be disregarded because it is a single
shipper commitment with an affiliate for less than 100 percent of the capacity are
inconsistent with clear Commission precedent and policy. 63 Spire adds that the U.S.
Court of Appeals for the D.C. Circuit reaffirmed the Commission’s longstanding reliance
on precedent agreements as evidence of need. 64

alleged future competitive impact of the project on other pipelines and their captive
customers due to affiliate personnel sharing, infra Part III.A.3 – Existing Pipelines and
Their Captive Customers.
60

EDF March 26, 2018 Answer at 5.

61

The precedent agreement was filed confidentially, and a portion of the agreement
forms the basis for the Missouri PSC’s protest. As a result the Missouri PSC filed a
privileged version of its pleading, redacting language pertaining to the precedent
agreement.
62

MRT April 3, 2017 Answer at 21-22.

63

Spire March 17, 2017 Answer at 5 (citing Rover Pipeline LLC, 158 FERC ¶
61,109, at PP 43-45 (2017); Constitution Pipeline Co., LLC, 149 FERC ¶ 61,199, at P 28
(2014), reh’g denied in relevant part, 154 FERC ¶ 61,046, at P 19 (2016) (Constitution)).
64

Id. at 6 n.9 (citing Myersville Citizens for a Rural Community, Inc. v. FERC, 783
F.3d 1301, 1311 (D.C. Cir. 2015) (Myersville); Minisink, 762 F.3d at 111 n.10).

Docket Nos. CP17-40-000 and CP17-40-001

- 17 -

42.

Spire states that the Commission has approved numerous projects in which there
was a single, affiliated shipper, including those with less than 100 percent project
capacity under contract. 65 Spire asserts that the fact that there is only one shipper
currently under contract for the project has no bearing on need, and adds that given that it
received expressions of interest during the open season from multiple prospective
shippers, it remains hopeful it will sell some, if not all, of the remaining 50,000 Dth per
day of firm capacity before the project’s in-service date. Spire asserts that the fact that
the precedent agreement is for only 87.5 percent of the capacity and not 100 percent of
the capacity also has no bearing on need for the project. Spire states that under the
Certificate Policy Statement, project applicants are no longer required to demonstrate any
level of subscribed capacity under precedent agreements, but rather the absence of
reliance on shipper subsidies. 66
Further, Spire asserts that Commission precedent is clear that the fact of shipper
43 .
affiliation with a project sponsor does not affect its consideration of the precedent
agreement where there is no evidence of impropriety such as self-dealing. 67 Spire also
argues that additional evidence beyond a precedent agreement, such as a market study, is
not required by the Certificate Policy Statement, the NGA, or the Commission’s
regulations. 68 Spire contends that the Commission’s decision in Eastern Shore, in which
65

Id. at 6 n.10 (citing Equitrans, L.P., 153 FERC ¶ 61,381 (2015) (Equitrans)
(issuing a certificate where the pipeline company had executed a precedent agreement
with only one affiliated shipper for approximately 76 percent of the project’s capacity);
Northwest Pipeline GP, 129 FERC ¶ 61,136 (2009) (approving the project in which there
was a single affiliated shipper); Entrega Gas Pipeline, Inc., 112 FERC ¶ 61,177, order on
reh’g, 113 FERC ¶ 61,327 (2005) (Entrega) (approving a project in which there was one
affiliated shipper receiving service pursuant to discounted rates)).
66

Id. at 6-7 (citing Certificate Policy Statement, 88 FERC at 61,748. Spire also
cites Sabal Trail, 154 FERC ¶ 61,080 at P 83 (finding, with respect to the substantially
larger Sabal Trail new interstate pipeline project, that “subscription of 84 percent of the
project’s total capacity is evidence of sufficient public benefit to outweigh the residual
adverse effects on the economic interests” that had been claimed to result from the
project); Eastern Shore Natural Gas Co., 132 FERC ¶ 61,204 (2010) (Eastern Shore)
(where the Commission approved a project with firm capacity subscriptions by
two affiliated LDCs, equaling 80 percent of the total proposed project capacity).
67

Id. at 7 (citing Sabal Trail, 154 FERC ¶ 61,080 at P 84 (“an affiliation between
project shippers and the owners of the pipelines is not, by itself, evidence of self-dealing
which might call into question the need for the projects”)).
68

Id. at 9 (citing Constitution Certificate Order, 149 FERC ¶ 61,199 at P 28 (where
the Commission rejected arguments that a market study was needed in light of the

Docket Nos. CP17-40-000 and CP17-40-001

- 18 -

the Commission rejected the same affiliate-related arguments made by protestors,
including one of the state public service commissions, makes clear that the affiliation of
Spire and Spire Missouri does not diminish the precedent agreement’s status as
compelling evidence of need or affect the integrity of the contracting process. 69
44.

Regarding MRT’s claims of the existence of unfairness and abuse in connection
with the precedent agreement due to the affiliate relationship between Spire and Spire
Missouri, Spire first maintains there is nothing inappropriate or unfair about the
development of the project. Spire asserts that since its inception, the project has been
driven by the needs of its foundation shipper, Spire Missouri, and that doing so –
developing a project based on the specific needs of the market that is to be served – is not
a novel concept. 70 Spire states that although it entered into a precedent agreement with
Spire Missouri, it also held a public open season and invited all interested parties to
become a shipper or foundation shipper, making public all “foundation shipper” terms,
and thereby affording no favoritism to Spire Missouri.
Second, with respect to MRT’s claims that Spire Missouri, as a shipper, is using
its monopsony power to gain undue preference from other interstate pipelines serving
St. Louis, Spire asserts that it has not given undue preference to Spire Missouri, nor
have there been any allegations of undue preference by Spire to Spire Missouri raised
in this proceeding. 71 With respect to MRT’s reference to the recently amended firm
transportation agreement between Spire Missouri and MoGas, Spire notes that although it
is unclear if MRT believes MoGas has given undue preference to Spire Missouri, MRT
apparently is now alleging, without support, that Spire Missouri is negotiating too good a
deal for its ratepayers. Spire maintains that these claims are irrelevant to this proceeding,
and are indicative of MRT’s anticompetitive stance and fear of fair and much needed
competition for interstate pipeline service into St. Louis.
45.

affiliation between the pipeline company and one of its two shippers)).
69

Id. at 7-8 (citing Eastern Shore, 132 FERC ¶ 61,204 at P 13 n.13).

70

Spire June 6, 2017 Answer at 9. Spire notes that there have been multiple
projects in recent years where the pipeline began the project development with a
designated “anchor” or “foundation” shipper, and in other cases approved by the
Commission where the shipper had an equity interest or other affiliation with the pipeline
project sponsor.
71

Spire states that Maritimes, upon which MRT relies, stands for the opposite
proposition from that maintained by MRT – that interstate pipelines are prohibited from
giving any undue preference to a particular shipper. Id. at 10.

Docket Nos. CP17-40-000 and CP17-40-001

- 19 -

Finally, in response to MRT’s request that it be permitted to review the precedent
agreement and the substance of the Missouri PSC’s claims, Spire states that MRT has
already been provided nearly the entire precedent agreement, subject to its execution of a
protective agreement, with the only portions of the agreement redacted from MRT’s
access being the actual rate and rate-related terms (i.e., the form negotiated rate
agreement and a few very limited rate provisions). Spire asserts that MRT has no need to
see the negotiated rate as it has full access to the proposed recourse rate and underlying
cost information and calculations submitted in Exhibits K, L, and N of the application.
Moreover, Spire argues that Commission precedent recognizes the need to withhold
sensitive rate information from competitors, such as MRT, during the course of a
certificate proceeding in order to prevent them from undercutting the proposed project. 72
In addition, Spire states that it filed the redacted form of the precedent agreement with the
U.S. Securities and Exchange Commission (SEC) seeking protection of the negotiated
rate and the SEC has authorized the continued confidential treatment of the negotiated
rate in the precedent agreement until October 1, 2018. 73
46.

In their answers responding to Spire and Spire Missouri’s answers, MRT and EDF
47 .
argue that all of the cases that Spire relies on are readily distinguishable from the instant
case. For example, MRT and EDF state that in Equitrans, Entrega, and Northwest, the
affiliate in each of those cases was a marketer or entity without captive customers. The
protestors maintain that the rationale underlying approval of precedent agreements with
an affiliate marketer is substantially different from that present with captive customers
assuming the risk for a new pipeline and note that affiliated marketers are potentially
subject to greater regulatory oversight than non-affiliates. The protestors argue that
Sabal Trail is distinguishable because the Florida Public Service Commission had found,
in advance of the Commission’s approval, a need for additional firm capacity. In
addition, the protestors argue that Eastern Shore is distinguishable because the
Commission found that project would not affect the incumbent pipeline’s market for firm
transportation and there would be no adverse effects on other pipelines in the market and
their captive customers.
48 .

Thus, the protestors argue that although the Commission may have approved
projects in various cases where there was only a single shipper, or the shipper was an
affiliate of the pipeline or an affiliated LDC, or where less than 100 percent of the project
capacity had been subscribed, or where no market study had been provided or state
agency need findings made, Spire has not cited any single prior case in which the
72

Id. at 18 (citing Kinder Morgan Interstate Gas Transmission LLC, 122 FERC
61,154, at PP 40-42 (2008)).
73

Id. at 19 and Attachment A. See Spire Inc. & Laclede Gas Co., File Nos. 116681 and 1-01822, CF#35045 (May 27, 2017) (delegated order granting confidential
treatment).

¶

Docket Nos. CP17-40-000 and CP17-40-001

- 20 -

Commission approved a pipeline project with all of these characteristics, or
“deficiencies.” 74 They contend that Spire’s piecemeal reliance on a different case to
refute each alleged problematic aspect of the Spire Project and failure to identify a single
prior case that features facts and circumstances analogous to the unique set of facts
presented in this case highlights that Spire’s proposed project is particularly problematic
and a case of first impression. The protestors argue that the aggregation of deficiencies in
this case warrants looking behind the precedent agreement in this case to establish need.

b.

Level of Natural Gas Demand in St. Louis Market

MRT contends that Spire did not make any showing of future demand growth in
49.
the St. Louis area. 75 MRT points out that Ameren has delayed plans to build additional
natural-gas fired generation facilities and in recent open seasons held by MRT and
MoGas, Spire did not produce a single bid for capacity. 76 MRT also notes that President
Trump signed an executive order on March 28, 2017, that “rolls back the Clean Power
Plan and whatever impact that would have had in prompting coal-to-methane conversions
of power plants.” 77 MRT further points to the additional 50,000 Dth per day of gas that
remains unsubscribed on the system. 78 Similarly, the Missouri PSC and EDF each
emphasize that Spire’s project does not support an increase in demand for natural gas in
the St. Louis area. 79 EDF also asserts that Spire Missouri overstates the market need for
Spire by relying on a cold-weather event that occurred 82 years ago, as opposed to the
20 to 30 year old data most companies rely on. 80 Spire responds that the project was not
developed to serve new demand. 81

74

See MRT April 3, 2017 Answer at 3-4, 19-21; MRT June 21, 2017 Answer at

75

MRT February 27, 2017 Protest at 13.

76

MRT June 21, 2017 Answer at 3-4.

77

MRT May 22, 2017 Answer at 4.

78

MRT June 21, 2017 Answer at 4.

79

Missouri PSC February 22, 2017 Protest at 11; EDF July 31, 2017 Answer at 7.

80

EDF July 32, 2017 Answer at 5.

81

Spire March 17, 2017 Answer at 10.

2-3.

Docket Nos. CP17-40-000 and CP17-40-001

c.

- 21 -

Ability of Existing Pipelines to Meet Project Purposes

MRT asserts that the project is not needed because Spire Missouri already has
50.
ample access to gas flowing on REX via existing pipelines – NGPL, Trunkline, and
MoGas – which have interconnections with REX. 82 MRT contends that Spire Missouri
could access REX by using 170,000 Dth per day of its subscribed capacity on MRT’s
East Line from MRT’s points of interconnection with NGPL and Trunkline and its
62,800 Dth per day of subscribed capacity on MoGas. 83 MRT also questions Spire’s
statement that the project will avoid rate stacking for gas supplies from the Appalachian
region. In addition, MRT points out that Spire Missouri also already has access to
Marcellus and Utica supplies flowing on other pipelines besides REX. MRT states that
the Perryville Hub, accessible to Spire Missouri through MRT, is connected to Tennessee
Gas Pipeline Company, LLC, ANR Pipeline Company, Texas Eastern Transmission, LP
(Texas Eastern), and Columbia Gulf Transmission, LLC providing significant supply
diversity possibilities. 84
51.

Further, MRT asserts that the St. Louis market is not constrained because there is
available, unsubscribed capacity on MRT (7,637 Dth per day on MRT’s East Line, as
well as unsubscribed capacity on MRT’s Main Line), MoGas (9,264 Dth per day), and
Illinois Intrastate Transmission (Illinois Intrastate) (40,000 Dth per day), an intrastate
pipeline. 85 Similarly, Ameren claims that Spire’s assertion that existing pipelines are
insufficient to access “the most competitively-priced and productive natural gas supply
areas in both the eastern and western United States” is without support. 86
52.

Spire Missouri responds that reliance on MRT’s existing capacity is not an option
since MRT does not have adequate capacity to meet the full 350,000 Dth per day of firm

82

MRT April 3, 2017 Answer at 18.

83

MRT February 27, 2017 Protest at 39-40. MRT states that Spire Missouri
currently holds a total of 90,000 Dth per day of capacity on Trunkline and 80,000 Dth per
day of capacity on NGPL. Id. at 13 n.45. However, MRT notes that Spire Missouri’s
contracts with NGPL expire in 2018, as does Spire Missouri’s contract with Trunkline
providing 80,000 Dth per day out of the 90,000 Dth per day it holds on Trunkline. Id.
84

MRT July 31, 2017 Answer at 5.

85

MRT February 27, 2017 Protest at 15, 40; see also MRT June 21, 2017 Answer

at 5.
86

Ameren February 27, 2017 Protest at 9 (quoting Spire January 26, 2017
Application at 5, 9).

Docket Nos. CP17-40-000 and CP17-40-001

- 22 -

capacity from REX that Spire would provide. 87 Spire Missouri also maintains that even
if MRT had adequate capacity to offer, it would not provide access to the same liquid
REX Zone 3 market for new producing basins that the proposed project would provide
without rate stacking and transporting its supply on additional pipelines. 88
Spire and Spire Missouri refute MRT’s claims and contend that the cost to
53.
transport gas from REX to Spire Missouri via MRT is actually more expensive than MRT
states because MRT neglects to include the cost of using Trunkline or NGPL. 89 They
claim that once its project is completed, Spire Missouri would no longer need to purchase
gas at Chicago or eastern market centers and pay for transportation on stacked pipelines.
Rather, Spire Missouri could purchase gas from the liquid REX Zone 3. Spire and Spire
Missouri also assert that the project was developed to allow Spire Missouri to diversify
its natural gas transportation, rather than serve new demand.
Commission staff issued a data request on February 21, 2018, seeking additional
54.
information from Spire and MRT to assess the protestors’ concerns and aid in
considering whether the project would provide the economic benefits claimed by Spire
and/or the potential economic harm claimed by the protesters. Specifically, the data
request asked that Spire provide projections for the cost of gas delivered to Spire
Missouri through Spire’s proposed pipeline over a 20-year period and to quantify
operational benefits of Spire Missouri’s replacement of the propane system. Similarly,
staff asked MRT to provide the costs of delivering gas from various supply basins to
Spire Missouri over a 20-year period.
In its response, Spire states that the scenarios presented in the data response, i.e.,:
55.
(1) Spire Missouri contracts for only an additional 160,000 Dth per day of capacity (to
replace the peaking capabilities of its existing propane facilities) on a new pipeline sized
to meet that level of demand or (2) Spire Missouri contracts for capacity through MRT’s
Main Line, MRT’s East Line, and MoGas’s system to deliver supplies from REX to Spire
Missouri, do not offer a cost advantage over Spire Missouri taking service on the
proposed 400,000 Dth per day Spire STL Pipeline Project. 90 Spire asserts that as
87

Spire Missouri March 22, 2017 Answer at 16-17. Spire Missouri notes that
MRT’s Table 2 on page 15 of its protest, “Unsubscribed Capacity,” lists MRT as having
only 7,637 Dth per day.
88

Id. at 17.

89

Id. at 11.

90

Spire prepared its response jointly with Spire Missouri because the information
sought pertained to the needs, historical resources, cost impacts, and alternatives of the
shipper, Spire Missouri. EDF claims this joint-preparation of a response by Spire and
Spire Missouri further implicates the intermixing roles of the pipeline and affiliated

Docket Nos. CP17-40-000 and CP17-40-001

- 23 -

compared to each of the hypotheticals, Spire Missouri would realize annual cost of
service savings by taking service on the Spire STL Pipeline Project. Spire estimates that
the cost of contracting for 350,000 Dth per day of service to Spire Missouri would
average $5.59/Dth, including commodity and the delivery costs. 91 Alternatively, the cost
of contracting for 160,000 Dth per day of service on a new, downsized pipeline would
average $5.98/Dth. 92 Spire estimates that over a 20-year term, Spire Missouri would
realize $31 million in costs savings by using the proposed Spire STL Pipeline compared
to the downsized pipeline. Spire also analyzed an expansion on MRT’s Main Line to
provide the additional 160,000 Dth per day of firm service with an estimated delivered
cost of $5.89 per Dth and found that the proposed Spire STL Pipeline Project would
result in a savings of $24.3 million over the next 20 years. 93 Similarly, for the MRT East
Line, Spire estimates a delivered cost of $5.88 per Dth with an increased annual cost of
$24.3 million more than Spire Missouri’s contract with Spire. 94 For a MoGas expansion,
Spire calculates a delivered cost of $6.05 per Dth and the increased annual cost would be
an additional $36.4 million over Spire Missouri’s subscription for capacity on Spire. 95
All of these hypothetical alternatives resulted in higher average daily costs of delivered
gas when compared to the Spire STL Pipeline Project.

shipper and supports its notion that the pipeline and affiliated shipper taint the entire
project. EDF March 26, 2018 Answer at 5.
91

Spire’s estimate of $5.59/Dth is based on a 20-year average price of natural gas
of $4.26/Dth, plus $1.30 transportation cost, plus $0.02 usage cost. Spire for all its
estimates used forecasted natural gas pricing data from IHS Markit North American
Natural Gas Monthly Briefing, February 2018, for each appropriate supply hub. Spire
also assumes that Spire Missouri’s firm natural gas requirements remain at their historical
level of 79.3 Bcf per year. Spire March 13, 2018 Answer at 9, 18.
92

Spire’s estimate of $5.98/Dth is based on a 20-year average price of natural gas
of $4.28/Dth, plus $1.67 transportation cost, plus $0.02 usage cost. Id. at 18.
93

Spire’s estimate of $5.89/Dth is based on a 20-year average price of natural gas
of $4.32/Dth, plus $1.54 transportation cost, plus $0.03 usage cost. Id. at 19.
94

Spire’s estimate of $5.88/Dth is based on a 20-year average price of natural gas
of $4.32/Dth, plus $1.53 transportation cost, plus $0.03 usage cost. Id. at 20.
95

Spire’s estimate of $6.05/Dth is based on a 20-year average price of natural gas
of $4.33/Dth, plus $1.69 transportation cost, plus $0.03 usage cost. Id. at 23.

Docket Nos. CP17-40-000 and CP17-40-001

- 24 -

MRT’s data response included estimates for the delivered cost of natural gas to
56.
Spire Missouri. 96 MRT provided an estimate for the total cost of gas to be delivered via
REX Zone 3, MRT via Columbia Gulf, MRT via Trunkline, MRT via Texas Gas, and
MRT via Chicago citygate. Under MRT’s estimates for the following systems, gas
would be purchased at the southern end of MRT’s system, at the Perryville hub, and
transported to Spire Missouri for the total delivered cost from Columbia Gulf ($4.91 per
Dth), 97 Trunkline ($5.08 per Dth), 98 and Texas Gas ($5.08 per Dth). 99 For the Chicago
citygate scenario, gas would be transported at the northern end of MRT’s system and
transported to Spire Missouri at a total delivered cost of $5.07 per Dth. 100 This is
compared to an estimated total delivered cost from REX Zone 3, via Spire, of $5.15 per
Dth using the recourse transportation rate, 101 or $5.05 per Dth using a hypothetical
negotiated transportation rate. 102

d.

Prior Unsuccessful Projects

MRT and the Missouri PSC question why Spire Missouri signed a precedent
57.
agreement with Spire when it previously declined to support pipeline projects with
unaffiliated sponsors that provided both additional capacity and a connection with
96

MRT’s estimates are based on natural gas forecasts from RBAC’s GPCM system
price forecasting model for each appropriate supply hub. The recourse rate is from Spire’s
recourse rate; while the negotiated rate is estimated to be 2/3 of the recourse rate. MRT
calculated the transportation cost assuming 100 percent load factor, and includes pipeline
reservation rate, usage cost, fuel cost, and lost gas. MRT March 14, 2018 Answer
attachment 1(A) at 2-3.
97

MRT’s estimate of $4.91/Dth is based on a 20-year average price of natural gas
of $4.69/Dth, plus $0.22 transportation cost. Id.
98

MRT’s estimate of $5.08/Dth is based on a 20-year average price of natural gas
of $4.85/Dth, plus $0.22 transportation cost. Id.
99

MRT’s estimate of $5.08/Dth is based on a 20-year average price of natural gas
of $4.85/Dth, plus $0.22 transportation cost. Id.
100

MRT’s estimate of $5.07/Dth is based on a 20-year average price of natural gas
of $4.97/Dth, plus $0.10 transportation cost. Id.
101

MRT’s estimate of $5.15/Dth is based on a 20-year average price of natural gas
of $4.84/Dth, plus $0.31 transportation cost. Id.
102

MRT’s estimate of $5.05/Dth is based on a 20-year average price of natural gas
of $4.84/Dth, plus $0.21 transportation cost. Id.

Docket Nos. CP17-40-000 and CP17-40-001

- 25 -

REX. 103 MRT cites two projects rejected by Spire Missouri: the St. Louis Natural Gas
Pipeline Project (St. Louis Project) proposed in 2011 and an expansion of MoGas’s
system proposed in 2015. 104 MRT states that the St. Louis Project, with a proposed
capacity of 200,000 Dth per day, would have connected Spire Missouri’s system to REX
via an 11-mile-long pipeline connecting Spire Missouri with NGPL, thereby allowing
access to REX. 105 It also states that the project would have provided access to
Appalachian gas at lower prices, increased competition for transportation service in the
region, and created an additional supply source that would help decrease service
interruptions. MRT contends that despite the fact the current proposal and the St. Louis
Project would have met the same criteria, such as providing access to allegedly lowercost gas and enhancing supply security, Spire Missouri refused to accept as valid the
benefits from the St. Louis Project that Spire now relies upon. Further, Spire Missouri
stated in regard to the St. Louis Project that “the proposed pipeline did not make
operational or economic sense for either [Spire Missouri] or its customers . . . .” 106 MRT
alleges that if the St. Louis Project did not satisfy Spire Missouri’s needs, the more
expensive Spire Project could not do so either. Moreover, MRT cites Spire Missouri’s
various filings before the Missouri PSC where Spire Missouri claimed it could obtain
supplies from the Appalachian region without the need to subscribe to the St. Louis
Project. 107
Similarly, MRT asserts that Spire Missouri’s decision to not subscribe to MoGas’s
58.
contemplated 2015 capacity expansion indicates a lack of need for the present project.
MRT states that MoGas, which connects with REX and Panhandle, announced an open
season in March 2015 to solicit interest in a system expansion of up to 300,000 Dth per
day of firm service from REX and Panhandle. MRT states that the unit cost of the
MoGas project was about half of Spire’s currently proposed recourse rate, and the
required contract commitment was half of that for the Spire Project. 108

103

MRT April 10, 2017 Answer at 3.

104

Neither contemplated project was proposed to the Commission.

105

MRT February 27, 2017 Protest at 32.

106

Id. at 34 (citing Spire Missouri’s comments before the Missouri PSC). See also
id. at 34-36, 38.
107

MRT April 3, 2017 Answer at 15-16. See also MRT February 27, 2017 Protest
at 41 quoting excerpts from Spire Missouri’s 2016 Annual Report describing Spire
Missouri’s existing access to diverse supply regions.
108

MRT February 27, 2017 Protest at 37.

Docket Nos. CP17-40-000 and CP17-40-001

- 26 -

In addition to the St. Louis Project and the MoGas expansion project, the Missouri
59.
PSC identifies several other projects to serve St. Louis that had been contemplated,
including a proposal by Ameren to build a 200,000 to 300,000 Dth per day interstate
pipeline from REX in Illinois to the St. Louis area. The Missouri PSC notes that none of
these proposed projects were built. 109 Thus, the Missouri PSC submits that in light of the
history of failed projects to serve the St. Louis market, the Commission should be
skeptical of an alleged need for capacity into the St. Louis market.
Spire and Spire Missouri respond that the failure of the St. Louis Project is not
60.
relevant to this proceeding, noting that the St. Louis Project was essentially an 11-mile
expansion of NGPL’s system, which would not meet the needs of Spire Missouri because
it would not provide a direct connection to REX. They further state that the market
conditions were different for the St. Louis Project because development of the liquid
point on REX’s Zone 3 had not yet occurred and access to Appalachian gas was not
abundant. Moreover, Spire and Spire Missouri state that the company proposing the St.
Louis Project did not have experience in the interstate natural gas market and was not
proposing a direct connection to REX.
e.

Missouri’s Prudency Review of the Precedent
Agreement

MRT, the Missouri PSC, and EDF assert that the review of the precedent
61.
agreement by the Missouri PSC will not occur until after construction of the project, and
that Spire Missouri’s decision to contract for firm transportation service on the Spire STL
Pipeline Project will result in Spire Missouri’s ratepayers being overcharged for natural
gas transportation because of Spire’s capital costs. 110
MRT argues that Spire Missouri’s captive retail customers are being forced into a
62.
20-year transportation arrangement under which the high gas supply and transportation
costs associated with the project will be passed through to them. Because Missouri
regulatory law and practice do not provide the opportunity for an advance review and
pre-approval by the Missouri PSC of an LDC’s gas supply decisions, 111 MRT asserts that
there has been no meaningful review of the precedent agreement and whether Spire
Missouri should be able to recover the costs of the contract from its ratepayers. MRT
argues that an after-the-fact review of Spire Missouri’s rates by the Missouri PSC will be
inadequate to effectively examine Spire Missouri’s decision to subscribe to Spire and

109

Missouri PSC February 27, 2017 Protest at 10.

110

See, e.g., MRT February 27, 2017 Protest at 28-29.

111

See Spire March 17, 2017 Answer at 19.

Docket Nos. CP17-40-000 and CP17-40-001

- 27 -

whether competition to provide interstate transportation service has been conducted
fairly. 112
MRT states that the filed rate doctrine prevents state regulators from looking
63.
behind an approved, federally regulated transmission rate (e.g., the negotiated rate for
service on the Spire STL Pipeline Project), and under a state prudence review pursuant to
Pike County Light and Power Company v. Pennsylvania Public Utilities Commission, 113
the Missouri PSC will be limited to comparing Spire Missouri’s federally-regulated rates
on Spire to the federally-regulated rates of other interstate pipelines. 114 MRT argues that
an after-the-fact Pike County review will be too late because that review will take place
following Spire’s in-service date and capacity turnback on existing systems and
associated rate increases due to capacity decontracting will have already occurred and
will distort the comparison between pipeline alternatives that would have been made in
an arms-length commercial negotiation. In other words, MRT argues that the Missouri
PSC will be left to compare the Spire rate to post-Spire rates on competing pipelines that
are now higher. Hence, MRT contends that Spire Missouri has an incentive to decontract
on existing pipelines to improve the post-Spire comparison relative to the lower rates in
effect on existing pipelines before the effects of decontracting due to Spire are realized.
Therefore, MRT insists that the Missouri PSC’s after-the-fact Pike County review is not
an adequate substitute for a fair competition before-the-fact analysis and comparison of
alternatives. MRT is concerned that the issue of the role of the affiliate relationship
between Spire and Spire Missouri in Spire Missouri’s decision to contract with Spire will
not be addressed at the state level and that Spire and Spire Missouri will argue that
meaningful remedies will either be precluded, or too late.
The Missouri PSC is concerned that the Commission’s finding on the terms of the
64.
firm transportation service agreement included as Exhibit A of the precedent agreement
not preclude the Missouri PSC’s later review of Spire Missouri’s prudence in entering
into the contract for the project. The Missouri PSC states that Spire has requested
that the Commission pre-approve the two non-conforming provisions in the firm
transportation service agreement between Spire and Spire Missouri. The Missouri PSC
states that although it does not object to these two non-conforming provisions, it does
have concerns with other terms of the precedent agreement. Therefore, the Missouri PSC
requests that the Commission: (1) clearly state that it is not pre-approving the terms of
the precedent agreement; and (2) explicitly confirm the Missouri PSC’s exclusive

112

MRT April 3, 2017 Answer at 12-13.

113

465 A.2d 735 (1983).

114

MRT April 10, 2017 Answer at 2, 6-8.

Docket Nos. CP17-40-000 and CP17-40-001

- 28 -

jurisdiction relating to the reasonableness of Spire Missouri’s participation in the project
and Spire Missouri’s charges to its Missouri retail customers.
EDF argues that in light of the absence of any regulatory oversight or imprimatur
65.
from the state and the Missouri PSC’s stated concerns that Spire’s application does not
contain sufficient detail reflecting new demand for natural gas capacity, the Commission
must employ heightened regulatory scrutiny to the proposed project, and should set this
case for hearing. 115 Like MRT, EDF also argues that the retrospective Annual Cost
Adjustment process through which the Missouri PSC examines and adjusts for prudence
the supply costs passed through the Purchased Gas Adjustment process is inadequate to
address the issues of project need in this case because it claims there will be economic
harm and other impacts from building a pipeline that is not needed that will be unable to
be undone. 116 EDF asserts that there is a significant gap in regulatory oversight between
the Commission’s and the Missouri PSC’s review of affiliate transportation
agreements. 117 EDF argues that because the Commission will not generally look behind
the terms of an affiliate precedent agreement to assess the impetus for such an agreement,
state commissions are left as the sole source of regulatory oversight. But, EDF asserts
that the Commission’s reluctance to examine precedent agreements for need to avoid
infringing upon the role of state regulators to determine prudence of utility expenditures,
presumes state regulatory oversight is occurring and ignores the significant extent to
which state commissions are limited by statute and law as to their review of these
agreements. EDF states that the Missouri PSC, unlike other state commissions, does not
require utilities to obtain advance approval before entering into a long-term transportation
contract with an affiliate. EDF asserts that waiting until after a pipeline is built to assess
prudency poses too much risk to retail customers and does not shield them from
unreasonable costs resulting from an LDCs capacity decisions made at the corporate
level. 118
Spire and Spire Missouri respond that the issue of the reasonableness and
66.
prudence of Spire Missouri’s decision to enter into the precedent agreement in light of the
market conditions in the St. Louis area and its impact on Spire Missouri’s retail
customers is not for this Commission to consider, and rather it will be appropriately
considered by the Missouri PSC. Spire states that the Commission’s rate and tariff
determinations with respect to the project have preemptive effect under the Nantahala

115

EDF May 22, 2017 Protest at 8-10; EDF January 9, 2018 Motion to Lodge at 10.

116

EDF July 31, 2017 Answer at 11-13.

117

EDF January 9, 2018 Motion to Lodge at 5-7.

118

Id. at 8.

Docket Nos. CP17-40-000 and CP17-40-001

- 29 -

doctrine, 119 but that this does not affect the Missouri PSC’s jurisdiction over Spire
Missouri’s LDC purchasing practices or authority to conduct a prudence review of Spire
Missouri’s contracting decisions. Spire states that the Missouri PSC will have a full
opportunity to review Spire Missouri’s commercial decision making in the context of its
entire gas supply portfolio management and there has been no pre-judgment regarding the
reasonableness of Spire Missouri’s participation in the project or the pass-through to its
retail customers of the costs associated with the long-term FTS Agreement.
Spire Missouri asserts that the Missouri PSC is fully capable of reviewing Spire
67.
Missouri’s purchasing decisions and the Commission should assume that challenges to
the prudence or reasonableness of decisions made by state-regulated utilities can and will
be raised under state law. 120 Moreover, Spire Missouri argues that retrospective review
of gas portfolio decisions by a state regulator imposes cost discipline on an LDC because
the state regulator can and will disallow costs that it determines were imprudently
incurred. Spire Missouri states that the threat of disallowance creates a powerful
incentive for LDCs to incur costs prudently, particularly where the service provider is an
affiliated entity. Spire Missouri further argues that by urging the Commission to engage
in its own review of reasonableness in lieu of state commission review, MRT
inappropriately suggests that the Commission should usurp the state regulator’s role, and
act as a “super-PSC.” 121
f.

Decision to Contract for Capacity to Increase System
Reliability

Spire Missouri states that under its contract with Spire it will be able to end its
68.
reliance on a propane peaking facility. 122 It states that the propane peaking system has
provided 160,000 Dth per day of peaking capabilities, but replacing the propane system
with a firm pipeline supply will remove the impacts of injecting vaporized propane into
its distribution system, 123 replace an aging propane peaking facility that is more than
40 years old, and reduce the propane it needs to obtain over time. 124
119

Nantahala Power & Light Co. v. Thornburg, 476 U.S. 953 (1986).

120

Spire Missouri July 14, 2017 Answer at 5-6.

121

Id. at 5.

122

Spire Missouri March 22, 2017 Answer at 9.

123

The injection of propane increases the Btu content of natural gas, which can
negatively affect end-use equipment.
124

Id.

Docket Nos. CP17-40-000 and CP17-40-001

- 30 -

MRT and EDF assert that replacement of Spire Missouri’s propane peaking
facilities is unnecessary. MRT posits that Spire Missouri’s decision to replace an
infrequently used propane peaking facility with an equivalent amount of firm
transportation service is unwise and further signals affiliate abuse. 125 MRT states that
Spire Missouri has failed to demonstrate how retiring its propane facilities will allow
Spire Missouri to lower its costs because: (1) the propane facilities are largely
depreciated, resulting in inexpensive peaking capacity; (2) according to Concentric’s
testimony, propane peak-shaving facilities “are the most economical means of meeting
the limited number of days during the winter in which additional natural gas is needed to
serve the spikes in demand;” and (3) Spire Missouri has failed to provide cost
information to show the financial impact to its customers associated with replacing
propane peaking capabilities with capacity from the Spire proposal. 126 EDF also
questions why Spire Missouri reserved 350,000 Dth per day of capacity when the
propane peaking facility represents 160,000 Dth of capacity. 127
69.

MRT claims that Spire Missouri’s concern about earthquakes is without merit,
70.
stating that MRT has served St. Louis for over 80 years without a service interruption
caused by seismic activity. MRT also contends that portions of Spire Missouri’s service
territory are within the New Madrid seismic zone and could be affected by earthquakes,
so the proposed Spire pipeline would have little effect. 128
71.

Spire Missouri claims that MRT’s pipeline crosses the most active portions of the
New Madrid seismic zone, whereas Spire’s project is outside the seismic zone. Spire
Missouri cites the U.S. Geological Survey and the Center for Earthquake Research and
Information of the University of Memphis that estimates the potential for a major
(magnitude 6.0) earthquake on the New Madrid Fault in the next 50 years as being 30 to
40 percent. 129 Spire Missouri asserts that the fact that a portion of its system lies within
the New Madrid seismic zone does not make it unreasonable to diversify its upstream
supplies to make the supplies less vulnerable to risk. 130

125

MRT April 10, 2017 Answer at 17.

126

MRT July 31, 2017 Answer at 13-14.

127

EDF January 9, 2018 Motion to Lodge at 11.

128

MRT February 27, 2017 Application at 41-42.

129

Spire Missouri March 22, 2017 Answer at 14-15.

130

Spire Missouri June 6, 2017 Answer at 15-16.

Docket Nos. CP17-40-000 and CP17-40-001

g.

- 31 -

Commission Determination

72.

The Certificate Policy Statement established a new policy under which the
Commission would allow an applicant to rely on a variety of relevant factors to
demonstrate need, rather than continuing to require that a particular percentage of the
proposed capacity be subscribed under long-term precedent or service agreements. 131
These factors might include, but are not limited to, precedent agreements, demand
projections, potential cost savings to consumers, or a comparison of projected demand
with the amount of capacity currently serving the market. 132 The Commission stated that
it would consider all such evidence submitted by the applicant regarding project need.
The policy statement made clear that, although precedent agreements are no longer
required to be submitted, they are still significant evidence of project need or demand. 133
The Commission’s longstanding reliance on precedent agreements as substantial and
sufficient evidence of need was affirmed by the court in Myersville 134 and Minisink. 135
73.

Spire has entered into a long-term precedent agreement with Spire Missouri for
350,000 Dth per day of firm transportation service, approximately 87.5 percent of the
system’s capacity. Further, Ordering Paragraph (G) of this order requires that Spire file a
written statement affirming that it has executed a final contract for service at the level
provided for in the precedent agreement prior to commencing construction. Spire
Missouri will supply gas to retail customers and other end users and, as discussed below,
has determined that the Spire STL Pipeline Project is the preferred provider of
transportation service for the gas needed to meet its service obligations. We find that
Spire has sufficiently demonstrated that the project is needed in the market that the Spire
STL Pipeline Project intends to serve.
As noted above, the protestors argue that because the project is less than
74.
100 percent subscribed by a single, affiliated LDC shipper with captive customers, we
131

Certificate Policy Statement, 88 FERC at 61,747. Prior to the Certificate Policy
Statement, the Commission required a new pipeline project to have contractual
commitments for at least 25 percent of the proposed project’s capacity. See id. at 61,743.
The Spire STL Pipeline Project, at 87.5 percent subscribed, would have satisfied this
prior, more stringent, requirement.
132

Id. at 61,747.

133

Id. The policy statement specifically recognized that such agreements “always
will be important evidence of demand for a project.” Id. at 61,748.
134

783 F.3d 1301.

135

762 F.3d 97.

Docket Nos. CP17-40-000 and CP17-40-001

- 32 -

should exercise heightened scrutiny in determining whether there is market demand for
the project. Specifically, the protestors argue that additional evidence demonstrating
project need and justifying project benefits is necessary, such as market studies analyzing
the demand for natural gas in the St. Louis market.
75.

We disagree. The fact that Spire Missouri is affiliated with the project’s sponsor
does not require the Commission to look behind the precedent agreements to evaluate
project need. 136 As the court affirmed in Minisink, the Commission may reasonably
accept the market need reflected by the applicant’s existing contracts with shippers and
not look behind those contracts to establish need. 137 An affiliated shipper’s need for
capacity and its obligation to pay for such service under a binding contract are not
lessened just because it is affiliated with the project sponsor. 138 When considering
applications for new certificates, the Commission’s primary concern regarding affiliates
of the pipeline as shippers is whether there may have been undue discrimination against a
non-affiliate shipper. 139 Here, no such allegations that Spire has discriminated against a
non-affiliate shipper have been made. Rather, MRT appears to argue that Spire Missouri,
the affiliate shipper in this case, has engaged in anticompetitive behavior and
discriminated against non-affiliated pipelines by the manner in which it made its decision
to obtain service from a pipeline to be built by its affiliate.

136

See Millennium Pipeline Co., L.P., 100 FERC ¶ 61,277, at P 57 (2002) (“as long
as the precedent agreements are long-term and binding, we do not distinguish between
pipelines’ precedent agreements with affiliates or independent marketers in establishing
the market need for a proposed project”); see also Certificate Policy Statement, 88 FERC
at 61,748 (explaining that the Commission’s policy is less focused on whether the
contracts are with affiliated or unaffiliated shippers and more focused on whether existing
ratepayers would subsidize the project); id. at 61,744 (the Commission does not look
behind precedent agreements to question the individual shipper’s business decisions to
enter into contracts) (citing Transcontinental Gas Pipe Line Corp., 82 FERC ¶ 61,084, at
61,316 (1998)).
137

Minisink, 762 F.3d at 110 n.10 (“nothing in the Certificate Policy Statement or
in any precedent construing it suggests that the policy statement requires, rather than
permits, the Commission to assess a project’s benefits by looking beyond the market need
reflected by the applicant’s existing contracts with shippers”).
138

See, e.g., Greenbrier Pipeline Company, LLC, 101 FERC ¶ 61,122, at P 59
(2002), reh’g denied, 103 FERC ¶ 61,024 (2003).
139

See 18 C.F.R. § 284.7(b) (2017) (requiring transportation service to be provided
on a non-discriminatory basis).

Docket Nos. CP17-40-000 and CP17-40-001

- 33 -

The Commission rejects MRT’s argument that the precedent agreement is the
76.
result of unfair competition or affiliate abuse because Spire Missouri failed to issue a
request for proposals or engage in an evaluation process transparent to unaffiliated
parties. Spire Missouri is not regulated by this Commission and thus we have no
authority to dictate its practices for procuring services, although we can and do require
any jurisdictional pipeline proposing to construct new capacity to have an open season to
ensure that any new capacity is allocated among all potential shippers on a not unduly
discriminatory basis. EDF comments that “LDC’s gas supply management decisions are
becoming more nuanced and therefore require an updated regulatory paradigm in order to
be properly assessed,” 140 however, we believe that such assessments are best made at the
state level.
Further, many pipeline projects are initiated first by a single anchor or foundation
77.
shipper expressing a desire for service to a particular, prospective pipeline sponsor. That
the precedent agreement was not the direct result of the open season, but stemmed from
prior discussions between Spire, Spire Missouri, and their corporate parents is not
indicative of abuse or self-dealing. Our open season policy for new interstate pipeline
construction only requires that a pipeline applicant eventually conduct a fair and
transparent open season affording all potential shippers the opportunity to seek and obtain
firm capacity rights. 141 An open season also serves to provide the project sponsor with
valuable information about market interest that it can utilize to properly design and size
its project. 142 Spire held a binding open season for capacity on the project before filing
its application and all potential shippers had the opportunity to contract for service. In
general, the probative information is the amount of capacity subscribed, not when the
project shipper decided to become involved with or subscribe to the project. 143 We have
found, as discussed above, that Spire did not discriminate against any potential shippers
or engage in any anticompetitive behavior. Moreover, Spire’s tariff, as discussed below,
ensures that any future shipper will not be unduly discriminated against.

140

EDF January 9, 2018 Motion to Lodge at 11.

141

See Pine Prairie Energy Center, LLC, 135 FERC ¶ 61,168, at P 30 (2011)
(finding that an open season is intended to provide transparency to the market regarding
new pipeline capacity and to assist the proponent with sizing its project).
142
143

Id.

See, e.g., National Fuel Gas Supply Corp., 158 FERC ¶ 61,145, at PP 10, 16, 32
(2017) (where Commission accepted precedent agreements executed prior to the open
seasons for the project as valid evidence of market demand); Tennessee Gas Pipeline
Company, LLC, 158 FERC ¶ 61,110, at P 4 (2017).

Docket Nos. CP17-40-000 and CP17-40-001

- 34 -

78.

The Commission is not persuaded by the protestors’ argument that the aggregation
of the facts in this case regarding the precedent agreement and the lack of a prior
Commission case on point in all respects renders unreasonable our reliance on existing
precedent. As Spire has indicated, the Commission has clearly approved projects and
found the precedent agreement to be adequate evidence of project need in various cases
in which, variously, there was only one precedent agreement supporting the project, the
project was not fully subscribed, the shippers were affiliates, or the affiliate shippers were
LDCs with captive customers. The protestors are correct that there has previously not
been a case with all of these attributes. However, simply because there has never a
proposal before the Commission with all of these aspects present does not invalidate or
negate the rationale supporting the Commission’s policy regarding each individual
aspect.
79.

Notwithstanding MRT’s efforts to distinguish the cases, the Commission finds that
Eastern Shore, although not on point in all respects, provides guidance for the
Commission in this proceeding. 144 There, Eastern Shore, an existing pipeline, proposed
to extend its system to interconnect with an upstream pipeline, Texas Eastern, to enable
its customers to access Appalachian natural gas supplies and thereby diversify their
supply sources. As in the instant case, the proposed project would not increase capacity
or deliverability to meet any additional natural gas demand, but rather was designed to
strengthen the reliability and flexibility of service to Eastern Shore’s customers
through enhancing supply diversity. Like here, the two project shippers were affiliated
LDCs with captive customers, and the total subscribed project capacity was less than
100 percent (80 percent in that case). Further, in that case the Commission found there
would be some adverse impact on an existing pipeline, Transcontinental Gas Pipe Line
Corp., LLC (Transco), since Eastern Shore’s project shippers would be reducing design
day receipts from Transco by 37 percent and replacing that service with an equivalent
amount of receipts from Texas Eastern. 145 Also, like here, the project was opposed by
one of the state public service commissions (as well as a non-affiliated shipper) on the

144

132 FERC ¶ 61,204. In Eastern Shore, there were two affiliated LDC shippers
rather than one, and the existing pipeline did not object to the project. Neither difference
is relevant to the question of need. The presence of two shippers instead of one is
irrelevant because both were affiliated and the project was not fully subscribed.
145

Id. P 23. Unlike here, Transco did not oppose the project or otherwise object to
the displacement of some of its firm transportation service to Eastern Shore. That MRT in
this case raises objections to the project on the basis of the potential impacts to it and its
customers is relevant only to the question whether the need established by the precedent
agreement outweighs the projects impacts, not to whether the precedent agreement is
inadequate evidence of need because of the affiliate relationship.

Docket Nos. CP17-40-000 and CP17-40-001

- 35 -

basis of need and alleged cost subsidization risk. 146 However, the Commission found that
these facts did not operate to diminish the validity of the precedent agreements as
evidence of market demand or declined to require further data to establish demand.
Rejecting the parties’ affiliated-related arguments, the Commission stated:
The Delaware PSC suggests that the mere fact that the agreements are with
affiliates of Eastern Shore somehow raises questions regarding the
shippers[’] need for the service. However, the Commission gives equal
weight to contracts with affiliates and non-affiliates and does not look
behind contracts to determine whether the customer commitments represent
genuine growth in market demand. The Commission has long recognized
that a flexible and reliable interstate pipeline grid is essential to ensure
ultimate consumers[’] access to diverse supply options. The prospective
shippers of this project are LDCs with service obligations toward their
retail customers. The Commission has found it reasonable for LDCs, such
as the Chesapeake LDCs to seek additional sources of supply, and has
emphasized its disinclination to second-guess reasoned business decisions
by pipelines’ customers evidenced by precedent agreements, as well as
binding contracts. The Delaware PSC has presented no evidence of any
impropriety or abuse in connection with the agreements. The mere fact that
the two [LDCs] are affiliates of Eastern Shore does not call into question
their need for new capacity or their obligation to pay for it, or otherwise
diminish the showing of market support. 147
The Commission also rejects the protestors’ arguments that a market study either
80.
must or should be undertaken in this case to establish the need for the project. The
protestors rely on the Commission’s statement in the Certificate Policy Statement that
“the evidence necessary to establish the need for the project will usually include a market
study . . . .” 148 However, since the issuance of the Certificate Policy Statement, when
precedent agreements for a substantial amount of capacity were presented, the
Commission has relied on those agreements alone, even between affiliates in the absence
of anticompetitive or discriminatory behavior, as adequate evidence of need. Thus,
although the Commission recognizes market studies as one type of evidence that can be
used to demonstrate market need, market studies are not required to be submitted and an
applicant need not satisfy, as MRT states, a “competitive market test demonstrating a

146

Id. PP 31-33.

147

Eastern Shore, 132 FERC ¶ 61,204 at P 31 (citations omitted).

148

Certificate Policy Statement, 88 FERC at 61,748.

Docket Nos. CP17-40-000 and CP17-40-001

- 36 -

need for the project” 149 if it has submitted a precedent agreement. 150 We disagree with
MRT’s stance that the “mere existence of a precedent agreement is insufficient to show
adequate market demand” when a project is subscribed by affiliates for less than the full
project capacity. 151
As discussed above, the submission of market studies are not required under the
81.
Certificate Policy Statement to demonstrate whether a project meets a need. Under the
circumstances of this proceeding, i.e., lack of evidence of anticompetitive behavior, we
find the fact that a customer is willing to sign a binding contract to pay for service on the
project shows need or demand for the project. However, the protestors urge the
Commission to undertake a further analysis. Ameren recommends a market study to
evaluate whether gas supplies from Appalachia and the Rocky Mountains are actually
more competitively priced on a delivered basis than the supplies to which the existing
pipelines have access. In essence, the protestors argue that market studies are needed to
quantify the economic and rate benefits to consumers that the project will provide so that
the Commission can determine whether the deal is as beneficial to Spire Missouri and its
ratepayers as Spire claims and/or whether the proposed project is the best service option
for Spire Missouri.
82 .

As Spire Missouri states:
MRT asks the Commission to find, not whether the Project meets a need
(which it does as evidenced by the Precedent Agreement), but whether
[Spire Missouri] has a need for the Project given its retail load and current
pipeline options. MRT asks the Commission to decide whether [Spire
Missouri] is entering into gas supply arrangements that will increase gas
costs to its retail customers. MRT also questions whether [Spire Missouri]
could have made different and better choices for its retail customers. …
149

MRT July 31, 2017 Answer at 4.

150

See Constitution Rehearing Order, 154 FERC ¶ 61,046 at P 21 (“Although the
Certificate Policy Statement broadened the types of evidence certificate applicants may
present to show the public benefits of a project, it did not compel an additional showing
… [and] [n]o market study or other additional evidence is necessary where … market need
is demonstrated by contracts for 100 percent of the project’s capacity.”).
151

Contrary to MRT’s assertion, the Commission in Eastern Shore did not rely on a
specific finding of increased demand for natural gas in the markets Eastern Shore serves
as part of its evidence of need; rather, it found that it was unnecessary to rely on market
studies where projects were supported by direct evidence of precedent agreements,
because there was a general consensus, supported by generally available studies, that “the
demand for natural [gas] has continued to increase.”

Docket Nos. CP17-40-000 and CP17-40-001

- 37 -

This Application is not the forum for determining the issue of [Spire
Missouri’s] prudence, or the impact on its retail customers. 152
We agree. The lengthy arguments the protestors make regarding whether Spire
83 .
Missouri should have chosen to utilize existing infrastructure to meet the project purposes
or committed to capacity on previously proposed projects, whether retiring Spire
Missouri’s propane peaking facilities and replacing them with capacity from the Spire
Project is a cost effective approach, whether choosing a transportation path that avoids
the New Madrid fault is unnecessarily cautious, and even, in the first instance, the extent
to which the Spire STL Pipeline Project will provide economic and rate benefits to Spire
Missouri’s customers, all go to the reasonableness and prudence of Spire Missouri’s
decision to switch transportation providers. All of those issues fall within the scope of
the business decision of a shipper. The Commission’s policy is to not second guess the
business decisions of pipeline shippers, LDCs, or end users (unless there is evidence of
affiliate abuse), and this is supported by a long line of orders in which we have stated that
we are reluctant to do so. 153
Spire Missouri has explained its decision to obtain service from Spire, rather than
84.
from other pipelines. Spire Missouri chose the Spire STL Pipeline Project not just
because it allows it to access supplies flowing on REX, but because it allows Spire
Missouri to do so over a specific path, which Spire Missouri believes will provide certain
benefits such as direct access to a liquid supply point in very close proximity to its
distribution system, and the avoidance of transportation through a seismic zone. Spire
Missouri’s decision was driven by more than just cost or price considerations, such as the
desire to enhance the reliability of its system by diversifying its gas supply portfolio.
Additionally, Spire Missouri indicated that other pipelines could not provide the amount
of capacity it desired. Moreover, although not necessarily relevant to our decision, we
recognize that Spire Missouri’s arguments regarding its rejection of the 2011 St. Louis
Project and the other prior failed projects, may well have merit. Appalachian production
has increased more than five-fold since 2011, from approximately 4 Bcf per day to over
22 Bcf per day. In addition, the east-to-west pipeline capacity that is now in place,
including the full REX flow reversal that took place in 2015, was not available in 2011.
Therefore, the market that existed in 2011 is not the same as today’s market, and that
difference could reasonably justify Spire Missouri’s acceptance now of the similar Spire
proposal. Regardless, accepting for the purposes of our consideration of Spire’s
152
153

Spire Missouri March 22, 2017 Answer at 8-9.

See, e.g., Mountain Valley Certificate Order, 161 FERC ¶ 61,043 at P 53;
Atlantic Coast Certificate Order, 161 FERC ¶ 61,042 at PP 59-60; Eastern Shore,
132 FERC ¶ 61,204 at PP 30-33; Southern Natural Gas Co., 76 FERC ¶ 61,122, at 61,635
(1996); Williams Natural Gas Co., 70 FERC ¶ 61,306, at 61,924 (1995); Tennessee Gas
Pipeline Co., 69 FERC ¶ 61,239, at 61,901 (1994).

Docket Nos. CP17-40-000 and CP17-40-001

- 38 -

application the decision of Spire Missouri to contract for 350,000 Dth per day of firm
transportation capacity from REX to Spire Missouri’s local distribution system remain
squarely within the Commission’s policy to defer to the business decisions of shippers.

85 . However, Spire Missouri’s contractual decisions will not remain unchecked.
Despite the apparent discomfort evidenced by the protestors, we believe that oversight of
the procurement decisions of local distribution companies is best left to state regulators.
The prudence and reasonableness of the considerations underlying Spire Missouri’s
decision to obtain transportation service from Spire and enter into the precedent
agreement are squarely within the jurisdiction of the Missouri PSC. Further, the Missouri
PSC will examine Spire Missouri’s gas supply planning decisions and determine whether
Spire Missouri will be permitted to pass through to its retail customers the costs
associated with its contract with Spire. State utility regulators must approve any
expenditures by state-regulated utilities, and this includes a prudence review.
86. We disagree with commenters who suggest that once the Commission has made a
determination in this proceeding, state regulators cannot effectively review the
expenditures of utilities that they regulate. As Spire Missouri points out, the Missouri
PSC has been reviewing its purchasing decisions for many years, and state regulators can
and will disallow costs that it determines were imprudently incurred. That such review of
gas portfolio purchase decisions is retrospective does not make it ineffective. Moreover,
the Commission rejects the protestors’ specific argument based on Pike County that the
Missouri PSC will be unable to make the relevant determination whether the service on
Spire that Spire Missouri opted to receive was a prudent decision in light of the other
choices Spire Missouri had available to it. Spire Missouri notes that the Missouri PSC’s
statement of its review standard in its 2016 Annual Report refutes the protestors’ claim:
“PSC Staff will consider the financial impact on customers of the LDC’s use of its gas
supply, transportation, and storage contracts in light of the conditions and information
available when the operational decisions were made.” 154 Further, we reject EDF’s claim
that the Purchased Gas Adjustment and Annual Cost Adjustment processes are
inadequate to protect Spire Missouri’s customers from imprudently incurred costs. EDF
essentially is arguing that these processes are inadequate to address whether there is
market need for the Spire STL Pipeline Project and whether for purposes of our decision
on Spire’s application there has been inappropriate self-dealing between the pipeline and
its affiliate – issues that are properly before this Commission, not the state commission.
The Missouri’s PSC’s mechanisms are not meant to address such issues of pipeline need
and, therefore, EDF’s arguments are misplaced. As explained above, the Commission
finds that Spire did not engage in anticompetitive behavior or affiliate abuse.

154

Spire Missouri July 14, 2017 Answer at 5 (citing Missouri PSC’s statement of
its review standards, as expressed in its 2016 Annual Report).

Docket Nos. CP17-40-000 and CP17-40-001

- 39 -

In sum, we believe that any attempt by the Commission to look behind the
87 .
precedent agreements in this proceeding might, in fact, interfere with state regulators’
role in determining the prudence of expenditures by the utilities that they regulate. The
Commission’s policy of not looking beyond precedent agreements includes not limiting
our reliance on such agreements to those which have been previously approved by a state
public service commission. Issues related to Spire Missouri’s ability to recover costs
associated with its decision to subscribe for service on the Spire STL Pipeline Project
involve matters to be determined by the relevant state utility commissions; those concerns
are beyond the Commission’s jurisdiction. Should Spire elect to construct the project
before affirmative action by state regulators, Spire will be at risk of not being able to
recover some, or any, of their costs.
3.

Existing Pipelines and Their Customers

a.

Existing Pipelines’ Loss of Market Share and Rate
Impacts to Their Captive Customers

Many of the objections raised by the protestors are premised on the impacts they
88 .
argue the project will have on existing pipelines, MRT and MoGas (and their customers,
Ameren and others), who will lose Spire Missouri’s business to Spire. They assert that as
Spire Missouri’s contracts with upstream pipelines expire, 155 Spire Missouri will not
renew those contracts; that is, Spire Missouri will “decontract” or “turnback” the capacity
under those contracts and replace it with the capacity on the Spire STL Pipeline
Project. 156 The protestors argue that the cost of the decontracted capacity on the existing
155

Many of the contracts Spire Missouri held on upstream pipelines at the time of
Spire’s filing of its application have recently expired. Spire Missouri’s largest contract
still in effect with MRT, Contract No. 3310, is for 660,329 Dth per day of capacity;
437,240 Dth per day of that capacity expires on July 31, 2018. However, on June 28,
2018, Spire Missouri and MRT executed a contract for 437,240 Dth per day of
transportation service from August 1, 2018 to July 31, 2019. Spire Missouri’s contract
with MoGas for 62,800 Dth per day expired in 2014, but has been renewed under an
evergreen provision requiring one year’s notice to terminate. As of November 1, 2018,
Spire Missouri’s remaining contracts with MRT will be for 223,089 Dth per day
under Contract No. 3310, expiring in 2020; and for 75,000 Dth per day under Contract
No. 3311, expiring in 2020. Spire Missouri has a contract with Enable Gas for 60,000 Dth
per day, expiring in 2019; with Panhandle for 10,000 Dth per day, expiring in 2021; with
Trunkline for 10,000 Dth per day, expiring in 2021; and with REX for 20,000 Dth per day,
expiring in 2031. MRT February 27, 2017 Protest at 12-14.
156

Given that Spire has stated that the project is not designed to meet any
substantial new demand in the St. Louis area, the protestors contend there is nothing
that would require Spire Missouri to increase its reserved transportation capacity by
350,000 Dth per day, a nearly 50 percent increase over what Spire Missouri currently

Docket Nos. CP17-40-000 and CP17-40-001

- 40 -

pipelines will be reallocated to and be borne by the existing pipelines’ captive customers,
as well as by the retail residential customers in the St. Louis market. Thus, they contend
reductions in Spire Missouri’s firm transportation contracts on MRT and MoGas could
lead to substantial rate increases to Missouri gas consumers to cover the difference.
The protestors argue that Spire’s application fails to acknowledge such adverse
89.
rate impacts on captive customers of existing pipelines, and fails to identify any efforts
on Spire’s part to eliminate or mitigate these adverse impacts. Ameren states that without
this information, the Commission cannot undertake the requisite balancing of adverse
impacts against project benefits. Ameren states that the amount of unsubscribed capacity
that will be created and who will bear the risk are matters properly before the
Commission as part of that balancing process. Similarly, the Missouri PSC argues that
because Spire believes the impacts of the project on the captive customers of incumbent
pipelines are speculative and, thus, Spire provides insufficient analysis of such impacts,
the Commission must undertake a much more rigorous review of these impacts.
90.

Whereas there was much discussion in the early pleadings in the case regarding
whether Spire Missouri would, in fact, decontract or turnback its capacity on MRT and
other pipelines in the future, including statements by Spire that it was unknown and
highly unlikely there would be contract reductions by Spire Missouri, 157 Spire Missouri
has admitted that if the Spire STL Pipeline Project is constructed, it could turnback up to
186,800 Dth per day of capacity on MRT (163,200 Dth per day of the 350,000 Dth per
day of contracted capacity represents incremental demand to replace the capacity of
Spire’s on-system liquid propane facility that will be retired). 158 However, in its July 31,
2017 Answer, MRT states that on July 27, 2017, Spire Missouri notified MRT that Spire
Missouri would immediately begin the process necessary to terminate up to 437,240 Dth
subscribes on MRT and MoGas. Therefore, they conclude the project most certainly will
result in Spire Missouri reducing itsfirm transportation contracts on the other pipelines
serving St. Louis. See MRT February 27, 2107 Protest at 16-17. The protestors take
issue with Spire’s statements that Spire Missouri’s contractual commitments will be
unaffected by the project. We note, though Spire’s statement is technically correct, as we
presume Spire Missouri is not breaking any existing contracts, neither Spire nor Spire
Missouri represent that Spire Missouri will be renewing those contracts.
157
158

Spire March 17, 2017 Answer at 12-14.

Spire Missouri July 14, 2017 Answer at app. B (Concentric Study) at 17. Spire
Missouri indicates that it will not decontract its contractual commitment on MoGas in the
near term as that capacity is critical for maintaining pressure and serving customer
demand on the west side of its system, which cannot be met by deliveries from other
existing pipeline supply alternatives in its portfolio. Id. See also Spire Missouri
March 22, 2017 Answer at 18.

Docket Nos. CP17-40-000 and CP17-40-001

- 41 -

per day of its MRT transportation service under Contract No. 3310, expiring July, 31,
2018, effective on that date. 159 On June 28, 2018, MRT executed a contract with Spire
Missouri to provide 437,240 Dth per day of service from August 1, 2018 to July 31,
2019.
In addition, MRT argues that Spire Missouri has underestimated the amount of
capacity that will be turned back by ignoring: (1) further potential decontracting related
to Spire’s incentive to secure a contract for the 50,000 Dth per day of available project
capacity; (2) decontracting related to likely future expansions of the Spire pipeline;
(3) storage service decontracting; and (4) the impact of the project on capacity release. 160
91.

MRT argues that the Commission’s Opinion No. 528 makes it clear that the cost
of the capacity de-subscribed on existing pipelines will be recovered from the remaining
billing determinants on those systems. 161 MRT states that that would include both the
billing determinants associated with MRT’s and MoGas’ other customers, such as
Ameren, as well as any remaining billing determinants associated with continuing to
serve Spire Missouri should it retain capacity on those pipelines. 162
92.

In its original protest, MRT includes a table summarizing the estimated unit rate
93.
impacts associated with Spire Missouri’s turnback of capacity in its Market and Field
Zones under several different scenarios, including a 350,000 Dth per day capacity
turnback in MRT’s Market Zone. MRT states that adjusting billing determinants from
MRT’s last section 4 general rate case settlement, Table 3 reflects estimated rate
increases of as much as approximately 55 percent, depending on how the Spire Project
affects MRT’s level of capacity subscriptions. 163
159

MRT July 31, 2017 Answer at 12. MRT states that according to its tariff, Spire
Missouri had until August 26, 2017 to exercise a right of first refusal (ROFR) on that
terminated capacity.
160

MRT April 10, 2017 Answer at 4-5.

161

See MRT February 27, 2017 Protest 17-18. Noting that the Commission has
held that “[t]he NGA requires the Commission to approve rates that permit a pipeline to
an opportunity to recover 100 percent of its costs,” MRT contends that in Opinion No.
528, the Commission rejected arguments that the pipeline should share in the cost of its
unsubscribed and discounted capacity and allowed all costs of de-subscribed capacity and
discounted rate contracts to be recovered from remaining billing determinants on the
system.
162

Id. at 18, 31.

163

MRT February 27, 2017 Protest at 19.

Docket Nos. CP17-40-000 and CP17-40-001

- 42 -

94.

Ameren estimates that if Spire Missouri were to decontract 350,000 Dth per day of
firm forward haul contract capacity on MRT and replace it with 350,000 Dth per day of
capacity on Spire, MRT will suffer a revenue reduction of approximately $22.3 million
per year. 164 Ameren asserts that the impact on MRT will be significant, reducing
MRT’s annual revenue by 27 percent to approximately $61.7 million, as MRT’s last rate
case settlement in Docket No. RP12-955-000 provided for an annual cost of service of
$84 million. 165 Ameren contends this revenue deficiency will undoubtedly cause MRT to
seek a significant rate increase when it makes its next NGA Section 4 rate filing, which,
under the terms of its last rate case settlement, is required to be filed with a proposed
effective date of July 1, 2018, for the new rates. 166 Although acknowledging that it is
clear that the extent to which cost shifts will be permitted is a matter to be addressed in
the individual pipeline’s section 4 rate case, Ameren maintains that it is highly likely,
given that the Commission’s current rate model allows captive customers to be asked to
pay for unsubscribed capacity, that MRT will seek to recover its stranded costs from
Ameren and its other remaining customers through increased rates.
Consequently, Ameren requests that a market study be performed that examines
95.
the amount of unsubscribed capacity that will be created by the project and the associated
impacts on the captive customers of MRT, as well as the downstream impacts on retail
customers in the St. Louis area. Ameren seeks to ensure that the potential adverse

164

Ameren February 27, 2017 Protest at 5-6. Ameren calculates this amount by
multiplying 350,000 Dth per day times the currently-effective reservation rate for Field to
Market Zone transportation times 12 (350,000 Dth x $5.3060 per Dth x 12 months). Id. at
6. With respect to MoGas, Ameren states that although Spire Missouri is paying a
significantly discounted rate for that capacity, if Spire Missouri were to terminate that
contract, MoGas would suffer a revenue loss of almost $4.8 million per year –
approximately 40 percent of MoGas’ fixed cost revenue of $11.8 million (62,800 Dth x
$6.324 (currently effective discounted rate for Zone 1 capacity on MoGas) x 12). Id. at 7.
165

Id. at 6. Ameren also estimates the impact of Spire Missouri decontracting
190,000 Dth per day on MRT as a $12.1 million per year revenue loss. Ameren April 4,
2017 Reply at 3 n.3.
166

Ameren notes that since the proposed in-service date for the project is
November 1, 2018, and because Spire Missouri must provide MRT with a minimum
of one (1) year’s notice of termination under the terms of MRT’s tariff, MRT will have
received Spire Missouri’s notice of termination by the time it is required to file its
section 4 rate case, making the stranded costs both “known and measurable.” Ameren
February 27, 2017 Protest at 6.

Docket Nos. CP17-40-000 and CP17-40-001

- 43 -

impacts on MRT’s remaining customers and Ameren’s retail customers are properly
considered by the Commission before it issues an order in this proceeding. 167
MRT contends that it will not be able to remarket the decontracted capacity
96.
because demand is flat in the St. Louis region and there is no evidence of any expected
growth. The Missouri PSC, also maintains that the Commission should be skeptical of
the ability of MRT and MoGas to develop new business to make up for the business lost
to Spire in light of the number of projects that were proposed for the St. Louis area and
failed. 168 The Missouri PSC states that MRT has previously indicated that high levels of
capacity release were being used as an alternative to interruptible transportation service
indicating that current firm transportation contracts were underutilized. MRT asserts
that neither Spire, Spire Missouri, nor the Concentric study have produced concrete
information regarding “real world incremental market opportunities” for MRT’s soon-tobe de-subscribed capacity. 169
Further, MRT argues that Spire Missouri’s delay in notifying MRT of its plans to
97.
turnback capacity, beyond the date of Spire’s original application, has hampered MRT’s
ability both to remarket that capacity and to give the Commission a better idea of the
consequences of that turned-back capacity. MRT states that finding a new market for
significant amounts of turned back capacity could involve a multi-year process, including
negotiations and potentially the construction of new facilities, and Spire Missouri’s delay
has delayed those steps. MRT also is concerned that Spire Missouri and Spire have had
an unfair advantage throughout the proceeding in crafting various arguments regarding
capacity turnback, presumably with the knowledge of the amount of capacity Spire
Missouri would decontract on MRT’s system, while simultaneously withholding such
information from MRT and the Commission. MRT contends that the harm to its ability
to remarket its capacity from Spire Missouri’s lack of transparency is occurring now, and
is not isolated to a future time period.
In response to the protestors’ arguments regarding the impacts on MRT and its
98.
customers from any potential capacity turnback, Spire argues that any effects on existing
pipelines and subsequent adjustments due to the introduction of a new pipeline are not
cognizable adverse impacts under the Certificate Policy Statement. Spire asserts that the
Commission in the Certificate Policy Statement stated that “[t]he Commission’s focus is
not to protect incumbent pipelines from the risk of loss of market share to a new
entrant[,]” and in subsequent cases has rejected arguments by incumbent pipelines that a
new project would cause them adverse effects, finding that as long as the project was the
167

Ameren April 4, 2017 Answer at 3.

168

Missouri PSC February 27, 2017 Protest at 13.

169

MRT July 31, 2017 Answer at 15.

Docket Nos. CP17-40-000 and CP17-40-001

- 44 -

result of fair competition, any effect on existing pipelines is competitive in nature and
would not be considered adverse. 170
Spire asserts that MRT is grossly overstating the potential risk of adverse cost
99.
effects from any reduction in Spire Missouri’s contract demand. Spire argues that there
is no guarantee that in a future rate case a pipeline will be permitted to recover stranded
capacity costs, 171 and that MRT has mischaracterized El Paso Natural Gas Company 172
upon which it relies. Spire contends that MRT overlooks the fact that a pipeline’s ability
to shift stranded capacity costs to its remaining customers is dependent, among other
factors, upon the pipeline first demonstrating that it has taken all reasonable steps to
remarket the unsubscribed capacity. Spire claims that MRT fails to recognize its ability,
or to consider efforts, to mitigate such stranded costs. Spire states that until MRT is able
to demonstrate that it has done all it can to cut costs to mitigate the impact of turned-back
capacity, the Commission will protect MRT’s existing customers from overreach. 173
Moreover, Spire argues that MRT’s claims of harm from Spire Missouri’s decontracting
of capacity are inconsistent with public statements MRT’s parent has previously made to
investors asserting that it will be able to mitigate any impacts to MRT from Spire’s
project and that the project presents opportunities for MRT to benefit from the new
source of Appalachian gas by being able to move that gas south to its Perryville Hub and
providing additional flexibility to the MRT system. 174 Spire also points out that MRT
previously acknowledged that Spire Missouri contract expirations were coming up on
MRT, but stated that “that’s kind of a normal recontracting process,” undercutting MRT’s
position that dire consequences will result. 175

170

Spire January 26, 2017 Application at 19 (citing Certificate Policy Statement at
61,750; Ruby Pipeline, LLC, 128 FERC ¶ 61,224, at P 37 (2009) (Ruby); Guardian
Pipeline, LLC, 91 FERC ¶ 61,285, at 61,977 (2000) (Guardian)).
171

Spire March 17, 2017 Answer at 16 and June 6, 2017 Answer at 15 (citing
Mississippi River Transmission Corp., 95 FERC ¶ 61,460, at 62,659 (2001)).
172

145 FERC ¶ 61,040, at PP 389-91 (2010).

173

Spire June 6, 2017 Answer at 15 (citing Natural Gas Pipeline Co. of America,
73 FERC ¶ 61,050, at 61,129 (2005)).
174
175

See Spire March 17, 2017 Answer at 14-16.

Id. at 13, 15, Attachment A (quoting Christopher T. Ditzel, MRT’s Vice
President Commercial – Transportation & Storage at Enable Midstream Partners, LP,
Enable Midstream Q4 Earnings Conference Call and Webcast (Feb.17, 2016)).

Docket Nos. CP17-40-000 and CP17-40-001

- 45 -

100. Spire insists that the alleged adverse impacts from capacity decontracting are
uncertain and speculative, and argues, in any event, that any resultant cost shifting from
decontracting is outweighed by the benefits provided by the project from the introduction
of an additional pipeline competitor and new transportation paths to access new supply
sources.
101. In a similar vein, Spire Missouri maintains that it is highly uncertain whether a
capacity turnback of 186,800 Dth per day would result in higher transportation rates on
MRT due to both market and regulatory factors. Spire Missouri argues that the harm
associated with shifted costs is uncertain both because the regulatory treatment of
capacity turnback that will be imposed is uncertain, 176 and there is no evidence that MRT
will not be able to market the capacity. Spire Missouri states that a pipeline has an
obligation to develop new business opportunities and remarket capacity that is
unsubscribed or turned back before recovering such costs from its remaining
customers. 177 Spire Missouri contends that there are a number of potential opportunities
that could result in replacement revenues as a result of enhanced bidirectional capability
and potential reversal of flow on MRT or through increased future natural gas demand
from natural gas-fired generation or other industrial sources near MRT, or result in
decreased costs to mitigate or eliminate the future rate impact of any capacity
turnback. 178

b.

Alleged Anticompetitive Impacts to Existing Pipelines

102. MRT claims that the overlapping job duties of personnel of Spire, Spire Missouri,
Spire Energy Marking, and Spire, Inc., and chains of command within the Spire
organization will result in inappropriate information sharing and unfairly impact thirdparty pipelines that serve Spire Missouri and compete with Spire, since such unaffiliated
pipelines will not have the same knowledge regarding the goals of Spire Missouri that
Spire enjoys. MRT states that two individuals, each serving as Spire executives, also
served as the lead negotiators representing Spire Missouri in contract negotiations with
MRT. MRT states that one of these individuals is described on Spire Inc.’s website as
leading “the optimization of Spire’s gas supply assets, including midstream and upstream
projects” and guiding “the company’s non-regulated business units, including its natural
gas marketing affiliate, Spire Energy Marketing.” 179 MRT notes that it is not clear

176

Spire Missouri July 14, 2017 Answer at app. B (Concentric Study) at 18-19.

177

Id. at 18.

178

Id. at 21-29.

179

MRT April 3, 2017 Answer at 8.

Docket Nos. CP17-40-000 and CP17-40-001

- 46 -

whether this two-person negotiation team is also dealing with other existing pipelines
serving St. Louis.
103. Specifically, MRT argues that the two Spire executives: (1) will be instrumental
in deciding how and under what terms the Spire capacity – both the 50,000 Dth per day
of unsubscribed Spire capacity and any new expansion capacity – should be marketed to
non-Spire Missouri loads; (2) will be aware of offers by others to use existing capacity on
non-Spire systems held by Spire Missouri and Spire Energy Marketing and the terms
under which such unaffiliated capacity could be released, thereby influencing their
assessment of offers to acquire Spire capacity and plans to market Spire expansion
capacity; (3) have been involved in negotiating the terms and extent of Spire Missouri’s
retention of capacity on MRT and other upstream pipelines; and (4) are in a position to
influence decisions regarding what capacity on existing pipelines should be turned back
by Spire Energy Marketing. As a result, MRT argues these individuals will have an
important voice in how competing pipelines’ rates are established to account for the costs
of capacity that Spire Inc. subsidiaries had previously held, and procurement (or
relinquishment) of unaffiliated interstate pipeline capacity into the St. Louis market. 180
104. In response, Spire and Spire Missouri argue that MRT’s claim that involvement by
the same senior executives in both the development of Spire’s pipeline and contract
negotiations with MRT on behalf of Spire Missouri is indicative of unfair competition
has no merit. Spire argues that as a developing project that has not yet been certificated
or constructed, much less put into service, Spire is not yet a “transmission service
provider” and therefore not subject to the Commission’s Order No. 717, Standards of
Conduct for Transmission Providers. 181 Spire also argues that it would be unduly
burdensome and cost prohibitive to require separation of the pipeline development
personnel from the experienced gas supply and operations personnel with the Spire
organization at this time since there is no pre-existing FERC-jurisdictional managementlevel personnel with expertise to manage the early developmental stages of the project. 182
180

Id. at 8-10.

181

Order No. 717, FERC Stats. & Regs.¶ 31, 280 (2008) (cross-referenced at 125
FERC ¶ 61,064); on reh’g, Order No. 717-A, FERC Stats. & Regs. ¶ 31,297, further
clarified, Order No. 717-B, 129 FERC ¶ 61,123 (2009), further clarified, Order No. 717C, 131 FERC ¶ 61,045 (2010), further clarified, Order No. 717-D, 135 FERC ¶ 61,017
(2011). Spire notes that Commission’s previous Standards of Conduct Order, Order No.
2004, provided that a new pipeline would have 30 days after it accepts its certificate or
otherwise becomes subject to the Commission’s jurisdiction to come into compliance with
the Standards of Conduct. Spire June 6, 2017 Answer at 11-12. See also Spire Missouri
July 14, 2017 Answer at 9-10.
182

Spire further asserts the even after acceptance of a certificate but before service
commences, the Commission has recognized that “not all aspects of the Standards of

Docket Nos. CP17-40-000 and CP17-40-001

- 47 -

Additionally, Spire maintains that its executives involved with the pipeline development
have scrupulously safeguarded all prospective customer information associated with both
the precedent agreement and inquiries received from other shippers, and has complied
with the Standards of Conduct “no conduit” rule to ensure no such information was
disseminated in a manner than could give Spire Missouri an unfair competitive advantage
over any other prospective shipper. 183

c.

Operational and Cost Impacts on MRT from New
Bidirectional Interconnection

105. MRT states that Chain of Rocks is the western terminus of its East Line, where
MRT provides unidirectional delivers gas into Spire Missouri’s Line 880. Spire’s
proposal would change the Chain of Rocks delivery point from a unidirectional into a
bi-directional point. MRT asserts that it would have to, among other things, make
significant modifications on its East Line downstream of Chain of Rocks to accept
deliveries from Spire and provide transportation on its system. 184 MRT claims this
introduction of 150,000 Dth of gas per day from Spire at Chain of Rocks would prevent it
from meeting its existing service obligations from the East Line. 185 Specifically, MRT
asserts that receipt of this gas from Spire would reduce the volumes it could receive from
NGPL and Trunkline on the east end of the East Line and eliminate the ability to receive
gas from MoGas and Illinois Intrastate. 186 MRT also questions the purpose of making
Chain of Rocks bi-directional if it would only be bi-directional with respect to

Conduct would apply to pipelines that had not yet been staffed or begun performing
transmission functions.” CenterPoint Energy Gas Transmission Co., 114 FERC ¶ 61,151,
at P19 (2006).
183

Spire June 6, 2017 Answer at 13. We note that although the Standards of
Conduct under Part 358 of the Commission’s regulations do not apply to a transmission
provider until it commences transactions with a marketing affiliate. See 18 C.F.R.
§358.8(a) (2017). Section 4(b) of the NGA prohibits a natural gas company, such as
Spire, from making or granting “any undue preference or advantage to any person or
subject any person to any undue prejudice or disadvantage.” 15 U.S.C. 717c(b) (2012).
184

MRT February 27, 2017 Protest at 3.

185

Spire states that it does not know why MRT believes it is proposing to
physically deliver 150,000 Dth per day into MRT at the new Chain of Rocks
interconnection with MRT as that is expressly not part of Spire’s proposal.
186

MRT February 27, 2017 Protest at 48-50.

Docket Nos. CP17-40-000 and CP17-40-001

- 48 -

displacement as opposed to a physical transfer point of volume. 187 MRT further claims
that it will need to spend millions of dollars to ameliorate the consequences a bidirectional interconnection will cause on its system. 188 MRT states that the
Commission’s interconnection policy in Panhandle enables a party desiring access to a
pipeline to obtain an interconnection if it satisfies five conditions. 189 MRT contends that
Spire’s proposed interconnection does not satisfy the second (interconnection must not
adversely affect the pipeline’s operations) and third (interconnection and resulting
transportation must not diminish service to the pipeline’s existing customers) elements.
106. In response, Spire asserts that its firm service agreement with Spire Missouri does
not offer any primary delivery point rights with MRT at Chain of Rocks. 190 Spire
contends that the proposed MRT-Chain of Rocks meter station is designed to receive gas
from MRT (consistent with current operations where MRT delivers gas to Spire Missouri
but, under the new configuration, MRT will deliver the gas to Spire for redelivery to
Spire Missouri) and to deliver gas from Spire to MRT, but only subject to MRT’s
willingness and ability to receive such gas. 191 Moreover, Spire states that it will pay for
the reconfiguring of the Chain of Rocks meter station so the interconnection is now
between Spire and MRT instead of the present Spire Missouri and MRT configuration.
Spire concludes that there is no adverse operational risk to MRT or any of its customers
or interconnecting pipelines as a result of the proposed bi-directional point. Spire asserts
that it meets the Panhandle test for interconnection and maintains that the interconnection
will benefit MRT and that it remains willing to cooperate with MRT regarding the details
of the proposed interconnection. 192

d.

Commission Determination

107. The Spire STL Pipeline Project would bring up to 400,000 Dth per day of new
pipeline capacity into the St. Louis area. All parties, including Spire, agree that the new
capacity is not meant to serve new demand, as load forecasts for the region are flat for the
foreseeable future. We acknowledge that without new demand, existing pipelines in the
187

MRT April 3, 2017 Answer at 18.

188

Id. at 19.

189

Panhandle Eastern Pipe Line Co., 79 FERC ¶ 61,016, order denying reh’g,
81 FERC ¶ 61,016 (1997), remanded Panhandle Eastern Pipe Line Co. v. FERC, 196 F.3d
(D.C. Cir. 1999), order on remand, 91 FERC ¶ 61,037 (2000) (Panhandle).
190

Spire March 17, 2017 Answer at 26.

191

Spire June 6, 2017 Answer at 20.

192

Spire March 17, 2017 Answer at 28.

Docket Nos. CP17-40-000 and CP17-40-001

- 49 -

area will likely see a drop in utilization once supplies begin to flow on the project.
Perhaps the largest impact will be on MRT’s East Line, which currently delivers gas to
Spire Missouri via interconnections with NGPL and Trunkline. The Commission
acknowledges that Spire Missouri’s capacity on Spire will replace some of the
transportation Spire Missouri used on MRT’s system. However, as both Spire, Spire
Missouri, and MRT note, many of Spire Missouri’s contracts with MRT reached or are
approaching the end of their terms. 193 Accordingly, this is a logical time for Spire
Missouri to evaluate its transportation needs going forward and the company has elected
to contract with Spire for transportation services to access REX Zone 3 and Appalachian
supply sources.
108.

Data provided by Spire and MRT in response to Commission staff’s February 21,
2018 data requests show that the difference in the cost of gas delivered to Spire Missouri
via the proposed Spire STL Pipeline Project as compared with gas accessed via MRT’s
Main Line, East Line, or MoGas’s system was not materially significant. In their
response to the data requests, MRT estimates that the 2018-2040 average price of gas
delivered to Spire Missouri via the Spire STL Pipeline Project at an estimate of the
negotiated rate is 2 cents lower per Dth for the total delivered cost of gas than deliveries
to Spire Missouri from Chicago Citygate via the MRT East Line (the supply source that
most closely resembles Spire Missouri’s stated goal of obtaining Marcellus gas supply
via REX). For the same period, the combined average price for gas delivered to Spire
Missouri on MRT along four different routes, Columbia Gulf Mainline, Trunkline Zone
1A, Texas Gas Zone 1, and Chicago Citygate, is at most 1.5 cents lower than deliveries
on Spire. Forecasting total delivered gas prices for a minimum of 20 years into the future
is difficult at best, and any long term average estimate will likely differ from actual prices
over time. However, the price differentials between different pricing points reflect the
convergence of gas prices across different supply areas in the United States as shale gas
production began influencing the U.S. market. For the past few years, price differentials
between major gas pricing hubs have shrunk as traditional demand regions have become
producing regions. These circumstances have led Spire Missouri to take advantage of
new supply regions, to diversify its supply portfolio, and to replace its aging propane
peaking system.
109.

Because Spire’s proposal includes building a bi-directional interconnect at the
Chain of Rocks station, gas supplies flowing on Spire could potentially move east on to
MRT’s system, and in theory could provide a new path for REX gas to flow south.
However, neither Spire nor Spire Missouri propose, in this proceeding, to flow gas from
Spire onto MRT’s system. MRT’s Main Line may see a decrease in flows, especially
during periods of low to moderate demand in the St. Louis region. Flows on MoGas,
from its western interconnect with REX and NGPL may not see a large impact from the
193

See supra P 88 n.155.

Docket Nos. CP17-40-000 and CP17-40-001

- 50 -

new Spire STL Pipeline Project, as supplies from the Rockies are likely to remain
competitive in the near future.
110.

The Commission evaluated MRT’s protest that the Spire STL Pipeline Project
would require MRT to perform significant modification to its system to accommodate the
future potential for bi-directional flows and also that the complete removal or a decrease
in gas deliveries at Chain of Rocks would disrupt services elsewhere on MRT’s
system. 194 Commission staff took the unique step of requesting additional information
from MRT, a party to the proceeding, but not the applicant, in an attempt to verify
MRT’s claims. 195 Staff was not able to verify, using the information provided in MRT’s
response, that the Spire STL Pipeline Project would require extensive modifications to
the system. 196 We agree with staff’s analysis and find that MRT has not provided
information to support its claim that a reduction in deliveries at Chain of Rocks to Spire
Missouri would impact other parts of its system. Moreover, Spire’s firm transportation
service agreement with Spire Missouri does not provide for any deliveries into MRT at
the Chain of Rocks meter and regulation station. 197
111. The Commission in Tennessee Gas Pipeline Co. v. Columbia Gulf Transmission
Co., found that Columbia Gulf’s denial of an interconnection with Tennessee Gas
violated the Commission’s Panhandle policy. 198 Tennessee Gas agreed to pay all of the
costs associated with the interconnection, but Columbia Gulf insisted that Tennessee Gas
would need to pay for the costs associated with other modifications that may be required
if a new meter was added. 199 The Commission agreed with Tennessee Gas and found
that all direct costs of the interconnection would be paid for by Tennessee Gas, the
proponent, and any other potential costs to Columbia Gulf would be speculative
especially since Tennessee Gas did not request to alter any flows on Columbia Gulf’s
system. 200 Likewise, in the instant case Spire has agreed to pay for all costs to construct
the Chain of Rocks station, and any additional costs that MRT alleges would be incurred
194

A discussion of operational impacts are included below. See infra
Part III.F - Engineering Analysis.
195

See February 21, 2018 Data Request to MRT.

196

See infra PP 191-197.

197

Spire February 6, 2017 Application at Exhibit I.

198

112 FERC ¶ 61,118 (2005). The Commission affirmed an Administrative Law
Judge’s Initial Decision in this proceeding.
199

Id. at P 23.

200

Id. at P 28.

Docket Nos. CP17-40-000 and CP17-40-001

- 51 -

along its system from the changes are speculative at best.
Spire’s proposed Chain of Rocks interconnection meets the second and third prong
of the Panhandle policy – the proposed interconnection not adversely affect the
pipeline’s operations and the proposed interconnection and resulting transportation not
result in diminished service to the pipeline’s existing customers. 201 As explained below,
MRT has not supported its claim that Spire’s proposed interconnection at Chain of Rocks
would adversely impact operations on MRT’s system or impact transportation of other
customers. Spire satisfies the fourth prong – the proposed interconnection not cause the
pipeline to be in violation of any applicable environmental or safety laws or regulations
with respect to the facilities required to establish an interconnection with the pipeline’s
facilities – and the fifth prong – the proposed interconnection must not cause the pipeline
to be in violation of its right-of-way agreements or any contractual obligations with
respect to the interconnection facilities. Thus, under the Panhandle Policy, we approve
of Spire’s proposed interconnection at Chain of Rocks.
112.

The Commission previously found it appropriate for an LDC to replace its
expiring transportation contracts on an existing pipeline with new transportation contracts
on a new proposed pipeline system. 202 However, MRT and EDF argue that the
Commission’s prior precedent should not inform the Commission’s decision in this case
as orders, such as Eastern Shore, Ruby, and Guardian, are distinguishable. 203 Protesters’
narrow view on whether the Commission should interpret its prior precedent misses the
point. The policy statement and our precedent serve as guideposts for the Commission as
it makes it decision, and the proposition that every proposed project must match an
earlier proposal would create an unnecessary impediment upon the Commission and
frustrate its authority under the NGA.
113.

114.

In Ruby, the Commission approved Ruby’s proposal to construct and operate a
new 675-mile-long pipeline to provide 1.2 million Dth per day of capacity from
Wyoming to the Oregon/California border. The project included 14 different shippers.
As part of the project, one shipper, Pacific Gas and Electric (PG&E), decided to turnback
capacity on Gas Transmission Northwest Corporation (GTN) system when its contracts
expired as this capacity would be replaced by the Ruby Project. 204 In this instance, the
California Public Utilities Commission already approved PG&E’s contractual decision to

201

See Panhandle, 91 FERC at 61,141.

202

See Ruby, 128 FERC ¶ 61,224 at P 37; Guardian, 91 FERC at 61,978.

203

See, e.g., MRT June 21, 2017 Answer at 7; EDF March 26, 2018 Answer at 12.

204

Ruby, 128 FERC ¶ 61,224 at PP 21, 37.

Docket Nos. CP17-40-000 and CP17-40-001

- 52 -

replace its capacity with capacity on the Ruby project. 205 The Commission found that
“GTN’s concern that Ruby’s pipeline will lead to unsubscribed capacity on GTN’s
system and adversely impact its captive customers is premature and speculative.” 206
Moreover, the Commission found that the potential loss of transportation service on
GTN’s system was attributed to the decline in gas supplies from production areas in
western Canada. 207
We find that although construction and operation of the Spire STL Pipeline Project
may well have an impact on existing pipelines and their captive customers, at this point
the extent of any impacts to MRT or other pipelines are speculative. We do recognize
that in Ruby the state utility approved of PG&E’s decision to turnback capacity as its
contracts expired on GTN, but that fact did not serve to mitigate any eventual impact on
GTN. As stated above, this Commission will not supplant the business decisions of
LDC’s nor the authority of a state utility commission to determine whether the actions of
an LDC are appropriate. 208
115.

Consistent with section 358.8(a) of the Commission’s regulations, Spire must be
in compliance with the Standards of Conduct when it commences transportation
transactions with its Marketing Affiliate. 209 However, regardless of the applicability of
the Standards of Conduct, as a natural gas company governed by section 4(b) of the
NGA, Spire is prohibited from providing an undue preference or advantage to any
person. 210
116.

4.

Landowners and Communities

The proposed Spire STL Pipeline Project, as amended, consists of two pipeline
segments, totaling approximately 65 miles of pipeline, and three above-ground meter
stations. No major above-ground facilities (e.g., compressor stations) are proposed for
the project. The operation of the project will affect approximately 415 acres, most of
117.

205

Id. PP 26-29.

206

Id. P 38.

207

Id.

208

See supra P 83; see also, Guardian, 91 FERC at 61,977 (“The Commission’s
longstanding policy has been to allow pipelines to compete for markets and to uphold the
results of that competition absent a showing of anticompetitive or unfair competition.”).
209

18 C.F.R. 358.8(a). See also Standards of Conduct for Transmission Providers,
125 FERC ¶ 61,064, at PP 26, 311-313 (2008) (Order No. 717).
210

15 U.S.C. § 717c(b) (2012).

Docket Nos. CP17-40-000 and CP17-40-001

- 53 -

which is agricultural land, 211 defined as hayfields, pastures, and crop production land (for
corn and soybeans), with approximately 16 acres affected by the operation of the meter
stations. 212 Approximately 15 percent of the pipeline route would be adjacent to existing
rights-of-way, and an additional 12 percent would be parallel to, but offset from, existing
rights-of-way at varying distances ranging from 30 to 90 feet. 213

118. Spire maintains that the project has been designed and will be constructed to
minimize impacts on landowners, and that its goal is to limit the use of eminent domain
to the greatest extent possible by negotiating mutually acceptable permanent and
temporary workspace easement agreements with any impacted landowners or other
stakeholders. 214 Spire completed environmental surveys for 92.8 percent of the pipeline
route. 215 With the exception of the REX Receipt Station, which will be operated by
REX, Spire will own and operate all equipment at the new meter stations. Spire indicates
it is working to negotiate and finalize easements for properties where all aboveground
facilities will be located. Spire asserts that although the North County Extension involves
more new construction than the originally-planned refurbishment of existing Line 880, it
is located in a significantly less-developed area and reduces the overall impact to
residential areas, as compared to the Line 880 alternative. 216 Spire also intends to reduce
the pipeline construction right of way width to avoid or minimize impacts on
residences. 217 Additionally, since Spire anticipates that one growing season will be lost
due to construction, it intends to compensate landowners for crop production losses in
accordance with terms of individual landowner agreements. 218 Finally, we note that

211

Approximately 80 percent of the land required for the operation of the project is
agricultural land (330 acres); the project also affects forested (35 acres), open (23 acres),
and developed land (11 acres), as well as less than 8 acres each of land classified as
wetlands and open water. EA at 83.
212

Construction of the project will affect approximately an additional 589 acres of

land. Id.
213

EA at 9.

214

Spire April 21, 2017 Amended Application at 9.

215

EA at 8.

216

Spire April 21, 2017 Amended Application at 8-9.

217

EA at 9.

218

EA at 82.

Docket Nos. CP17-40-000 and CP17-40-001

- 54 -

Spire participated in the Commission’s pre-filing process, 219 and has been consistently
working to address landowner and community concerns and input.
119. In light of the above, although we are mindful that Spire still must finalize
easement agreements with affected landowners for most of the land required for the
project, we find that for purposes of our consideration under the Certificate Policy
Statement, Spire has generally taken sufficient steps to minimize adverse economic
impacts on landowners and surrounding communities. We note that, moreover, that no
landowners moved to intervene or protest the project on the basis of the project’s impact
on their property values.

5.

Balancing of Adverse Impacts and Public Benefits

120. The Commission, in Order No. 636, determined that all gas purchasers, including
LDCs, should have the ability to make market-driven choices about the cost of delivering
gas. 220 In the Certificate Policy Statement, the Commission established that

the impact of a new project on existing pipelines serving the market is not
synonymous with protecting incumbent pipelines from the risk of loss of
market share to a new entrant, but rather, is a recognition that the impact on
the incumbent pipeline is an interest to be taken into account in deciding
whether to certificate a new project. 221
121. The Certificate Policy Statement also requires the Commission to take notice that
“a project built on speculation (whether or not it will be used by affiliated shippers) will
usually require more justification than a project built for a specific new market when
balanced against the impact on the affected interests.” 222 The Commission Policy

219

Docket No. PF16-9-000.

220

Pipeline Service Obligations and Revisions to Regulations Governing SelfImplementing Transportation; and Regulation of Natural Gas Pipelines After Partial
Wellhead Decontrol, Order No. 636, FERC Stats. & Regs. ¶ 30,939, at 30,393, order on
reh’g, Order No. 636-A, FERC Stats. & Regs. ¶ 30,950, order on reh’g, Order No. 636-B,
61 FERC ¶ 61,272 (1992), order on reh’g, 62 FERC ¶ 61,007 (1993), aff’d in part and
remanded in part sub nom. United Dist. Cos. v. FERC, 88 F.3d 1105 (D.C. Cir. 1996),
order on remand, Order No. 636-C, 78 FERC ¶ 61,186 (1997).
221

Certificate Policy Statement, 88 FERC at 61,748.

222

Id. at 61,747.

Docket Nos. CP17-40-000 and CP17-40-001

- 55 -

Statement further directs that “elimination of all adverse effects will not be possible in
every instance.” 223
122. The Commission has found it reasonable for an LDC to seek additional and/or
alternative sources of supply, and has emphasized its disinclination to second-guess
reasonable business decisions by pipelines’ customers evidenced by precedent
agreements, as well as binding contracts. 224 Similarly, the Commission, in the bypass
cases, supported competition between interstate natural gas companies and LDCs vying
for industrial customers. In those cases, we allowed end-users to receive transportation
service directly from interstate pipelines by bypassing the LDCs that had in the past
provided local distribution service, holding that we will not shield LDCs from the effects
of competitive forces in the natural gas market. 225 The Commission expanded this
principle to interstate pipelines finding that “[t]here is no reason why pipelines should be
afforded any greater protection from bypass than LDCs.” 226 Thus, the Commission’s
precedent and policy is clear; in the absence of evidence of anticompetitive behavior, it is
not the role of the Commission to protect pipelines from new entrants when they offer a
new opportunity for a shipper.
123. We find that the benefits that the Spire STL Project will provide to the market,
including enhanced access to diverse supply sources and the fostering of competitive
alternatives, outweigh the potential adverse effects on existing shippers, other pipelines
and their captive customers, and landowners or surrounding communities. Consistent
with the criteria discussed in the Certificate Policy Statement and NGA section 7(e), and
subject to the environmental discussion below, we find that the public convenience and
necessity requires approval of Spire’s proposal, as conditioned in this order.

223

Id.

224

See Millennium Pipeline Co., L.P., 100 FERC ¶ 61,277 at P 201; see also,
Midwestern Gas Transmission Co., 116 FERC ¶ 61,182, at P 42 (2006); Southern Natural
Gas Co., 76 FERC at 61,635, order issuing certificate and denying reh’g, 79 FERC ¶
61,280 (1997), order amending certificate and denying stay and reh’g, 85 FERC ¶ 61,134
(1998), aff’d Midcoast Interstate Transmission, Inc. v. FERC, 198 F.3d 960 (D.C. Cir.
2000).
225

E.g., Kinder Morgan Interstate Gas Transmission LLC, 123 FERC ¶ 61,018, at
PP 8-10 (2008); CenterPoint Energy Gas Transmission Co., 108 FERC ¶ 61,180, reh’g
denied, 109 FERC ¶ 61,197 (2004).
226

Panhandle, 91 FERC at 61,142.

Docket Nos. CP17-40-000 and CP17-40-001
B.

- 56 -

Blanket Certificates

Spire requests a Part 284, Subpart G blanket certificate in order to provide openaccess transportation services. Under a Part 284 blanket certificate, Spire will not require
individual authorizations to provide transportation services to particular customers. Spire
filed a pro forma Part 284 tariff to provide open-access transportation services. Since a
Part 284 blanket certificate is required for Spire to offer these services, we will grant
Spire a Part 284 blanket certificate, subject to the conditions imposed herein.
124.

Spire also requested a Part 157, Subpart F blanket certificate. The Part 157
blanket certificate gives an interstate pipeline NGA section 7 authority to automatically,
or after prior notice, perform certain activities related to the construction, acquisition,
abandonment, and replacement and operation of pipeline facilities. Because Spire will
become an interstate pipeline with the issuance of a certificate to construct and operate
the proposed facilities, we will issue to Spire the requested Part 157, Subpart F blanket
certificate.
125.

C.

Rates
1.

Initial Rates

Spire proposes to provide firm (Rate Schedules FTS), interruptible (Rate Schedule
ITS), and interruptible parking and lending (Rate Schedule PALS) transportation services
under Part 284 of the Commission’s regulations at cost-based recourse rates, and also
requests the authority to offer service at negotiated rates. Spire’s proposed cost of service
includes a rate of return which utilizes a capital structure of 50 percent debt and 50
percent equity, a debt cost of 7.00 percent, and a return on equity of 14.00 percent. Spire
proposes a depreciation rate of 2.00 percent. 227 Spire utilizes a straight-fixed variable
rate design and designed its rates on a postage-stamp basis. Spire proposes an initial
monthly Rate Schedule FTS reservation charge of $9.1086 per dekatherm (Dth) 228 and an
initial Rate Schedule FTS usage charge of $0.00. Spire derived the proposed FTS
recourse rates using the first year annual cost of service of $43,721,417 and annual
reservation design determinants of 4,800,000 per Dth. 229
126.

227

Spire April 21, 2017 Amended Application at Exhibit N.

228

Spire April 21, 2017 Amended Application at Exhibit N, Page 1 of 9.

229

Id. The annual reservation design determinants are based on the project’s daily
design capacity of 400,000 Dth times 12.

Docket Nos. CP17-40-000 and CP17-40-001

- 57 -

Spire also proposes initial Rate Schedule ITS and Rate Schedule PALS charges of
$0.2995 per Dth, based on a 100 percent load factor of its Rate Schedule FTS reservation
charge. 230
127.

128. On January 26, 2018, in response to a staff data request, Spire provided an
adjusted cost of service and recalculated its initial rates to reflect changes in the federal
tax code as per the Tax Cuts and Jobs Act of 2017, 231 which became effective January
2018. Spire’s work papers show that the effect of the tax code change is a reduction in
the estimated year one cost of service to $40,181,937 and a reduction in the initial Rate
Schedule FTS monthly recourse reservation charge to $8.3296 per Dth, and initial Rate
Schedule ITS and Rate Schedule PALS rates to $0.2738 per Dth. Spire’s proposed Rate
Schedule FTS usage charge of $0.00 remains unchanged. As Spire’s January 26, 2018
calculation reflects the federal tax code that will be in effect when the project goes into
service, the Commission will use the revised rates for the purpose of establishing the
initial rates. 232

Spire states it will recover Fuel Use and Lost Gas through Fuel Use and Lost Gas
percentages, which will be tracked and subject to a true-up mechanism. The project does
not include any compression and Spire has proposed an initial Fuel Use percentage of
0.00 percent and a Lost Gas percentage of 0.25 percent. Spire states that going forward,
it will then use actual fuel and loss volumes to calculate the fuel use and lost gas
adjustment, which will be trued-up and updated through an annual filing made to the
Commission.
129.

a.

Cost Estimates

130. MRT and EDF contend that the Commission should scrutinize the project’s
overall cost estimate. Specifically, MRT states that despite the withdrawal of the
proposal to acquire and operate Line 880 and the increase in the greenfield construction
by more than 10 percent, MRT state that Spire’s cost estimate in the initial and amended

230

Spire January 26, 2017 Application at Exhibit N, Page 1 of 9.

231

Pub. L. No. 115-97, 131 Stat. 2054 (Dec. 22, 2017).

232

In an April 17, 2018, response to a staff data request, Spire noted that it
proposes an income tax allowance of $5,701,698 and it will incur the income tax
allowance in its own name. Additionally, Spire states that it is neither a Master Limited
Partnership as the term is used in the “Revised Policy Statement on Treatment of Income
Taxes” in Docket No. PL17-1-000 nor is it a pass-through entity.

Docket Nos. CP17-40-000 and CP17-40-001

- 58 -

applications remains unchanged at $220,276,167. 233 For this reason, MRT calls into
question the accuracy of Spire’s initial and amended cost estimates.
131. Spire states that the higher construction costs associated with the construction of
the North County Extension are offset by its determination that it does not need as large a
contingency line item due to the elimination of the costs associated with the
refurbishment of Line 880. In addition, Spire states that other cost estimates from the
initial application have been updated and in some cases lowered due to updated right-ofway cost estimates, the completion of a real estate valuation study, and an updated
Allowance for Funds Used During Construction projection that was based on new project
construction schedule estimates. Spire also states that although the overall cost of service
for the project remained unchanged, it revised the cost components making up its cost of
service which resulted in a lower FTS reservation charge when compared to its initial
application ($9.1086 per Dth from $9.1092 per Dth). 234
132. For the cost of facilities provided in Exhibit K of a certificate application, section
157.14(a)(14) of the Commission’s regulations requires a “detailed estimate of total
capital cost of the proposed facilities for which the application is made . . . includ[ing] a
brief statement indicating the source of information used as the basis for the above
estimate.” Spire submitted the estimates for the cost of facilities in the revised Exhibit K
of its amended application. In addition, Spire included statements on the source of the
estimates in revised Exhibit K. 235
133. As Spire stated, its cost figures are estimates based on a variety of factors made
several years in advance of the project’s construction. We see no reason to scrutinize
these estimates further. 236 Shippers and interested parties will have full access to the
actual construction costs when the pipeline files its final cost report after construction is
completed. 237 In addition, as discussed below, we will require Spire to file a full cost and
revenue study after three years of operation. This will provide shippers with further
access to cost and revenue data to help assess the reasonableness of Spire’s initial rates.
233

MRT May 22, 2017 Protest at 3; EDF May 22, 2017 Protest at 3-6.

234

Spire June 6, 2017 Answer at 2-4.

235

For example, “Right of Way & Survey/Damages - Estimate based on previous
experience and estimated land values,” “Materials - Estimate based on current indicative
vendor pricing,” and “Construction/Contractor Labor - Estimate based on current
indicative construction contractor pricing.”
236

E.g., Algonquin Gas Transmission, LLC, 157 FERC ¶ 61,011, at P 18 (2016).

237

18 C.F.R. § 157.21(c)(3) (2017).

Docket Nos. CP17-40-000 and CP17-40-001

b.

- 59 -

Return on Equity

134. Missouri PSC contends that Spire’s proposed return on equity of 14 percent is
high and is premised upon an assumed Commission policy that greenfield pipelines
receive a 14 percent return on equity. Missouri PSC states that the Commission’s
approvals of 14 percent returns on equity date back to at least 1997 and, in many of these
cases, the pipelines in question had highly leveraged capital structures, with some as high
as 75 percent debt. Missouri PSC argues that Spire has a much more balanced proposed
capital structure.
135. Missouri PSC further states that economic circumstances have undergone dramatic
shifts since 1997, citing the Commission’s recent decisions on the appropriate returns on
equity for electric transmission rates. For example, Missouri PSC states that MISO’s
return on equity was reduced from a Commission approved 12.38 percent in 2002 to
10.32 percent in 2016. Accordingly, Missouri PSC states that the Commission should
evaluate present economic conditions and the dramatic changes that have occurred since
1997 before authorizing a 14 percent return on equity for Spire’s greenfield pipeline.
136. Spire states that Missouri PSC’s arguments should be rejected because its
proposed capital structure is consistent with recent Commission precedents involving
greenfield pipeline projects and appropriately reflects the business risks of the project. 238
Spire states that claims that the Commission should compare Spire’s proposed return on
equity to recent decisions addressing the return on equity for electric transmission rates
are completely unfounded and ignore entirely different business environments, investor
risk, and Commission ratemaking policy.
137. For new greenfield pipelines, the Commission has approved equity returns of up to
14 percent as long as the equity component of the capitalization is no more than 50
percent. 239 The Commission’s policy provides an appropriate incentive for new pipeline
companies to enter the market and reflects the fact that greenfield pipelines undertaken
by a new entrant in the market face higher business risks than existing pipelines
proposing incremental expansion projects. 240 The returns approved for existing electric
238

Spire March 17, 2017 Answer at 29-30.

239

See, e.g., Mountain Valley Rehearing Order, 163 FERC ¶ 61,197 at PP 52-60;
Sabal Trail, 154 FERC ¶ 61,080; UGI Sunbury, LLC, 155 FERC ¶ 61,115 (2016);
Constitution Certificate Order, 149 FERC ¶ 61,199 at PP 48-49.
240

See, e.g., Rate Regulation of Certain Natural Gas Storage Facilities, Order No.
678, 115 FERC ¶ 61,343, at P 127 (2006) (explaining that existing pipelines who need
only acquire financing for incremental expansions face less risk than “a greenfield project
undertaken by a new entrant in the market.”).

Docket Nos. CP17-40-000 and CP17-40-001

- 60 -

transmission systems are not relevant here because there is no showing that these
companies face the same level of risk as faced by greenfield projects proposed by a new
natural gas pipeline company. Thus, granting Spire a 14 percent return on equity as a
new market entrant constructing a greenfield pipeline is appropriate and consistent with
our current policy.
138. Further, as explained below, we are requiring Spire to file a cost and revenue study
at the end of its first three years of actual operation to justify its existing cost-based rates.
The three-year study will provide an opportunity for the Commission and the public to
review Spire’s original estimates upon which its initial rates are based, to determine
whether Spire is over-recovering its cost of service with its approved initial rates, and
whether the Commission should exercise its authority under section 5 of the NGA to
establish just and reasonable rates. The public will have an opportunity to review Spire’s
proposed return on equity and other cost of service components at that time and will have
an opportunity to raise issues relating to the rate of return, as well as all other cost
components.
139. We have reviewed Spire’s proposed cost of service and initial rates and generally
find them reasonable for a new pipeline entity. We accept Spire’s proposed recourse
rates as the initial rates for service on the pipeline. In addition, we find Spire’s initial fuel
rates to be appropriate and approve them for use.

c.

Three-Year Filing Requirement

Consistent with Commission precedent, Spire is required to file a cost and revenue
study no later than three months after the end of its first three years of actual operation to
justify its existing cost-based firm and interruptible recourse rates. 241 In its filing, the
projected units of service should be no lower than those upon which Spire’s approved
initial rates are based. The filing must include a cost and revenue study in the form
specified in section 154.313 of the Commission's regulations to update cost of service
data. 242 Spire’s cost and revenue study should be filed through the eTariff portal using a
Type of Filing Code 580. In addition, Spire is advised to include as part of the eFiling
description, a reference to Docket No. CP17-40-000 and the cost and revenue study. 243
After reviewing the data, we will determine whether to exercise our authority under NGA
section 5 to investigate whether the rates remain just and reasonable. In the alternative,
in lieu of this filing, Spire may make a NGA general section 4 rate filing to propose
140.

241

Bison Pipeline, LLC, 131 FERC ¶ 61,013, at P 29 (2010); Ruby, 128 FERC
¶ 61,224 at P 57; MarkWest Pioneer, L.L.C., 125 FERC ¶ 61,165, at P 34 (2008).
242

18 C.F.R. § 154.313 (2017).

243

Electronic Tariff Filings, 130 FERC ¶ 61,047, at P 17 (2010).

Docket Nos. CP17-40-000 and CP17-40-001

- 61 -

alternative rates to be effective no later than three years after the in-service date for its
proposed facilities.
2.

Negotiated Rates

141. Spire states that it will provide service to the project’s shippers under negotiated
rate agreements pursuant to negotiated rate authority in its General Terms and Conditions
(GT&C) section 6.18. Spire must file either its negotiated rate agreements or tariff
records setting forth the essential terms of the agreements in accordance with the
Alternative Rate Policy Statement 244 and the Commission’s negotiated rate policies. 245
Spire must file the negotiated rate agreements or tariff records at least 30 days, but not
more than 60 days, before the proposed effective date for such rates.

D.

Tariff

142. Spire filed a pro forma tariff which includes the proposed rates, rate schedules,
General Terms and Conditions that will govern all transportation services provided by
Spire, and forms of service agreement. We will approve Spire’s tariff, subject to the
changes discussed below. We direct Spire to file actual tariff records reflecting the
changes at least 30 days, but not more than 60 days, before the in-service date of the
proposed facilities.

1.

Statement of Currently Effective Rates

143. In footnote 2 of the Statement of Currently Effective Rates, Spire reserves the
right to not assess the fuel use percentage when no fuel is used. We permit pipelines to
exempt certain transactions on portions of its system from fuel charges, if the pipeline
identifies the specific transactions it intends to exempt from fuel charges and
demonstrates that those transactions do not require the use of fuel. Once the pipeline has
met these conditions, the exempted transactions are listed in the pipeline’s tariff. We
established these requirements to assure there will be non-discriminatory availability of
fuel-exempted transactions and to avoid unwarranted cost shifts to other customers.
Thus, we direct Spire to eliminate footnote 2 and, if Spire intends to exempt any
244

Alternatives to Traditional Cost-of-Service Ratemaking for Natural Gas
Pipelines; Regulation of Negotiated Transportation Services of Natural Gas Pipelines,
74 FERC ¶ 61,076, clarification granted, 74 FERC ¶ 61,194 (1996), order on reh’g,
75 FERC ¶ 61,024 (1996).
245

Natural Gas Pipelines Negotiated Rate Policies and Practices; Modification of
Negotiated Rate Policy, 104 FERC ¶ 61,134 (2003), order on reh’g and clarification,
114 FERC ¶ 61,042 (2006), reh’g dismissed and clarification denied, 114 FERC ¶ 61,304
(2006).

Docket Nos. CP17-40-000 and CP17-40-001

- 62 -

transactions from fuel charges, it must do so in accordance with our policy. 246 Although
Spire does not propose to charge fuel in its initial filing, in the event there is fuel use on
Spire’s system in the future, it can file to exempt any transactions it contends should not
be assessed the corresponding fuel charge.
144. Footnote 3 of the Statement of Currently Effective Rates states “Rate Schedule
PALS Service will not be assessed Fuel Use and Lost Gas Percentages or the [annual
charge adjustment] surcharge.” 247 Our policy states that parking and lending service
transactions may not be assessed fuel as long as the pipeline can show that no fuel is used

in performing a transaction. 248 However, Spire’s PALS rate schedule provides for the
possibility of the return of loaned quantities or the withdrawal of parked quantities at
“mutually agreed upon point(s) on Spire’s system.” 249 Thus, it is possible fuel could be
assessed for these PALS transactions that use different points. In addition, all parking
and lending transactions are not exempt from being assessed a reimbursement quantity
for lost gas. 250 Accordingly, we direct Spire to revise its Statement of Currently Effective
Rates.
2.

Unauthorized Overrun Service Charge (Rate Schedule FTS/ITS)

145. Spire’s proposed penalty for unauthorized overrun service for Rate Schedules FTS
and ITS is the 100 percent load factor rate, plus a penalty equal to two times the daily
index price for the day the overrun occurred. In orders on pipeline filings to comply with
Order No. 637, we found that pipelines had not adequately justified why substantial
overrun penalties should apply on non-critical days. 251 We explained that during noncritical periods, a shipper who scheduled overrun service would presumably receive the
requested service. Assessing a penalty for unauthorized overruns that is many times
246

El Paso Natural Gas Co., 129 FERC ¶ 61,280, at P 25 (2009); Ozark Gas
Transmission, L.L.C., 124 FERC ¶ 61,290, at P 15 (2008).
247

Spire January 26, 2017 Application Exhibit P Statement of Currently Effective
Rates at n.3.
248

Corpus Christi Liquefaction, LLC, 149 FERC ¶ 61,283, at P 40 (2014);
Midwestern Gas Transmission Co., 139 FERC ¶ 61,276, at P 16 (2012).
249

Spire January 26, 2017 Application Exhibit P Rate Schedule PALS
Section 2.2(b).
250
251

Midwestern Gas Transmission Co., 139 FERC ¶ 61,276 at P 16.

See Gulf States Transmission Corp., 96 FERC ¶ 61,159 (2001) (Gulf States);
Trailblazer Pipeline Co., 97 FERC ¶ 61,056, at 61,306 (2001).

Docket Nos. CP17-40-000 and CP17-40-001

- 63 -

higher than the interruptible rate applicable to authorized overruns for failure to request
service is excessive when the conduct would not likely cause harm to the system. For
this reason, we established a policy that a pipeline can propose a nominal penalty for
unauthorized overruns during non-critical periods, not to exceed twice its interruptible
rate, that is sufficient to provide an incentive to nominate overrun volumes but also takes
into account the lessened impact such unauthorized overruns will have on the system. 252
Alternatively, a pipeline could retain an existing higher penalty but must waive the
unauthorized overrun penalty, if the unauthorized overrun does not cause operational
problems.
146. Spire’s proposed penalty for unauthorized overruns during non-critical periods is
inconsistent with this policy. Given that the proposed penalty is two times the daily
index price, plus the 100 percent load factor rate, the penalty would be significantly
higher than twice its ITS rate, and Spire’s tariff contains no provision for waiving the
penalty if an unauthorized overrun does not cause operational problems. 253 Therefore,
Spire is directed to revise its unauthorized overrun charge consistent with Commission
policy.

3.

Section 6.2 – Reservation of Capacity

147. Section 6.2 states that “Spire shall have the right, at its option, to reserve existing
firm transportation capacity that is either presently available or that will become available
upon expiration or termination of a service agreement for a future expansion project
pursuant to the terms of this action” and discusses the Open Season Requirement and
Reservation Duration and Interim Sales of Reserved Capacity. MRT contends that
GT&C section 6.2(a) fails to conform with the Commission policy that prior to reserving
any capacity for an expansion, the pipeline must “post and award all of its available
capacity,” 254 as set forth in GT&C section 6.3 of its proposed tariff. Spire’s proposed
tariff states that (1) the available capacity will be posted under GT&C section 6.2(a) and
awarded under GT&C section 6.3(h), and (2) for the avoidance of doubt, only the
capacity that remains available after an open season (i.e., capacity which has not been
awarded under GT&C section 6.3(h)) can be reserved for a future expansion project
under section 6.2(a).

252

Questar Pipeline Co., 98 FERC ¶ 61,159, at 61,584 (2002).

253

See, e.g., Gulf States, 96 FERC at 61,696 (a $2.00 per Dth penalty on Gulf
States’ system is a greater than nominal penalty and therefore unjustified for non-critical
periods), Trailblazer Pipeline Co., 97 FERC ¶ 61,056.
254

MRT February 27, 2017 Protest at 54 (citing Midwestern Gas Transmission Co.,
106 FERC ¶ 61,229, at P 10 (2004)).

Docket Nos. CP17-40-000 and CP17-40-001

- 64 -

We find that GT&C section 6.2(a) of Spire’s tariff fully complies with our policy.
Under this provision, prior to reserving capacity for an expansion project, Spire will post
such capacity on its website and hold an open season pursuant to GT&C section 6.3.
Although section 6.2(a) does not explicitly contain the words “and award,” the
Commission reads section 6.2(a) to convey Spire’s intent to award capacity to any
qualified bidders making qualified bids when the capacity is posted on its website or
made available through an open season. No further changes are required.
148.

149. MRT asserts that neither GT&C sections 6.2(a) nor 6.3(a) specify that the
available capacity “must be posted for at least five business days before it can be
reserved,” so that shippers have “a reasonable opportunity to bid on and win available
capacity before the pipeline reserves it.” 255 Spire agrees that shippers should have a
reasonable opportunity to bid on and win available capacity before it is reserved by the
pipeline, but states that it is unaware of any Commission order requiring the proposed
reserved capacity posting to be for not less than five business days, regardless of the
corresponding length of reservation term associated with that capacity. Spire states
pipelines have proposed, and the Commission has allowed, variations in the minimum
posting notice.

150. The Commission’s regulations provide that interstate pipelines must provide
“equal and timely access to information relevant to the availability of all transportation
services whenever capacity is scheduled . . . .” 256 We have previously found that capacity
being reserved for a future expansion project must be posted for at least five business
days before the pipeline can reserve it in order to provide shippers a reasonable
opportunity to bid on and win capacity. 257 We direct Spire to revise its tariff.
151. MRT contends that GT&C section 6.2 does not require Spire to provide the
following information when attempting to reserve capacity:

(a) a description of the expansion project for which the capacity will be
reserved; (b) the total quantity of capacity to be reserved; (c) the location of
the proposed reserved capacity on the pipeline system; (d) whether, and if
so, when Spire anticipates that an open season for the capacity will be held
or it will otherwise be posted for bids under the expansion; (e) the projected

255

Id.

256

18 C.F.R. § 284.13(d) (2017).

257

MRT February 27, 2017 Protest at 54 (citing Midwestern Gas Transmission Co.,
106 FERC ¶ 61,229; MoGas Pipeline LLC, 126 FERC ¶ 61,064, at P 39 (2009)).

Docket Nos. CP17-40-000 and CP17-40-001

- 65 -

in-service date of the expansion project; and (f) on a rolling basis, how
much of the reserved capacity has been sold on a limited term basis.
MRT asserts that these conditions have been required of capacity on other pipelines in
competition with Spire with similar tariff provisions. 258
152. Consistent with Commission policy, we direct Spire to revise its tariff to provide
the information described above for the posting of reserved capacity for an expansion
project. We have consistently required these elements to be included as part of a
pipeline’s tariff provisions implementing a capacity reservation process for new
expansion projects and providing this information in its tariff will ensure that prospective
shippers have sufficient information when determining whether to bid on capacity. 259
153. MRT contends that GT&C section 6.2 failed to include “solicitation procedures to
ensure that excess and turnback capacity is posted prior to determining the reserved
capacity needed for future expansion projects” and that such procedures take place
“within 90 days or less of the expansion open season.” 260 We require that pipelines
planning to file applications for expansion projects solicit turnback capacity, which Spire
did not do. Thus, we direct Spire to modify its tariff to include procedures for the
solicitation of turnback capacity in association with any capacity reserved for an
expansion project and to devise procedures to ensure that the solicitation of turnback
capacity takes place within 90 days or less of the expansion open season. 261
154. MRT contends that contrary to longstanding Commission policy, GT&C
section 6.2(a) would allow Spire to reserve capacity for up to 12 months prior to holding
an open season related to a contemplated expansion project. Then, if the open season is
held within that 12-month period, MRT asserts that Spire may continue to reserve the
capacity, provided Spire submits its certificate application within 12 months of the close
of the open season. As a result, MRT concludes that Spire could reserve capacity for up
to 24 months prior to submitting a certificate application. MRT states that Commission
policy is clear that Spire may only reserve capacity for 12 months from the date it

258

Id. at 55 (citing MoGas Pipeline LLC, 126 FERC ¶ 61,064).

259

MoGas, 126 FERC ¶ 61,064 at P 42; Kern River Gas Trans. Co., 104 FERC ¶
61,155 (2003).
260

MRT February 27, 2017 Protest at 55.

261

MoGas, 126 FERC ¶ 61,064 at P 41.

Docket Nos. CP17-40-000 and CP17-40-001

- 66 -

reserves such capacity, not the date Spire closes the open season or an additional
12-month period prior to the open season for the expansion project. 262
155. Spire asserts that it can reserve available capacity for a future expansion project
for up to 12 months before it must hold an open season. At that time, Spire states the
capacity will be made available to any potential customers that would like to participate.
If Spire receives bona fide expressions of interest sufficient to go forward with a project,
Spire can maintain that reserved capacity so long as it makes a certificate application
filing within 12 months. Spire notes it will be required to make any reserved capacity
available on an interim basis during the project development process.
156. Our policy states that capacity may be reserved for an expansion project for only
12 months prior to the filing of a certificate application, and thereafter until either the
project goes into service, the application is withdrawn, or the application is denied. 263
This policy is a safeguard to ensure that the pipeline is not reserving capacity to exercise
its market power. 264 Spire’s proposed tariff allows it to reserve capacity for up to
12 months before an open season for the expansion project is held and for an additional
12 months before a certificate application is filed. Thus, we direct Spire to revise its
tariff so that it is only permitted to reserve capacity 12 months prior to the filing of a
certificate application, and thereafter until either the project goes into service, the
application is withdrawn, or the application is denied.

4.

Section 6.3 – Open Seasons for Available Capacity

157. Section 6.3(b)(i) of the GT&C states that Spire will determine the best bid based
on the highest present value of the per unit reservation charge to be paid over the term of
the service, as determined in accordance with GT&C section 6.3iii. However, GT&C
section 6.3iii does not exist in Spire’s tariff. Spire states that the reference is incorrect
and it should be to GT&C section 6.3(f). 265 We direct Spire to revise its tariff.
158. Section 6.3(e) of the GT&C states that in the event Spire receives two or more
bids of equal value, the best bid shall be the bid with the shortest term under the method
identified in GT&C section 6.3(a)(ii). Spire clarifies that the reference to GT&C

262

MRT February 27, 2017 Protest at 55.

263

Transcontinental Gas Pipe Line Corp., 118 FERC ¶ 61,234, at P 10 (2007); Gas
Transmission Northwest Corp., 109 FERC ¶ 61,141, at P 9 (2004).
264

Id.

265

Spire June 19, 2017 Data Response at 2.

Docket Nos. CP17-40-000 and CP17-40-001

- 67 -

section 6.3(a)(ii) is incorrect and should be replaced by the method under GT&C section
6.3(b)(i). 266 We direct Spire to revise its tariff.
5.

Section 9.4 – Emergency Reallocation

159.

In GT&C section 9.4, Spire proposes emergency reallocation tariff provisions that
provide it with the ability to reallocate capacity and/or divert gas supplies to forestall an
emergency in order to serve human needs or avoid substantial damage to property.
GT&C section 9.4(d) requires the customer declaring the emergency to pay Spire $20 per
Dth for any gas supplies diverted, with Spire crediting the customer whose supplies were
diverted. GT&C section 9.4(e) requires the customer declaring the emergency to pay
Spire $10 per Dth for any capacity reallocated, with Spire crediting the customer whose
capacity was reallocated.
160.

Our policy requires that any shipper on an interstate pipeline that obtains an
exemption from pro rata curtailment must compensate the non-emergency shippers for
their increased curtailment. 267 We have held that such compensation should generally be
limited to the payment of an additional reservation charge for the capacity exempted from
the pro rata curtailment. Thus, the exempted shipper need not compensate the nonemergency shippers for any loss of gas supply they experience as a result of their
increased capacity curtailment. A non-emergency shipper that believes it has suffered
disproportionate damages during a curtailment may file a request with the Commission
for compensation from the emergency customer. A non-emergency shipper may also
seek to recover damages in court from any party against which it has a legal cause of
action. Thus, we direct Spire to delete section 9.4(d) from its tariff.
6.

Section 15 – Termination of Service/Right of First Refusal

161.

GT&C section 15 outlines the provisions within a qualifying customer’s service
agreement that enables it to continue service under a right of first refusal (ROFR)
pursuant to its existing rate schedule and service rights. Our policy requires that a ROFR
customer’s election of whether to retain its capacity or what portion of its capacity to
retain is not required until the service provider has notified the existing shipper of the
best bid(s) received from third parties for all, or a portion of, the expiring capacity. 268
Spire proposes to add the following sentence to GT&C section 15.10:

266

Id.

267

Texas Eastern Transmission Corp., 91 FERC ¶ 61,105 (2000) (on remand from
Process Gas Consumers Group vs. FERC, 158 F.3d 591 (D.C. Cir. 1998)).
268

Sierrita Gas Pipeline, LLC, 147 FERC ¶ 61,192, at P 77 (2014);

Docket Nos. CP17-40-000 and CP17-40-001

- 68 -

Shipper is not required to notify Spire of the amount of
capacity it will retain through the process set forth in this
Section 15 until after the Shipper receives notification from
Spire of the best offer(s) for the expiring capacity. 269
162.

In addition, Spire proposes to revise its proposed GT&C section 15.10 as follows:
the ROFR Customer’s existing FTS Agreement shall be
deemed extended at the maximum lawful rate, for the same
quantities (or such lesser volumetric portion as the ROFR
Customer may elect) and other terms for a term of ROFR
Customer’s choice a period of one (1) year, after which the
ROFR Customer’s FTS Agreement shall expire and Spire will
have all necessary abandonment authority under the Natural
Gas Act and be released from any further obligation to the
ROFR Customer upon such FTS Agreement expiration;
provided that if ROFR Customer’s extended term is for one
year or longer and at the maximum lawful rate, then ROFR
Customer will be eligible for the Right of First Refusal under
this Section 15 at the conclusion of the extended term. 270

163. We find that GT&C section 15.10, as revised by Spire, is consistent with the
Commission’s policy. Thus, we direct Spire to revise its tariff.

7.

Section 16.3 – Billing, Statements, Payment and Records

164. GT&C section 16.3 outlines Spire’s procedure for handling a customer’s failure to
make a full payment of any portion of any bill for services received. It states, in part, that
“[i]f failure to pay continues for thirty (30) days after payment is due, Spire, upon ten
(10) [d]ays’ prior written notice to Customer, may suspend further receipt and/or delivery
of Gas until such past due amount is paid, or satisfactory credit arrangements have been
made in accordance with Section 23 of these General Terms and Conditions.”
165. We allow pipelines to suspend service on a shorter time period than the 30-day
notice period required for terminating service. However, since the pipeline is not
providing the service required under the contract during suspension, we have not
permitted pipelines to impose reservation charges during the period of suspension. This
is to ensure there is no incentive to suspend service by making this a more attractive

Transcontinental Gas Pipe Line Corp., 101 FERC ¶ 61,267, at P 26 (2002).
269

Spire June 19, 2017 Data Response at 9.

270

Id.

Docket Nos. CP17-40-000 and CP17-40-001

- 69 -

alternative than contract termination. 271 Thus, we direct Spire to include additional
language specifying that Spire will not impose reservation charges during any period in
which it suspends service.
8.
166.

Section 17.1 – Discounted Rates

GT&C section 17.1 provides:
If and when Spire discounts the rates and charges applicable
for service under any rate schedule, the components of the
currently applicable maximum rate shall be discounted in the
following order: The first item of the overall charge
discounted will be any surcharge, followed by the base rate
charge. (emphasis added)

167. Our policy provides that discounts be attributed last to surcharges which the
pipeline recovers through a periodic true-up mechanism that permits the pipeline to seek
recovery of 100 percent of the costs in question. 272 To the extent that the surcharges
referenced in this section are subject to periodic true-up mechanisms, we direct Spire to
revise the emphasized language to provide that such surcharges are the last component to
be attributed discounts, consistent with Commission regulations. 273

9.

Section 20.3 – Fuel Use and Lost Gas Adjustments

168. GT&C section 20.2 provides that the effective fuel use percentage “shall be the
sum of the current Fuel Use Percentage and the Annual Fuel Use Surcharge” and that the
effective lost gas percentage “shall be the sum of the current Lost Gas Percentage and the
Annual Lost Surcharge.” GT&C section 20.3, which provides the calculation of the
current fuel use and lost gas percentages, states:

(a) Fuel Use Percentage: The current Fuel Use Percentage
shall be determined on the basis of the projected quantities of
Gas that shall be used for the routine operation and
maintenance of Spire’s pipeline system divided by the

271

Policy Statement on Creditworthiness for Interstate Natural Gas Pipelines and
Order Withdrawing Rulemaking Proceeding, FERC Stats. & Regs. ¶ 31,191, at P 24
(2005); Sabal Trail, 154 FERC ¶ 61,080 at P 206.
272

Columbia Gas Transmission Corp., 109 FERC ¶ 61,355, at PP 27-28 (2004);
Natural Gas Pipeline of America, 69 FERC ¶ 61,029, at 61,117 (1994).
273

18 C.F.R. § 154.109(c) (2017).

Docket Nos. CP17-40-000 and CP17-40-001

- 70 -

estimated quantities of Gas for transportation under Rate
Schedules FTS and ITS for the Recovery Period.
(b) Lost Gas Percentage: The current Lost Gas Percentage
shall be determined on the basis of the projected quantities of
Gas that shall be required for Lost Gas divided by the
estimated quantities of Gas for transportation under Rate
Schedules FTS and ITS for the Recovery Period.
169. Section 154.403(c)(10) of the Commission’s regulations 274 states that “a step-by
step explanation of the methodology used to reflect changes in the fuel reimbursement
percentage including the allocation and classification of the fuel use and unaccounted-for
natural gas” must be included in the GT&C. Spire’s proposed language in GT&C section
20.3 explains that the current fuel use and lost gas percentages shall be determined based
on “projected quantities of gas” and “estimated quantities of gas,” but does not explain
the methodology Spire will use to produce those projections and estimates. Thus, we
direct Spire to revise GT&C section 20.3 to include an explanation of how Spire will
produce the projections and estimates to be used in the computation of the fuel use and
lost gas percentages.

10.

Section 35.1 – Reservation Charge Credits – Force Majeure
Events

170. Spire proposes that it will share the risk of a force majeure event with its
customers through the adoption of the “no-profit” reservation charge crediting
methodology. GT&C section 35.1(a) provides that Spire’s reservation charge credit
“shall be limited to that portion of the daily Reservation Rate that represents Spire’s
equity return and associated income taxes.” GT&C section 35.1(b) states that “the equity
return and associated income taxes shall be that portion of the applicable Reservation
Rate that exceeds the cost of service component of the otherwise applicable maximum
recourse Reservation Rate, where such a cost of service component is equal to the
maximum recourse Reservation Rate less the equity return and associate taxes
component.”
171. We recognize that all parties bear part of the risk of a force majeure event. Under
the no-profit method, customers will only bear the limited burden of paying the portion of
the reservation charge that represents the cost of service component consisting of Spire’s
equity return and income taxes. This is an acceptable methodology. Spire’s tariff,
however, does not clearly indicate what the equity return and associated income tax
quantities or percentages are for the purposes of calculating the reservation charge
credits. Thus, we direct Spire to revise its tariff to clearly state the equity return and
274

18 C.F.R. § 154.403(c)(10) (2017).

Docket Nos. CP17-40-000 and CP17-40-001

- 71 -

associated income tax components for the purposes of calculating reservation charge
credits.
11.

North American Energy Standards Board

172. Spire requests extensions of time to comply with (1) certain North American
Energy Standards Board (NAESB) standards, including those related to Electronic Data
Interchange (EDI) and Electronic Data Management (EDM); (2) NAESB standards
governing pooling; and (3) NAESB standards related to index-based capacity releases.
Spire states it is a small pipeline with only one shipper and believes its operational and
market circumstances warrant an extension of time to comply with certain NAESB
standards.
173. MRT protests Spire’s request, stating that it would put Spire at a competitive
advantage to other pipelines in the region. MRT contends that Spire would only
implement the NAESB standards following the receipt of a bona fide request from a
Spire shipper, and Spire’s only shipper, its affiliated LDC, might never request Spire’s
compliance with the NAESB standards. In addition, MRT asserts that in each of the
cases cited by Spire, where the Commission granted an extension of time for certain
NAESB standards, the pipelines were considerably smaller than Spire. 275 MRT also
argues that failure to have a confirmation ability would dissuade the use of Spire by
potential Part 284 customers.
174. Spire answers that its requested extensions of time to comply with certain NAESB
standards are reasonable and consistent with the extensions that the Commission has
granted to comparably sized pipelines and are necessary to avoid burdening Spire and its
customer with unnecessary cost and electronic infrastructure requirements that are not
needed for a small, one-customer pipeline with two receipt and two delivery points.
Further, Spire contends that the confirmation issues raised by MRT are irrelevant to the
issue of whether Spire offers pooling service or index-based capacity releases. 276
175. Consistent with our action in regard to previous requests for an extension of time
to comply with NAESB standards, we will grant Spire’s requests as discussed below. In
275

MRT February 27, 2017 Protest at 53-54 (citing Missouri Interstate Gas, LLC,
119 FERC ¶ 61,074, at P 33 (2007) (MRT avers Missouri Gas had capacity of 20,000 Dth
per day); Unocal Windy Hill Gas Storage, LLC, 115 FERC ¶ 61,218, at P 5 (2006) (MRT
avers Windy Hill had storage capacity of 1,500,000 Dth of working gas); Rendezvous Gas
Services, L.L.C., 112 FERC ¶ 61,141, at PP 5, 30 (2005) (capacity of 330,000 Dth per day
and a total cost of $11 million)).
276

Spire March 17, 2017 Answer at 31 (citing Venice Gathering System, L.L.C.,
153 FERC ¶ 61,321, at PP 9-10 (2015) (Venice)).

Docket Nos. CP17-40-000 and CP17-40-001

- 72 -

Order No. 587-V, the Commission set out the principles it would apply generally to
waiver and extension of time requests. 277 Spire’s proposal here complies with the
directives of that order. Granting Spire’s requested extension of time to comply with
certain of the NAESB standards until a Part 284 customer requests that Spire offer such
transactions or data through its website is consistent with our policy. We see no reason to
require Spire to incur the costs to comply with standards it does not believe will be
used. 278 Although the pipelines cited by MRT were significantly smaller than Spire, we
have previously granted extensions of time for pipelines of similar size as Spire and will
do so here. 279
176. MRT asserts that in Venice Gathering System, L.L.C., the Commission explained
the importance of ensuring implementation of the benefits of NAESB standards “across
the national pipeline grid,” to avoid, among other things, “confirmation problems with
interconnected pipelines.” 280 In Venice, we rejected the pipeline’s request for an
extension of time to comply with the NAESB Wholesale Gas Quadrant (WGQ) Version
3.0 Standard, which addresses the current nomination timeline. 281 We held that not
implementing the standard reflecting the current nomination timeline by April 1, 2016
would result in the pipeline not having a nomination schedule consistent with that of the
rest of the industry, potentially increasing the administrative requirements of its shippers
and leading to confirmation problems with interconnected pipelines. However, that is not
an issue here, as Spire is not requesting that timelines be extended for nomination and

277

Standards for Business Practices of Interstate Natural Gas Pipelines, Order No.
587-V, FERC Stats. & Regs. ¶ 31,332, at PP 38-39 (2012).
278

Order No. 587-V, FERC Stats. & Regs. ¶ 31,332 at P 38 (“Waivers are not
appropriate in those circumstances in which no shipper has requested service, but the
pipeline is able to provide the service if requested by a shipper. In those circumstances,
the Commission will grant the pipeline an extension of time to comply with the standard
until such time as a shipper requests the standard”).
279

See, e.g., MoGas Pipeline LLC, 157 FERC ¶ 61,036 (2016) (approving
extension for larger system certificated in 2007); MarkWest Pioneer, LLC, 125 FERC
¶ 61,165; Cimmarron River Pipeline, LLC, 124 FERC ¶ 61,069 (2008).
280

MRT February 27, 2017 Protest at 54 (citing Venice, 153 FERC ¶ 61,321 at PP

10-11).
281

Venice, 153 FERC ¶ 61,321 at PP 9-10.

Docket Nos. CP17-40-000 and CP17-40-001

- 73 -

capacity release promulgated by Order Nos. 587-W 282 and 809. 283 Thus, Spire will
comply with standard 1.3.2, which governs the current day-ahead and intra-day
nomination timelines, and standard 5.3.2, which governs the timeline for the notification
and processing of biddable and non-biddable firm capacity releases. Accordingly, we
find that Spire’s failure to comply with NAESB will not adversely disadvantage MRT or
result in confirmation problems with interconnected pipelines.

a.

Extensions of Time of Electronic Data Interchange Data
Sets, Electronic Delivery Mechanism Standards, and
Internet Electronic Transport Requirements

177. Spire requests an extension of time to comply with the NAESB WGQ Version 3.0
Standards related to EDI 284 datasets, EDM 285 standards, and the Internet Electronic
Transport (IET) Requirements section of its website. 286 In support of its request, Spire
asserts that it is a small one-customer pipeline with two receipt points and two delivery
points. Further, Spire states that it will rely heavily on a third-party software provider to
help manage its informational postings website, because it has no prior experience or
infrastructure in place to manage and maintain the electronic systems. Spire asserts that
282

Standards for Business Practices of Interstate Natural Gas Pipelines;
Coordination of the Scheduling Processes of Interstate Natural Gas Pipelines and Public
Utilities, Order No. 587-W, FERC Stats. & Regs. ¶ 31,373 (2015), order on reh’g, Order
No. 587-X, FERC Stats & Regs. ¶ 31,381 (2016).
283

Coordination of the Scheduling Processes of Interstate Natural Gas Pipelines
and Public Utilities, Order No. 809, FERC Stats. & Regs. ¶ 31,368, order on clarification,
152 FERC ¶ 61,095, order on reh’g, 152 FERC ¶ 61,212, order on clarification, 153 FERC
¶ 61,049 (2015).
284

EDI standards require pipelines to maintain and operate an interactive web site.

285

EDM standards relate to the use of the internet for pertinent business practice
and electronic communications.
286

NAESB WGQ Version 3.0 Standards 1.3.3, 1.3.6, 1.3.9, 1.3.11, 1.3.13, 1.3.20,
1.3.21, 1.3.23, 1.3.48, 1.3.53, 1.3.55, 1.3.56, 1.3.58, 1.3.62, 1.4.2, 1.4.7, 2.3.5, 2.3.6,
2.3.11, 2.3.13, 2.3.14, 2.3.32, 2.3.40, 2.4.2, 2.4.6, 2.4.7, 2.4.8, 3.3.23, 3.3.24, 3.4.1, 3.4.2,
3.4.3, 3.4.4, 4.3.1, 4.3.2, 4.3.3, 4.3.42, 4.3.43, 4.3.44, 4.3.45, 4.3.46, 4.3.47, 4.3.49, 4.3.50,
4.3.52, 4.3.53, 4.3.54, 4.3.55, 4.3.57, 4.3.58, 4.3.60, 4.3.61, 4.3.62, 4.3.66, 4.3.67, 4.3.68,
4.3.69, 4.3.72, 4.3.75, 4.3.78, 4.3.79, 4.3.80, 4.3.81, 4.3.82, 4.3.83, 4.3.84, 4.3.85, 4.3.86,
4.3.87, 5.3.10, 5.3.11, 5.3.12, 5.3.70, 5.3.71, 5.3.72, 5.4.14, 5.4.15, 5.4.16, 5.4.17, 5.4.20,
5.4.21, 5.4.22, 5.4.23, 5.4.24, 5.4.25, 5.4.26, 5.4.27, 10.3.5, 10.3.6, 10.3.7, 10.3.8, 10.3.9,
10.3.10, 10.3.11, 10.3.14, 10.3.15, 10.3.22, 10.3.23, and 10.3.24.

Docket Nos. CP17-40-000 and CP17-40-001

- 74 -

its informational postings website will include links to capacity information, index of
customers, notices, organizational charts, its tariff, and transactional reporting.
178. Spire states that it plans to work with Spire Missouri to develop the most efficient
and effective alternative forms of communication such as electronic mail, in lieu of
EDI/EDM. Spire states that it has discussed this approach and Spire Missouri has raised
no objections or concerns. Spire asserts that complying with the EDI/EDM standards at
this time would be unnecessarily burdensome and would provide little or no benefit to
Spire Missouri. Accordingly, Spire asserts its operational and market circumstances
warrant an extension of time to comply with the EDI/EDM standards.
179. For good cause shown, we grant Spire’s extensions of time, as requested. 287 The
extensions of time are limited to the NAESB WGQ Version 3.0 Standards promulgated
by Order No. 587-W, 288 and will be in effect until 150 days following its receipt of a
request for service from a Part 284 customer to offer the EDI, EDM, and IET transactions
or data via its website. Further, Spire must be fully compliant with the NAESB WGQ
Version 3.0 Standards as it relates to proprietary location codes. 289

287

See, e.g., Trans-Union Interstate Pipeline L.P., 141 FERC ¶ 61,167 (2012);
WestGas InterState, Inc., 99 FERC ¶ 61,206 (2002) (where the Commission granted an
extension of time of the EDI/EDM standards, but required the pipeline to comply with the
Commission’s communications and reporting requirements through means that do not
require an interactive web site or adoption of EDI datasets and EDM Standards (e.g., by
posting information on the pipeline’s informational postings website, e-mail, phone, or
fax)).
288

Order No. 587-W, FERC Stats. & Regs. ¶ 31,373, order on reh’g, Order No.
587-X, FERC Stats & Regs. ¶ 31,381. See B-R Pipeline Co., 128 FERC ¶ 61,126, at P 6
(2009) (B-R Pipeline) (each time the Commission adopts new versions of the standards, a
pipeline seeking to retain an existing extension of time must request an extension of time
of the new standards).
289

See Equitrans L.P., 153 FERC ¶ 61,320, at PP 9-13 (2015) (where the
Commission explained that compliance with the requirements set forth in the standards as
they apply to the posting on a pipeline’s Internet web site of information on proprietary
location codes (i.e., the codes assigned by the transportation service providers for the
identification of locations) does not require an interstate pipeline to incur substantial
additional software upgrade costs, and enables the Commission and customers to continue
to identify active interconnection points referenced in the Index of Customers through the
website postings).

Docket Nos. CP17-40-000 and CP17-40-001
b.

- 75 -

Extension of Time of Pooling Standards

180. Spire requests an extension of time of the NAESB WGQ Version 3.0 Standards
related to pooling, explaining that it is a small pipeline system with two receipt and
delivery points and expects that any pooling activity will occur upstream of the
interconnection between Spire and REX or MRT. Spire states that the Commission has
granted such extensions of time in the past to other pipeline systems with similar
characteristics. 290 Based on the information provided in the record, we find pooling is
feasible on Spire’s system. Nevertheless, we will grant Spire an extension of time to
comply with the NAESB WGQ Standards relating to pooling 291 until 150 days following
its receipt of a request for service from a Part 284 customer, at which time it must
commence compliance with the NAESB WGQ Version 3.0 Standards relating to
pooling. 292

c.

Extension of Time of Requirement to Support IndexBased Capacity Releases

181. Spire requests an extension of time until 150 days following its receipt of a request
for service from a Part 284 customer until it must commence compliance with the
NAESB WGQ Version 3.0 business practice standards that require a pipeline to support
index-based capacity releases. 293 Spire asserts that its shippers are unlikely to request
such releases and the administrative and technical adjustments necessary to support such
releases pose an unnecessary burden. Consistent with the Commission’s prior rulings 294
and Spire’s contention that its shippers are unlikely to request such releases, we will grant
Spire an extension of time to comply with NAESB WGQ Version 3.0 Standards 5.3.62
through 5.3.69 and their requirement to support at least two non-public price index
references until a releasing shipper presents an index-based capacity release.
d.

Other Waivers

182. In GT&C section 6.2.6, NAESB Standards and Internet Website, Spire provides in
relevant part that “[i]n addition and related to the data sets listed [in Spire’s tariff record],
to the extent any of the other standards incorporated by reference in this Section [6.2.6 of
290

MoGas Pipeline LLC, 157 FERC ¶ 61,036 at P 8.

291

NAESB WGQ Version 3.0 Standards 1.3.17, 1.3.18, and 3.3.6.

292

The extensions of time are limited to the NAESB WGQ Version 3.0 Standards
promulgated by Order No. 587-W. See B-R Pipeline, 128 FERC ¶ 61,126 at P 6.
293

NAESB WGQ Version 3.0 Standards 5.3.62 through 5.3.69.

294

MoGas Pipeline LLC, 157 FERC ¶ 61,036 at PP 10-11.

Docket Nos. CP17-40-000 and CP17-40-001

- 76 -

the GT&C] implicate the EDI/EDM, that requirement is waived.” (emphasis added). We
will deny the requested waivers because Spire’s request fails to specify the “other”
standards incorporated by reference in its tariff, by standard number, for which it seeks a
waiver relating to EDI/EDM in the section titled “Standards for Extension of Time to
Comply have been granted.” If Spire makes a revised request for waiver, it needs to
identify those “other” standards, by standard number, for which it requests an extension
or waiver, as well as providing the reason why such a waiver is needed. 295 Accordingly,
we direct Spire to remove the aforementioned proposed tariff language.

e.

Other NAESB Compliance Issues

183. Spire reflects tariff provisions in GT&C section 6.2, NAESB Standards and
Internet Website, implementing the NAESB WGQ Version 3.0 business practice
standards that the Commission incorporated by reference in its regulations. 296 We direct
Spire to:

(1)

revise the text of the Timely Nomination Cycle in GT&C section 6.9(f)(i),
Nominations, Scheduling and Curtailment, to provide that: (i) at 1:15 p.m.,
nominations are received by Spire (including from Title Transfer Tracking
Service Providers (TTTSPs); (ii) at 1:30 p.m., Spire sends the Quick
Response to the Service Requester; (iii) at 5:00 p.m., Service Requester and
Point Operator receive scheduled quantities from Spire; and (iv) scheduled
quantities resulting from Timely Nominations should be effective at the
start of the next Gas Day;

(2)

revise the text of the Evening Nomination Cycle to provide that: (i) at 6:15,
p.m. nominations are received by Spire (including from TTTSPs); (ii) at
6:30 p.m., Spire sends the Quick Response to the Service Requester; and
(iii) scheduled quantities resulting from Evening Nominations should be
effective at the start of the next Gas Day;

295

See Order No. 587-W, FERC Stats. & Regs. ¶ 31,373 at P 42 (pipelines
requesting [waiver] must include in their tariff a statement identifying any standards for
which the pipeline has been granted a waiver, extension of time, or other variance with
respect to compliance with the standard).
296

In Order No. 587-W, we stated that to implement the current NAESB standards
each interstate natural gas pipeline will be required to file a separate tariff record
reflecting the changed standards. We explained in footnote 31 of the Final Rule that “[t]o
aid in compliance, promptly after issuance of this Final Rule, the Commission will post a
sample tariff record on the Commission’s website . . . All pipelines are to file their tariff
records in conformance with this sample tariff record.”

Docket Nos. CP17-40-000 and CP17-40-001

- 77 -

(3)

revise the text of the Intraday 1 Nomination Cycle to provide that: (i) at
10:15 a.m., nominations are received by Spire (including from TTTSPs);
and (ii) at 10:30 a.m., Spire sends the Quick Response to the Service
Requester;

(4)

revise the text of the Intraday 2 Nomination Cycle to provide that: (i) at
2:45 p.m., nominations are received by Spire (including from TTTSPs); (ii)
at 3:00 p.m., Spire sends the Quick Response to the Service Requester; and
(ii) at 5:30 p.m., Spire provides scheduled quantities to the affected Service
Requester and Point Operator, including bumped parties (notice to bumped
parties);

(5)

revise the text of the Intraday 3 Nomination Cycle to provide that: (i) at
7:15 p.m., nominations are received by Spire (including from TTTSPs);
(ii) at 7:30 p.m., Spire sends the Quick Response to the Service Requester;
and (iii) bumping is not allowed during the Intraday 3 Nomination Cycle;

(6)

revise the text of GT&C section 6.9(f)(i)(F), Nominations, Scheduling
and Curtailment, to provide that for purposes of NAESB WGQ Standard
No. 1.3.2 ii, iii, iv, and v (Section 6.9.1(f)(i)(B)-(E) above), that “provide”
shall mean for transmittals pursuant to Standards 1.4.x (electronic data
interchange) receipt at the designated site, and for purposes of other forms
of transmittal, it shall mean send or post;

(7)

revise the text of GT&C section 6.14.4(b), Capacity Release, to provide
that: (i) the contract is issued within one hour of the Award posting (with a
new contract number, when applicable), and (ii) nomination is possible
beginning at the next available nomination cycle for the effective date of
the contract;

(8)

revise the text of GT&C section 6.14.4(c), Capacity Release, to provide
that: (i) the contract is issued within one hour of the Award posting (with a
new contract number, when applicable), and (ii) nomination is possible
beginning at the next available nomination cycle for the effective date of
the contract;

(9)

revise the text of GT&C section 6.14.5(c)(iv), Pre-Arranged Replacement
Customers, to provide that the contract is issued within one hour of the
Award posting (with a new contract number, when applicable); and

(10)

remove the sentence “[i]n addition, and related to the data sets listed above,
to the extent any of the other standards incorporated by reference in this
Section 2 of the [GT&C] implicate the EDI/EDM, that requirement is
waived,” in GT&C section 6.2.6, NAESB Standards and Internet Website.

Docket Nos. CP17-40-000 and CP17-40-001
184.

- 78 -

Further, we direct Spire to:
(1)

remove one reference to NAESB WGQ Version 3.0 standard 4.3.31 in the
section titled “Quadrant Electronic Delivery Mechanism Related
Standards” in GT&C section 6.2.6, NAESB Standards and Internet
Website, because standard 4.3.31 is incorporated by reference twice;

(2)

remove standards 5.3.10, 5.3.11, 5.3.12, 5.4.14, 5.4.15, 5.4.16, 5.4.17,
5.4.20, 5.4.21, 5.4.22, and 5.4.23 from the section titled “Standards
Incorporated by Reference” in GT&C section 6.2.6, NAESB Standards and
Internet Website, because standards 5.3.10, 5.3.11, 5.3.12, 5.4.14, 5.4.15,
5.4.16, 5.4.17, 5.4.20, 5.4.21, 5.4.22, and 5.4.23 are included in the section
titled “Standards for which Extension of Time to Comply have been
granted;”

(3)

either include standards 5.3.13 and 5.3.14 in the section titled “Standards
Incorporated by Reference” in GT&C section 6.2.6, NAESB Standards and
Internet Website, or include the text of the standards;

(4)

remove asterisk [*] from standard 5.4.23;

(5)

include an asterisk [*] for standards 5.4.16, 5.4.20, and 5.4.21;

(6)

change the reference for NAESB WGQ Version 3.0 standard 0.4.1 from the
section titled “Operating Capacity and Unsubscribed,” to a section titled
“Storage Information:” under the heading “Additional Standards:” in
GT&C section 6.2.6, NAESB Standards and Internet Website;

(7)

remove NAESB WGQ Version 3.0 standard 5.3.44 from the section titled
“Standards Incorporated by Reference” in GT&C section 6.2.6, NAESB
Standards and Internet Website, because the text of the standard is included
in GT&C section 6.14.12(d)(i) through (vi), Capacity Release – Recalls and
Reputs; and

(8)

remove NAESB WGQ Version 3.0 standard 5.3.73 from section titled
“Standards Incorporated by Reference” in GT&C section 6.2.6, NAESB
Standards and Internet Website, because the text of the standard is included
in GT&C section 6.14.2(b), Capacity Release – Availability.

E.

Non-Conforming Provisions and Precedent Agreement

185. Spire states that it granted Spire Missouri, as its foundation shipper, two
contractual rights which constitute material deviations from the pro forma FTS
agreement set forth in its proposed tariff. The two-non-conforming provisions are: Spire
Missouri’s unilateral extension right for up to two five-year terms and Spire Missouri’s

Docket Nos. CP17-40-000 and CP17-40-001

- 79 -

ability to obtain foundation or anchor shipper status in the event of a future Spire project.
Spire states that neither of the non-conforming provisions affect the actual terms or
quality of service on its proposed pipeline and that it offered such benefits to all
interested shippers during the open season. Spire requests that the Commission find that
the non-conforming provisions to be included in the service agreement with Spire
Missouri are not unduly discriminatory.
186. Missouri PSC states that it does not object to the two non-conforming provisions,
but that it does have concerns with other terms of the precedent agreement. Specifically,
Missouri PSC requests that the Commission clearly state in its order that it is not
approving the precedent agreement in total.
187. In Columbia Gas Transmission Corp., we clarified that a material deviation is any
provision in a service agreement that: (a) goes beyond filling in the blank spaces with the
appropriate information allowed by the tariff, and (b) affects the substantive rights of the
parties. 297 We prohibit negotiated terms and conditions of service that result in a shipper
receiving a different quality of service than that offered other shippers under the
pipeline’s generally applicable tariff or that affect the quality of service received by
others. 298 However, not all material deviations are impermissible. As we explained in
Columbia, 299 provisions that materially deviate from the corresponding pro forma
agreement fall into two general categories: (a) provisions the Commission must prohibit
because they present a significant potential for undue discrimination among shippers, and
(b) provisions the Commission can permit without a substantial risk of undue
discrimination. 300
188. We find that the incorporation of the two non-conforming provisions in Spire
Missouri’s service agreement do constitute material deviations from Spire’s pro forma
form of FTS Agreement. However, in other proceedings, we have found that nonconforming provisions may be necessary to reflect the unique circumstances involved
with the construction of new infrastructure and to provide the needed security to ensure
the viability of the project. 301 Here, we find the non-conforming provisions identified by
297

Columbia Gas Transmission Corp., 97 FERC ¶ 61,221, at 62,002 (2001)
(Columbia).
298

Monroe Gas Storage Co., LLC, 130 FERC ¶ 61,113, at P 28 (2010).

299

Columbia, 97 FERC at 62,003-62,004.

300

Equitrans, L.P., 130 FERC ¶ 61,024, at P 5 (2010).

301

See, e.g., Tennessee Gas Pipeline Co., 144 FERC ¶ 61,219 (2013); Midcontinent
Express Pipeline LLC, 124 FERC ¶ 61,089, at P 82 (2008).

Docket Nos. CP17-40-000 and CP17-40-001

- 80 -

Spire are permissible because they do not present a risk of undue discrimination, do not
adversely affect the operational conditions of providing service, and do not result in any
customer receiving a different quality of service. 302 As discussed further below, when
Spire files its non-conforming service agreements, we will require Spire to identify and
disclose all non-conforming provisions or agreements affecting the substantive rights of
the parties under the tariff or service agreement. This required disclosure includes any
such transportation provision or agreement detailed in a precedent agreement that
survives the execution of the service agreement.
189. At least 30 days, but not more than 60 days, before providing service to any
project shipper under a non-conforming agreement, Spire must file an executed copy of
the non-conforming service agreement and identify and disclose all non-conforming
provisions or agreements affecting the substantive rights of Spire Missouri under the
tariff or service agreement. This required disclosure includes any such transportation
provision or agreement detailed in a precedent agreement that survives the execution of
the service agreement. Consistent with section 154.112 of the Commission’s regulations,
Spire must also file a tariff record identifying the agreements as non-conforming
agreements. 303 In addition, the Commission emphasizes that the above determination
relates only to those items described by Spire and not to the entirety of the precedent
agreement or the language contained in the precedent agreement. 304
190. With regard to Missouri PSC’s request that we clearly state in this order that we
are not approving the precedent agreement with Spire Missouri, we affirm that is the
case. We look at precedent agreements as evidence of market support and will rule on
individual provisions in the agreement if requested. However, our approval of the project
by no means signifies acceptance of any individual provision in the agreement (other than
those explicitly addressed above).

302

See, e.g., Columbia Gulf Transmission, LLC, 152 FERC ¶ 61,214 (2015);
Transcontinental Gas Pipe Line Co., LLC, 145 FERC ¶ 61,152, at P 34 (2013).
303
304

18 C.F.R. § 154.112 (2017).

A Commission ruling on non-conforming provisions in a certificate proceeding
does not waive any future review of such provisions when the executed copy of the nonconforming agreement(s) and a tariff record identifying the agreement(s) as nonconforming are filed with the Commission, consistent with section 154.112 of the
Commission’s regulations. See, e.g., Tennessee Gas Pipeline Co., L.L.C., 150 FERC
¶ 61,160, at P 44 n.33 (2015).

Docket Nos. CP17-40-000 and CP17-40-001
F.

- 81 -

Engineering Analysis

191. On February 27, 2017, MRT filed a protest claiming that the Spire STL Pipeline
Project would have negative consequences on MRT’s system. MRT claims that receipt
of firm deliveries at Chain of Rocks from Spire would adversely affect MRT’s operations
and existing services unless significant modifications are made to MRT’s facilities.
Specifically, MRT states that accepting 150,000 Dth per day of firm deliveries from Spire
at Chain of Rocks into existing MRT facilities will render a portion of the traditional path
for service from the interconnections with Trunkline, NGPL, and the St. Jacob storage
field to the St. Louis area contractually unavailable. 305 MRT provides a statement from
Dr. Harri K. Kytomaa, an engineering witness, stating that removing the current gas
deliveries from MRT to Spire Missouri would cause pressures on MRT’s pipeline south
of Horseshoe Lake compressor station to exceed the maximum allowable operating
pressure, and a 30 percent increase of delivery capacity to MRT’s Reticulated System. 306
192. On March 17, 2017, Spire filed an answer to MRT’s protest and states that the
source of MRT’s concerns regarding the firm physical delivery of 150,000 Dth per day
into MRT’s system at Chain of Rock is not clear. Spire references Appendix 1 to Firm
Transportation Service Agreement between Spire and Spire Missouri filed in the Exhibit I
of the application that specifies primary receipt and delivery rights, reflecting
continuation of the status quo in which MRT makes physical deliveries of gas to Spire
Missouri at Chain of Rocks. 307 Spire further states that because the project does not
include a compressor station, Spire’s ability to accomplish physical deliveries into MRT
at Chain of Rocks is uncertain; further, Spire states that MRT will have full control
regarding any receipts into its system at Chain of Rocks. Therefore, Spire concluded that
there will be no adverse operational risk to MRT, any of its customers, or interconnecting
pipelines from the new configuration of Chain of Rocks.
193. Spire emphasizes that the bi-directional Chain of Rocks point is a physical
interconnection designed to receive natural gas from MRT for delivery to Spire Missouri;
physical delivery of natural gas from Spire to MRT would only occur subject to MRT’s
willingness and ability to receive such physical gas. 308 Spire has not offered any primary
305

MRT February 27, 2017 Protest at 50.

306

MRT February 27, 2017 Protest at Exhibit MRT-001. MRT’s system is
reticulated in the St. Louis metropolitan area north of, and including, the Meramec and
Columbia meter and regulation stations on the Mainlines, and west of, and including, the
A206 interconnection on the East Line.
307

Spire March 17, 2017 Answer at 26.

308

Spire June 6, 2017 Answer at 20.

Docket Nos. CP17-40-000 and CP17-40-001

- 82 -

delivery rights to Spire Missouri at Chain of Rocks under the Firm Transportation
Service Agreement. 309
194. Commission staff was also unclear as to MRT’s concerns about receiving
150,000 Dth per day of firm transportation service at Chain of Rocks. To clarify and
further evaluate MRT’s claims, staff issued a data request to MRT on February 21, 2018,
requesting: (1) a list of facilities that MRT expects would be required on its system if the
Spire STL Pipeline Project were to be built; (2) a list of assumptions used in MRT’s
analysis; and (3) the supporting engineering flow diagrams and hydraulic models. Staff
also requested a hydraulic model to support Dr. Kytomaa’s statements regarding the
effects of removing current gas deliveries to Spire Missouri.
195. On March 14, 2018, MRT filed an answer to the data request. Due to the
following inconsistences and incomplete information, we find that MRT was not able to
support its positions.
196. As part of its data request response, MRT provided the results of its engineering
analysis (Exponent Analysis). 310 The results included three scenarios and a list of
operational and configuration changes that MRT claims would be needed if the Spire
STL Pipeline Project is constructed. The three scenarios in the Exponent Analysis are:

a.

Case 1 (base case or existing operating conditions) – combined
257,000 Dth per day 311 receipt at Trunkline and NGPL interconnections
and 142,000 Dth per day delivery at Chain of Rocks;

b.

Case 2 (effects of removing all gas deliveries to Spire Missouri) –
257,000 Dth per day receipt at Trunkline and NGPL interconnections and
no deliveries at Chain of Rocks; and

c.

Case 3 (post-Spire operating conditions) – no receipt at Trunkline and
NGPL interconnections and 150,000 Dth per day receipt at Chain of Rocks.

197. However, MRT’s response did not include corresponding hydraulic models to
support any of the three cases in the Exponent Analysis. Thus, the Commission cannot
validate any of MRT’s operating condition scenarios presented in the Exponent Analysis.
309

Spire Application at Exhibit I.

310

MRT March 14, 2018 Answer at attachment 2(A)-1.

311

MRT included measurements in thousand standard cubic feet (MMscf) per day.
A conversion factor of 1 MMscf per day = 1,000 Dth per day was applied. MRT’s
February 27, 2017 Protest Exhibit MRT-001 (establishing the conversion factor).

Docket Nos. CP17-40-000 and CP17-40-001

- 83 -

The flow diagram and corresponding hydraulic model that MRT provided as their
existing operating conditions show no deliveries being made from MRT to Spire
Missouri at Chain of Rocks and no gas being received at the interconnections with
Trunkline and NGPL. This contradicts MRT’s repeated statement that the operation of
its system depends on delivering gas at Chain of Rocks and that the Trunkline and NGPL
interconnects are active receipt points; thus, we conclude that the flow diagram and
hydraulic models provided by MRT as demonstrating the existing operating conditions
(and Case 1 as described in the Exponent Analysis) are inaccurate. Without
representative modeling of existing operating conditions, any meaningful analysis of preand post-Spire STL Pipeline Project scenario is impossible.
198.

Further, the Commission could not verify the validity of Case 2 as a feasible
operating condition scenario for MRT’s system. It is unclear why MRT assumes
that its net receipts would remain unchanged if its net deliveries were to decrease by
142,000 Dth per day as a result of the cessation of the delivery of gas to Spire Missouri.
199.

Similarly, we found that MRT’s claim of adverse effects to be caused by the
receipt of 150,000 Dth per day on a firm basis into its system at Chain of Rocks is not
supported in the record. First, there is no evidence in the record that any Spire shipper
has or intends to contract for such service. Further, without modeling of the base case
scenario, the Commission is unable to assess the validity of the impacts MRT alleges
would result if such a scenario occurred. Therefore, we reject MRT’s protest regarding
operational impacts as a result of the Spire STL Pipeline Project.
G.

Environmental Analysis

200.

On July 22, 2016, Commission staff began its environmental review of the
Spire STL Pipeline Project by granting Spire’s request to use the pre-filing process
in Docket No. PF16-9-000. As part of the pre-filing review, staff participated in
five open houses that Spire sponsored in Scott, Greene, and Jersey Counties, Illinois, and
St. Charles and St. Louis Counties, Missouri, between August 16 and 24, 2016, to explain
the Commission’s environmental review process to interested stakeholders.
201.

On October 26, 2016, the Commission issued a Notice of Intent to Prepare an
Environmental Assessment (NOI). 312 After the issuance of the NOI, Spire filed with the
Commission a pipeline route alternative in St. Louis County. On March 3, 2017, the
Commission issued a Supplemental Notice of Intent to Prepare an Environmental
Assessment (Supplemental NOI). The NOI and Supplemental NOI were each published
in the Federal Register and mailed to interested entities, including: federal, state, and
local officials; agency representatives; environmental and public interest groups;

312

NOI, 82 Fed. Reg. 11,028 (2017).

Docket Nos. CP17-40-000 and CP17-40-001

- 84 -

Native American tribes; local libraries and newspapers; and affected property owners. 313
In response to the NOI and Supplemental NOI, we received 50 comment letters,
which included letters from the U.S. Environmental Protection Agency (EPA); Missouri
Department of Natural Resources; Illinois State Historic Preservation Office; Missouri
Department of Conservation; Osage National Tribal Historic Preservation Office; Miami
Tribe of Oklahoma; Winnebago Tribe; various labor unions and teamsters; the Treasurer
of New Piasa Chautauqua; representatives from Principia College; and 12 individuals
(including landowners).
202. On November 14, 15, and 16, 2016, Commission staff conducted public scoping
sessions in North St. Louis, Missouri, and Dow and Carrollton, Illinois, respectively, to
provide the public with an opportunity to learn more about the project and provide
comments on environmental issues that should be addressed in the Environmental
Assessment (EA). In total, 12 individuals provided oral comments on the project at the
scoping sessions. Transcripts of the scoping sessions were entered into the public record
in Docket No. PF16-9-000.
203. To satisfy the requirements of the National Environmental Policy Act of 1969
(NEPA), 314 our staff prepared an EA for Spire’s proposal. The EA was prepared with the
cooperation of the U.S. Army Corps of Engineers (Corps) and the Illinois Department of
Agriculture. The EA addresses geology, soils, water resources, wetlands, vegetation,
fisheries, wildlife, threatened and endangered species, land use, recreation, visual
resources, socioeconomics, cultural resources, air quality, noise, safety, cumulative
impacts, and alternatives. All substantive comments filed in response to the NOI and
Supplemental NOI were addressed in the EA.
204. The EA was issued for a 30-day comment period and placed into the public record
on September 29, 2017. On November 22, 2017, the Commission announced the
opening of an additional comment period in recognition of the delay some stakeholders
experienced in receiving the EA. The Commission received comments on the EA from
the U.S. Fish and Wildlife Service (FWS), EPA, the Consolidated North County Levee
District (Consolidated Levee District), EDF, MRT, two landowners (Julie Viel and the
Plumbers’ and Pipefitters’ Welfare Educational Fund (Plumbers and Pipefitters)), and
Spire. The primary concerns raised by commenters pertain to: project purpose and need;
project alternatives; agency correspondence and consultation requirements; the need to
prepare an environmental impact statement (EIS) for this project; geological hazards
along the pipeline alignment, including at horizontal direction drill (HDD) locations;
water resource and wetland impacts; climate change and greenhouse gas emissions; land
use; and socioeconomics, including environmental justice. After issuance of the EA,
313

Supplemental NOI, 82 Fed. Reg. 13,327 (2017).

314

42 U.S.C. § 4321 et seq. (2012).

Docket Nos. CP17-40-000 and CP17-40-001

- 85 -

Spire proposed several pipeline route adjustments.
205. By the time the second comment period closed on December 22, 2017, we had
received 13 additional comment letters. Eight comment letters express support for the
project (including one from Spire). The nature of four comment letters was generally
similar to the comments received during the designated comment periods. Lastly, FWS
provided additional comments on the EA when it submitted its final Biological Opinion.
206. On May 22, 2018, the Consolidated Levee District filed a notice to withdraw its
comments filed on December 26, 2017, and February 21, 2018. In its filing, the
Consolidated Levee District states that Spire and the district held numerous discussions to
resolve all of the concerns raised in its two filings. The Consolidated Levee District
considers all of the issues and concerns previously raised to be satisfactorily resolved.

1.

Purpose and Need and Alternatives Analyses

207. Several commenters contend that the purpose and need and alternatives analyses
in the EA were inadequate. Ms. Viel asserts that the EA defined the project’s purpose
and need too narrowly. MRT comments that the EA does not consider whether a flat or
declining demand for natural gas in the St. Louis area negates the need for this project. 315
MRT also questions whether the benefits for this project outweigh the adverse impacts.
Commenters focus on other existing pipelines in the area with available capacity that
could serve as alternatives to the Spire STL Pipeline Project and question the project’s
impact on existing customers. EDF comments that the affiliate relationship between
Spire and Spire Missouri taints the need for the project.
208. MRT contends the system alternatives analysis in the EA lacks rigor and
erroneously rejects the NGPL and MoGas Systems as alternatives based on an inflated
capacity of 400,000 Dth per day, fails to evaluate aboveground facility sites, and neglects
to consider other system alternatives that could collectively met the goals of the project,
including MRT’s Mainline and East Line, and Illinois Intrastate Transmission (Illinois
Intrastate) line.
209. The Council on Environmental Quality’s (CEQ) regulations require that an EA
provide a brief discussion of the need for the proposal. 316 Courts have upheld federal
agencies’ use of applicants’ identified project purpose and need as the basis for

315

MRT October 25, 2017 Comments at 13 (citing Ameren Missouri 2017
Integrated Resource Plan, https://www.ameren.com/missouri/ environment/integratedresource-plan).
316

40 C.F.R. § 1508.9(b) (2017).

Docket Nos. CP17-40-000 and CP17-40-001

- 86 -

evaluating alternatives. 317 Where an agency is asked to sanction a specific plan, the
agency should take into account the needs and goals of the parties involved in the
application. 318 We acknowledge that a project’s purpose and need should not be so
narrowly defined as to preclude consideration of what may actually be reasonable
alternatives. 319 But, an agency need only consider alternatives that will bring about the
ends of the proposed action, and the evaluation is shaped by the application at issue and
by the function that the agency plays in the decisional process. 320 The EA explains
that the purpose and need for the proposed Spire STL Pipeline Project is to provide
400,000 Dth per day of firm transportation service to the St. Louis Metropolitan area,
eastern Missouri, and southwest Illinois in order to provide the region with a new source
of supply and improve reliability and diversity for Spire Missouri. 321 Here, the EA’s
statement of the purpose and need was defined appropriately to allow for the evaluation
of reasonable alternatives to the proposed project.
210. Commenters also confuse the Commission’s determination of need under the
public convenience and necessity standard of section 7(c) of the NGA and the project
purpose and need statement required under NEPA. 322 The Commission’s public
convenience and necessity standard requires us to evaluate the need for the project and
then engage in a balancing of public benefits against project impacts, as described above
in our certificate policy analysis. This analysis is distinct from that required by CEQ
regulations, which specify that environmental documents contain a “purpose and need
statement” used to determine the objectives of the proposed action and then to identify
and consider reasonable alternative actions. 323 Thus, comments by EDF, MRT, and
317

See, e.g., City of Grapevine v. U.S. Dep’t of Transp., 17 F.3d 1502, 1506 (D.C.
Cir. 1994).
318

Citizens Against Burlington, Inc. v. Busey, 938 F.2d 190, 195 (D.C. Cir. 1991)

(Busey).
319

Alaska Survival v. Surface Transp. Bd., 705 F.3d 1073, 1085 (9th Cir. 2013);
Simmons v. U.S. Army Corps of Eng’rs, 120 F.3d 664, 669 (7th Cir. 1997); Busey,
938 F.2d at 198-99.
320

Busey, 938 F.2d at 195.

321

EA at 2.

322

The EA includes a discussion that explains the Commission’s process under
section 7(c) of the NGA and how the Commission relies upon its certificate policy
statement to determine whether to grant a certificate. EA at 2-3.
323

40 C.F.R. § 1502.13 (2017).

Docket Nos. CP17-40-000 and CP17-40-001

- 87 -

Ms. Viel that the EA’s purpose and need statement does not address the market need are
misplaced.
211. The Commission is not required to consider alternatives that are not consistent
with the purpose and need of a proposed project. 324 To select alternatives for evaluation,
the EA explicitly asks if they would meet the project’s objectives, be technically and
economically feasible, and provide a significant environmental advantage over the
proposed project. 325 Based on the statement of purpose and need, the EA evaluates
pipeline route alternatives, system alternatives that would make use of existing or other
proposed natural gas transmission systems, and a no-action alternative. 326
212. We disagree with the commenters and find that the EA’s alternatives analysis was
appropriate. NEPA requires the Commission to identify and analyze reasonable
alternatives during its review of a project. NEPA does not define what constitutes
“reasonable alternatives;” however, the CEQ provides that “a reasonable range of
alternatives depends on the nature of the proposal and the facts in each case.” 327 The
Commission does not need to consider alternatives that are not consistent with the
purpose and need of a proposed project. Thus, Commission staff identified and analyzed
three existing systems serving the St. Louis region that could meet the project objectives:
NGPL, MoGas, and Spire Missouri’s Line 880 as system alternatives for the Spire STL
Pipeline Project. Staff found that use of these facilities/systems as an alternative to the
proposed project would not provide a significant environmental advantage. 328
Commission staff also considered major route alternatives that would route the proposed
Spire pipeline to the east or west and found these alternatives would result in greater
impacts. 329 We accept the EA’s evaluation and elimination of these alternatives. 330

324

See, e.g., Pacific Coast Fed’n of Fishermen’s Ass’ns v. Blank, 693 F.3d 1084,
1100 (9th Cir. 2012).
325

EA at 146.

326

EA at 146-160.

327

Forty Most Asked Questions Concerning CEQ’s National Environmental Policy
Act Regulations, 46 Fed. Reg. 18,026, 18,027 (1981).
328

EA at 150-151.

329

EA at 153-154.

330

See, e.g., Myersville, 783 F.3d at 1323 (“consideration of alternatives in an [EA]
need not be as rigorous as the consideration of alternatives in an EIS”).

Docket Nos. CP17-40-000 and CP17-40-001

- 88 -

213. MRT claims that its East Line, NGPL’s system, MoGas’s system, or Enable’s
Illinois Intrastate pipeline could meet the project need and should be considered as
system alternatives. However, as MRT’s own comment notes, the East Line and the
Illinois Intrastate pipeline do not have adequate available capacity to meet the needs of
the Spire STL Pipeline Project. 331 To serve as a reasonable system alternative, the East
Line or Illinois Intrastate would require modifications or additions that could result in
environmental impacts that are less than, similar to, or greater than those of the Spire
STL Pipeline Project. Because uncertain modifications would be required to meet the
needs of the project, we agree with Commission staff’s decision to not analyze these
alternatives in the EA. Similarly, the alternatives analysis in the EA found that the NGPL
and MoGas systems each lacked available capacity and would require upgrades,
including looping and compression or new pipeline construction, and thus, the EA did not
recommend these alternatives. 332
214. MRT argues that the EA failed to analyze a system alternative that combined
transportation on MRT’s Mainline, East Line, and Illinois Intrastate, which it claims
could meet the required capacity of Spire’s project. However, this alternative, consisting
of several transportation paths, would not meet the stated purpose and need of the project
as it would not increase reliability by diversifying the source of gas supplied to the St.
Louis Region. The Commission’s approach for analyzing alternatives is consistent with
precedent that finds an agency may take into account an applicant’s needs and goals, so
long as it does not limit the alternatives to only those that would adopt the applicant’s
proposal. 333
215. MRT also questions the EA’s conclusion that the 1-mile-long extension of the
MoGas system to connect with Spire Missouri’s system at the Spire Missouri/Lange
Delivery Station, would have “larger” impacts than the project’s 65 miles of greenfield
construction. MRT’s misinterprets the EA’s findings. Commission engineering staff
examined the MoGas system and determined that such a capacity increase would require
not only a 1-mile long extension to connect with Spire Missouri at the Lange Delivery
Station, but that at least half of the approximately 80-mile-long segment of MoGas’s
system from its interconnection with REX to the Lange Delivery Station would need to
be looped. The finding that the MoGas system extension would require similar, if not
larger, impacts than the project is based on the total construction that would be required
331

MRT October 25, 2017 Comments at 17 (highlighting the 40,000 Dth per day of
available capacity on Illinois Intrastate and 7,637 Dth per day of available unsubscribed
capacity (up to 97,637 Dth per day on August 1, 2018) on MRT’s East Line).
332
333

EA at 150.

See Theodore Roosevelt Conservation P’ship v. Salazar, 661 F.3d 66, 72-74
(D.C. Cir. 2011).

Docket Nos. CP17-40-000 and CP17-40-001

- 89 -

to increase the system’s capacity.
216. EDF asserts that the project does not serve increased demand for gas capacity in
the St. Louis region, the affiliate transaction between Spire and Spire Missouri equates to
unfair competition, and the project would result in potential rate increases for current
retail customers of Spire Missouri. As discussed above, these issues are addressed in the
Certificate Policy Statement section of this order. The EA is clear that the purpose of
Spire’s project is to provide an additional, alternative source of gas supply and further
recognizes that if the project were not to be constructed, the current market demand
would continue to be met by systems already in place and serving the area. 334
217. EDF claims that the EA failed to employ a “degree of skepticism in dealing with
self-serving statements from a prime beneficiary of the project” when the EA dismissed
the no-action alternative. 335 MRT contends that the no-action alternative is a superior
alternative as demand is flat for natural gas in the St. Louis area. Ms. Viel asserts that the
no-action alternative meets the needs of the proposed action because the EA concedes
there is no additional demand for natural gas supply in the region and that the
Commission “cannot restrict its analysis to those alternative means by which a particular
applicant can reach his goals.” 336 The no-action alternative provides policymakers and
the public with a baseline to compare the environmental impacts of the proposed action
with the status quo. 337 Here, we agree with Commission staff, that under the no-action
alternative impacts on the environment would not occur and the current conditions
described in the EA would persist. 338 However, selection of the no-action alternative
would not meet the needs of the project; i.e., to provide direct access to additional,
alternative sources of supply. Thus, we find Commission staff’s decision to not
recommend the no-action alternative in lieu of the proposed action is appropriate.

334

EA at 147.

335

EDF October 30, 2017 Comments at 15 (quoting Simmons v. U.S. Army Corps
of Engr’s, 120 F.3d 664, 669 (7th Cir. 1997) (Simmons)).
336

Viel October 30, 2017 Comments at 2 (quoting Simmons, 120 F.3d at 669
(internal quotations removed)).
337

See Center for Biological Diversity v. U.S. Department of Interior, 623 F.3d
633, 642 (9th Cir. 2010).
338

NEPA does not impose an obligation to select the most environmentally benign
alternative. Robertson v. Methow Valley Citizens Council, 490 U.S 332, 349 (1989) (“[I]t
is now well settled that NEPA itself does not mandate particular results, but simply
prescribes the necessary process.”).

Docket Nos. CP17-40-000 and CP17-40-001
2.

- 90 -

Agency Correspondence

218. EDF claims the EA ignores critical information necessary to determine the
impacts on numerous environmental resources because it contains multiple placeholders
for future agency correspondence and mitigation plans, including ongoing consultation
between the Commission and FWS, Spire and Illinois Department of Natural Resources,
and comments on the project from the State Historic Preservation Offices.
219. The inclusion of environmental conditions that require Spire to complete
consultation and submit mitigation plans does not violate NEPA. In fact, NEPA “does
not require a complete plan be actually formulated at the onset, but only that the proper
procedures be followed for ensuring that the environmental consequences have been
fairly evaluated.” 339 Here, the EA identified baseline conditions for all relevant
resources. Later-filed mitigation plans will not present new environmentally-significant
information nor pose substantial changes to the proposed action that would otherwise
require supplemental analysis. Moreover, as we have explained in other cases,
practicalities require the issuance of orders before completion of certain reports and
studies because large projects, such as this, take considerable time and effort to
develop. 340 Perhaps more important, the completion of reports and studies is subject to
many variables whose outcomes cannot be predetermined. Further, as we found
elsewhere, in some instances, the certificate holder may need to access property in order
to acquire the necessary information. 341 Accordingly, post-certification studies may
properly be used to develop site-specific mitigation measures. It is not unreasonable for
the EA to deal with sensitive locations in a general way, leaving specificities of certain
resources for later exploration during construction. 342 What is important is that the
agency make adequate provisions to assure that the certificate holder will undertake and
identify appropriate mitigation measures to address impacts that are identified during
construction. 343 We have and will continue to demonstrate our commitment to assuring
adequate mitigation. 344
339

Robertson v. Methow Valley Citizens Council, 490 U.S. at 352.

340

See, e.g., Algonquin Gas Transmission, LLC, 154 FERC ¶ 61,048, at P 94
(2016); East Tennessee Natural Gas Co., 102 FERC ¶ 61,225, at P 23 (2003), aff’d sub
nom. Nat’l Comm. for the New River, Inc. v. FERC, 373 F.3d 1323 (D.C. Cir. 2004).
341

Midwestern Gas Transmission Company, 116 FERC ¶ 61,182 at P 92.

342

Mojave Pipeline Co., 45 FERC ¶ 63,005, at 65,018 (1988).

343

Id.

344

Id.

Docket Nos. CP17-40-000 and CP17-40-001

- 91 -

220. In this proceeding, staff initiated formal consultation with FWS as part of the EA.
Following issuance of the EA, FWS completed its review under the Endangered Species
Act (ESA), as described below. This review was completed after issuance of the EA
because FWS relies, in part, on Commission staff’s EA and Biological Assessment to
develop its Biological Opinion. Finally, Environmental Conditions 18 through 20 in the
appendix to this order require Spire to continue consulting with applicable agency
representatives, develop certain site-specific plans and mitigation measures for staff
review, prior to commencing construction, and file the outstanding information to the
docket where it will be available to the public.
221. As part of its comments, Spire filed updated species-specific reports and
associated agency correspondence and clarifications to the EA. Spire notes that its bald
eagle survey report and associated FWS correspondence satisfy environmental
recommendation 17 of the EA. 345 No eagles or nests were found during Spire’s
survey. 346 Therefore, environmental recommendation 17 from the EA is no longer
necessary and is not included as a condition of this order.
222. On October 26, 2017, FWS concurred with the determinations in the Biological
Assessment 347 that the project is not likely to adversely affect the gray bat, least tern,
piping plover, red knot, and pallid sturgeon. FWS further states that its programmatic
biological opinion for the final 4(d) rule satisfies the Commission’s responsibility under
the ESA section 7(a)(2) for the northern long-eared bat, and acknowledges receipt of the
Northern Long-eared Bat 4(d) Streamlined Consultation Form. Surveys conducted for
the decurrent false aster subsequent to the Biological Assessment indicate the absence of
this plant species. Therefore, FWS concludes, and we agree, that the project will have no
effect on the decurrent false aster. Thus, consultation is complete for all seven of these
species.
223. On February 28, 2018, FWS provided its Biological Opinion for the project. The
FWS states that the project, as proposed, is not likely to jeopardize the continued
existence of the Indiana bat. Accordingly, the EA’s environmental recommendation 18 is
no longer necessary and is not included as a condition of this order. However, we have
included a new Environmental Condition 17 in the appendix to this order, which requires
Spire to adhere to the Incidental Take Statement, which includes implementing the
reasonable and prudent measures and adopting the Terms and Conditions in FWS’
Biological Opinion into Spire’s project-specific implementation plan. These measures
outline monitoring and reporting protocols for the Indiana bat, as well as other impact345

EA at 72, 167.

346

Spire October 6, 2017 Supplemental Information at app. 3-B.

347

The Biological Assessment was included as appendix K of the EA.

Docket Nos. CP17-40-000 and CP17-40-001

- 92 -

reduction requirements. With implementation of these measures we conclude our
consultation with the FWS under section 7 of the ESA.
224. Subsequent to issuance of the EA, Spire filed additional cultural resources
information addressing a portion of the associated recommendation in the EA. Thus, we
have modified Environmental Condition 19 in the appendix to this order.
225. EPA recommends that Spire comply with all of the Commission’s
recommendations included in the EA. All of staff’s environmental recommendations in
the EA have been retained as environmental conditions, unless otherwise discussed in
this order.
226. EPA states that the Commission should require Spire to complete coordination
with state agencies to identify underground storage tanks prior to construction. EPA also
asks the Commission to require that Spire hire third-party environmental monitors to be
present during construction at the following: across streams, wetlands, and karst areas;
areas characterized as having steep slopes and highly erodible soils; and where Spire
proposes to implement an HDD crossing method.
227. As described in the EA, in the event that contamination is encountered during
construction, Spire would stop work and implement its Unanticipated Discovery of
Contamination Plan. Spire conducted a search of the EPA National Priority List
Superfund Sites to identify sites in proximity to the project and found that the closest site
was about 8.5 miles southeast of the project. 348 Based on the project’s crossing of
Coldwater Creek within a designated metropolitan no-discharge stream reach, Spire
coordinated with the Corps’ Formerly Utilized Sites Remedial Action Program. As
reported in the EA, the Corps determined that sources of contaminants have been
removed upstream and that there would be no contamination at the proposed crossing
location. 349 Spire has received applicable permits for crossing Coldwater Creek.
228 . Spire has committed to hire at least one environmental inspector per construction
spread. The EA found this commitment sufficient, and we agree. 350 The Commission
does have a third-party compliance monitoring program, but this is a voluntary program
that may or may not be implemented for Spire’s project. However, regardless of a
company’s decision to participate in the third-party monitoring program, all certificated
projects are monitored by our staff during construction and restoration, including
regularly scheduled compliance inspections.
348

EA at 41.

349

EA at 41, 49.

350

EA at 24.

Docket Nos. CP17-40-000 and CP17-40-001
3.

- 93 -

Geological Hazards and Horizontal Direction Drilling Impacts

229. MRT and EDF argue that the EA erroneously concludes the project would not
increase the risk of landslides because the Commission has not reviewed Spire’s sitespecific steep slope and landslide hazard assessment plan.
230. We disagree. As stated in the EA, mapping compiled by the U.S. Geological
Survey shows that landslide incidence for the majority of the pipeline is considered
low. 351 The one area identified as having steep slopes and high susceptibility to landslide
incidences includes parcels where survey access has not been allowed. For this reason,
Spire has not been able to finalize its site-specific plans. As stated above, it is not
uncommon for final plans to be filed for Commission review after the issuance of the
NEPA document due to denied access. The EA bases its conclusions on the best
available information, which includes staff’s experience and expertise in evaluating
project impacts, aerial photos, maps, habitat and terrain descriptions, as well as mitigation
measures proposed by Spire based on this information. Staff recommendations in the
EA, which later become mandatory conditions unless completed before certificate
authorization, serve as a backstop to allow additional review of property-specific or
resource-specific details prior to construction.
231. To this end, Spire has identified, and the EA discusses, specialized construction
techniques that are recognized, established methods for areas classified as steep slopes
and susceptible to landslides. 352 These methods include: (1) installation of the pipeline
in a direction opposite to the steep slope; (2) installation of temporary conductor casing at
the HDD pit to support the soils and stabilize the borehole; and (3) installation of
temporary erosion controls closer together with more frequent maintenance until
permanent erosion controls are established. Spire also has committed to conducting
routine inspections of these areas during construction to identify signs of distress and
development of head scarps and will install swales or water bars in areas of observed
distress. As needed, Spire proposes to install drainage materials or re-grade lands to
relieve drainage. Finally, the EA recognizes the pending need for review and approval of
such a plan with the recommendation, which we adopted as Environmental Condition 12,
that Spire file this plan prior to construction. 353 If, upon review of the plan, staff finds
that Spire’s plan is insufficient, the Commission will require Spire to develop additional
mitigation measures, subject to review and approval.
232.

EDF asserts that the EA fails to acknowledge the risk of inadvertent releases of
351

EA at 32.

352

EA at 33.

353

EA at 33.

Docket Nos. CP17-40-000 and CP17-40-001

- 94 -

HDD fluids and to discuss the composition of the HDD fluids. EDF points to
environmental violations on another project as a recent example.
233. The EA does not ignore the risk of inadvertent releases. As discussed in the EA,
Spire has developed an Horizontal Directional Drill Contingency Plan (HDD Plan),
which addresses the prevention, detection, notification, and response regarding
inadvertent returns in upland areas, wetlands, and waterbodies. 354 The EA requires Spire
to improve the inadvertent return detection, notification, and response procedures. 355 The
EA assesses the potential impacts from inadvertent returns on soils, water resources
(wetlands and waterbodies), vegetation, fisheries, and special status species. 356
Environmental Conditions 14 and 16 in the appendix to this order contain specific
protections regarding HDD crossings to ensure adequate protection of water resources.
To ensure adequate protection of surface and groundwater resources, we have modified
Environmental Condition 16 to require Spire to provide the Commission with a list of
environmentally safe drilling fluid additives it will use prior to construction.
234. EPA comments on the potential for project construction impacts in areas
characterized as karst topography and potential impacts on nearby water supply wells.
Ms. Viel claims that the EA largely ignores the issue of karst terrain in the project area
and that limited geologic investigations were conducted.
235 . We disagree that the EA ignores the potential impact of construction near karst
terrain. The EA identifies 16 karst features that are within 1,500 feet of the project. 357
The geology and soils and water resources and wetlands sections of the EA describe the
potential for the project to cross karst features and assesses potential impacts of
construction in these areas. 358 After issuance of the EA, Spire filed additional
geotechnical investigation reports for areas where karst features were likely to occur in
the vicinity of the Coldwater Creek and Spanish Lake HDD crossings. 359 However, these
reports do not specifically address the likelihood of success of completing the drill. Thus,
we adopt staff’s recommendation for Spire to conduct additional geotechnical
354

EA at 18-20.

355

See Spire Amended Application at app. 1-L; Spire October 6, 2017 Answer to
Staff’s Data Request at app 6-B.
356

EA at 41 (soils); 49, 52, 57 (water resources); 62 (vegetation); 66 (fisheries); 80
(special status species).
357

EA at 34.

358

EA at 33-35, 45.

359

Spire October 6, 2017 Answer to Staff’s Data Request at app 6-B.

Docket Nos. CP17-40-000 and CP17-40-001

- 95 -

investigations at the Coldwater Creek and Spanish Lake HDD crossings to determine the
presence and extent of potential karst features as Environmental Condition 13 in the
appendix to this order.
236. We also agree with the commenters that Spire needs to ensure that it minimizes
impacts on water supplies within karst terrain during its HDD construction. Thus, we are
including Environmental Condition 14 in the appendix to this order, which requires Spire
to file a Water Resource Identification and Testing Plan for each HDD through karst
terrain.
237. The EA requires Spire to obtain a No-Rise Certification from county floodplain
managers, which involves an engineering analysis of all regulatory floodway crossings to
assess potential increase flood heights. 360 Also, as Consolidated Levee District states, the
EA requires Spire to develop a Flood Action Plan for the portion of the project that will
cross lands within the levee district, which will outline the actions Spire will implement
when rivers are projected to reach and/or exceed flood storage stages. In its comments,
Spire clarified that in addition to ongoing coordination with county and local floodplain
permitting authorities in Missouri, it submitted a Flood Action Plan to the Consolidated
Levee District on December 15, 2017. 361 We recognize that this plan is required as part
of Spire’s Corps section 408 permit. For public disclosure and a consolidated public
record, we have added Environmental Condition 22 in the appendix to this order, which
requires that Spire file the Flood Action Plan prior to construction. Further, as described
in the EA, Spire will install one or more flume pipes for each dry-ditch flume crossing to
temporarily divert maximum water flow, 362 and Spire will use temporary slope breakers,
trench plugs, sediment, and/or mulch during construction to minimize erosion impacts. 363
Also, Spire will install the pipeline at a minimum depth of seven feet within the
floodplains of the Mississippi and Missouri Rivers (at the point of the pipeline’s crossing
of the levee, Spire proposes a crossing depth of 116 feet). 364 The EA found, and we
agree, that implementation of the project plans discussed above, in conjunction with
Environmental Conditions 14, 16, and 22, will sufficiently mitigate impacts on the levee
and nearby resources. We agree.

360

EA at 51.

361

Spire January 4, 2018 Answer at 7-8.

362

EA at 18.

363

EA at 35 and 36.

364

EA at appendix J.

Docket Nos. CP17-40-000 and CP17-40-001
4.

- 96 -

Need for an EIS

238. Under NEPA, agencies must prepare an EIS for major federal actions that may
significantly impact the environment. 365 However, if an agency determines that a federal
action is not likely to have significant adverse effects, it may rely on an EA for
compliance with NEPA. 366
239. Commenters have requested that the Commission prepare an EIS for the project.
Specifically, EDF claims that the project’s crossings of the Mississippi and Missouri
Rivers are significant enough to trigger the need for an EIS. It references another project
reviewed by the Commission that included a crossing of the Mississippi River, for which
an EIS was prepared. 367 Typically, a single river crossing, when executed with proper
mitigation measures does not result in a level of impact intensity requiring an EIS. The
Texas Gas Transmission, LLC (Texas Gas) project referenced by EDF is different from
the Spire STL Pipeline Project. Although both projects include a crossing of the
Mississippi River, the Texas Gas project also involved construction of approximately
four times the length of pipe as the Spire STL Pipeline Project, and crossed 16 other
major waterbodies, including 4 listed on the National River Inventory. These project
details, combined with information on other resources affected by the Texas Gas project
(e.g., forested wetlands, conservation lands, national wildlife refuges, an historic and
scenic parkway, and others), and the impacts that could result from that project were
taken into consideration by Commission staff, which concluded that the Texas Gas
project warranted preparation of an EIS. The Commission evaluates each project based
on its own merits, the specific environmental setting, and the potential impacts that could
result from that project. The EA for the Spire STL Pipeline Project appropriately
considers and discloses the environmental impacts of the project, and supports a finding
of no significant impact. The EA also describes measures to mitigate anticipated
365

42 U.S.C. § 4332(2)(C) (2012); 40 C.F.R. § 1502.4 (2017).

366

40 C.F.R. § 1501.3-1501.4 (2017). An EA is meant to be a “concise public
document ... that serves to ... [b]riefly provide sufficient evidence and analysis for
determining whether to prepare an [EIS] or finding of no significant impact.” 40 C.F.R.
§ 1508.9(a) (2017). Pursuant to the Commission’s regulations, if an EA is prepared first,
“[d]epending on the outcome of the environmental assessment, an [EIS] may or may not
be prepared.” 18 C.F.R. § 380.6(b) (2017).
367

The project EDF referenced is Texas Gas Transmission, LLC’s
Fayetteville/Greenville Expansion Project (Docket No. CP07-417-000). That project
included 262.6 miles of 36-inch-diameter pipeline, a new 10,650 horsepower
compressor station, modifications at an existing compression station, numerous meter
and regulation stations, and other appurtenant facilities. Texas Gas Transmission, LLC,
123 FERC ¶ 61,118 (2008) (Order Issuing Certificate).

Docket Nos. CP17-40-000 and CP17-40-001

- 97 -

environmental impacts—which the public was able to review and comment upon—and
recommends that many such measures be incorporated as conditions if the Commission
issues a certificate for the project. 368 Therefore, we conclude that an EIS is not required
for this project.
240. EDF states that the EA’s conclusion that the project would not constitute a major
federal action significantly affecting the quality of the human environment is
unsupported. EDF provides a list of adverse impacts to support its claim.
24 1. The list compiled by EDF reiterates many of the resource impacts considered in
the EA, but does not provide an argument or expand on why EDF’s opinion on the level
of impacts should be substituted for staff’s analysis. The EA analyzes the anticipated
level of impact on all applicable resources and discusses Spire’s commitment to
implement specific mitigation measures to reduce such impacts. Those mitigation
measures include adoption, with specific deviations, of the Commission guidelines as
outlined in our Upland Erosion Control, Revegetation, and Maintenance Plan 369 (Plan)
and Wetland and Waterbody Construction and Mitigation Procedures 370 (Procedures), as
well as additional construction, restoration, and mitigation plans prepared specifically for
the project, including: Spill Prevention, Control, and Countermeasures Plan;
Unanticipated Discovery of Contamination Plan; HDD Plan; Unanticipated Discoveries
Plans for Cultural Resources in Missouri and Illinois; Winter Construction Plan; Karst
Mitigation Plan; Blasting Plan; Fugitive Dust Control Plan, and the project-specific
Agricultural Impact Mitigation Agreement. Where staff concluded additional protective
measures were warranted, the EA included an environmental recommendation. As
discussed above, these recommendations are included in this order, as applicable, as
mandatory conditions.
242 . Based on our review, we conclude that the potential environmental impacts of the
Spire STL Pipeline Project do not rise to a level of significance that would require
preparation of an EIS. Accordingly, we affirm that preparation of a thorough, detailed

368

National Parks Association v. Babbitt, 241 F.3d 722, 735 (9th Cir. 2001) (citing
Wetlands Action Network v. U.S. Army Corps of Eng’rs, 222 F.3d 1105, 1121 (9th Cir.
2000) (mitigation measures deemed sufficient to justify an agency's decision to forego
issuing an EIS)); Friends of the Ompompanoosuc v. FERC, 968 F.2d 1549, 1555 (2d Cir.
1992) (the Commission’s consideration of mitigation measures is a rational basis for a
finding of no significant impact).
369
370

A copy of the Plan is available at www.ferc.gov/industries/gas/enviro/plan.pdf.

A copy of the Procedures is available at
www.ferc.gov/industries/gas/enviro/procedures.pdf.

Docket Nos. CP17-40-000 and CP17-40-001

- 98 -

EA was appropriate in this case.
5.

Impacts of Methane Emissions

243. Ms. Veil claims that the EA’s review of methane emissions was too narrow in
concluding that that methane emissions would only occur during construction, and that
the Commission inaccurately identified the global warming potential (GWP) for methane.
EDF questions why the project did not consider powering existing compressor stations
with electric power instead of natural gas. Ms. Veil and EDF also assert that the EA
ignored fugitive emissions from the project. Ms. Viel specifically asserts that the
Commission should use the GWP for methane from the Intergovernmental Panel on
Climate Change (IPCC) Fifth Assessment Report, which provides a 100-year GWP for
methane of 36 or a 20-year GWP of 87.
244. We disagree. As stated in the EA, 371 emissions of GHGs are typically quantified
in terms of carbon dioxide equivalents by multiplying emissions of each GHG by its
respective global warming potential. Methane emissions were included in the total
estimated carbon dioxide equivalent emissions for the project. Estimates of applicable
emissions that would be generated during construction and operation of the project are
presented in the EA, including fugitive emissions of methane. 372 The EA’s use of the
GWP for methane designated as 25 specifically follows EPA guidance for methane. 373
EDF’s request that the Commission analyze the use of electric-powered compressor
stations is not relevant, since this project does not include a proposal to construct or
modify any compression facilities.

6.

Climate Change

245. Ms. Viel argues that the EA failed to examine the impacts of the project on climate
change. Ms. Viel relies on Sierra Club v. FERC 374 to support her argument that the
Commission should know, at least approximately, where the gas will come from and that
the effects are reasonably foreseeable and can be reasonably forecasted.
246.

With respect to impacts from GHG, the EA discusses the direct GHG emissions

371

EA at 111, 143-144.

372

EA at 113, 114.

373

Available at https://www.epa.gov/sites/production/files/201801/documents/2018_complete_report.pdf.
374

867 F.3d 1357.

Docket Nos. CP17-40-000 and CP17-40-001

- 99 -

from construction (15,195.83 metric tons per year CO2 equivalent (tpy CO2e)) 375 and
operation (11,797.28 metric tpy CO2e). 376 The EA also includes a discussion of climate
change impacts in the region and the regulatory structure for GHG emissions under the
Clean Air Act. 377
247. It is the Commission’s policy to analyze in its environmental documents GHG
emissions associated with the upstream production activities or downstream consumption
of the transported gas when those effects are indirect or cumulative impacts of the
proposed infrastructure project as contemplated by the CEQ regulations. 378
248. Indirect effects are defined as those “which are caused by the action and are later
in time or farther removed in distance, but are still reasonably foreseeable.” 379
Additionally, indirect effects “may include growth inducing effects and other effects
related to induced changes in the pattern of land use, population density or growth rate,
and related effects on air and water and other natural systems, including ecosystems.” 380
Accordingly, to determine whether an impact should be studied as an indirect impact, the
Commission must determine whether it is: (1) caused by the proposed action; and (2)
reasonably foreseeable. 381
249. With respect to causation, “NEPA requires ‘a reasonably close causal relationship’
between the environmental effect and the alleged cause” 382 in order “to make an agency
responsible for a particular effect under NEPA[.]” 383 As the Supreme Court explained, “a
‘but for’ causal relationship is insufficient [to establish cause for purposes of NEPA].” 384
375

EA at 113 (table B-16).

376

EA at 114 (table B-17).

377

EA at 110-11.

378

Dominion Transmission, Inc., 163 FERC ¶ 61,128, at P 42 (2018).

379

40 C.F.R. § 1508.8(b) (2017).

380

Id.

381

See id.; see also id. § 1508.25(c).

382

U.S. Dep’t of Transp. v. Pub. Citizen, 541 U.S. 752, at 767 (2004) (Pub. Citizen)
(quoting Metro. Edison Co. v. People Against Nuclear Energy, 460 U.S. 766, at 774
(1983)).
383

Pub. Citizen, 541 U.S. at 767.

384

Id.; see also Sierra Club v. FERC, 827 F.3d 36, at 46 (D.C. Cir. 2016) (Freeport

Docket Nos. CP17-40-000 and CP17-40-001

- 100 -

Thus, “[s]ome effects that are ‘caused by’ a change in the physical environment in the
sense of ‘but for’ causation,” will not fall within NEPA if “the causal chain is too
attenuated.” 385 Further, the Court has stated that “where an agency has no ability to
prevent a certain effect due to its limited statutory authority over the relevant actions, the
agency cannot be considered a legally relevant ‘cause’ of the effect.” 386
250. If an effect is “sufficiently likely to occur that a person of ordinary prudence
would take it into account in reaching a decision,” then that effect is deemed to be
“reasonably foreseeable.” 387 Although NEPA requires “reasonable forecasting,” 388 an
agency “is not required to engage in speculative analysis” 389 or “to do the impractical, if
not enough information is available to permit meaningful consideration.” 390
251. As we have previously concluded in natural gas infrastructure proceedings, the
environmental effects resulting from natural gas production are generally neither caused
by a proposed pipeline project nor are they reasonably foreseeable consequences of our
approval of an infrastructure project, as contemplated by CEQ regulations. 391 A causal

LNG) (finding that the Commission need not examine everything that could conceivably
be a but-for cause of the project at issue); Sierra Club v. FERC, 827 F.3d 59, 68 (D.C. Cir.
2016) (Sabine Pass LNG) (recognizing that the Commission’s order authorizing the
construction of liquefied natural gas export facilities is not the legally relevant cause of
increased production of natural gas).
385

Metro. Edison Co., 460 U.S. at 774.

386

Pub. Citizen, 541 U.S. at 770; see also Freeport LNG, 827 F.3d at 49 (affirming
that Public Citizen is explicit that the Commission need not consider effects, including
induced production, that could only occur after intervening action by the DOE); Sabine
Pass LNG, 827 F.3d at 68 (same); EarthReports, Inc. v. FERC, 828 F.3d 949, 956 (D.C.
Cir. 2016) (same).
387

Sierra Club v. Marsh, 976 F.2d 763, 767 (1st Cir. 1992); City of Shoreacres v.
Waterworth, 420 F.3d 440, 453 (5th Cir. 2005) (quoting Sierra Club v. Marsh, 976 F.2d
763, 767 (1st Cir. 1992)).
388

N. Plains Res. Council, Inc. v. Surface Transp. Bd., 668 F.3d 1067, 1079 (9th
Cir. 2011) (quoting Selkirk Conservation Alliance v. Forsgren, 336 F.3d 944, 962 (9th
Cir. 2003)).
389

Id. at 1078.

390

Id. (quoting Envtl. Prot. Info. Ctr. v. U.S. Forest Serv., 451 F.3d 1005, 1014 (9th
Cir. 2006) (internal quotation marks and citation omitted)).
391

See, e.g., Central New York Oil and Gas Co., LLC, 137 FERC ¶ 61,121,

Docket Nos. CP17-40-000 and CP17-40-001

- 101 -

relationship sufficient to warrant Commission analysis of the non-pipeline activity as an
indirect impact would only exist if the proposed pipeline would transport new production
from a specified production area and that production would not occur in the absence of
the proposed pipeline (i.e., there will be no other way to move the gas). 392 Contrary to
the assertion that approval of transportation projects spurs the production of natural gas,
there is nothing in the record that indicates that is the case here. 393 The fact that natural
gas production and transportation are all components of the general supply chain required
to bring natural gas to market is not in dispute. However, this does not mean that the
Commission’s action of approving a particular pipeline project will cause or induce the
effect of additional shale gas production. Rather, a number of factors, such as domestic
natural gas prices and production costs, drive new drilling. 394
252. Even if a causal relationship between the proposed action here and upstream
production were presumed, the scope of the impacts is not reasonably foreseeable. 395 As

at PP 81-101 (2011), order on reh’g, 138 FERC ¶ 61,104, at PP 33-49 (2012), petition for
review dismissed sub nom. Coal. for Responsible Growth v. FERC, 485 F.App’x. 472,
474-75 (2nd Cir. 2012) (unpublished opinion).
392

See cf. Sylvester v. U.S. Army Corps of Eng’rs, 884 F.2d 394, 400 (9th Cir.
1989) (upholding the environmental review of a golf course that excluded the impacts of
an adjoining resort complex project). See also City of Carmel-by-the-Sea v. U.S. Dep’t of
Transp., 123 F.3d 1142, 1162 (9th Cir. 1997) (acknowledging that existing development
led to planned freeway, rather than the reverse, notwithstanding the proposed freeway’s
potential to induce additional development); Laguna Greenbelt, Inc. v. U.S. Dep’t of
Transp., 42 F.3d 517, 525 (9th Cir. 1994) (upholding the EIS’s determination that the
proposed highway would not result in further growth because the surrounding land was
already developed or otherwise committed to uses not contingent on highway
construction).
393

See Dominion Transmission Inc., 163 FERC ¶ 61,128 at P 60.

394

See, e.g., Rockies Express Pipeline LLC, 150 FERC ¶ 61,161, at P 39
(2015). See also Sierra Club v. Clinton, 746 F. Supp. 2d 1025, 1045 (D. Minn.
2010) (holding that the U.S. Department of State, in its environmental analysis for an oil
pipeline permit, properly decided not to assess the transboundary impacts associated with
oil production because, among other things, oil production is driven by oil prices,
concerns surrounding the global supply of oil, market potential, and cost of
production); Florida Wildlife Fed’n v. Goldschmidt, 506 F. Supp. 350, 375 (S.D. Fla.
1981) (ruling that an agency properly considered indirect impacts when market demand,
not a highway, would induce development).
395

“Reasonable foreseeability” does not include “highly speculative harms” that
“distort[] the decision-making process” by emphasizing consequences beyond those of

Docket Nos. CP17-40-000 and CP17-40-001

- 102 -

we have explained, neither the Commission nor the applicant generally has sufficient
information to determine the origin of the gas that will be transported onto a pipeline.
We disagree with the assertion that we have access information about specific upstream
production, or downstream uses. 396 To be clear, the Commission only has jurisdiction
over the pipeline applicant, whose sole function is to transport gas from and to the
contracted for delivery and receipt points. 397 Although the shippers might contract with a
specific producer 398 for their gas supply, the shipper would not know the source of the
producer’s gas, and, for that matter, producers are not required to dedicate supplies to a
particular shipper and thus likely will not know in advance the exact source of
production. 399 Moreover, there are no forecasts in the record which would enable the
“greatest concern to the public and of greatest relevance to the agency’s decision.”
Robertson v. Methow Valley Citizens Council, 490 U.S. at 355-56 (internal quotation
marks and citations omitted). See Dominion Transmission Inc., 163 FERC ¶ 61,128 at
P 61 n.143.
396

Although obtaining additional information might be possible, it is not clear how
such information would alter our conclusion regarding causation, as opposed to simply
providing more detail on environmental impacts of actions, i.e., upstream production and
downstream GHG emissions, which we have determined, consistent with CEQ regulations
and case law, are not caused by the Spire STL Pipeline Project. Further, the “reasonably
close causal relationship” required under NEPA is analogous but not identical to
proximate causation from tort law. As courts have noted: “We ‘look to the underlying
policies or legislative intent in order to draw a manageable line between those causal
changes that may make an actor responsible for an effect and those that do not.’” Sierra
Club v. DOE, 867 F.3d 189, 198 (D.C. Cir. 2017) (quoting Pub. Citizen, 541 U.S. at 767
(2004) (quoting Metro. Edison Co. v. People Against Nuclear Energy, 460 U.S. 766, 774
(1983) (Metropolitan Edison)). See also New Jersey Dep’t of Envtl. Prot. v. U.S. Nuclear
Regulatory Comm’n, 561 F.3d 132, 141 (3d Cir. 2009) (quoting Metropolitan Edison for
the proposition that the agency must “draw a manageable line between those causal
changes that may make an actor responsible for an effect and those that do not,” and
observing that “this line appears to approximate the limits of an agency’s area of
control”). See Dominion Transmission Inc., 163 FERC ¶ 61,128 at P 63 n.154. However,
a “but for” causal relationship is insufficient to establish a cause for purposes of NEPA.
397

Dominion Transmission Inc., 163 FERC ¶ 61,128 at P 61.

398

Conversely the shippers may purchase gas from marketers at a hub.

399

Not even the states, which have jurisdiction over the production of natural gas,
would have information regarding where (other than in a general region) gas that will be
delivered into a particular new pipeline will be produced, or whether the gas will come
from existing or new wells. See generally Sierra Club v. DOE, 867 F.3d at 200 (DOE’s
obligation under NEPA to “drill down into increasingly speculative projections about

Docket Nos. CP17-40-000 and CP17-40-001

- 103 -

Commission to meaningfully predict production-related impacts, many of which are
highly localized. The specific source of natural gas to be transported via the Spire STL
Pipeline Project is currently unknown and will likely change throughout the project’s
operation. Furthermore, where there is not even an identified general supply area for the
gas that will be transported on the project, any analysis of production impacts would be
so generalized it would be meaningless. 400 Accordingly, even assuming that natural gas
production is induced by the Spire STL Pipeline Project, the impacts of that production
and consumption are not reasonably foreseeable because they are “so nebulous” that we
“cannot forecast [their] likely effects.” 401 Contrary to Ms. Viel’s contentions, knowledge
of these and other facts would be necessary in order for the Commission to fully analyze
the related effects.
regional environmental impacts [of induced natural gas production] is also limited by the
fact that it lacks any authority to control the locale or amount of export-induced gas
production, much less any of its harmful effects”) (citing Pub. Citizen, 541 U.S. at 768).
See Dominion Transmission, 163 FERC ¶ 61,128 at P 61 n.146.
400

Even where there is a general source area, the Commission would still need
more detailed information regarding the number, location, and timing of wells, roads,
gathering lines, and other appurtenant facilities, as well as details about production
methods, which can vary by producer and depending on the applicable regulations in the
various states, to develop a meaningful impacts analysis. Dominion Transmission, 163
FERC ¶ 61,128 at P 61 n.148. Habitat Education Center v. U.S. Forest Service, 609 F.3d
897, 902 (7th Cir. 2010) (finding that impacts that cannot be described with enough
specificity to make their consideration meaningful need not be included in the
environmental analysis). See also Sierra Club v. DOE, 867 F.3d at 200 (accepting DOE’s
“reasoned explanation” as to why the indirect effects pertaining to induced natural gas
production were not reasonably foreseeable where DOE noted the difficulty of predicting
both the incremental quantity of natural gas that might be produced and where at the local
level such production might occur, and that an economic model estimating localized
impacts would be far too speculative to be useful). We note that there is publically
available information that identifies, on a generic, high-level basis, potential
environmental impacts associated with unconventional natural gas production. See U.S.
Department of Energy, Addendum to Environmental Review Documents Concerning
Exports of Natural Gas from the United States, 79 Fed. Reg. 48,132 (2014),
http://energy.gov/sites/prod/files/2014/08/f18/Addendum.pdf.
401

Id. The requirement that an impact must be “reasonably foreseeable” to be
considered in a NEPA analysis applies to both indirect and cumulative impacts. To the
extent that Ms. Viel argues that the upstream effects are cumulative impacts, we disagree.
There is nothing in the record that demonstrates such upstream effects are reasonably
foreseeable or within the geographic scope of the proposed action.

Docket Nos. CP17-40-000 and CP17-40-001

- 104 -

253. Furthermore, we do not find that approval of the Spire STL Pipeline Project will
spur additional identifiable gas consumption. The D.C. Circuit Court of Appeals in
Sierra Club v. FERC, 402 held that where it is known that the natural gas transported by a
project will be used for a specific end-use combustion, the Commission should
“estimate[] the amount of power-plant carbon emissions that the pipelines will make
possible.” 403 However, we note that the Southeast Market Pipelines Project at issue in
Sierra Club v. FERC is factually distinct from the Spire STL Pipeline Project. The
record in that case indicated that natural gas would be delivered to specific customers –
power plants in Florida – such that the court concluded that the consuming of the gas in
those plants was reasonably foreseeable and the impacts of that activity warranted
environmental examination. 404 In contrast, here, the gas to be transported by the
Spire STL Pipeline Project will be delivered by the project’s sole shipper, an LDC, who
will provide the gas to improve the reliability and supply diversity for its customers. As
emphasized by the protestors, the Spire STL Pipeline Project is not intended to meet an
incremental demand for natural gas above existing levels.
254. Accordingly, the potential increase of GHG emissions associated with the
production, processing, distribution, or consumption of gas are not indirect impacts of the
Spire STL Pipeline Project.

7.

Land Use

255. Ms. Viel expresses concerns about impacts from construction and operation of the
project on nearby landowners and recreationists of Spanish Lake Park, including impacts
on existing aesthetics; reduced environmental value; and noise from construction,
operation, and maintenance of Spire’s pipeline and the nearby Chain of Rocks Station.
256. The EA assesses the impacts from the project’s construction and operation on
public land and recreation areas in the project area. 405 The EA analyzes 18 special use
402

867 F.3d 1357.

403

Id. at 1371. See also Friends of Capital Crescent Trail v. FTA, 877 F.3d 1051,
1065 (D.C. Cir. 2017) (explaining that in Sierra Club v. FERC, “the court invalidated an
indirect effects analysis because the agency had technical and contractual information on
‘how much gas the pipelines [would] transport’ to specific power plants, and so could
have estimated with some precision the level of greenhouse gas emissions produced by
those power plants. The court also recognized that ‘in some cases quantification may not
be feasible.’”) (citation omitted).
404

867 F.3d at 1371.

405

EA 88-93 (recreation resources); 93-94 (visual resources).

Docket Nos. CP17-40-000 and CP17-40-001

- 105 -

areas within 0.25 mile of the project, including special use areas based on comments
received during the scoping process (e.g., lands enrolled in conservation easements,
currently or potentially in the future, and the Lewis and Clark National Historic Trail). 406
The EA concludes that impacts from the project on these resources will be highly
localized and limited primarily to the period of construction. Although impacts on the
viewshed associated with the aboveground facilities, including the Chain of Rocks
Station, were found to have a permanent impact, these impacts would be appropriately
minimized by Spire’s commitment to utilize color schemes consistent with the
surrounding environment and to maintain existing vegetation where feasible, such that
impacts would not be significant. Similarly, based on Spire’s proposed mitigation
measures and Environmental Condition 20 in the appendix to this order, requiring a sitespecific noise mitigation plan for the Spanish Lake Park HDD, the EA finds that expected
noise level increases associated with construction of the project would be temporary and
would be appropriately mitigated. 407 We agree.
8.

Environmental Justice

257. Executive Order 12898, Federal Actions to Address Environmental Justice in
Minority Populations and Low-Income Populations, requires federal agencies to consider
whether impacts on human health or the environment (including social and economic
aspects) would be disproportionately high and adverse for minority and low-income
populations and would appreciably exceed impacts on the general population or another
comparison group. 408 Ms. Viel states that the environmental justice analysis in the EA is
inadequate, and that it fails to consider the disproportionate impacts on minority and lowincome communities or consider alternatives that would avoid or minimize impacts on
these populations.
258. We disagree. In response to comments received during preparation of the EA,
Commission staff employed the EPA’s Environmental Justice Screening and Mapping
Tool. Staff’s use of the tool and research identifies the presence of minority and lowincome populations in proximity to the North County Extension. The EA finds that the
overall potential impacts on the natural and human environments would be minimized or
mitigated to a negligible or minor degree such that no racial, ethnic, or socioeconomic
group would bear a disproportionate share of impacts. 409 Additionally, the EA evaluates
a system alternative (acquisition of Line 880) to the North County Extension that would
406

EA at 89-90 (table B-11).

407

EA at 118.

408

59 Fed. Reg. 7629 (1994).

409

EA at 99.

Docket Nos. CP17-40-000 and CP17-40-001

- 106 -

avoid the construction of the new, greenfield pipeline in St. Louis County, Missouri.
This alternative did not provide an environmental advantage to the North County
Extension due to greater impacts on the local communities, including the need to
interrupt service for those currently receiving natural gas service from this system. 410
9.

Inadequate Notice

259.

Plumbers and Pipefitters, a landowner, states that they were not provided adequate
notice of Spire’s intent to construct a pipeline across its property and that Spire did not
provide notice of the application after the Commission’s issuance of the February 6, 2017
Notice of Application. 411 Plumbers and Pipefitters claims they received their first
correspondence regarding the project on approximately November 6, 2017, outside the
time period prescribed by the Commission’s regulations. 412
260.

Spire responded that the Plumbers and Pipefitters’ property, a golf course, was not
initially proximate to Spire’s original certificate application, but notice of the initial
application was still provided on February 9, 2017. 413 Spire also stated that when it
amended its application, it provided the Plumbers and Pipefitters the requisite notice as
an impacted landowner. 414 Spire states that it met with representatives of the Plumbers
and Pipefitters regarding potential impacts to the property in question. 415 Commission
staff also sent all applicable project-related correspondence to this entity at the address
identified in the comment letter beginning in March 2017 and continuing through the
issuance of and notices for the EA for the project. Accordingly, the record does not
reflect evidence of bad faith by Spire. 416 Plumbers and Pipefitters did not suffer injury
410

EA at 150-152.

411

Plumbers’ and Pipefitters’ Welfare Educational Fund December 19, 2017
Motion to Intervene Out of Time. We note that the Plumbers’ and Pipefitters’ motion was
timely because Plumbers and Pipefitters filed the motion during the Supplemental NOI
comment and intervention period.
412

Plumbers’ and Pipefitters’ December 19, 2017 Motion (citing 18 C.F.R. §
157.6(d) (2017)).
413

Spire December 29, 2017 Comments at 2.

414

Id. at 2-3.

415

Id.

416

Although it is the Commission’s strong preference that all affected landowners
receive actual notice, “[i]t is a well-established principle of law that notice by publication
in the Federal Register constitutes adequate notice to all parties subject to or affected by
its contents. Actual notice is not required ... the notice in the Federal Register was clearly

Docket Nos. CP17-40-000 and CP17-40-001

- 107 -

because it intervened and participated in the proceedings prior to the issuance of this
order.
10.

Spire’s Minor Route Changes

On October 6, 2017, Spire filed supplemental information requesting that the
Commission approve several route adjustments and variations, as well as workspace
adjustments. We approve some of the changes, but three changes are not approved, as
listed below. The pipeline route changes we approve are minor, with shifts of less than
40 feet, located within the existing survey corridor, and do not result in additional
impacts on environmental resources. In addition, Spire states that these adjustments are
consistent with the plat maps it provided to affected landowners. We also approve
Spire’s adjustments in workspace based on updated survey information as the
modifications are minor, with shifts of less than 5 feet, located within the existing survey
corridor, and do not result in environmental impacts distinctly different than those
analyzed in the EA.
261.

However, we will not approve the three route adjustments included in Spire’s
October 6 filing (mileposts (MP) 2.2R to 2.9, MP 49.3, and MP 5.8 to 6.0) because they
could cause additional impacts not addressed in the EA or landowners have not been
given the opportunity to comment. Spire has not filed completed environmental surveys
and is continuing to conduct easement negotiations with landowners for route variations
between MP 2.2R and 2.9 and MPs 49.3 and 50.1R. Also, it is unclear to us whether
Spire has consulted the landowner associated with the adjustment along the North County
Extension between MPs 5.8 and 6.0, which Spire states is now needed for
constructability. Thus, we will not approve these three specific route adjustment
requests, but will authorize the corresponding route and associated workspaces proposed
in Spire’s application and as described and evaluated in the EA. The originally proposed
routes at these three locations, which were evaluated in the EA, will not result in any
significant environmental impacts nor unacceptable construction constraints. If Spire is
able to negotiate landowner approval for any or all of the three route adjustments
included in its October 6 filing (MP 2.2R to 2.9, MP 49.3 to 50.1R, and MP 5.8 to 6.0),
Spire may propose them for consideration as variance requests, according to the
procedures established in Environmental Condition 5 in the appendix to this order.
262.

263. Based on the analysis in the EA, as supplemented herein, we conclude that if
constructed and operated in accordance with Spire’s application and supplements, and in
compliance with the environmental conditions in the appendix to this order, our approval

sufficient to make [the party] aware that its interests were potentially at stake before the
Commission . . . .” Williams Natural Gas Co., 54 FERC ¶ 61,190, at 61,572 (1991). As
indicated above, notice of the Spire’s application and amendment was published in the
Federal Register.

Docket Nos. CP17-40-000 and CP17-40-001

- 108 -

of this proposal would not constitute a major federal action significantly affecting the
quality of the human environment. Compliance with the environmental conditions
appended to our orders is integral to ensuring that the environmental impacts of approved
projects are consistent with those anticipated by our environmental analyses. Thus,
Commission staff carefully reviews all information submitted. Only when satisfied that
the applicant has complied with all applicable conditions will a notice to proceed with the
activity to which the conditions are relevant be issued. We also note that the Commission
has the authority to take whatever steps are necessary to ensure the protection of
environmental resources during construction and operation of the project, including
authority to impose any additional measures deemed necessary to ensure continued
compliance with the intent of the conditions of the order, as well as the avoidance or
mitigation of unforeseen adverse environmental impacts resulting from project
construction and operation.
264. Any state or local permits issued with respect to the jurisdictional facilities
authorized herein must be consistent with the conditions of this certificate. The
Commission encourages cooperation between interstate pipelines and local authorities.
However, this does not mean that state and local agencies, through application of state or
local laws, may prohibit or unreasonably delay the construction or operation of facilities
approved by this Commission. 417
265. The Commission on its own motion received and made part of the record in this
proceeding all evidence, including the application, as amended and supplemented, and
exhibits thereto, and all comments submitted, and upon consideration of the record,

The Commission orders:
(A) A certificate of public convenience and necessity is issued to Spire,
authorizing it to construct and operate the proposed Spire STL Pipeline Project, as
described and conditioned herein, and as more fully described in the application.
(B)

The certificate authority issued in Ordering Paragraph (A) is conditioned

on:
(1)
Spires’s proposed project being constructed and made available
for service within two years of the date of this order pursuant to section
417

See 15 U.S.C. § 717r(d) (2012) (state or federal agency’s failure to act on a
permit considered to be inconsistent with Federal law); see also Schneidewind v. ANR
Pipeline Co., 485 U.S. 293, 310 (1988) (state regulation that interferes with FERC’s
regulatory authority over the transportation of natural gas is preempted); Dominion
Transmission, Inc. v. Summers, 723 F.3d 238, 245 (D.C. Cir. 2013) (noting that state and
local regulation is preempted by the NGA to the extent it conflicts with federal regulation,
or would delay the construction and operation of facilities approved by the Commission).

Docket Nos. CP17-40-000 and CP17-40-001

- 109 -

157.20(b) of the Commission’s regulations;
(2)
Spires’s compliance with all applicable Commission regulations,
particularly the general terms and conditions set forth in Parts 154, 157, and
284, and paragraphs (a), (c), (e), and (f) of section 157.20 of the
Commission’s regulations; and
(3)
Spire’s compliance with the environmental conditions listed in the
appendix to this order.
(C) A blanket construction certificate is issued to Spire under Subpart F of
Part 157 of the Commission’s regulations.
(D) A blanket transportation certificate is issued to Spire under Subpart G of
Part 284 of the Commission’s regulations.
(E)
Spire shall file a written statement affirming that it has executed firm
contracts for the capacity levels and terms of service represented in signed precedent
agreements, prior to commencing construction.
(F)
this order.

Spire’s initial rates and tariff are approved, as conditioned and modified in

(G) Spire shall file actual tariff records that comply with the requirements
contained in the body of this order at least 60 days, prior to the commencement of
interstate service consistent with Part 154 of the Commission’s regulations.
(H) Spire must file at least 30 days, but not more than 60 days before the
in-service date of the proposed facilities, an executed copy of the non-conforming
agreement with Spire Missouri reflecting the non-conforming language and a tariff
record identifying the agreement as a non-conforming agreement consistent with
section 154.112 of the Commission's regulations.
(I)
No later than three months after the end of its first three years of actual
operation, as discussed herein, Spire must make a filing to justify its existing cost-based
firm and interruptible recourse rates. Spire’s cost and revenue study should be filed
through the eTariff portal using a Type of Filing Code 580. In addition, Spire is advised
to include as part of the eFiling description, a reference to Docket No. CP17-40-000 and
the cost and revenue study.
(J)
Spire’s requests for waivers and extensions of time are granted in part and
denied in part, as discussed in the body of this order, and the extensions of time granted
herein are limited to the NAESB WGQ’s Version 3.0 Standards promulgated by Order
No. 587-W.

Docket Nos. CP17-40-000 and CP17-40-001

- 110 -

(K)

MRT’s motion to stay is deemed moot.

(L)

MRT’s and EDF’s requests for an evidentiary hearing are denied.

(M) Spire shall notify the Commission’s environmental staff by telephone or
e-mail of any environmental noncompliance identified by other federal, state, or local
agencies on the same day that such agency notifies Spire. Spire shall file written
confirmation of such notification with the Secretary of the Commission within 24 hours.
By the Commission. Commissioners LaFleur and Glick are dissenting with separate
statements attached.
(SEAL)

Nathaniel J. Davis, Sr.,
Deputy Secretary.

Docket Nos. CP17-40-000 and CP17-40-001

- 111 -

Appendix
Environmental Conditions
As recommended in the Environmental Assessment (EA) and modified herein, this
authorization includes the following conditions:
1.

Spire STL Pipeline LLC (Spire) shall follow the construction procedures and
mitigation measures described in its application and supplements (including
responses to staff data requests) and as identified in the EA, unless modified by
the order. Spire must:
a.
b.
c.
d.

2.

request any modification to these procedures, measures, or conditions in a
filing with the Secretary of the Commission (Secretary);
justify each modification relative to site-specific conditions;
explain how that modification provides an equal or greater level of
environmental protection than the original measure; and
receive approval in writing from the Director of the Office of Energy
Projects (OEP) before using that modification.

The Director of OEP, or the Director’s designee, has delegated authority to
address any requests for approvals or authorizations necessary to carry out the
conditions of this order, and take whatever steps are necessary to ensure the
protection of environmental resources during construction and operation of the
project. This authority shall allow:
a.
b.
c.

the modification of conditions of the order;
stop-work authority; and
the imposition of any additional measures deemed necessary to ensure
continued compliance with the intent of the conditions of the order as well
as the avoidance or mitigation of unforeseen adverse environmental impact
resulting from project construction and operation.

3.

Prior to any construction, Spire shall file an affirmative statement with the
Secretary, certified by a senior company official, that all company personnel,
environmental inspectors (EI), and contractor personnel will be informed of the
EI’s authority and have been or will be trained on the implementation of the
environmental mitigation measures appropriate to their jobs before becoming
involved with construction and restoration activities.

4.

The authorized facility locations shall be as shown in the EA, as supplemented by
filed alignment sheets. As soon as they are available, and before the start of
construction, Spire shall file with the Secretary any revised detailed survey

Docket Nos. CP17-40-000 and CP17-40-001

- 112 -

alignment maps/sheets at a scale not smaller than 1:6,000 with station positions for
all facilities approved by the order. All requests for modifications of
environmental conditions of the order or site-specific clearances must be written
and must reference locations designated on these alignment maps/sheets.
Spire’s exercise of eminent domain authority granted under the Natural Gas Act
(NGA) section 7(h) in any condemnation proceedings related to the order must be
consistent with these authorized facilities and locations. Spire’s right of eminent
domain granted under the NGA section 7(h) does not authorize it to increase the
size of its natural gas pipeline facilities to accommodate future needs or to acquire
a right-of-way for a pipeline to transport a commodity other than natural gas.
5.

Spire shall file with the Secretary detailed alignment maps/sheets and aerial
photographs at a scale not smaller than 1:6,000 identifying all route realignments
or facility relocations, and staging areas, new access roads, and other areas that
would be used or disturbed and have not been previously identified in filings with
the Secretary. Approval for each of these areas must be explicitly requested in
writing. For each area, the request must include a description of the existing land
use/cover type, documentation of landowner approval, whether any cultural
resources or federally listed threatened or endangered species would be affected,
and whether any other environmentally sensitive areas are within or abutting the
area. All areas shall be clearly identified on the maps/sheets/aerial photographs.
Each area must be approved in writing by the Director of OEP before
construction in or near that area.
This requirement does not apply to extra workspace allowed by the Commission’s
Upland Erosion Control, Revegetation, and Maintenance Plan and/or minor field
realignments per landowner needs and requirements which do not affect other
landowners or sensitive environmental areas such as wetlands.
Examples of alterations requiring approval include all route realignments and
facility location changes resulting from:
a.
b.
c.
d.

6.

implementation of cultural resources mitigation measures;
implementation of endangered, threatened, or special concern species
mitigation measures;
recommendations by state regulatory authorities; and
agreements with individual landowners that affect other landowners or
could affect sensitive environmental areas.

Within 60 days of the issuance of the order and before construction begins,
Spire shall file an Implementation Plan with the Secretary for review and written

Docket Nos. CP17-40-000 and CP17-40-001

- 113 -

approval by the Director of OEP. Spire must file revisions to the plan as schedules
change. The plan shall identify:
a.
b.

c.
d.
e.

f.
g.
h.

how Spire will implement the construction procedures and mitigation
measures described in its application and supplements (including responses
to staff data requests), identified in the EA, and required by the order;
how Spire will incorporate these requirements into the contract bid
documents, construction contracts (especially penalty clauses and
specifications), and construction drawings so that the mitigation required at
each site is clear to onsite construction and inspection personnel;
the number of EIs assigned per spread, and how the company will ensure
that sufficient personnel are available to implement the environmental
mitigation;
company personnel, including EIs and contractors, who will receive copies
of the appropriate material;
the location and dates of the environmental compliance training and
instructions Spire will give to all personnel involved with construction and
restoration (initial and refresher training as the project progresses and
personnel change), with the opportunity for OEP staff to participate in the
training sessions;
the company personnel (if known) and specific portion of Spire’s
organization having responsibility for compliance;
the procedures (including use of contract penalties) Spire will follow if
noncompliance occurs; and
for each discrete facility, a Gantt or PERT chart (or similar project
scheduling diagram), and dates for:
(1)
(2)
(3)
(4)

7.

the completion of all required surveys and reports;
the environmental compliance training of onsite personnel;
the start of construction; and
the start and completion of restoration.

Spire shall employ at least one EI per construction spread. The EIs shall be:
a.
b.
c.
d.

responsible for monitoring and ensuring compliance with all mitigation
measures required by the order and other grants, permits, certificates, or
other authorizing documents;
responsible for evaluating the construction contractor’s implementation of
the environmental mitigation measures required in the contract (see
condition 6 above) and any other authorizing document;
empowered to order the correction of acts that violate the environmental
conditions of the order, and any other authorizing document;
a full-time position, separate from all other activity inspectors;

Docket Nos. CP17-40-000 and CP17-40-001
e.
f.
8.

- 114 -

responsible for documenting compliance with the environmental conditions
of the order, as well as any environmental conditions/permit requirements
imposed by other federal, state, or local agencies; and
responsible for maintaining status reports.

Beginning with the filing of its Implementation Plan, Spire shall file updated
status reports with the Secretary on a weekly basis until all construction and
restoration activities are complete. On request, these status reports will also be
provided to other federal and state agencies with permitting responsibilities.
Status reports shall include:
a.
b.
c.

d.
e.
f.
g.

an update on Spire’s efforts to obtain the necessary federal authorizations;
the construction status of each spread, work planned for the following
reporting period, and any schedule changes for stream crossings and
forested area clearing, or work in other environmentally-sensitive areas;
a listing of all problems encountered and each instance of noncompliance
observed by the EI during the reporting period (both for the conditions
imposed by the Commission and any environmental conditions/permit
requirements imposed by other federal, state, or local agencies);
a description of the corrective actions implemented in response to all
instances of noncompliance;
the effectiveness of all corrective actions implemented;
a description of any landowner/resident complaints which may relate to
compliance with the requirements of the order, and the measures taken to
satisfy their concerns; and
copies of any correspondence received by Spire from other federal, state, or
local permitting agencies concerning instances of noncompliance, and
Spire’s response.

9.

Spire must receive written authorization from the Director of OEP before
commencing construction of any project facilities. To obtain such
authorization, Spire must file with the Secretary documentation that it has received
all applicable authorizations required under federal law (or evidence of waiver
thereof).

10.

Spire must receive written authorization from the Director of OEP before placing
the project into service. Such authorization will only be granted following a
determination that rehabilitation and restoration of the right-of-way and other
areas affected by the project are proceeding satisfactorily.

11.

Within 30 days of placing the authorized facilities in service, Spire shall file an
affirmative statement with the Secretary, certified by a senior company official:

Docket Nos. CP17-40-000 and CP17-40-001
a.
b.

- 115 -

that the facilities have been constructed and installed in compliance with all
applicable conditions, and that continuing activities will be consistent with
all applicable conditions; or
identifying which of the conditions in the order Spire has complied with or
will comply with. This statement shall also identify any areas affected by
the project where compliance measures were not properly implemented, if
not previously identified in filed status reports, and the reason for
noncompliance.

12.

Prior to construction, Spire shall file with the Secretary, for review and written
approval of the Director of OEP, its site-specific steep slope and landslide hazard
assessment plan for the bluffs near the Mississippi River crossing.

13.

Prior to construction, Spire shall file with the Secretary, for review and written
approval of the Director of OEP, additional geotechnical investigations at the
Coldwater Creek and Spanish Lake Park horizontal directional drill (HDD)
crossings to determine the presence and extent of potential karst features and
whether an HDD is expected to be successful.

14.

Prior to construction, Spire shall file with the Secretary, for review and written
approval of the Director of OEP, a Water Resource Identification and Testing Plan
for each HDD through karst terrain (for the North County Extension from milepost
[MP] 1.6 to MP 2.2, and MP 3.8 to MP 4.5). The Water Resource Identification
and Testing Plan shall include:
a.

b.

the results of a fracture trace/lineament analysis coupled with the results of
existing dye trace studies, if any, showing potential groundwater flow
direction from source (drill alignment) to receptors (wells, springs, and
waterbodies); and
identification of all water supply wells, springs, and surface water intakes
within 1,000 feet down-gradient of each HDD that crosses karst terrain (for
the North County Extension from MP 1.6 to MP 2.2 and MP 3.8 to MP 4.5)
and provide the following for each water source identified:
(1)

(2)

written verification of Spire’s offer to conduct, with the landowner’s
permission, pre- and post-construction water quality and yield
monitoring of all karst area water supply wells and springs. Water
quality monitoring shall consist of the following parameters: oils and
greases, volatile organic compounds, turbidity, total and fecal
coliform bacteria, total suspended solids; and
confirmation that Spire will restore or replace all affected karst area
water supplies to pre-construction conditions with respect to both
quality and yield.

Docket Nos. CP17-40-000 and CP17-40-001
15.

Prior to construction, Spire shall file with the Secretary:
a.
b.
c.
d.
e.

16.

- 116 -

the location of all wells and springs within 150 feet of proposed work areas;
an update on pre-construction testing for the wells at MP 9.0, or
documentation that the landowner has opted not to have pre-construction
testing;
a description of protective measures of how the wells within the work area
would be protected during construction;
verification that both pre- and post-construction testing has been offered to
all landowners with wells within 150 feet of work areas; and
updated alignment sheets depicting the 200- and 400-foot no refueling areas
for applicable wells.

Prior to construction, Spire shall file with the Secretary a revised HDD Plan, for
review and written approval by the Director of OEP, that includes:
a.
b.

additional monitoring requirements, including but not limited to, a
commitment to monitor the entire path of each HDD for evidence of an
inadvertent return daily during active drilling activities; and
a list of environmentally-safe drilling fluid additives that Spire will use
during HDD operations, developed in consultation with the appropriate
state resource agencies.

17.

Spire shall adhere to the Incidental Take Statement, which includes implementing
the reasonable and prudent measures and adopting the terms and conditions
outlined in the U.S. Fish and Wildlife Service’s February 2, 2018 Biological
Opinion for the Indiana bat into its implementation plan. Spire shall provide the
Commission and the U.S. Fish and Wildlife Service with the post-construction
monitoring results as outlined in the Biological Opinion.

18.

Prior to construction, Spire shall file with the Secretary its Conservation Plan to
obtain an Incidental Take Authorization for timber rattlesnakes, as well as results
of its consultation with the Illinois Department of Natural Resources on its
Conservation Plan.

19.

Spire shall not begin construction of facilities and/or use of staging, storage, or
temporary work areas and new or to-be-improved access roads until:
a.

Spire files with the Secretary, the Illinois and Missouri State Historic
Preservation Offices’ (SHPO) comments on the Addendum V Phase I
Archaeological Survey reports;

Docket Nos. CP17-40-000 and CP17-40-001

- 117 -

b.

Spire files with the Secretary, the Missouri SHPO’s comments on the
November 10, 2017 Architectural and Historic Resources Reconnaissance
Report;

c.

Spire files with the Secretary remaining cultural resources survey report(s)
and revised reports; any required site evaluation report(s) and
avoidance/treatment plan(s); and the Missouri and Illinois SHPOs’
comments on the reports and plans;

d.

the Advisory Council on Historic Preservation is afforded an opportunity to
comment if historic properties would be adversely affected; and

e.

the Commission staff reviews and the Director of OEP approves the
cultural resources reports and plans, and notifies Spire in writing that
treatment plans/mitigation measures (including archaeological data
recovery) may be implemented and/or construction may proceed.

All materials filed with the Commission containing location, character, and
ownership information about cultural resources must have the cover and any
relevant pages therein clearly labeled in bold lettering: “CUI//PRIV - DO NOT
RELEASE.”
20.

Prior to construction of the Spanish Lake Park HDD, Spire shall file with the
Secretary, for review and written approval by the Director of OEP, a site-specific
noise mitigation plan that identifies measures to reduce the projected noise level
attributable to the proposed drilling operations at nearby noise sensitive areas
(NSAs). During drilling operations, Spire shall implement the approved plan,
monitor noise levels, and make all reasonable efforts to restrict the noise
attributable to the drilling operations to no more than a day-night sound level (Ldn)
of 55 decibels (dBA) or 10 dBA above ambient levels at the NSAs.

21.

Spire shall file noise surveys with the Secretary no later than 60 days after
placing the Chain of Rocks Station in service. If a full load condition noise
survey is not possible, Spire shall provide an interim survey at the maximum
possible power load and provide the full power load survey within six months. If
the noise attributable to the operation of all the equipment at the facility at interim
or full power load conditions exceeds 55 dBA Ldn at any nearby NSAs, Spire shall
file a report on what changes are needed and shall install additional noise controls
to meet the recommended noise level within one year of the in-service date.
Spire shall confirm compliance with the above requirement by filing a second
noise survey with the Secretary no later than 60 days after it installs the
additional noise controls.

Docket Nos. CP17-40-000 and CP17-40-001
22.

- 118 -

Prior to construction, Spire shall file with the Secretary its final Flood Action
Plan.

UNITED STATES OF AMERICA
FEDERAL ENERGY REGULATORY COMMISSION
Spire STL Pipeline LLC

Docket Nos. CP17-40-000
CP17-40-001
(Issued August 3, 2018)

LAFLEUR, Commissioner, dissenting:
Today’s order grants Spire STL Pipeline LLC’s (Spire) request for authorization
to construct and operate the Spire STL Pipeline Project (Spire Project). 1 Under the
Certificate Policy Statement, which sets forth the Commission’s approach to evaluating
proposed projects under the Natural Gas Act (NGA), the Commission must find that a
pipeline is needed and in the public interest before concluding that it is required by the
public convenience and necessity. 2 The Certificate Policy Statement further explains that
the Commission must balance benefits against potential adverse consequences before
authorizing the construction of major new pipeline facilities. 3
After determining the applicant can financially support the project without
subsidization from existing customers, the Commission must determine whether the
economic benefits outweigh the adverse effects that the project will likely have on other
existing pipelines in the market and their captive customers, as well as the landowners
and communities affected by new pipeline infrastructure. 4 In so doing, it is the
Commission’s responsibility to give appropriate consideration to the enhancement of
competitive transportation alternatives, the possibility of overbuilding, the applicant’s
responsibility for unsubscribed capacity, the avoidance of unnecessary disruptions of the
environment, and the unneeded exercise of eminent domain. 5 For the reasons set forth
herein, I cannot conclude this project is required by the public convenience and

1

Spire STL Pipeline LLC, 164 FERC ¶ 61,085 (2018) (Certificate Order).

2

Certification of New Interstate Natural Gas Pipeline Facilities, 88 FERC
¶ 61,227 (1999), clarified, 90 FERC ¶ 61,128, further clarified, 92 FERC ¶ 61,094 (2000)
(Certificate Policy Statement).
3

Certificate Policy Statement at 18.

4

Certificate Policy Statement at 18.

5

Certificate Policy Statement at 2.

Docket Nos. CP17-40-000 and CP17-40-001

2

necessity. 6 Thus, I respectfully dissent.
The Spire Project is the unusual case of a pipeline application that squarely fails
the threshold economic test. The record does not demonstrate a sufficient need for the
project. The Spire Project has a single precedent agreement with Spire Missouri, its local
distribution company (LDC) affiliate, 7 and will force duplicative gas transportation
capacity into a regional market of flat demand, shifting gas supply away from an existing
pipeline and adversely impacting rates for the existing pipeline captive customers. While
the Commission does not typically look beyond signed precedent agreements to make a
finding of economic need, it can certainly do so under the Certificate Policy Statement.
As the majority itself notes, the Certificate Policy Statement indicates that besides
precedent agreements, the Commission can consider other indicators of need including,
but not limited to, “demand projections, potential cost savings to consumers, or
comparison of projected demand with the amount of capacity currently serving the
market.” 8 The majority, however, did not consider any such evidence, which I believe
we should in this case.
Spire Missouri’s precedent agreement for 350,000 Dth/day from the Spire Project
does not reflect any incremental demand or market growth, as acknowledged by both the
applicant and protestors. 9 Rather, the precedent agreement reflects a desire to shift Spire
Missouri’s firm transportation capacity from an existing pipeline with Mississippi River
Transmission (MRT) to the Spire Project. 10 Spire asserts that the project will enhance

6

15 U.S.C. § 717f(c) (2012).

7

Spire Missouri was formerly known as Laclede Gas Company.

8

Certificate Order at P 72 quoting the Certificate Policy Statement at 23. The
Commission can consider other indicators of benefits, including “meeting unserved
demand, eliminating bottlenecks, access to new supplies, lower costs to consumers,
providing new interconnects that improve the interstate grid, providing competitive
alternatives, increasing electric reliability, or advancing clean air objectives.” Certificate
Policy Statement at 25.
9

Certificate Order at P 49.

10

MRT contends that to the extent Spire Missouri wants to access the REX
pipeline to receive Appalachian gas, “Spire Missouri could access REX by using 170,000
Dth per day of its subscribed capacity on MRT’s East Line from MRT’s points of
interconnection with NGPL and Trunkline and its 62,800 Dth per day of subscribed
capacity on MoGas.” Certificate Order at P 50.

Docket Nos. CP17-40-000 and CP17-40-001

3

reliability and diversity of gas supply resulting in “access to lower priced gas supplies.” 11
But parties dispute the potential cost savings of the new pipeline. 12 The second largest
shipper 13 on both the MRT and MoGas pipelines contends that a market study, another
indicia of need, would evaluate whether gas supplies from Appalachia and the Rocky
Mountains are actually more competitively priced on a delivered basis than the supplies
to which existing pipelines have access. 14 But the majority declines to require a market
study which could have helped answer this question. 15 The majority should either reach a
determination regarding these economic claims or find that there are material issues of
fact in dispute and send the case to hearing. 16
Further, because the Commission’s need determination relies solely on Spire’s
precedent agreement with its affiliate Spire Missouri, it is particularly troubling that Spire
Missouri’s regulator, the Missouri Public Service Commission (Missouri PSC), raises
serious concerns regarding the need for the pipeline 17 and the terms of Spire’s precedent
11

Certificate Order at P 11.

12

Certificate Order at PP 55-56. Spire Missouri estimated cost savings of $20
million over 20 years, versus the MRT data which suggests the unit cost used by Spire
Missouri in their calculations significantly overstates the unit cost of gas delivered on the
MRT system.
13

Ameren is the second largest shipper on both MRT and MoGas. Ameren also
asserts that Spire’s application is deficient in failing to include a market study. Ameren
February 27, 2017 Protest at 8.
14

Certificate Order at PP 80-81. Multiple protestors argue that a market study
either must or should be undertaken in this case to establish need for the project. The
protestors rely on Certificate Policy Statement which says the “evidence necessary to
establish the need for the project will usually include a market study” Certificate Policy
Statement at 25.
15

In fact, the majority declines all requests for market studies, stating, “when
precedent agreements for a substantial amount of capacity were presented, the
Commission has relied on those agreements alone […].” Certificate Order at P 80.
16

MRT and Environmental Defense Fund (EDF) request an evidentiary hearing to
examine and resolve several issues of material fact. The majority declines the requests and
states that the “written record provides a sufficient basis for resolving the relevant issues”
which is the normal practice. Certificate Order at P 22.
17

The Missouri PSC asserts that there is no clear need for the Spire Project given
no new demand for gas capacity, a mature St. Louis market, and a track record of failed
projects proposing to bring gas from an interconnect with REX to the St. Louis market.

Docket Nos. CP17-40-000 and CP17-40-001

4

agreement. 18 The Missouri PSC’s protest also questions Spire’s “revenue requirement
components for capital structure, debt, and return on equity, and whether $43 million
revenue can be supported by customers.” 19 Notably, despite the majority’s expressed
confidence that Spire Missouri’s precedent agreement will be reviewed by state
regulators, 20 the Missouri PSC itself asserts an inability to conduct a prudence review
prior to the Commission’s certificate authorization. 21
In addition to demonstrating project need, the Commission must “determine
whether the applicant has made efforts to eliminate or minimize any adverse effects the
project might have on the existing customers of the pipeline proposing the project,
existing pipelines in the market and their captive customers, or landowners and
communities affected by the route of the new pipeline” in order to ultimately balance the
public benefits against the potential adverse consequences of an application. 22 In cases
where adverse effects are present, as is the case here, the amount of evidence necessary to
establish need increases. 23
The Commission must consider the probable consequences of Spire’s entry of new
capacity into the market. The record demonstrates that there will be adverse financial
effects on incumbent pipelines and their captive customers, as well as potential adverse
operational impacts on the existing pipelines. As noted by the protestors, the Spire
Project presents a case that involves no demand growth in the regional market served by
Missouri PSC February 27, 2017 Protest at 10-11.
18

Missouri PSC February 27, 2017 Protest at 8 (“Accordingly, the MoPSC urges
the Commission to require modification of the Precedent Agreement to properly allocate
risk to Spire.”).
19

Missouri PSC February 27, 2017 Protest at 3.

20

Certificate Order at P 87.

21

I agree with Commissioner Glick that given the lack of authority to review and
approve a LDC’s supply decisions or contracts with affiliates prior to construction, “state
review cannot be an effective backstop in this circumstance.”
22
23

Certificate Policy Statement at 18.

Certificate Policy Statement at 25 (“The amount of evidence necessary to
establish the need for a proposed project will depend on the potential adverse effects of
the proposed project on the relevant interests. Thus, projects to serve new demand might
be approved on a lesser showing of need and public benefits than those to serve markets
already served by another pipeline.”).

Docket Nos. CP17-40-000 and CP17-40-001

5

the proposed project, demonstrated adverse impacts on an existing pipeline and their
captive customers, and a protest by the state regulatory authority, which together appear
to clearly outweigh the only benefit articulated, a precedent agreement.
The cost of de-contracted capacity on the existing pipelines will be reallocated to
and borne by the existing pipelines and their captive customers. 24 The record
demonstrates that the existing pipeline currently serving Spire Missouri, MRT’s East
Line, and its captive customers could potentially see a 194 percent increase in rates if
Spire Missouri executes turnback capacity and shifts the capacity to the Spire Project. 25
The majority acknowledges that existing pipelines will likely see a drop in utilization
once supplies begin to flow on the Spire Project, with the largest impact on MRTs East
Line. 26 With no growth in market demand in the St. Louis region, there is real concern
that existing pipelines would not be able to develop new business and make up for the
loss of Spire Missouri. While the Commission does not and should not protect
incumbent pipelines from a risk of loss of market share, adverse impacts on the
incumbent pipeline in this case are relevant to whether the project need established by the
precedent agreement outweighs the overall project’s adverse effects. 27 In this case,
where need has not been demonstrated, I believe that adverse effects on incumbent
pipelines and their captive customers outweigh benefits.
24

See Missouri PSC February 27, 2017 Protest at 9 (“If the Commission
certificates the instant project and it is built, but there is not 400,000 Dth of expanded gas
demand in the region, Spire will not be impacted because it has its contract with its
affiliate. Laclede (Spire Missouri) will not be impacted because it has competitive
alternatives and can demand discounted rates. But captive customers of MRT and MoGas
lack such a benefit. Those captive customers may be forced to make up revenues formerly
sourced from Laclede.”).
25

Enable Mississippi River Transmission, LLC, 164 FERC ¶ 61,075 (2018). MRT
is a wholly owned subsidiary of Enable Mississippi River Transmission. The Commission
set Enable MRT’s general Section 4 rate case for hearing due to issues of material fact
regarding the impact of the Spire STL Pipeline on MRT rates. MRT estimates in the rate
case that rates would increase 194 percent in order to recover the cost of Spire Missouri’s
turnback capacity.
26
27

Certificate Order at P 107.

Giving further credence to these concerns, the Missouri PSC says “Spire
minimized the Commission’s obligation to consider the impact on captive customers of
incumbent pipelines” and “Spire provides insufficient analysis of the impacts on captive
customers.” Missouri PSC February 27, 2017 Protest at 9.

Docket Nos. CP17-40-000 and CP17-40-001

6

Besides adverse financial effects on existing pipeline and their captive customers,
there may also be adverse operational impacts. Commission staff asked MRT to provide
additional evidence to show that significant modification to its system to accommodate
the future potential for bi-directional flows and also the compete removal or a decrease in
gas delivered would disrupt services elsewhere on the system. 28 It seems that MRT did
not provide sufficient data and information and thus Commission staff could not verify
MRT’s claims. 29 Rather than seek to clarify this material issue of fact, the majority
disposes of the operational concerns by implying the argument is immaterial because
Spire does not currently say it will make deliveries into MRT. 30 However, because Spire
proposes to install a bi-directional interconnection, it would appear that it is doing so to
allow for future deliveries onto the MRT system, supporting MRT’s claims.
The majority relies on Eastern Shore 31 as a guidepost for approval of the Spire
Project, stating there is a similar fact pattern including no additional natural gas demand,
precedent agreements solely with affiliates, and adverse impacts to existing pipelines.
However, Eastern Shore is distinguishable from the Spire Project because the
Commission’s conclusion in Eastern Shore relies on the findings that the proposed
pipeline would not affect the incumbent pipeline’s market for firm transportation, there
would be no adverse effects on other pipelines and their captive customers, and the
incumbent pipeline did not oppose the project. 32 As discussed above, the Spire Project
runs counter to all of these findings.
The Commission must also consider the adverse impacts on landowners and
communities. 33 Here, the disruption to landowners and communities, unnecessary rightof-way, and the potential eminent domain action further tip the scale against any potential
benefits the Spire Pipeline could have. 34 I believe the adverse impacts on landowners
have not been appropriately balanced in the Commission’s economic test.
28

Certificate Order at P 110.

29

Certificate Order at P 110.

30

Certificate Order at P 110.

31

Eastern Shore Natural Gas Co., 132 FERC ¶ 61,204 (2010) (Eastern Shore).

32

Certificate Order at P 79 and n.145.

33

Certificate Policy Statement at 24.

34

I note that Spire must still negotiate easement agreements with affected
landowners for most of the land required for the project. Certificate Order at P 119.

Docket Nos. CP17-40-000 and CP17-40-001

7

Ultimately, because need has not been demonstrated, there is a significant risk of
overbuilding into a region that cannot support additional pipeline infrastructure. 35
Pipelines are long-lived assets and we should be careful not to authorize infrastructure
that is not needed. The Commission has not established need, and has not shown the
pipeline’s benefits outweigh its harms. I do not find the proposed project is required by
the public convenience and necessity.
Finally, I do not believe the Commission has met it obligations and responsibilities
under National Environmental Policy Act (NEPA) to consider alternatives to the
proposed project. The majority fails to adequately consider the “no action alternative,” as
required during the NEPA environmental review. The no action alternative would by
definition cause no environmental damage and no additional eminent domain authority,
while still achieving the Spire Project’s stated objective of delivering supply of 400,000
Dth/day to the St. Louis market area. 36 Given the lack of demonstrated need for the
project, this environmental harm can be avoided altogether.
In virtually every pipeline order, the Commission explains its obligation to balance
the public benefits against residual adverse effects. This is not simply a mantra to recite,
but a standard that must be met to find a project in the public convenience and necessity.
In light of the lack of demonstrated need, potential adverse economic and operational
impacts, unnecessity use of eminent domain, and avoidable environmental impacts, I
cannot make that finding in this case.
For these reasons, I respectfully dissent.

_______________________
Cheryl A. LaFleur
Commissioner

35

As I mentioned, the Commission must give consideration to overbuilding.
Certificate Policy Statement at 2.
36

Spire STL Pipeline Project Environmental Assessment at 146 (“With regard to
the first criteria and for the purposes of NEPA, Spire’s stated objectives for the Project
are to provide about 400,000 Dth/d of year-round transportation service of natural gas to
markets in the St. Louis metropolitan area, eastern Missouri, and southwest Illinois, and
to enhance reliability.”).

UNITED STATES OF AMERICA
FEDERAL ENERGY REGULATORY COMMISSION
Spire STL Pipeline LLC

Docket Nos. CP17-40-000
CP17-40-001
(Issued August 3, 2018)

GLICK, Commissioner, dissenting:
In today’s order, the Commission grants Spire STL Pipeline LLC’s (Spire) request
for authorization to construct and operate the Spire STL Pipeline Project (Spire Project). 1
Before issuing a certificate of public convenience and necessity under section 7 of the
Natural Gas Act (NGA), the Commission must find both that the pipeline is needed, and
that, on balance, the pipeline’s potential benefits outweigh its potential adverse impacts. 2
The record in this proceeding is patently insufficient to make these determinations, as
there is neither evidence that the Spire Project is needed nor that its limited benefits
outweigh its harms. Congress’ directive that the Commission determine whether a
proposed pipeline is in the public interest surely requires more than the anemic review
provided by today’s order. 3 I am particularly disappointed with the order because it lends
credence to the critique that the Commission does not meaningfully review section 7
applications.
I.

The Record Does Not Demonstrate that the Project Is Needed
Today’s order concludes that the Spire Project is needed based on a single
precedent agreement between Spire and its local distribution company (LDC) affiliate 4—
Spire Missouri—while turning a blind eye to the many concerns raised in the record.

1

Spire STL Pipeline LLC, 164 FERC ¶ 61,085 (2018) (Certificate Order).

2

15 U.S.C. § 717f (2012).

3

Atl. Refining Co. v. Pub. Serv. Comm’n of N.Y., 360 U.S. 378, 391 (1959)
(Section 7 of the NGA “requires the Commission to evaluate all factors bearing on the
public interest.”).
4

Spire Missouri subscribed to 350,000 dekatherms (Dth) per day in its precedent
agreement with Spire, which is 87.5 percent of the total capacity on the Spire Project. See
Certificate Order, 164 FERC ¶ 61,085 at P 10.

Docket Nos. CP17-40-000 and CP17-40-001

-2-

Critically, as relevant parties acknowledge, 5 the precedent agreement does not correspond
to any incremental demand or market growth. Rather, the precedent agreement merely
documents Spire Missouri’s intent to shift its firm transportation capacity from an
existing pipeline owned and operated by Mississippi River Transmission (MRT) to the
Spire Project. 6
Precedent agreements are one of several types of evidence that can be valuable in
assessing the market demand for a pipeline. However, contracts among affiliates, such as
the one at issue in this proceeding, are less probative of need because they are not
necessarily the result of an arms-length negotiation. 7 There are several potential business
reasons why Spire’s corporate parent might prefer to own a pipeline rather than simply
take service on it, such as the prospect of earning a 14 percent return on equity rather than
paying rates to MRT or another pipeline company.
In addition, the Missouri Public Service Commission (Missouri PSC) points to
ample record evidence that casts doubt on whether the precedent agreement actually
reflects a need for the Spire Project, such as the fact that demand for natural gas in the St.
Louis market is flat and, partly as a result, the several other new pipeline projects that
have been proposed to serve the St. Louis area have all failed. 8 It is especially
noteworthy that Spire Missouri rejected offers to purchase new pipeline capacity from
other proposed projects before turning around and entering into an agreement to purchase
5

Id. PP 35, 49, 58.

6

And it is far from certain that a facility as significant as the Spire Project is
needed to achieve this goal. MRT explains that, to the extent Spire Missouri wants to
access the REX pipeline to receive Appalachian gas, “Spire Missouri could access REX
by using 170,000 Dth per day of its subscribed capacity on MRT’s East Line from MRT’s
points of interconnection with NGPL and Trunkline and its 62,800 Dth per day of
subscribed capacity on MoGas.” Id. P 50.
7

Certification of New Interstate Natural Gas Pipeline Facilities, 88 FERC
¶ 61,227, at 61,749 (1999) (Certificate Policy Statement), clarified, 90 FERC
¶ 61,128, further clarified, 92 FERC ¶ 61,094 (2000) (“A project that has precedent
agreements with multiple new customers may present a greater indication of need than a
project with only a precedent agreement with an affiliate.”). Furthermore, the
Commission’s “longstanding reliance” on Minisink is inapt. In that proceeding, the court
discussed only the Commission’s reliance on precedent agreements generally—not
precedent agreements among affiliates—and, therefore, the case provides no response to
the unique concerns posed by affiliate precedent agreements. Minisink Residents for Envtl.
Pres. & Safety v. FERC, 762 F.3d 97, 111 n.10 (D.C. Cir. 2014).
8

Missouri PSC Protest at 9.

Docket Nos. CP17-40-000 and CP17-40-001

-3-

that capacity from its affiliate. 9 To conclude that a precedent agreement between
affiliates will always represent accurate, impartial, and complete evidence of need, as the
Commission appears to suggest today, 10 is to abdicate our responsibility under the NGA.
Under these circumstances, the Commission must consider additional evidence
regarding the need for the pipeline. The Commission’s Certificate Policy Statement
contemplates a range of additional indicia of need including, but not limited to, “demand
projections, potential cost savings to consumers, or comparison of projected demand with
the amount of capacity currently serving the market.” 11 This evidence would permit the
Commission to make an independent assessment of the need for the project, rather than
relying entirely on a single precedent agreement between affiliated parties. 12

9

Spire Missouri’s lack of interest in purchasing capacity on an unaffiliated pipeline
casts doubt on its assertions that enhanced reliability and diversity of supply are its
reasons for purchasing capacity on this project. At the very least, the evidence in the
record indicating that Spire Missouri was willing to enter into a precedent agreement with
an affiliate, but not any other entity developing a similar project, should lead the
Commission to question the probative value of the precedent agreement when assessing
the need for the Spire Project.
10

Certificate Order, 164 FERC ¶ 61,085 at P 73 (“Spire has entered into a longterm precedent agreement with Spire Missouri . . . We find that Spire has sufficiently
demonstrated that the project is needed in the market that Spire STPL Pipeline Project
intends to serve.”).
11
12

Certificate Policy Statement, 88 FERC at 61,747.

Spire also asserts that its pipeline will enhance the reliability and diversity of gas
supply in St. Louis and potentially result in “access to lower priced gas.” Certificate
Order, 164 FERC ¶ 61,085 at P 11. The Commission acknowledges the lack of initial
information about the possibility of cost savings to consumers. In fact, the Commission
issued a supplemental data request to the existing pipeline, MRT, and Spire in order to
compare the cost of various scenarios. Spire Missouri’s data provides an estimated cost
savings over 20 years, suggesting certain “hypothetical alternatives” on the MRT system
would result in higher average daily costs when compared to the Spire Project. However,
MRT’s data suggests the unit cost used by Spire Missouri in its calculations overstate
MRT’s comparable cost. The Commission does not resolve the dispute presented by this
record evidence regarding whether the Spire Project would provide savings and, at the
very least, this matter requires further investigation. Certificate Order, 164 FERC ¶
61,085 at PP 54-56.

Docket Nos. CP17-40-000 and CP17-40-001

-4-

The Commission rejects protestors’ argument that a market study is necessary in
order to adequately evaluate the need for a project by observing that “when precedent
agreements for a substantial amount of capacity were presented, the Commission has
relied on those agreements alone, even between affiliates in the absence of
anticompetitive or discriminatory behavior.” 13 But it is unclear how the Commission
could identify “anticompetitive or discriminatory behavior” so long as it refuses to make
any effort to look behind the precedent agreement. The Commission’s uncritical
acceptance of the precedent agreement in this proceeding is particularly concerning
because the agreement was not the result of an open season, but rather the product of
internal discussions between Spire, Spire Missouri, and their corporate parent, which
provide no transparent measure of the need for the Spire Project. 14
My point is not that precedent agreements are completely irrelevant to the
determination of need. But where the parties have raised considerable, credible concerns
about whether a precedent agreement is, in fact, a reliable indicator of need, reasoned
decisionmaking requires the Commission do more than simply reiterate its policy of
accepting precedent agreements at face value. Under these circumstances, the
Commission should, consistent with its own Certificate Policy Statement, also consider
other evidence to rigorously evaluate whether the project is really needed. Anything less
is arbitrary and capricious.
II.

The Commission Does Not Adequately Consider the Adverse Impacts of the
Spire Project
Even where an applicant has demonstrated that a proposed pipeline is needed—
which, again, is not the case here—the Commission may grant a section 7 certificate only
where the pipeline’s benefits outweigh its harms. 15 When the evidence of project need is
limited, the Commission must engage in an especially searching review of the project’s
potential harms to ensure that the project is, in fact, in the public interest. 16 The relevant
13

Certificate Order, 164 FERC ¶ 61,085 at P 81 (“Under the circumstances of this
proceeding, i.e., lack of evidence of anticompetitive behavior, we find the fact that a
customer is willing to sign a binding contract to pay for service on the project shows need
or demand for the project.”).
14

Id. P 77.

15

Certificate Policy Statement, 88 FERC at 61,748 (“To demonstrate that its
proposal is in the public convenience and necessity, an applicant must show public
benefits that would be achieved by the project that are proportional to the project's adverse
impacts.”).
16

Id. (“The amount of evidence necessary to establish the need for a proposed
project will depend on the potential adverse effects of the proposed project on the relevant

Docket Nos. CP17-40-000 and CP17-40-001

-5-

harms include adverse effects on existing pipelines and their captive customers as well as
on landowners, communities, and the environment. The Commission has failed to
adequately weigh those harms in this proceeding.
First, the Commission gives little weight to the Spire Project’s potential effect on
MRT and its captive customers, who will be forced to bear additional costs as a result of
Spire Missouri’s decision to move its business to the Spire Project. 17 The record
demonstrates that the captive customers of the existing pipeline system currently serving
Spire Missouri could be stuck with a 23 percent increase in cost-of-service, as a result of
the Spire Project. 18 With demand in the St. Louis region remaining flat, the protestors are
right to be concerned that it is unrealistic to expect MRT to make up for Spire Missouri’s
exit by attracting new customers and that MRT’s customers will be left with the bill for
Spire Missouri’s decision to facilitate an affiliate’s effort to build a new pipeline.
The Commission summarily concludes that it is simply a “logical time” for Spire
Missouri to re-evaluate its transportation needs since its contract with MRT was
approaching the end of its term. 19 But that statement does not relieve the Commission
from the NGA’s requirements. Although the Commission is under no obligation to
protect incumbent pipelines from a loss of market share, the increased rates that MRT
will likely need to charge its captive customers is a concern that goes to the core of the
Commission’s statutory responsibilities to evaluate adverse impacts and that,
interests.”).
17

See Missouri PSC Protest at 9 (“If the Commission certificates the instant project
and it is built, but there is not 400,000 Dth of expanded gas demand in the region, Spire
will not be impacted because it has its contract with its affiliate. [Spire Missouri] will not
be impacted because it has competitive alternatives and can demand discounted rates. But
captive customers of MRT and MoGas lack such a benefit. Those captive customers may
be forced to make up revenues formerly sourced from [Spire Missouri].”).
18

Enable Mississippi River Transmission, LLC, 164 FERC ¶ 61,075, at PP 6-7
(2018) (MRT Rate Case) (MRT is a wholly owned subsidiary of Enable Midstream
Partners, LP. The Commission set MRT’s general Section 4 rate case for hearing as the
proposed tariff adjustments have not been shown to be just and reasonable, which were
adjusted “primarily due to the removal of billing determinants associated with Spire
Missouri’s termination of contracts.” In the rate case, MRT proposes a cost-of-service
increase of 23 percent, resulting in a potential increase of 194 percent in reservation rates,
in order to recover the cost of Spire Missouri’s turnback capacity.).
19

However, Spire Missouri has re-contracted for 437,240 Dth/day of capacity on
MRT’s system for an additional year. See MRT Rate Case, 164 FERC ¶ 61,075 at P 4.

Docket Nos. CP17-40-000 and CP17-40-001

-6-

unfortunately, receives far too little weight in today’s order. Given the potential for
abuse of an affiliate relationship, the Commission must undertake an especially searching
review of the project’s potential harms to ensure that the project is in fact in the public
interest, especially when the affiliate precedent agreement is not the product of an open
season process, as it was not here.
The Commission suggests that no further review is necessary because state
regulatory bodies have the opportunity to conduct a prudence review of affiliated
contracts. But no matter how much the Commission may want to limit the scope of the
Commission’s inquiry into a proposed pipeline, it cannot escape the NGA’s requirement
that the Commission must find that a project is in the public interest. If we abdicate this
responsibility to state commissions, then Congress might as well return responsibility for
the entire siting process to the states, as there would be little remaining purpose to
Commission review of proposed pipelines.
Further, as the Missouri PSC and other protestors point out, state review cannot be
an effective backstop in this circumstance. 20 The Missouri PSC explains that it has no
authority to review and approve an LDC’s gas supply decisions or gas transportation
contracts with affiliates prior to construction, meaning that it can evaluate the prudence of
Spire Missouri’s decisions only after the new pipeline is in service. That review is no
substitute for the Commission’s examination, before the pipeline is constructed, of
whether it is in the public interest to proceed with the pipeline in the first place. The risks
associated with the Spire Project’s affiliate agreement extend beyond its impact on the
retail customer base. For example, despite allegations of possible improper self-dealing
among the Spire affiliates, the Commission concludes that Spire did not engage in
anticompetitive behavior since it held a binding open season following the negotiation of
the affiliate precedent agreement, 21 and Spire’s tariff “ensures that any future shipper will
not be unduly discriminated against.” 22 This approach, in which the Commission
abdicates its responsibility by relying on a state review that even the state reviewer itself
claims cannot be effective, permits Spire and Spire Missouri to escape meaningful
regulatory review. That is not what Congress had in mind when it gave the Commission
siting responsibilities under section 7 of the NGA.
None of the Commission’s citations to precedent directly support today’s order.
The Commission points to Ruby Pipeline, LLC as an example of where it approved a
proposed pipeline whose capacity was subscribed by entities that were shifting their
20

Certificate Order, 164 FERC ¶ 61,085 at PP 61-65.

21

Id. P 77.

22

Id.

Docket Nos. CP17-40-000 and CP17-40-001

-7-

business from another pipeline. 23 In Ruby, however, the Commission concluded that any
adverse impacts on existing pipelines and their captive customers were the result of “fair
competition” 24—a result that, as explained above, we cannot reach here without looking
behind the single precedent agreement underpinning the Spire Project. In addition, the
record in Ruby indicated that the gas supplies transported by the existing pipeline were
declining and that, by bringing new gas supplies to the relevant market, the proposed
pipeline could create new business opportunities for the existing pipelines. Here,
however, there is no evidence that MRT is facing declining gas supplies or that the Spire
Project will create new business opportunities for MRT. Indeed, the absence of any
growth in natural gas demand suggests that the opposite is true.
In addition, the Commission suggests that its decision in Eastern Shore Natural
Gas Co. supports issuing a certificate to the Spire Project because that proceeding also
involved only affiliated precedent agreements, no evidence of increasing market demand,
and evidence that the proposed pipeline would reduce receipts of natural gas at one
delivery point on an existing pipeline. 25 But, as Commissioner LaFleur explains, 26
Eastern Shore relied on the Commission’s findings that the proposed pipeline would not
affect the existing pipeline’s market for firm transportation, that there would be no
adverse effects on other pipelines or their captive customers, and the fact that the
incumbent pipeline did not oppose the proposed project. 27 However, as described above
and in Commissioner LaFleur’s dissent, the Commission cannot make equivalent
findings here given the record evidence indicating that developing the Spire Project will
impair MRT’s market for firm transportation, significantly increase rates for its captive
customers, and has been vigorously opposed by MRT.
Finally, the Commission must also consider the adverse impacts on landowners
and communities. As we all agree, these impacts are important and cannot be an
afterthought in the Commission’s assessment of a pipeline’s adverse impacts. 28 Here, the
disruption to landowners and communities, unnecessary rights-of-way, and potential
23

Id. PP 114-115 (citing Ruby Pipeline, LLC, 128 FERC ¶ 61,224 (2009) (Ruby)).

24

Ruby, 128 FERC ¶ 61,224 at P 37.

25

Certificate Order, 164 FERC ¶ 61,085 at P 79 (citing Eastern Shore Natural Gas
Co., 132 FERC ¶ 61,204 (2010) (Eastern Shore)).
26

Id. at 6 (2018) (LaFleur, Comm’r, dissenting).

27

Eastern Shore, 132 FERC ¶ 61,024 at P 23.

28

E.g., PennEast Pipeline Company, LLC, 162 FERC ¶ 61,053, at 1 (2018)
(Chatterjee, Comm’r, concurring).

Docket Nos. CP17-40-000 and CP17-40-001

-8-

eminent domain action further tip the scale against finding the Spire Project to be in the
public interest. For example, Spire must still negotiate easements with most of the
landowners whose property lies in its proposed path 29— potentially resulting in harm, but
a harm that receives only passing consideration in the Commission’s analysis.
Collectively, these harms outweigh the Spire Project’s limited benefits and, especially in
light of the absence of a demonstrated need for the project, should have resulted in a
denial of Spire’s application.
III.

The Commission Does Not Adequately Consider the No-Action Alternative
The Commission also has failed to meet its obligation under the National
Environmental Policy Act (NEPA) to consider the no-action alternative to the proposed
project, which is required as part of the environmental review’s alternatives analysis.
The Commission’s criteria to evaluate alternatives include the ability to meet a project’s
stated objective, technical and economic feasibility, and significant environmental
advantage over the proposed action. 30 In this case, the Environmental Assessment (EA)
rejects the no-action alternative, concluding that it “would not satisfy the stated Project
objectives.” 31
That conclusion is directly at odds with the EA’s definition of the Spire Project’s
objective, which is to “provide about 400,000 Dth per day of year-round transportation
service of natural gas to markets in the St. Louis metropolitan area, eastern Missouri, and
southwest Illinois; and to enhance reliability.” 32 The no-action alternative of continued
shipment on MRT’s existing pipeline system currently provides Spire Missouri
transportation capacity of 437,240 Dth per day into the target market areas, achieving the
stated objective. 33 Furthermore, the no-action alternative is technically and economically

29

Certificate Order, 164 FERC ¶ 61,085 at P 119 (“[W]e are mindful that Spire still
must finalize easement agreements with affected landowners for most of the land required
for the project.”).
30

Environmental Assessment at 146 (EA). It also is worth noting that the
Commission does not include downstream greenhouse gas (GHG) emissions as indirect
effects of the Spire Project by finding that “Spire STL Pipeline Project is not intended to
meet an incremental demand for natural gas above existing levels” ultimately agreeing
with the protesters’ concerns that the Spire Project is not needed to meet market demand.
See Certificate Order, 164 FERC ¶ 61,085 at P 253.
31

EA at 148.

32

Id. at 146.

33

See supra note 17.

Docket Nos. CP17-40-000 and CP17-40-001

-9-

feasible and offers a “significant environmental advantage over the proposed action.” 34
In this case, where there is no demonstrated need for the project, where the adverse
effects have not been seriously considered, and the no-action alternative has been
prematurely dismissed, approving the Spire Project is flatly inconsistent with the
Certificate Policy Statement’s goal of “avoid[ing] unnecessary environmental and
community impacts while serving increasing demands for natural gas.” 35
*

*

*

Spire has not demonstrated that the Spire Project is needed or that the benefits of
the Project outweigh its harms. Either failure should have been enough for the
Commission to reject Spire’s application for a section 7 certificate. At the very least, the
Commission should have further examined the numerous issues of material fact raised by
the parties to the proceeding rather than brushing them blithely aside in its rush to issue
today’s decision. Under section 7 of the NGA, the pipeline bears the burden of proof to
show that the proposed project is in the public interest. 36 The Commission’s
unwillingness to take the parties’ protests seriously has the effect of flipping that burden
on its head. I do not believe that is what Congress had in mind when it vested the
Commission with sitting authority over interstate natural gas pipelines.
For all of these reasons, I respectfully dissent.

________________________
Richard Glick
Commissioner

34

EA at 147 (The EA concludes that “[i]f the Commission were to deny Spire’s
application, the Project would not be built and the environmental impacts identified in this
EA would not occur.”).
35
36

Certificate Policy Statement, 88 FERC at 61,743 (emphases added).

Atl. Ref. Co. v. FPC, 316 F.2d 677, 678 (D.C. Cir. 1963) (“The burden of
proving the public convenience and necessity is, of course, on the natural gas
company.”); see Williams Gas Processing—Gulf Coast Co., L.P. v. FERC, 331 F.3d
1011, 1021 (D.C. Cir. 2003) (“In a public interest analysis, the burden of proof is on the
applicant for abandonment to show . . . the public convenience and necessity.” (internal
quotation marks omitted)).

Exhibit F

169 FERC ¶ 61,074
UNITED STATES OF AMERICA
FEDERAL ENERGY REGULATORY COMMISSION
Before Commissioners: Neil Chatterjee, Chairman;
Richard Glick and Bernard L. McNamee.
Spire STL Pipeline LLC

Docket No. CP17-40-004
ORDER AMENDING CERTIFICATE
(Issued October 28, 2019)

On August 21, 2019, Spire STL Pipeline LLC (Spire) filed an application pursuant
to section 7(c) of the Natural Gas Act (NGA) 1 and Part 157 of the Commission’s
regulations 2 to amend its certificate of public convenience and necessity issued on
August 3, 2018, authorizing Spire to construct and operate a new 65-mile-long natural
gas pipeline system in Illinois and Missouri (Spire Project). 3 Spire proposes to revise its
initial cost-based recourse rates to reflect changes in the cost of construction of the
project. For the reasons discussed below, we approve Spire’s requested amendment.
1.

I.

Background and Proposal

Spire, an indirect wholly-owned subsidiary of Spire Inc., does not currently own
2.
any existing interstate natural gas pipeline facilities and is not engaged in any
jurisdictional natural gas transportation or storage operations. Upon commencement of
the operations of the Spire Project, Spire will become a natural gas company within the
meaning of section 2(6) of the NGA, 4 and, as such, will be subject to the jurisdiction of
the Commission.
The Certificate Order authorized Spire to construct and operate the Spire Project,
3.
consisting of a 65-mile-long pipeline system originating in Scott County, Illinois,
extending south through Greene and Jersey Counties, Illinois, then crossing the
Mississippi River and extending east through St. Charles County, Missouri, to the Chain
of Rocks Metering and Regulation Station in St. Louis County, Missouri. The project is
1

15 U.S.C. § 717f(c) (2018).

2

18 C.F.R. pt. 157 (2019).

3

Spire STL Pipeline LLC, 164 FERC ¶ 61,085 (2018) (Certificate Order).

4

15 U.S.C. § 717a(6).

Docket No. CP17-40-004

-2-

designed to provide up to 400,000 dekatherms (Dth) per day of firm transportation
service.
In its application, Spire states that when it filed the original certificate application,
4.
it included a good faith estimate of the Spire Project costs. However, Spire explains,
construction costs for the project have increased due to: (1) receiving its certificate
authorization after December 1, 2017, which resulted in corresponding delays in Spire’s
construction schedule, resulting in the need to commence construction during the 201819 winter season and 2019 spring season; (2) unanticipated wet weather, including
historic rainfall; (3) an unanticipated historic flood event of the Mississippi and Missouri
Rivers, topping levees and directly impacting the project’s right of way in St. Charles
County, Missouri; (4) an unanticipated number of required road improvements; and
(5) unanticipated costs associated with agricultural drain tile removal and replacement.
Accordingly, Spire requests to revise its initial recourse rates to reflect higher
construction costs.
Spire now estimates construction costs of $286,919,366, an increase of 30.25
5.
percent from the estimate of $220,276,167 authorized in the Certificate Order. 5
According to Exhibit K, Spire’s cost estimates include an increase of $43,336,935 in
Construction/Contractor Labor costs, $14,047,865 in Engineering & Inspection costs, and
$11,830,635 in Allowance for Funds Used During Construction (AFUDC) costs. Spire’s
revised project costs include a contingency amount of $2,200,000. 6
In light of these adjustments, Spire proposes to revise its initial recourse rates for
6.
firm transportation service under Rate Schedule FTS, interruptible transportation service
under Rate Schedule ITS, and park and loan service under Rate Schedule PALS. Spire’s
new proposed initial Rate Schedule FTS monthly reservation charge is $10.8579 per Dth,
compared to the reservation charge of $8.3296 per Dth authorized in the Certificate

5

Certificate Order, 164 FERC ¶ 61,085 at PP 128, 130, 139. The initial cost
estimates and rates approved by the Commission were filed by Spire on January 26,
2018, in response to a staff data request, to adjust the project cost of service to reflect
changes in the federal tax code as per the Tax Cuts and Jobs Act of 2017, Pub. L. 115-97,
131 Stat. 2054 (2017), which became effective January 1, 2018.
6

The Certificate Order approved estimated total project costs that included a
contingency of $17,126,393. See Certificate Order, 164 FERC ¶ 61,085 at PP 132-33.
Spire is retaining a contingency amount because it anticipates continued uncertainty due
to unanticipated weather conditions and outstanding final condemnation and county road
repair settlements.

Docket No. CP17-40-004

-3-

Order. 7 The new proposed initial Rate Schedule ITS and PALS charges are $0.3570 per
Dth, compared to the ITS and PALS charges of $0.2738 per Dth authorized in the
Certificate Order. 8 Spire’s usage charge of $0.000 per Dth will remain the same. 9
II.

Notice and Interventions

Notice of Spire’s amendment application was published in the Federal Register on
7.
August 30, 2019, with comments and interventions due by September 3, 2019. 10 On
September 3, 2019, the Missouri Public Service Commission (Missouri PSC) filed a
protest. No motions to intervene were filed.
Missouri PSC contends that Spire’s increased recourse rate should not reflect both
8.
the increased construction costs and a 14 percent return on equity (ROE). 11 Missouri
PSC reasons that the 14 percent ROE authorized in the Certificate Order was justified in
large part by the risk of construction cost overruns. 12 Thus, Missouri PSC argues that
Spire’s rates already account for the materialized risk of increased construction costs, and
it is unjustified and unnecessary to also increase the recourse rate to reflect those
increased costs. Missouri PSC also states that to the extent that Spire under-recovers
costs, it may file an NGA section 4 rate case to recoup those costs. 13

7

Certificate Order, 164 FERC ¶ 61,085 at P 128.

8

Id.

9

On August 30, 2019, in Docket No. RP19-1530-000, Spire filed actual tariff
records to place the Spire Project’s rates into effect, consistent with ordering para. (G) of
the Certificate Order and Part 154 of the Commission’s regulations. 18 C.F.R. pt. 154
(2019). The filing includes the revised initial recourse rates as Spire’s preferred tariff
record option and the initial recourse rates authorized in the Certificate Order as an
alternative option.
10

84 Fed. Reg. 45,747 (2019).

11

Missouri PSC September 3, 2019 Comment at 5.

12

Id. at 4-5.

13

Id. at 3.

Docket No. CP17-40-004
III.

-4-

Discussion

Because revising the initial cost-based recourse rate requires amending the
9.
authorization issued in the Certificate Order, Spire’s requests are subject to the
Commission’s jurisdiction and the requirements of NGA sections 7(c) and (e). 14
The Certificate Order approved the Spire Project in accordance with the
10.
Commission’s Certificate Policy Statement 15 and found that the project was required by
the public convenience and necessity. Spire’s proposal to revise its initial recourse rates
does not alter this finding.
Spire filed amended Exhibits K, L, N, and P to support its revised cost of service
11.
and has provided a detailed description of the events that occurred that resulted in the
proposed increased construction costs. Spire’s revised Exhibit K reflects known costs at
this stage of construction and provides a more accurate estimate of total project costs.
Additionally, we find that Spire’s adjustment to its AFUDC amount reflected in revised
Exhibit K reflects a more accurate representation of AFUDC accrual.
12.

The Commission has previously approved amendments to certificates to reflect
updated construction costs and has not reassessed the pipeline’s approved return in those
proceedings. 16 With respect to Missouri PSC’s contention that it is not just and
reasonable for Spire to include both a 14 percent ROE and cost overruns in its initial
rates, the approved ROE for the Spire Project is based on Commission policy to
incentivize new pipeline companies, such as Spire, to enter the market, and to reflect the
higher business risks new market entrants face when constructing a greenfield pipeline,
including greater regulatory and contractual risk, as well as the risk of potential increased
construction costs. 17 Specifically, the Commission takes into account the fact that
14

15 U.S.C. § 717f(c), (e).

15

Certification of New Interstate Natural Gas Pipeline Facilities, 88 FERC
¶ 61,227 (1999), clarified, 90 FERC ¶ 61,128, further clarified, 92 FERC ¶ 61,094
(2000) (Certificate Policy Statement).
16

See, e.g., RH energytrans, LLC, 168 FERC ¶ 61,004 (2019); Transcontinental
Gas Pipe Line Co., LLC, 165 FERC ¶ 61,154 (2018).
17

City of Oberlin v. FERC, No. 18-1248, slip op. at 18 (D.C. Cir. Sept. 6, 2019)
(upholding the Commission’s established policy allowing a 14 percent return on equity
for greenfield pipelines because of the different risks facing existing pipelines and
greenfield pipelines); see also Certificate Order, 164 FERC ¶ 61,085 at P 137 (citing
Rate Regulation of Certain Natural Gas Storage Facilities, Order No. 678, 115 FERC
¶ 61,343, at P 127 (2006) (explaining that existing pipelines who need only acquire

Docket No. CP17-40-004

-5-

greenfield pipelines have no existing customer base or pipeline system from which to
leverage, and may be constructing a significantly larger amount of facilities than existing
pipelines typically do. 18 In addition, greenfield pipelines bear the financial risk for any
unsubscribed capacity. Thus, contrary to Missouri PSC’s assertions, the 14 percent ROE
is not merely based on the fact that the costs underlying its rates are necessarily based on
estimates, but rather on the overall higher risk faced by Spire as a new market entrant
constructing a greenfield pipeline. 19
The Certificate Order also requires Spire to file a cost and revenue study at the end
13.
of its first three years of actual operation to justify its existing cost-based recourse rates,
or alternatively file an NGA section 4 rate case. 20 Providing this relevant information
will allow the Commission, as well as Missouri PSC, to determine if, and to what degree,
the pipeline may be overearning its costs. We therefore disagree with Missouri PSC that
the 14 percent ROE negates the need to increase Spire’s recourse rates to reflect the
increased cost of construction.
For these reasons, we approve Spire’s proposed revised initial recourse rates for
14.
firm and interruptible transportation service and park and loan service under Rate
Schedules FTS, ITS, and PALS for the Spire Project, as set forth in Spire’s amendment
application.
This order does not authorize any additional construction beyond what was
15.
authorized by the Certificate Order. Accordingly, the Commission’s action herein
qualifies for a categorical exclusion from the need for environmental review, as set forth
in section 380.4(a)(27) of the Commission's regulations. 21
The Commission on its own motion received and made a part of the record in this
16.
proceeding all evidence, including the application, and exhibits thereto, and all
comments, and upon consideration of the record,

financing for incremental expansions face less risk than “a greenfield project undertaken
by a new entrant in the market.”)).
18

See Mountain Valley Pipeline, LLC, 163 FERC ¶ 61,197, at P 56 (2018).

19

Certificate Order, 164 FERC ¶ 61,085 at P 137.

20

Certificate Order, 164 FERC ¶ 61,085 at P 140.

21

18 C.F.R. § 380.4(a)(27) (2019).

Docket No. CP17-40-004

-6-

The Commission orders:
(A) Spire’s request to amend the Certificate Order is granted, as discussed in
this order. In all other respects, the Certificate Order is unchanged.
(B) Revised initial rates for Rate Schedule FTS, ITS, and PALS are approved,
as discussed in the body of this order.
By the Commission. Commissioner Glick is concurring with a separate statement
attached.
(SEAL)

Kimberly D. Bose,
Secretary.

UNITED STATES OF AMERICA
FEDERAL ENERGY REGULATORY COMMISSION
Spire STL Pipeline LLC

Docket No. CP17-40-004
(Issued October 28, 2019)

GLICK, Commissioner, concurring:
I dissented from the Commission’s order issuing Spire STL Pipeline LLC (Spire
STL) a certificate of public convenience and necessity because there was nothing in the
record to indicate that the Spire Pipeline is needed. 1 If anything, the record was clear that
there is no need for the Spire Pipeline. In addition, I was concerned that overbuilding the
pipeline network in the St. Louis region would have adverse consequences for ratepayers
on existing pipelines. 2
1.

Nothing in the intervening 15 months has alleviated those concerns. Indeed, now
2.
three major pipelines serving the region have proposed significant rate increases that are
all due, at least in part, to the Spire Pipeline. 3 At no point to date has the Commission
adequately considered the effects on existing customers when evaluating whether the
Spire Pipeline is in the public interest or required by the public convenience and
necessity. Accordingly, although I concur in today’s order because I agree that Spire
STL has adequately justified its proposed rate increase in this proceeding, I remain
deeply concerned that the Commission’s public interest analysis misses the forest for the
trees in a manner that will only hurt consumers throughout the region.

1

Spire STL Pipeline LLC, 164 FERC ¶ 61,085 (2018) (Glick, Comm’r, dissenting

at 1-4).
2
3

Id. (Glick, Comm’r, dissenting at 4-6).

In addition, to the Spire Pipeline, MoGas Pipeline LLC (MoGas) and Enable
Mississippi River Transmission, LLC (MRT) have also filed to increase their rates. See
MRT Transmittal Letter, Docket No. RP18-923-00, at 3-4 (June 29, 2018) (proposing a
rate increase primarily due to the decision by Spire STL’s affiliate, Spire Missouri Inc., to
shift its capacity reservations to the Spire Pipeline); MoGas Transmittal Letter, Docket
No. RP18-877-000, at 2 (May 31, 2018) (explaining that a rate discount for Spire
Missouri was one of the principal causes of its proposed rate increase); MoGas Answer,
Docket No. RP18-877-000, at 4-5 (June 18, 2018) (explaining that MoGas was forced to
offer Spire Missouri the discounted rate because of the Spire Pipeline).

Docket No. CP17-40-004
For these reasons, I respectfully concur.
______________________________
Richard Glick
Commissioner

-2-

Exhibit G

169 FERC ¶ 61,134
UNITED STATES OF AMERICA
FEDERAL ENERGY REGULATORY COMMISSION
Before Commissioners: Neil Chatterjee, Chairman;
Richard Glick and Bernard L. McNamee.
Spire STL Pipeline LLC

Docket No. CP17-40-002
ORDER ON REHEARING
(Issued November 21, 2019)

On August 3, 2018, the Commission issued Spire STL Pipeline LLC (Spire STL) a
1.
certificate of public convenience and necessity under section 7(c) of the Natural Gas Act
(NGA)1 and Part 157 of the Commission’s regulations2 to construct and operate the Spire
STL Pipeline Project (Spire Project) extending from an interconnection with Rockies
Express Pipeline LLC (REX) in Scott County, Illinois, to interconnections with both
Spire Missouri, Inc. (Spire Missouri) and Enable Mississippi River Transmission, LLC
(MRT), in St. Louis County, Missouri.3 The Missouri Public Service Commission
(Missouri PSC), MRT, the Environmental Defense Fund, and Juli Viel filed timely
requests for rehearing. This order dismisses, rejects, or denies the requests for rehearing.
I.

Background

2.

The Spire Project is a new pipeline system designed to provide
400,000 dekatherms per day (Dth/day) of new pipeline transmission service to markets in
the St. Louis metropolitan area, eastern Missouri, and southwest Illinois. The project
includes a new 24-inch-diameter, 65-mile pipeline that will be constructed in two
segments: a 59-mile segment originating at a new interconnection with REX in Scott
County, Illinois, and terminating at a new interconnection with Spire Missouri’s Lange
Delivery Station; and a 6-mile segment, known as the North County Extension,
originating at Spire Missouri’s Lange interconnection and terminating at a new
bidirectional interconnection with both MRT and Spire Missouri at the Chain of Rocks
1

15 U.S.C. § 717f(c) (2018).

2

18 C.F.R. pt. 157 (2019).

3

Spire STL Pipeline LLC, 164 FERC ¶ 61,085 (2018) (Certificate Order).

Docket No. CP17-40-002

-2-

Station interconnect. The project also includes three new aboveground meter and
regulating stations, interconnection facilities, and other appurtenant facilities.
Spire STL proposes to reconfigure MRT’s existing Chain of Rocks Station
3.
interconnect with Spire Missouri to accommodate bidirectional interconnection flows
between the Spire Project and MRT. MRT will continue to make physical deliveries at
Chain of Rocks; however, those deliveries will be received into Spire STL’s facilities for
redelivery to Spire Missouri, rather than directly into Spire Missouri’s facilities. In
addition, the new bi-directional Chain of Rocks Station interconnect will enable Spire
STL to make physical or displacement deliveries into MRT’s system at Chain of Rocks,
to the extent permitted by MRT. All changes associated with the MRT Chain of Rocks
Station interconnect will be performed at the sole cost of Spire STL.
In the Certificate Order, the Commission agreed with the conclusions presented in
4.
the Environmental Assessment (EA) and adopted the EA’s environmental conditions as
modified in the order. The Certificate Order determined that the Spire Project, if
constructed and operated as described in the EA, would not significantly affect the
environment and is required by the public convenience and necessity.
5.

Missouri PSC, MRT, the Environmental Defense Fund, and Ms. Viel filed timely
requests for rehearing of the Certificate Order.
II.

Procedural Matters
A.

Withdrawal of Rehearing Request

On September 9, 2019, MRT filed a notice of withdrawal of its request for
6.
rehearing.
Pursuant to Rule 216 of the Commission’s Rules of Practice and Procedure,4 the
withdrawal of any pleading is effective at the end of 15 days from the date of the filing, if
no motion in opposition to the notice of withdrawal is filed within that period and if the
Commission takes no action disallowing withdrawal. The Commission did not receive
any motions in opposition to the notice of withdrawal and we are not taking action to
disallow MRT’s withdrawal. Accordingly, MRT’s August 31, 2018 request for rehearing
is withdrawn.
7.

B.

Motion for Stay

8.

On November 16, 2018, Ms. Viel filed a motion requesting that the Commission
stay the Certificate Order and revoke the notice to proceed pending issuance of an order
4

18 C.F.R. § 385.216 (2019).

Docket No. CP17-40-002

-3-

on rehearing.5 On November 30, 2018, Spire STL filed an answer to Ms. Viel’s request
for stay. Our rules permit answers to motions; accordingly, we accept Spire STL’s
answer to Ms. Viel’s stay motion.6 However, this order addresses and dismisses, rejects,
or denies the requests for rehearing; as a result, we dismiss the request for stay as moot.
C.

The Commission Appropriately Denied an Evidentiary Hearing

The Environmental Defense Fund argues that the Commission must hold an
9.
evidentiary hearing to resolve substantial disputed issues.7 Specifically, the
Environmental Defense Fund states that a hearing would resolve whether: (1) precedent
agreements with an affiliated shipper demonstrate sufficient need for the project;8
(2) potential increased costs will harm captive customers;9 (3) the project will cause
adverse operational impacts to MRT’s system;10 and (4) the project will increase system
reliability.11 The Environmental Defense Fund contends that where, as here, genuine
issues of material fact exist and cannot be resolved on the written record, the
Commission’s “obligation to hold an evidentiary hearing is mandatory, not
discretionary.”12 Additionally, the Environmental Defense Fund states that the
Commission may not resolve matters on a written record when there are issues over:
(1) motive, intent, or credibility or (2) a disputed past event.13 Here, the Environmental
Defense Fund claims both are present, including examples of affiliate abuse between
Spire STL and Spire Missouri14 and a dispute over Spire Missouri’s decision to obtain
5

Ms. Viel November 16, 2018 Request for Stay.

6

18 C.F.R. § 385.213(d) (2019).

7

Environmental Defense Fund Request for Rehearing at 4-10.

8

Id. at 4-5.

9

Id. at 8.

10

Id. at 8-9.

11

Id. at 9-10.

12

Id. at 4.

13

Id. at 6 (citing Union Pac. Fuel, Inc. v. FERC, 129 F.3d 157, 164 (D.C. Cir.

1997)).
14

Id. at 6-7.

Docket No. CP17-40-002

-4-

service from Spire STL, but not other similar unaffiliated projects.15 The Environmental
Defense Fund argues that the Commission’s failure to hold an evidentiary hearing to
address these issues is inconsistent with the requirements of due process.16
We disagree that our denial of the Environmental Defense Fund’s request for an
10.
evidentiary hearing in the Certificate Order was a denial of due process. The purpose of
the NGA section 7(c) hearing requirement is to “permit … all interested parties to be
heard and therefore facilitate full presentation of the facts necessary” to the
Commission’s decision regarding a certificate application.17 An evidentiary, trial-type
hearing is necessary only where there are material issues of fact in dispute that cannot be
resolved on the basis of the written record.18 No party has raised a material issue of fact
that the Commission cannot resolve on the basis of the written record. Even when
disputed facts are at issue, the Commission need not hold a trial-type hearing if the issues
may be adequately resolved on the basis of the written record.19 As demonstrated by the
discussion below, the existing written record provides a sufficient basis to resolve the
issues relevant to this proceeding. The Commission has done all that is required by
giving interested parties an opportunity to participate through evidentiary submission in
written form.20 Therefore, we will deny the request for a trial-type evidentiary hearing.

15

Id. at 7.

16

Id. at 5.

17

Cascade Natural Gas Corp. v. FERC, 955 F.2d 1412, 1425 (10th Cir. 1992)
(quoting United Gas Pipe Line Co. v. McCombs, 442 U.S. 529, 538 (1979)).
18

See, e.g., S. Union Gas Co. v. FERC, 840 F.2d 964, 970 (D.C. Cir.
1988); Dominion Transmission, Inc., 141 FERC ¶ 61,183, at P 15 (2012).
19

See CNG Transmission Corp. v. FERC, 40 F.3d 1289, 1293 (D.C. Cir.
1994); Public Util. Comm’n of Cal. v. FERC, 24 F.3d 275, 282 (D.C. Cir. 1994); Moreau
v. FERC, 982 F.2d 556, 568 (D.C. Cir. 1993) (Moreau); Ala. Power Co. v. FERC, 993
F.2d 1557, 1565-66 (D.C. Cir. 1993); Citizens for Allegan Cnty, Inc. v. FPC, 414 F.2d
1125, 1129 (D.C. Cir. 1969).
20

Moreau, 982 F.2d 556 at 568.

Docket No. CP17-40-002
III.

-5-

Discussion
A.

The Certificate Order Complied with the Requirements of the NGA
1.

The Certificate Order Complied With The Certificate Policy
Statement

The Environmental Defense Fund argues that the Commission violated the NGA
by failing to establish that the Spire Project is required by present or future public
convenience and necessity.21 Specifically, the Environmental Defense Fund asserts that
the Commission: (1) inappropriately relied on precedent agreements between Spire STL
and its affiliate, Spire Missouri, to establish need;22 (2) failed to find sufficient need for
the project in order to prevent overbuilding;23 (3) failed to explain how approval of the
project will not impact Missouri PSC’s review of utility costs;24 (4) did not balance the
impacts of the project on existing pipelines and their customers;25 and (5) did not balance
the impacts of the project on landowners and the environment.26
11.

a.

Precedent Agreements with Affiliated Shippers Are
Appropriate Indicators of Project Need

The Environmental Defense Fund asserts that the Certificate Order violated the
12.
Certificate Policy Statement when it relied on a single precedent agreement between
Spire STL and its affiliate to demonstrate need for the project.27 The Environmental
Defense Fund argues that the Commission skirted its NGA section 7 duty to protect
consumers by relying exclusively on an affiliate precedent agreement and failing to look

21

Environmental Defense Fund Request for Rehearing at 10-15.

22

Id. at 10-16.

23

Id. at 19.

24

Id. at 15-17.

25

Id. at 17-18.

26

Id. at 19-22.

27

Id. at 10.

Docket No. CP17-40-002

-6-

behind that sole piece of evidence based on the guise that the Commission will not
second guess the business decisions of local distribution companies.28
The Environmental Defense Fund argues that the Commission must rigorously
13.
evaluate the agreements that a pipeline makes with its affiliate.29 The Environmental
Defense Fund states that “[t]he hallmark characteristic of arm’s length bargaining is that
it is negotiated rigorously, selfishly and with an adequate concern for price. If the
negotiating parties have common economic interest in the outcome of negotiations, their
bargaining is not at arm’s length.”30 The Environmental Defense Fund claims that the
Certificate Order directly contradicted this finding and ignored the fact that transactions
between affiliates create special concerns because they can never be arms-length.31
We disagree and affirm the Certificate Order’s finding that the Commission is not
14.
required to look behind precedent agreements to evaluate project need, regardless of the
affiliate status of the project shipper.32 The Certificate Policy Statement established a
28

Environmental Defense Fund Request for Rehearing at 11 (citing Atl. Refining
Co. v. P.S.C. of N.Y., 360 U.S. 378, 388 (1959); Mo. Pub. Serv. Comm’n v. FERC, 601
F.3d 581, 583 (D.C. Cir. 2010); Ca. Gas Producers Ass’n v. FPC, 421 F.2d 422, 428-29
(9th Cir. 1970)).
29

Id. at 11, 16.

30

Id. at 13 (citing Seaway Crude Pipeline Co., LLC, 154 FERC ¶ 61,070, at P 93

(2010)).
31
32

Id. at 14.

Certificate Order, 164 FERC ¶ 61,085 at P 75 (citing Millennium Pipeline Co.
L.P., 100 FERC ¶ 61,277, at P 57 (2002) (Millennium) (“as long as the precedent
agreements are long-term and binding, we do not distinguish between pipelines’
precedent agreements with affiliates or independent marketers in establishing the market
need for a proposed project”). See Certification of New Interstate Natural Gas Pipeline
Facilities, 88 FERC ¶ 61,227, at 61,748 (1999) (Certificate Policy Statement), clarified,
90 FERC ¶ 61,128, further clarified, 92 FERC ¶ 61,094 (2000) (Order Clarifying Policy
Statement) (explaining that the Commission’s policy is less focused on whether the
contracts are with affiliated or unaffiliated shippers and more focused on whether existing
ratepayers would subsidize the project); Certificate Policy Statement, 88 FERC ¶ 61,227
at 61,744 (the Commission does not look behind precedent agreements to question the
individual shippers’ business decisions to enter into contracts) (citing Transcontinental
Gas Pipe Line Corp., 82 FERC ¶ 61,084, at 61,316 (1998) (Transcontinental)). See also
Fla. Se. Connection, LLC, 163 FERC ¶ 61,158, at P 23 (2018) (“The mere fact that

Docket No. CP17-40-002

-7-

new policy under which the Commission would allow an applicant to rely on a variety of
relevant factors to demonstrate need, rather than continuing to require that a percentage
of the proposed capacity be subscribed under long-term precedent or service
agreements.33 These factors might include, but are not limited to, precedent agreements,
demand projections, potential cost savings to customers, or a comparison of projected
demand with the amount of capacity currently serving the market.34 The Commission
stated that it would consider all such evidence submitted by the applicant regarding
project need. Nonetheless, the policy statement made clear that, although companies are
no longer required to submit precedent agreements for Commission review, these
agreements are still significant evidence of project need or demand.35 As the court held
in Minisink Residents for Environmental Preservation and Safety v. FERC,36 the
Commission may reasonably accept the market need reflected by the applicant’s existing
contracts with shippers.37 The dissent notes that Minisink Residents did not involve
precedent agreements with affiliates; however, we find this is a distinction without a
difference. The D.C. Circuit has subsequently upheld the Commission’s reliance on
precedent agreements to support a finding of market need in a case that did involve
affiliates, stating that “the fact that the agreements are with corporate affiliates does not
render [the Commission’s] decision to rely on these agreements arbitrary and

Florida Power & Light is an affiliate of Florida Southeast does not call into question the
need for the project or otherwise diminish the showing of market support.”).
33

Certificate Policy Statement, 88 FERC ¶ 61,227 at 61,747. As we explained in
the Certificate Order, prior to the Certificate Policy Statement, the Commission required
a new pipeline project to have contractual commitments for at least 25 percent of the
proposed project’s capacity. The Spire Project, at 87.5 percent subscribed, would have
satisfied this prior, more stringent, requirement. Certificate Order, 164 FERC ¶ 61,085 at
n.131.
34

Certificate Policy Statement, 88 FERC ¶ 61,227 at 61,747.

35

Id. at 61,747.

36

762 F.3d 97 (D.C. Cir. 2014) (Minisink Residents).

37

Minisink Residents, 762 F.3d at 110 n.10; see also Fla. Se. Connection, LLC,
154 FERC ¶ 61,080, at P 67 n.39 (2016), order on reh’g, 156 FERC ¶ 61,160 (2016),
vacated sub nom. Sierra Club v. FERC, 867 F.3d 1359 (D.C. Cir. 2017) (Sabal Trail)
(finding that pipeline project proponent satisfied Commission’s “market need” where
93 percent of the pipeline project’s capacity has already been contracted).

Docket No. CP17-40-002

-8-

capricious.”38 Moreover, it is current Commission policy not to look behind precedent or
service agreements to make judgments about the needs of individual shippers.39
Likewise, Minisink Residents confirms that nothing in the Certificate Policy Statement,
nor any precedent construing it, indicates that the Commission must look beyond the
market need reflected by the applicant’s contracts with shippers.40
Affiliation with a project sponsor does not lessen a shipper’s need for capacity and
15.
its contractual obligation to pay for its subscribed service.41 The dissent asserts that the
Commission must “carefully scrutinize the record to determine whether the Spire
Pipeline is actually needed or just financially advantageous to the Spire Companies.”42
“[A]s long as the precedent agreements are long term and binding, we do not distinguish
between pipelines’ precedent agreements with affiliates or independent marketers in
establishing market need for a proposed project.”43 We find that the relationship between
Spire STL and Spire Missouri will neither lessen Spire Missouri’s need for new capacity
38

Appalachian Voices v. FERC, No. 17-1271, at 3 (D.C. Cir. Feb. 19, 2019); see
City of Oberlin, Ohio v. FERC, 937 F.3d 599, 605 (D.C. Cir. 2019) (finding petitioners’
argument that precedent agreements with affiliates are not the product of arms-length
negotiations without merit, because the Commission explained that there was no evidence
of self-dealing and stated that the pipeline would bear the risk of unsubscribed capacity).
39

Certificate Policy Statement, 88 FERC at 61,744 (citing Transcontinental,
82 FERC ¶ 61,084 at 61,316). See Millennium, 100 FERC ¶ 61,277 at P 57 (“as long as
the precedent agreements are long-term and binding, we do not distinguish between
pipelines’ precedent agreements with affiliates or independent marketers in establishing
the market need for a proposed project”).
40

Minisink Residents, 762 F.3d at 112 n.10. See also Myersville Citizens for a
Rural Community, Inc. v. FERC, 783 F.3d 1301, 1311 (D.C. Cir. 2015) (Myersville)
(rejecting argument that precedent agreements are inadequate to demonstrate market
need).
41

See Mountain Valley Pipeline, LLC & Equitrans, L.P., 161 FERC ¶ 61,043, at
P 45 (2018), order on reh’g, 163 FERC ¶ 61,197, at P 90, aff’d, Appalachian Voices v.
FERC, No. 17-1271, at 3 (D.C. Cir. Feb. 19, 2019) (Mountain Valley). See also, e.g.,
Greenbrier Pipeline Co., LLC, 101 FERC ¶ 61,122, at P 59 (2002), reh’g denied,
103 FERC ¶ 61,024 (2003).
42
43

Dissent at P 7.

Millennium, 100 FERC ¶ 61,277 at P 57 (citing Tex. E. Transmission Corp.,
84 FERC ¶ 61,044 (1998).

Docket No. CP17-40-002

-9-

nor diminish Spire Missouri’s obligation to pay for its capacity under the terms of its
contract.44 The Commission evaluated the record and did not find evidence of
impropriety or self-dealing to indicate anti-competitive behavior or affiliate abuse.45 The
Commission is not in the position to evaluate Spire Missouri’s business decision to enter
a contract with Spire STL for natural gas transportation, which as described below will be
evaluated by the state commission.46
As the Certificate Order explained, issues related to a utility’s ability to recover
16.
costs associated with its decision to subscribe for service on the Spire Project involve
matters to be determined by the relevant state utility commissions; those concerns are
beyond the Commission’s jurisdiction.47 The review that the Environmental Defense
Fund seeks in this proceeding,48 looking behind the precedent agreements entered into by
state-regulated utilities, would infringe upon the role of state regulators in determining
the prudence of expenditures by the utilities that they regulate.49
When considering applications for new certificates, the Commission’s sole
17.
concern regarding affiliates of the pipeline as shippers is whether there may have been
undue discrimination against a non-affiliate shipper.50 We affirm the Certificate Order’s
determination and find that no valid allegations of undue discrimination have been made
against Spire STL.51

44

Further, without compelling record evidence, we will not speculate on the
motives of a regulated entity or its affiliate.
45

Id. PP 77, 83 & 86.

46

Id. at P 33; see supra n.32,

47

Id. PP 85, 87.

48

Environmental Defense Fund Request for Rehearing at 11, 16.

49

Certificate Order, 164 FERC ¶ 61,085 at P 75.

50

See 18 C.F.R. § 284.7(b) (2019) (requiring transportation service to be provided
on a non-discriminatory basis).
51

Certificate Order, 164 FERC ¶ 61,085 at P 75; see City of Oberlin, Ohio v.
FERC, 937 F.3d at 605-606.

Docket No. CP17-40-002

- 10 -

The Environmental Defense Fund states that the Certificate Order erred by
18.
dismissing ample record evidence of affiliate abuse.52 Specifically, the Environmental
Defense Fund argues that the Certificate Order missed the mark when it said that its
primary concern with affiliate precedent agreements was whether the company unduly
discriminated against a non-affiliate.53 Instead, the Environmental Defense Fund
contends that the Commission should perform a heightened review of local distribution
company (LDC)-affiliate midstream companies, because they raise the concern “that a
franchised public utility and an affiliate may be able to transact in ways that transfer
benefits from captive customers of the franchised public utility to the affiliate and its
shareholders.”54
19.

A majority of the Environmental Defense Fund’s arguments regarding
anticompetitive behavior and discrimination involve allegations against Spire Missouri,
the affiliate shipper, rather than Spire STL, the regulated pipeline company in this case.55
We affirm the Certificate Order’s finding that Spire Missouri is not regulated by this
Commission and thus we have no authority to dictate its practices for procuring
services.56 Our jurisdiction does not extend to costs incurred by LDCs or the rates they
charge to their retail customers. State regulatory commissions are responsible for
approving any expenditures by state-regulated utilities.57
20.

We can and do require jurisdictional pipelines proposing to construct new capacity
to have an open season to ensure that any new capacity is allocated among all potential
shippers on a not unduly discriminatory basis.58 Spire STL held an open season for
52

Environmental Defense Fund’s Request for Rehearing at 11-12.

53

Id. at 13.

54

Id. (quoting Cross-Subsidization Restrictions on Affiliate Transactions, Order
No. 707, 122 FERC ¶ 61,155, at P 4 (2008)).
55

Environmental Defense Fund Request for Rehearing at 12.

56

Certificate Order, 164 FERC ¶ 61,085 at P 76.

57

See, e.g., Sabal Trail, 154 FERC ¶ 61,080 at P 67 n.39 (where the Commission
rejected an argument of a protestor that the project would result in subsidization because
the Florida Public Service Commission issued an order stating that shipper Florida Power
& Light may pass the costs of the pipeline onto its ratepayers).
58

See Pine Prairie Energy Center, LLC, 135 FERC ¶ 61,168, at P 30 (2011),
order on reh’g, 137 FERC ¶ 61,060, at P 21 (2011).

Docket No. CP17-40-002

- 11 -

capacity on the Spire Project, and all potential shippers had an opportunity to contract for
service. Following the open season, Spire STL entered into a long-term, firm precedent
agreement with Spire Missouri for 87.5 percent of the full design capacity of the
project.59 This information was publicly available in the record.60
Finally, project rates are calculated based on design capacity; therefore, Spire STL
21.
will be at risk for unsubscribed capacity, giving it a powerful incentive to market the
remaining unsubscribed capacity and serving as strong deterrent to constructing pipelines
not supported by market demand.61 In addition, to confirm the legitimacy of the financial
commitments agreed to in affiliate precedent agreements, and thereby confirm the
financial viability of the project, Spire STL filed a written statement affirming that it
executed contracts for service at the levels provided for in the precedent agreements as
required by Ordering Paragraph (E) of the Certificate Order.62 Therefore, Spire STL’s
identified affiliation with Spire Missouri does not alter the basis for our finding that there
is a market need for the project and the project is required by the public convenience and
necessity.
b.

The Commission Found Sufficient Need for the Spire
Project To Prevent Overbuilding

22.

The Environmental Defense Fund argues that the Certificate Order failed to
address any claims of overbuilding.63 Specifically, the Environmental Defense Fund
states that the Certificate Order failed to address its contention that there is no need for
the project because the Spire Project brings duplicative sources of natural gas to the St.

59

See Certificate Order, 164 FERC ¶ 61,085 at P 10.

60

See Myersville, 783 F.3d at 1311 (observing that an affidavit and motions to
intervene constituted substantial evidence that pipeline was subscribed).
61

We also note that Spire STL will be required to comply with the Commission’s
Part 358 Standards of Conduct, which require Spire STL to treat all customers, whether
affiliated or non-affiliated, on a non-discriminatory basis. 18 C.F.R. pt. 358 (2019).
Spire STL’s tariff incorporates these requirements. See Spire STL’s Application at
Exhibit P-1 (Tariff).
62

See Spire STL’s September 24, 2018 Letter. See also Certificate Order,
164 FERC ¶ 61,085 at Ordering Para. (E).
63

Environmental Defense Fund’s Request for Rehearing at 19.

Docket No. CP17-40-002

- 12 -

Louis market area from REX and the Marcellus production region.64 The dissent also
contends that we ignored evidence of: (1) lack of market demand due to flat demand in
the St. Louis market area and (2) evidence that Spire Missouri could have accessed its
capacity from other projects.
Commission policy is to examine the merits of individual projects and assess
23.
whether each project meets the specific need demonstrated. Projections regarding future
demand often change and are influenced by a variety of factors, including economic
growth, the cost of natural gas, environmental regulations, and legislative and regulatory
decisions by the federal government and individual states. Given this uncertainty
associated with long-term demand projections, where an applicant has precedent
agreements for long-term firm service, the Commission deems the precedent agreements
to be the better evidence of demand. We recognize that the current load forecasts for the
St. Louis market area are flat and that the capacity created by the Spire Project will
enable a diversification of supply alternatives, rather than necessarily supply additional
volumes of gas to serve new demand.65 However, where, as here, it is demonstrated that
a specific shipper has entered into precedent agreements for project service, the
Commission places substantial reliance on those agreements to find that the capacity to
be provided by the project is needed.66
As the Certificate Order explained, Spire Missouri noted several reasons other
24.
than load growth for entering into a precedent agreement with Spire STL, including: the
ability to access supplies flowing on REX with direct access to a liquid supply point in
close proximity to its distribution system and away from a seismic zone; enhancing the
reliability of its system; the inability of current pipelines to provide an additional
350,000 Dth/day of firm transportation service; and the planned retirement of its propane
peaking facilities and replacement with pipeline capacity.67 We find these benefits
sufficient to overcome any concerns of overbuilding. Based on the record, we find no
reason to second guess the business decision of this shipper given the substantial

64

Id.

65

Certificate Order, 164 FERC ¶ 61,085 at P 107.

66

See Mountain Valley, 161 FERC ¶ 61,043 at P 42, order on reh’g, 163 FERC
¶ 61,197 at PP 35-44, aff’d, Appalachian Voices v. FERC, No. 17-1271 at 2.
67

Certificate Order, 164 FERC ¶ 61,085 at P 84.

Docket No. CP17-40-002

- 13 -

financial commitment required under executed contracts,68 and based on this policy and
Commission precedent, we find no need to do so here.69
c.

The Certificate Order Does Not Impact Missouri PSC’s
Review

The Environmental Defense Fund argues that the Commission confuses its
25.
authority to determine whether there is need for the project with Missouri PSC’s
authority to review Spire Missouri’s business decisions.70 The Environmental Defense
Fund further disagrees with the Certificate Order’s contention that the Missouri PSC will
be able to disallow recovery of some of Spire Missouri’s costs.71 The Environmental
Defense Fund argues that Missouri PSC’s retrospective Annual Cost Adjustment and
Purchase Gas Adjustment processes are just and reasonable processes only when the
Commission regulates transportation charges passed through that mechanism.72 The
Environmental Defense Fund states that the Certificate Order created a gap in regulation
when it held that issues of inappropriate self-dealing between the pipeline and its affiliate
are issues properly before this Commission, but then failed to look behind the affiliate
precedent agreements by arguing that evaluation of those agreements are properly before
state regulators.73

68

See Millennium, 100 FERC ¶ 61,277 at P 201. See also Midwestern Gas
Transmission Co., 116 FERC ¶ 61,182, at P 42 (2006); S. Natural Gas Co., 76 FERC
¶ 61,122, at 61,635 (1996), order issuing certificate and denying reh’g, 79 FERC
¶ 61,280 (1997), order amending certificate and denying stay and reh’g, 85 FERC
¶ 61,134 (1998), aff’d, Midcoast Interstate Transmission, Inc. v. FERC, 198 F.3d 960
(D.C. Cir. 2000) (Southern Natural).
69

See, e.g., Mountain Valley, 161 FERC ¶ 61,043 at P 53; Atlantic Coast Pipeline,
LLC, 161 FERC 61,042, at PP 59-60 (2017); E. Shore Natural Gas Co., 132 FERC
¶ 61,204, at PP 30-33 (2010) (Eastern Shore); Southern Natural, 76 FERC ¶ 61,122 at
61,635; Williams Natural Gas Co., 70 FERC ¶ 61,306, at 61,924 (1995); Tenn. Gas
Pipeline Co., 69 FERC ¶ 61,239, at 61,901 (1994).
70

Environmental Defense Fund Request for Rehearing at 15-17.

71

Id. at 16-17.

72

Id. at 15.

73

Id. at 16.

Docket No. CP17-40-002

- 14 -

The Environmental Defense Fund misunderstands the Commission’s and Missouri
26.
PSC’s responsibilities. First, as discussed at length in the Certificate Order, the
Commission found that the Spire Project is required by the public convenience and
necessity.74 The Commission did not delegate or attempt to delegate its NGA section 7
authority to any other entity. Second, the Commission evaluates whether there is any
inappropriate self-dealing between a pipeline and its affiliate. As explained above, the
Commission finds that Spire STL did not engage in anticompetitive behavior or affiliate
abuse.75 The Certificate Order delegated none of these responsibilities to the Missouri
PSC.
As a state regulator, Missouri PSC evaluates issues related to Spire Missouri’s
27.
ability to recover costs associated with its decision to subscribe for service on the Spire
Project. Those concerns are beyond the scope of the Commission’s jurisdiction. We
affirm the Certificate Order’s finding that Missouri PSC’s Purchased Gas Adjustment and
Annual Cost Adjustment processes protect Spire Missouri’s customers from imprudently
incurred costs.76 It is for this reason that the Certificate Order concluded that any attempt
by the Commission to look behind the precedent agreements in this proceeding might
infringe upon the role of state regulators in determining the prudency of expenditures by
the utilities that they regulate.77 Our finding in no way diminishes Missouri PSC’s
processes for protecting customers from excessive rates or imprudently incurred costs.
Further, the dissent and Environmental Defense Fund gloss over the important role
28.
played by the Missouri PSC, which is responsible for setting retail rates for Spire
Missouri. 78 As discussed above, the Missouri PSC will disallow costs that are not
justified according to Missouri state law after considering the interests of Missouri

74

Certificate Order, 164 FERC ¶ 61,085 at PP 72-84, 107-123.

75

See P 17, supra. See also Certificate Order, 164 FERC ¶ 61,085 at P 86.

76

Certificate Order, 164 FERC ¶ 61,085 at P 86.

77

Id. P 87.

78

The Missouri PSC’s supervision of the contracts boosts their probative value.
See Guardian Pipeline, L.L.C, 91 FERC ¶ 61,285, at 61,966-67 (2000) (citing Southern
Natural, 76 FERC ¶ 61,122 at 61,635) (“It is also the Commission’s preference not to
second guess the business decisions of end users or challenge the business decision of an
end user on whether it is economic to undertake direct service from a pipeline supplier,
particularly when that decision has been approved by the appropriate state regulatory
body.”).

Docket No. CP17-40-002

- 15 -

ratepayers, among other interests.79 We reiterate that matters relating to Spire Missouri’s
retail rates are matters for the Missouri PSC and are beyond the scope of an NGA
section 7 proceeding.80
d.

The Certificate Order Balanced the Adverse Impacts on
Existing Pipelines and Their Customers

The Environmental Defense Fund argues that the Certificate Order avoids any
29.
substantive analysis of whether and to what extent the Spire Project provides an
economic and rate benefit to Spire Missouri’s customers.81 The Environmental Defense
Fund disagrees with the Certificate Order’s finding that any adverse impacts on existing
pipelines or their customers are speculative;82 rather, the Environmental Defense Fund
asserts that existing pipelines in the area will see a drop in utilization when the project
commences service.83
The Certificate Order evaluated the Spire Project’s impacts on existing pipelines
30.
and their customers. Specifically, the order found that although the Spire Project would
bring up to 400,000 Dth/day of new pipeline capacity into the St. Louis area, this capacity
is not meant to serve new demand because current load forecasts for the region are flat
for the foreseeable future.84 We agree with the Environmental Defense Fund’s market
characterization that without new demand, existing pipelines in the area, particularly

79

The Missouri PSC has the jurisdiction and authority to regulate rates and
charges for the sale of natural gas to consumers within Missouri. See Missouri PSC
February 2, 2017 Motion to Intervene (Accession No. 20170203-5054).
80

See Certificate Order, 164 FERC ¶ 61,085 at P 87 n.38 (“Issues related to Spire
Missouri’s ability to recover costs associated with its decision to subscribe for service on
the Spire STL Pipeline Project involve matters to be determined by the relevant state
utility commissions; those concerns are beyond the Commission’s jurisdiction.”).
81

Environmental Defense Fund Request for Rehearing at 17-18.

82

Id. at 18 (citing Certificate Order, 164 FERC ¶ 61,085 at P 115).

83

Environmental Defense Fund’s Request for Rehearing at 18.

84

Certificate Order, 164 FERC ¶ 61,085 at P 107.

Docket No. CP17-40-002

- 16 -

MRT,85 will likely see a drop in utilization once supplies begin to flow on the project.86
Namely, Spire Missouri’s contracted capacity on the Spire Project will replace the
transportation capacity Spire Missouri holds on MRT’s system. However, as
acknowledged by Spire STL, Spire Missouri, and MRT, many of Spire Missouri’s
contracts with MRT reached or are approaching the end of their terms.87 The Certificate
Order evaluated cost differences of gas delivered to Spire Missouri from both the Spire
Project and MRT’s existing system and found that the differences in costs were not
materially significant.88 The extent to which the Spire Project will provide economic and
rate benefits to Spire Missouri’s customers, all go to the reasonableness and prudence of
Spire Missouri’s decision to switch transportation providers. All of those issues fall
within the scope of the business decision of a shipper. Thus, we find Spire Missouri’s
evaluation of its contracts appropriate and will not second guess the business decisions of
an end user.
We acknowledge the dissent’s concern that the Spire Project will lead to
31.
unsubscribed capacity on MRT’s system and adversely impact its captive customers;
however, there is no showing that these impacts are a result of unfair competition.89 The
85

MRT’s East Line currently delivers gas to Spire Missouri via interconnections
with the Natural Gas Pipeline Company of America, LLC and Trunkline.
86

Certificate Order, 164 FERC ¶ 61,085 at P 107.

87

See id. n.155 (citing MRT’s February 27, 2017 Protest at 12-14) (“Spire
Missouri’s largest contract still in effect with MRT, Contract No. 3310, is for
660,329 Dth per day of capacity; 437,240 Dth per day of that capacity expires on July 31,
2018. However, on June 28, 2018, Spire Missouri and MRT executed a contract for
437,240 Dth per day of transportation service from August 1, 2018 to July 31, 2019. As
of November 1, 2018, Spire Missouri’s remaining contracts with MRT will be for
223,089 Dth per day under Contract No. 3310, expiring in 2020; and for 75,000 Dth per
day under Contract No. 3311, expiring in 2020.”).
88
89

Id. P 108.

Certification of New Interstate Natural Gas Facilities, 163 FERC ¶ 61,042, at
P 29 (2018); Questar Pipeline Co., 142 FERC ¶ 61,127, at P 17 n.15 (2013) (“The
Commission explained what constitutes unfair competition in cases involving an
interstate pipeline’s proposal to bypass a local distribution company (LDC), over the
LDC’s objection, to directly serve the LDC’s customer.” (citing Panhandle E. Pipe Line
Co., 64 FERC ¶ 61,211, at 61,612 (1993); William Natural Gas Co., 47 FERC ¶ 61,080,
at 61,225 (1989)); Ruby Pipeline, 128 FERC ¶ 61,224, at P 37 (2009) (“We find that
Ruby’s proposal is consistent with Commission policy, as any adverse impacts of the
proposal on competing pipelines and their existing customers will be the result of fair

Docket No. CP17-40-002

- 17 -

Commission has an obligation to ensure fair competition and we have done so here. The
Certificate Policy Statement holds that the Commission must recognize a new project’s
impact on existing pipelines serving the market, but this recognition “is not synonymous
with protecting incumbent pipelines from the risk of loss of market share to a new
entrant.”90 Therefore, we affirm the Certificate Order’s finding that unless a petitioner
provides evidence of anticompetitive behavior, and here petitioners have not, it is not the
role of the Commission to protect pipelines from new entrants when they offer a new
opportunity for a shipper.91 Further, in these cases, the Commission has refrained from
second guessing the business decisions of LDCs to achieve what they deem to be more
desirable service from new suppliers,92 and relied on the fact that state public service
commissions will assure that any cost shifting effects that do occur at the state level will
be allocated reasonably and in accord with state goals and policies.93
e.

The Commission Appropriately Balanced the Need for the
Project Against Harm to Landowners and Communities

The Environmental Defense Fund states that the Certificate Policy Statement
32.
requires the Commission to balance the public need for the project with the harm to
landowners and the environment, and claims that if the Commission appropriately
balanced these interests, it would have denied the project.94 The Environmental Defense
Fund explains that the project’s impact to landowners through the taking of land by
eminent domain will have a “momentous effect” on landowners.95

competition.”); Guardian Pipeline, L.L.C., 91 FERC ¶ 61,285, at 61,977 (2000) (“The
Commission’s longstanding policy has been to allow pipelines to compete for markets
and to uphold the results of that competition absent a showing of anticompetitive or
unfair competition.”).
90

Certificate Policy Statement, 88 FERC ¶ 61,277 at 61,748.

91

Certificate Order, 164 FERC ¶ 61,085 at P 122.

92

N. Natural Gas Co., 74 FERC ¶ 61,172, at 61,604 (1996).

93

Transcontinental Gas Pipe Line Corp., 87 FERC ¶ 61,136, at P 61,551 (1999).

94

Environmental Defense Fund Request for Rehearing at 19-22.

95

Id. at 20.

Docket No. CP17-40-002

- 18 -

Consistent with the Certificate Policy Statement,96 the need for and benefits
33.
derived from the Spire Project must be balanced against the adverse impacts on
landowners. Here, the Commission balanced the concerns of all interested parties and
did not give undue weight to the interests of any particular party.97
The Commission concluded that Spire had taken sufficient steps to minimize
34.
adverse economic impacts on landowners and surrounding communities.98 The
Commission considered the amount of acres and the land uses affected by the project.
The Spire Project consists of two pipeline segments, totaling approximately 65 miles of
pipeline, and three aboveground meter stations. No major aboveground facilities (e.g.,
compressor stations) are proposed for the project. The Commission found that operation
of the project will affect approximately 415 acres, most of which is agricultural land,99
defined as hayfields, pastures, and crop production land (for corn and soybeans), with
approximately 16 acres permanently converted to natural gas use by the operation of the
meter stations.100 Approximately 15 percent of the pipeline route would be adjacent to
existing rights-of-way, and an additional 12 percent would be parallel to, but offset from,
existing rights-of-way at varying distances ranging from 30 to 90 feet.101
The Commission considered the steps that Spire STL took to avoid unnecessary
35.
impacts on landowners. The Commission explained that Spire STL worked to minimize
impacts on landowners by: locating the pipeline on less-developed areas to reduce the
overall impact to residential areas; reduce the pipeline construction right of way width to
avoid or minimize impacts on residences; compensate landowners for crop production
losses in accordance with terms of individual landowner agreements, due to the loss of

96

Certificate Policy Statement, 88 FERC ¶ 61,227 at 61,744. See also National
Fuel Gas Supply Corp., 139 FERC ¶ 61,037, at P 12 (2012) (National Fuel).
97

Certificate Order, 164 FERC ¶ 61,085 at P 117.

98

Id. P 119.

99

Approximately 80 percent of the land required for the operation of the project is
agricultural land (330 acres); the project also affects forested (35 acres), open (23 acres),
and developed land (11 acres), as well as less than 8 acres each of land classified as
wetlands and open water. EA at 83.
100

Construction of the project will affect approximately an additional 589 acres of

land. Id.
101

EA at 9.

Docket No. CP17-40-002

- 19 -

one growing season as a result of pipeline construction; and working to address new and
ongoing landowner and community concerns and input.102
The Commission also relied on its policy to urge companies to reach mutual
36.
negotiated easement agreements with all private landowners prior to construction.103
Here, the Certificate Order recognized Spire STL’s commitment to make good faith
efforts to negotiate with landowners for any needed rights, and to resort only when
necessary to the use of the eminent domain.104 We are mindful as the dissent also notes,
that Spire STL has been unable to reach easement agreements with many landowners;
however, for purposes of our consideration under the Certificate Policy Statement, we
affirm the Certificate Order’s finding that Spire STL has taken sufficient steps to
minimize adverse impacts on landowners and surrounding communities.105
The Environmental Defense Fund contends that the Commission should have
37.
balanced the project’s need against adverse environmental effects, such as water and
Karst terrain crossings, right-of-way clearing, construction of permanent roads, and
degrading water quality.106 The EA analyzed these issues107 and the Commission
102

Certificate Order, 164 FERC ¶ 61,085, at P 118.

103

See Mountain Valley, 163 FERC ¶ 61,197 at P 49.

104

Certificate Order, 164 FERC ¶ 61,085 at P 118. The dissent appears to suggest
that the Commission should have known the extent to which Spire STL would initiate
condemnation proceedings to gain the rights to private land for construction and
operation of the pipeline. Under NGA section 7(h), once a natural gas company obtains a
certificate of public convenience and necessity Congress conferred the right to exercise
eminent domain in a U.S. District Court or a state court. 15 U.S.C. § 717f(h) (2018). At
the time the Commission issued the Certificate Order, it had no way of knowing precisely
how much land Spire STL would need to condemn for construction and operation of the
pipeline and encouraged Spire STL to continue to use good faith efforts to obtain the
required easements. Moreover, the number of eminent domain proceedings does not
affect our determination that Spire STL took sufficient steps to avoid unnecessary
landowner impacts. Therefore, we find that the Commission appropriately balanced the
adverse impacts to landowners and the potential use of eminent domain and found that
those risks were outweighed by the benefits of the project.
105

Id. P 119.

106

Environmental Defense Fund Request for Rehearing at 19-20, n.88.

107

EA at 44-45 (discussing mitigation measures for water and karst terrain
crossing that would result in no significant impact); 65 (finding that impacts on

Docket No. CP17-40-002

- 20 -

concluded that if constructed and operated in accordance with Spire STL’s application
and supplements, and in compliance with the environmental conditions in the appendix to
this Certificate Order, the Commission’s approval of the project would not constitute a
major federal action significantly affecting the quality of the human environment.108 The
Certificate Policy Statement’s balancing of adverse impacts and public benefits is an
economic test, not an environmental analysis.109 Only when the benefits outweigh the
adverse effects on the economic interests will the Commission proceed to consider the
environmental analysis where other interests are addressed. In addition, Spire STL filed
a written statement affirming that it executed contracts for service at the levels provided
for in the precedent agreements as required by the Certificate Order;110 thus ensuring
avoidance of unnecessary environmental impacts.
Based on the foregoing, we affirm the Certificate Order’s conclusion that Spire
38.
STL demonstrated public need for Spire Project.
2.

The Commission Properly Accepted a 14 Percent Return on
Equity

On rehearing, Missouri PSC argues that the 14 percent return on equity (ROE) is
39.
unsupported by substantial evidence and will result in excessive rates.111 Missouri PSC
asserts that by setting a 14 percent ROE the Commission afforded itself more discretion
than the U.S. Supreme Court allows under Atlantic Refining Co. v. Public Service
Commission of New York (CATCO), because the Commission abdicated its responsibility
to carefully scrutinize the pipeline’s initial rates and protect consumers.112

vegetation as a result of clearing the right-of-way would not be significant); 64, 67, 70
(impacts from the construction of roads will not be significant on vegetation, fisheries
and aquatics, agricultural lands and will result in some short-term and long-term impacts
on wildlife); and 52 (pipeline construction will result in temporary impacts to water
quality).
108

Certificate Order, 164 FERC ¶ 61,085 at P 263.

109

National Fuel, 139 FERC ¶ 61,037 at P 12.

110

See Spire STL September 24, 2018 Letter; see also Certificate Order,
164 FERC ¶ 61,085 at ordering para. (E).
111

Missouri PSC Request for Rehearing at 3-4.

112

Id. at 4 (citing CATCO, 360 U.S. 378).

Docket No. CP17-40-002

- 21 -

We find that setting a 14 percent ROE in no way abdicates the Commission’s
40.
responsibilities described in CATCO. In CATCO, the Court contrasted the Commission’s
authority under NGA sections 4 and 5 to approve changes to existing rates using existing
facilities with its authority under section 7 to approve initial rates for new services and
services using new facilities. The Court recognized “the inordinate delay” that can be
associated with a full-evidentiary rate proceeding and concluded that was the reason why,
unlike sections 4 and 5, NGA section 7 does not require the Commission to make a
determination that an applicant’s proposed initial rates are or will be just and reasonable
before the Commission certificates new facilities, expansion capacity, and/or services.113
The Court stressed that under section 7, in deciding whether proposed new facilities or
services are required by the public convenience and necessity, the Commission is
required to “evaluate all factors bearing on the public interest,” and an applicant’s
proposed initial rates are not “the only factor bearing on the public convenience and
necessity.”114 Thus, as explained by the Court, “Congress, in [section] 7(e), has
authorized the Commission to condition certificates in such manner as the public
convenience and necessity may require when the Commission exercises authority under
section 7,”115 and the Commission therefore has the discretion in section 7 certificate
proceedings to approve initial rates that will “hold the line” and “ensure that the
consuming public may be protected” while awaiting adjudication of just and reasonable
rates under the more time-consuming ratemaking sections of the NGA.116
We disagree that the treatment of ROE or the resulting recourse rates in these
proceedings are flawed. Because the establishment of recourse rates is based on
estimates, the Commission’s general policy is to accept the pipeline’s cost components if
they are reasonable and are consistent with Commission policy.117 For new pipelines, the
Commission has determined that equity returns of up to 14 percent are acceptable as long
as the equity component of the capitalization is no more than 50 percent.118 The
41.

113

CATCO, 360 U.S. at 390.

114

Id. at 391.

115

Id.

116

Id. at 392.

117

See Transcontinental, 82 FERC ¶ 61,084 at 61,315; Southern Natural,
76 FERC ¶ 61,122 at 61,637.
118

See, e.g., Sabal Trail, 154 FERC ¶ 61,080 at P 117, reh’g denied, 156 FERC
¶ 61,160 at P 20, aff’d in relevant part sub nom. Sierra Club v. FERC, 867 F.3d at 1377
(finding that the Commission “adequately explained its decision to allow Sabal Trail to

Docket No. CP17-40-002

- 22 -

Certificate Order applied the Commission’s established policy, which balances both
consumer and investor interests, in establishing Spire STL’s initial rates. Specifically,
the Commission approved Spire STL’s proposed 14 percent return on equity, based on a
capital structure of 50 percent equity and 50 percent debt.119
Missouri PSC argues that the Commission’s approval of Spire STL’s requested
42.
14 percent ROE is arbitrary and capricious, as the Certificate Order does not perform a
discounted cash flow analysis, or any other type of analysis to establish an appropriate
ROE.120 Missouri PSC states that without performing a discounted cash flow analysis,
the Commission cannot be certain that the 14 percent ROE satisfies the public interest
standard.121
Missouri PSC cites to NGA section 4 rate proceedings as evidence of the
43.
appropriate range of reasonableness that the Commission should use in section 7 cases to
determine the ROE.122 As we explained in the Certificate Order, an initial rate is based
on estimates until we can review Spire STL’s cost and revenue study at the end of its first
three years of actual operation.123 Spire STL’s proposed initial rates are an estimate,
which is not supported by any operating history, of what appropriate rates for the service
should be. The actual costs associated with constructing the pipeline and providing
service may increase or decrease and the revenues recovered may not closely match the
projected cost of service. Conducting a more rigorous discounted cash flow analysis in
an individual certificate proceeding when other elements of the pipeline’s cost of service
are based on estimates would not be the most effective or efficient way to determine an
appropriate ROE and would unnecessarily delay proposed projects with time sensitive in-

employ a hypothetical capital structure” of 50 percent debt and 50 percent equity, with a
14 percent return on equity).
119

Certificate Order, 164 FERC ¶ 61,085 at P 126.

120

Missouri PSC Request for Rehearing at 6-7.

121

Id. at 7.

122

Missouri PSC Request for Rehearing at 6-7 (citing El Paso Nat. Gas Co.,
154 FERC ¶ 61,120 (2016) and Portland Nat. Gas Trans. Sys., 142 FERC ¶ 61,197
(2013)).
123

Certificate Order, 164 FERC ¶ 61,085 at P 138.

Docket No. CP17-40-002

- 23 -

service schedules.124 In an NGA section 4 or 5 proceeding, parties have the opportunity
to file and examine testimony with regard to the composition of the proxy group in the
use of the discounted cash flow analysis, the growth rates used in the analysis, and the
pipeline’s position within the zone of reasonableness with regard to risk. It would be
difficult, if not impossible, to complete this type of analysis in section 7 certificate
proceedings in a timely manner. As stated above, the Commission’s current policy is an
appropriate exercise of our discretion to approve initial rates under the “public interest”
standard of NGA section 7.125 As conditioned herein, the approved initial rates will “hold
the line” and “ensure that the consuming public may be protected” until just and
reasonable rates are adjudicated under NGA sections 4 or 5.126 Here, that opportunity for
review is required no later than three years after the in-service date for Spire STL’s
facilities.127
Missouri PSC contends that it is arbitrary and capricious to rely on this approach
44.
when market conditions have changed and argues that the Commission must use current
market data given the current low cost of capital, as the Commission has done in the
electric industry.128 Specifically, Missouri PSC points out that Spire STL’s proposed
ROE is inflated relative to other investments, such as the return for electric utilities.129
The returns approved for other utilities, such as electric utilities and LDCs are not

124

See Transcontinental Gas Pipe Line Company, LLC, 158 FERC ¶ 61,125, at
P 39 (2017).
125

The distinction between the Commission’s approach to ROE under NGA
sections 4 and 5, on the one hand, and NGA section 7, on the other hand, likewise
demonstrates Missouri PSC’s error in relying on the Commission’s action in Ass’n of
Businesses Advocating Tariff Equity v. MISO, 156 FERC ¶ 61,234 (2016). See Missouri
PSC’s Request for Rehearing at 10. That case arises under FPA section 206, 16 U.S.C.
§ 824e (2018), which is parallel to NGA section 5, and thus requires the Commission to
apply the “just and reasonable” standard. More specifically, the utilities at issue in Ass’n
of Businesses Advocating Tariff Equity are unlike Spire STL here; as existing
transmission-owning members of the Midcontinent Independent System Operator
(MISO), their cost-of-service data is not, as here, based on estimates.
126

CATCO, 360 U.S. at 392.

127

Certificate Order, 164 FERC ¶ 61,085 at PP 138, 140.

128

Missouri PSC Request for Rehearing at 5-6, 9-10.

129

Id. at 10.

Docket No. CP17-40-002

- 24 -

relevant because there is no showing that these companies face the same level of risk as
faced by greenfield projects proposed by a new natural gas pipeline company.130
Missouri PSC alleges that the Commission’s justification for its ROE based on the
45.
business risk to similarly situated pipeline companies is flawed.131 Missouri PSC points
out that rates of return approved in recent decisions, in NGA section 4 rate cases, were
well below 14 percent and that the Commission has not adequately quantified the risk
associated with the Spire Project.132 Missouri PSC further contends that Spire STL faces
less risk because it is structured on affiliate agreements and has a parent company who is
not a new entrant in the natural gas industry.133
We are not persuaded that we should reconsider Spire STL’s proposed ROE. In
46.
the case cited by Missouri PSC, Petal Gas Storage L.L.C. (Petal),134 the Commission
decided that Petal proposed a moderate risk compared to other established pipeline
companies, not new entrants, like Spire STL.135 Additionally, Petal does not reflect the
Commission’s current practice in determining the ROE in section 7 certificate
proceedings.136 In Petal, the Commission established a proxy group to determine the
appropriate ROE. However, our current practice for established pipelines is to use the
130

The Commission has previously concluded that distribution companies are less
risky than a pipeline company. See, e.g., Trailblazer Pipeline Co., 106 FERC ¶ 63,005,
at P 94 (2004) (rejecting inclusion of local distribution companies in a proxy group
because they face less risk than a pipeline company).
131

Missouri PSC Request for Rehearing at 8.

132

Id. at 8, 11-12.

133

Id. at 8, 12.

134

Missouri PSC Request for Rehearing at 8 (citing 97 FERC ¶ 61,097, on reh’g,
106 FERC ¶ 61,325 (2001), vacated in part, Petal Gas Storage, L.L.C., v. FERC,
496 F.3d 695, 703 (D.C. Cir. 2007) (Petal)).
135
136

Petal, 106 FERC ¶ 61,325 at PP 4, 29.

Transcontinental Gas Pipe Line Company, LLC, 156 FERC ¶ 61,092, at P 27
(2016) (“The Commission’s current policy of calculating incremental rates for expansion
capacity using the Commission-approved ROEs underling pipelines’ existing rates is an
appropriate exercise of its discretion in section 7 certificate proceedings to approve initial
rates that will “hold the line” until just and reasonable rates are adjudicated under
section 4 or 5 of the NGA,”).

Docket No. CP17-40-002

- 25 -

last Commission-approved ROE underlying the pipeline’s existing rates until just and
reasonable rates are adjudicated under NGA sections 4 or 5.
47.

Further, we do not agree with Missouri PSC’s argument that we must reevaluate
the ROE because Spire STL only contracted with an affiliate. As stated above, the
Commission has determined that, for new pipelines, equity returns of up to 14 percent are
reasonable until such time as the ROE may be further evaluated in an NGA section 4 or 5
proceeding.137
Finally, Missouri PSC argues that granting a 14 percent ROE to new entrants
48.
incentivizes unnecessary new pipeline construction.138 We disagree. There is no
evidence that this ROE will incentivize the construction of an unneeded pipeline. As
discussed, the Commission conducts a separate public needs determination and is
satisfied that there is demand for the Spire Project.139 Moreover, the Commission
requires that initial rates be designed on 100 percent of the design capacity of the project,
thereby placing the risk of underutilization on the pipeline.
B.

National Environmental Policy Act Review
1.

The EA Properly Assessed the Project’s Purpose and
Reasonable Alternatives

Section 102(C)(iii) of the National Environmental Policy Act (NEPA) requires
49.
that an agency discuss alternatives to the proposed action in an environmental
document.140 Based on a brief statement of the purpose and need for the proposed

137

See, e.g., Sabal Trail, 154 FERC ¶ 61,080 at P 117, reh’g denied, 156 FERC
¶ 61,160 at P 20, aff’d in relevant part sub nom. Sierra Club v. FERC, 867 F.3d at 1377
(finding that the Commission “adequately explained its decision to allow Sabal Trail to
employ a hypothetical capital structure” of 50 percent debt and 50 percent equity, with a
14 percent return on equity).
138

Missouri PSC Request for Rehearing at 10.

139

See supra PP 12-34.

140

42 U.S.C. § 4332(C)(iii) (2012). Section 102(E) of NEPA also requires
agencies “to study, develop, and describe appropriate alternatives to recommended
courses of action in any proposal which involves unresolved conflicts concerning
alternative uses of available resources.” Id. § 4332(E).

Docket No. CP17-40-002

- 26 -

action,141 the Council on Environmental Quality’s (CEQ) regulations require agencies to
evaluate all reasonable alternatives, including no-action alternatives and alternatives
outside the lead agency’s jurisdiction.142 Agencies use the purpose and need statement to
define the objectives of a proposed action and then to identify and consider legitimate
alternatives.143 Guidance from CEQ explains that reasonable alternatives “include those
that are practical or feasible from the technical and economic standpoint and using
common sense rather than simply desirable from the standpoint of the [permit]
applicant.”144 Yet CEQ has also stated that there is “no need to disregard the applicant’s
purposes and needs and the common sense realities of a given situation in the
development of alternatives.”145 For eliminated alternatives, agencies must briefly
discuss the reasons for the elimination.146 An agency’s specification of the range of
reasonable alternatives is entitled to deference.147
50.

Ms. Viel asserts that the Commission defined the Spire Project’s purpose and need
so narrowly that all other alternatives were ruled out by definition.148
We disagree. The EA did not narrowly interpret the project purpose so as to
51.
preclude consideration of other alternatives. While an agency may not narrowly define
the proposed action’s purpose and need, the alternative discussion need not be

141

40 C.F.R. § 1502.13 (2019).

142

Id. § 1502.14.

143

See Col. Envtl. Coal. v. Dombeck, 185 F.3d 1162, 1175 (10th Cir. 1999).

144

Forty Most Asked Questions Concerning CEQ’s National Environmental
Policy Act Regulations, 46 Fed. Reg. 18,026, 18,027 (Mar. 23, 1981).
145

Guidance Regarding NEPA Regulations, 48 Fed. Reg. 34,262, 34,267 (July 22,

146

See 40 C.F.R. § 1502.14(a) (2019).

147

Citizens Against Burlington, Inc. v. Busey, 938 F.2d 190, 196 (D.C. Cir. 1991).

148

Ms. Viel Request for Rehearing at 2-3.

1983).

Docket No. CP17-40-002

- 27 -

exhaustive.149 When the purpose of the project is to accomplish one thing, “it makes no
sense to consider the alternative ways by which another thing might be achieved.”150
The EA adopted Spire STL’s stated project purpose151 “to provide 400,000
52.
dekatherms per day of year-round transportation service of natural gas to markets in the
St. Louis metropolitan area, eastern Missouri, and southwest Illinois.”152 That purpose is
supported by a precedent agreement executed for 87.5 percent of the firm transportation
service of the project. Here, the EA’s statement of the purpose and need was defined
appropriately to allow for the evaluation of reasonable alternatives to the proposed
project. Under NEPA, the description of the purpose of and need for the project must be
“reasonable,” and when, as here, “an agency is asked to sanction a specific plan . . . the
agency should take into account the needs and goals of the parties involved in the
application.”153 The EA satisfied these requirements.154
Moreover, we also disagree with Ms. Viel’s claim that the Commission accepted
53.
without questioning the applicant’s assertion that there is a need for the project.155 Ms.
Viel appears to conflate the Commission’s acceptance of Spire STL’s description of the
purpose of and need for the project for the purposes of the required NEPA review with
the Commission’s determination of “public need” under the public convenience and
necessity standard of section 7(c) of the NGA. As discussed above, when determining
“public need,” the Commission balances public benefits, including market need, against
project impacts to captive retail customers, existing pipelines and their customers, and

149

See State of N.C. v. FPC, 533 F.2d 702, 707 (D.C. Cir. 1976).

150

City of Angoon v. Hodel, 803 F.2d 1016, 1021 (9th Cir. 1986).

151

City of Grapevine, Texas v. DOT, 17 F.3d 1502, 1506 (D.C. Cir. 1994)
(upholding federal agencies’ use of applicants’ identified objectives as the basis for
evaluating alternatives).
152

EA at 2.

153

Citizens Against Burlington, Inc. v. Busey, 938 F.2d at 196.

154

We note that NEPA regulations require the agency to “briefly specify” the
purpose and need for the projects. 40 C.F.R. § 1502.13.
155

Ms. Viel Request for Rehearing at 2-3.

Docket No. CP17-40-002

- 28 -

landowners and communities.156 The EA appropriately explained that some issues
presented by commenters about the project purpose were beyond the scope of the
environmental document (i.e., harm to existing pipelines and their customers);157 under
NGA section 7(c), the final determination of the need for the projects lies with the
Commission (whereas the EA is a staff document). Neither NEPA nor the NGA requires
the Commission to make its determination of whether the project is required by the public
convenience and necessity before its final order.
The Environmental Defense Fund and Ms. Viel state that the Commission
54.
misconstrued and misapplied NEPA by failing to appropriately evaluate a no-action
alternative for the project.158 Petitioners assert that the no-action alternative is the most
appropriate option because: (1) there is no need for the project, (2) alleged negative nonenvironmental consequences of the project will be avoided; (3) consumers will not be
locked into an inflexible 20 year contract underwriting Spire STL; and (4) captive retail
ratepayer will not be compelled to bear the risk of inter-affiliate contracting decisions to
maximize profits to an LDC owner.159
Courts review both an agency’s stated project purpose and its selection of
55.
alternatives in association with its NEPA review under the “rule of reason,” where an
agency must reasonably define its goals for the proposed action, and an alternative is
deemed reasonable if it can feasibly achieve those goals.160 When an agency is tasked to
decide whether to adopt a private applicant’s proposal, and if so, to what degree, a
reasonable range of alternatives to the proposal includes rejecting the proposal, adopting
156

See supra PP 12-34 (affirming the Certificate Order’s public needs
determination).
157

EA at 147-148.

158

Environmental Defense Fund Request for Rehearing at 22-23; Ms. Viel
Request for Rehearing at 3.
159

Environmental Defense Fund Request for Rehearing at 22-23; Ms. Viel
Request for Rehearing at 3.
160

See, e.g., Friends of Se.’s Future v. Morrison, 153 F.3d 1059, 1066-67 (9th Cir.
1998) (stating that while agencies are afforded “considerable discretion to define the
purpose and need of a project,” agencies’ definitions will be evaluated under the rule of
reason.). See also City of Alexandria v. Slater, 198 F.3d 862, 867 (D.C. Cir. 1999);
43 C.F.R. § 46.420(b) (2019) (defining “reasonable alternatives” as those alternatives
“that are technically and economically practical or feasible and meet the purpose and
need of the proposed action”).

Docket No. CP17-40-002

- 29 -

the proposal, or adopting the proposal with some modification.161 An agency may
eliminate those alternatives that will not achieve a project’s goals or which cannot be
carried out because they are too speculative, infeasible, or impractical.162
The EA found that taking no action would avoid adverse environmental impacts,
56.
but would fail to fulfill the objective of the proposed project.163 The EA recognized that
the project was not developed to serve new demand; rather, the purpose of the project is
to increase diversity of supply sources and transportation paths to lower delivered gas
costs, improve security and reliability of supply, and achieve an operationally superior
peak-shaving strategy.164 Accordingly, we affirm the EA’s recommendation that
adoption of the no-action alternative is not appropriate.165
2.

The Potential Increase In Greenhouse Gases Is Not An Indirect
Impact of the Spire Project

Ms. Viel alleges that the Certificate Order and the EA failed to account for the
57.
indirect impacts of upstream natural gas production, downstream greenhouse gas
emissions, and the resulting climate change impacts from these emissions.166 Ms. Viel
claims that the project would be responsible for enabling upstream gas production and

161

See Theodore Roosevelt Conservation P’ship v. Salazar, 661 F.3d 66, 72-74
(D.C. Cir. 2011).
162

Fuel Safe Washington v. FERC, 389 F.3d 1313, 1323 (10th Cir. 2004) (The
Commission need not analyze “the environmental consequences of alternatives it has in
good faith rejected as too remote, speculative, or ... impractical or ineffective.”) (quoting
All Indian Pueblo Council v. United States, 975 F.2d 1437, 1444 (10th Cir. 1992)
(internal quotation marks omitted)); Natural Resources Defense Council, Inc. v. Morton,
458 F.2d 827, 837-38 (D.C. Cir. 1972) (same). See also Nat’l Wildlife Fed’n v. FERC,
912 F.2d 1471, 1485 (D.C. Cir. 1990) (NEPA does not require detailed discussion of the
environmental effects of remote and speculative alternatives).
163

EA at 147-148.

164

Id. at 147.

165

Id. at 148.

166

Ms. Viel Request for Rehearing at 3-4.

Docket No. CP17-40-002

- 30 -

downstream gas consumption – effects that would not occur absent the Commission’s
issuance of a certificate for the project.167
The Certificate Order discussed why NEPA does not require the Commission to
58.
analyze the environmental impacts from upstream natural gas development as indirect
impacts.168 On rehearing, Ms. Viel raises no new arguments disputing the Commission’s
reasoning; therefore, we need not address them in detail here. Further, Ms. Viel fails to
acknowledge, much less identify error with, the Commission’s analysis of either the
estimated upstream or downstream impact analyses.
As discussed in the Certificate Order, CEQ defines “indirect impacts” as those
59.
“which are caused by the action and are later in time or farther removed in distance, but
are still reasonably foreseeable.”169 With respect to causation, “NEPA requires a
‘reasonably close causal relationship’ between the environmental effect and the alleged
cause” in order “to make an agency responsible for a particular effect under NEPA.”170
As the Supreme Court explained, “a ‘but for’ causal relationship is insufficient [to
establish cause for purposes of NEPA].”171 Thus, “[s]ome effects that are ‘caused by’ a
change in the physical environment in the sense of ‘but for’ causation” will not fall
within NEPA if the causal chain is too attenuated.”172 Further, the Court has stated that
“where an agency has no ability to prevent a certain effect due to its limited statutory
authority over the relevant actions, the agency cannot be considered a legally relevant
‘cause’ of the effect.”173

167

Id. at 4.

168

Certificate Order, 164 FERC ¶ 61,085 at PP 247-252.

169

Id. P 248.

170

Id. P 249 (citing U.S. Dep’t of Transp. v. Pub. Citizen, 541 U.S. 752, at
767 (2004) (Pub. Citizen) (quoting Metropolitan Edison Co. v. People Against Nuclear
Energy, 460 U.S. 766, at 774 (1983))).
171

Certificate Order, 164 FERC ¶ 61,085 at P 249 (quoting Pub. Citizen, 541 U.S.

at 767).
172

Id. P 249 (quoting Metropolitan Edison Co. v. People Against Nuclear Energy,
460 U.S. at 774).
173

Id. P 249 (quoting Pub. Citizen, 541 U.S. at 770).

Docket No. CP17-40-002

- 31 -

The Certificate Order thoroughly discussed the Commission’s reasons for
60.
determining that the environmental effects resulting from natural gas production are
generally neither caused by a proposed pipeline nor reasonably foreseeable consequences
of an infrastructure project, as contemplated by the CEQ regulations.174 With respect to
causation, we noted that a causal relationship sufficient to warrant Commission analysis
of the non-pipeline activity as an indirect impact would only exist if the proposed
pipeline would transport new production from a specified production area and that
production would not occur in the absence of the proposed pipeline (i.e., there will be no
other way to move the gas).175
The Certificate Order added that even accepting, arguendo, that a specific pipeline
61.
project will cause natural gas production, such potential impacts, including greenhouse
gas emissions impacts, resulting from such production are not reasonably foreseeable.176
Courts have found that an impact is reasonably foreseeable if it is “sufficiently likely to
occur that a person of ordinary prudence would take it into account in reaching a
decision.”177 Although courts have held that NEPA requires “reasonable forecasting,” an
agency is not required “to engage in speculative analysis” or “to do the impractical, if not
enough information is available to permit meaningful consideration.”178
The Commission generally does not have sufficient information to determine the
62.
origin of the gas that will be transported on a pipeline; states, rather than the
Commission, have jurisdiction over the production of natural gas and thus would be most
likely to have the information necessary to reasonably foresee future production.
Moreover, there are no forecasts on record which would enable the Commission to
meaningfully predict production-related impacts, many of which are highly localized.179
Thus, we found that, even if the Commission knows the general source area of gas likely
174

See id. PP 251-252 (explaining that upstream production impacts are not
indirect impacts of the Project, as they are neither causally related nor reasonably
foreseeable, as contemplated by the CEQ regulations). See also EA at 143-145.
175

Id. P 251.

176

Certificate Order, 164 FERC ¶ 61,085 at P 252.

177

EarthReports, Inc. v. FERC, 828 F.2d 949, 955 (D.C. Cir. 2016) (citations
omitted); see also Sierra Club v. Marsh, 976 F.2d 763, 767 (1st Cir. 1992).
178

N. Plains Res. Council v. Surface Transp. Board, 668 F.3d 1067, 1078 (9th Cir.

179

Certificate Order, 164 FERC ¶ 61,085 at P 252.

2011).

Docket No. CP17-40-002

- 32 -

to be transported on a given pipeline, a meaningful analysis of production impacts would
require more detailed information regarding the number, location, and timing of wells,
roads, gathering lines, and other appurtenant facilities, as well as details about production
methods, which can vary by producer and depend on the applicable regulations in the
various states.180 Accordingly, we found that here, the impacts of natural gas production
are not reasonably foreseeable because they are “so nebulous” that “we cannot forecast
[their] likely effects” in the context of an environmental analysis of the impacts of a
proposed interstate natural gas pipeline.181
63.

Notwithstanding our conclusions regarding indirect impacts, the EA for the project
provided a general analysis of the potential impacts, including greenhouse gas emissions
impacts, associated with natural gas consumption, based on a publicly-available U.S.
Environmental Protection Agency (EPA) methodology.182 Contrary to Ms. Viel’s
assertions,183 the EA went beyond that which is required by NEPA, and quantified the
estimated downstream greenhouse gas emissions, assuming that the project always
transports the maximum quantity of natural gas each day and that the full quantity of gas
is used for additional consumption.184
64.

Finally, we affirm the Certificate Order’s finding that approval of the Spire Project
will not spur additional identifiable gas consumption.185 Ms. Viel cites to Sierra Club v.
FERC,186 to support the presumption that the burning of gas is not only foreseeable but is
the entire purpose of the project.187 We disagree that this case applies here. The court
held that where it is known that the natural gas transported by a project will be used for a
specific end-use combustion, the Commission should “estimate[] the amount of power-

1372).

180

Id. P 252.

181

Id. P 252.

182

EA at 144.

183

Ms. Viel Request for Rehearing at 4-5.

184

EA at 144.

185

Certificate Order, 164 FERC ¶ 61,085 at P 253.

186

867 F.3d 1357.

187

Ms. Viel Request for Rehearing at 4 (citing Sierra Club v. FERC, 867 F.3d at

Docket No. CP17-40-002

- 33 -

plant carbon emissions that the pipelines will make possible.”188 However, as the
Certificate Order noted, the Southeast Market Pipelines Project at issue in Sierra Club v.
FERC is factually distinct from the Spire Project.189 The record in that case indicated that
natural gas would be delivered to specific customers – power plants in Florida – such that
the court concluded that the consuming of the gas in those plants was reasonably
foreseeable and the impacts of that activity warranted environmental examination.190 In
contrast, here, the gas to be transported by the Spire Project will be delivered by the
project’s sole shipper, an LDC, who will provide the gas to improve the reliability and
supply diversity for its customers. The Spire Project is not intended to meet an
incremental demand for natural gas above existing levels. As the EA explained, the Spire
Project would replace, rather than add to, other fuel sources that are currently
contributing greenhouse gases to the atmosphere; thus, the EA did not anticipate that the
end-use emissions would represent new greenhouse gas emissions to contribute
incrementally to future climate change impacts.191
Accordingly, we deny rehearing and affirm the Certificate Order’s determination
65.
that the potential increase of greenhouse gas emissions associated with the production,
processing, distribution, or consumption of gas are not indirect impacts of the Spire
Project.192
3.

The Commission Evaluated the Cumulative Impacts of the Spire
Project

Ms. Viel asserts that the Commission failed to adequately consider cumulative
66.
impacts related to climate change impacts from the pipeline and upstream natural gas

188

Sabal Trail, 867 F.3d at 1371. See also Friends of Capital Crescent Trail v.
FTA, 877 F.3d 1051, 1065 (D.C. Cir. 2017) (explaining that in Sierra Club v. FERC, “the
court invalidated an indirect effects analysis because the agency had technical and
contractual information on ‘how much gas the pipelines [would] transport’ to specific
power plants, and so could have estimated with some precision the level of greenhouse
gas emissions produced by those power plants. The court also recognized that ‘in some
cases quantification may not be feasible.’”) (citation omitted).
189

Certificate Order, 164 FERC ¶ 61,085 at P 253.

190

Sabal Trail, 867 F.3d at 1371.

191

EA at 145.

192

Certificate Order, 164 FERC ¶ 61,085 at P 254.

Docket No. CP17-40-002

- 34 -

development.193 Ms. Viel argues that the Commission improperly limited its cumulative
impacts analysis to the geographic scope of the proposed action.
67.

The CEQ regulations define cumulative impact as “the impact on the environment
that results from the incremental impact of the action when added to other past, present,
and reasonably foreseeable future actions.”194 The D.C. Circuit has held that a
meaningful cumulative impact analysis must identify: (1) the area in which the effects of
the proposed project will be felt; (2) the impacts that are expected in that area from the
proposed project; (3) other actions – past, present, and proposed, and reasonably
foreseeable – that have had or are expected to have impacts in the same area; (4) the
impacts or expected impacts from these other actions; and (5) the overall impact that can
be expected if the individual impacts are allowed to accumulate.195 The geographic scope
of our cumulative impact analysis varies from case to case, and resource to resource,
depending on the facts presented.
68.

Although the scope of our cumulative impacts analysis will vary from case to
case, and resource to resource, depending on the facts presented, we have concluded that
where the Commission lacks meaningful information about potential future natural gas
production within the geographic scope of a project-affected resource, then productionrelated impacts are not reasonably foreseeable so as to be included in a cumulative
impacts analysis.196
Consistent with the CEQ guidance and case law, the EA identified the criteria that
69.
defined the project’s geographic scope, and used that scope in the cumulative impact
analysis to describe the general area for which the project could contribute to cumulative
impacts.197 The EA determined that the Spire Project had a geographic scope for
potential cumulative impacts of: the construction workspace for soils and geologic
resources; the hydrologic unit code 12 watershed for impacts on ground and surface
water resources, wetlands, vegetation, and wildlife; overlapping impacts within the area
of potential effect for cultural resources; a 1-mile radius for land use impacts; 0.25-mile
193

Ms. Viel Request for Rehearing at 5-6.

194

40 C.F.R. § 1508.7 (2019).

195

Sierra Club v. FERC, 827 F.3d 36, 39 (D.C. Cir. 2016) (Freeport LNG)
(quoting TOMAC, Taxpayers of Mich. Against Casinos v. Norton, 433 F.3d 852, 864
(D.C. Cir. 2006); Grand Canyon Trust v. FAA, 290 F.3d 339, 345 (D.C. Cir. 2002)).
196

See Algonquin Gas Transmission, LLC, 161 FERC ¶ 61,255, at P 120 (2017).

197

EA at 131-145.

Docket No. CP17-40-002

- 35 -

and existing visual access points for visual resources; overlapping noise sensitive areas
for operational noise impacts; 0.25 mile surrounding the pipeline or aboveground facility
for construction noise impacts and air quality (0.5 mile from horizontal direction drilling
or direct pipe installation); and affected counties and municipalities for
socioeconomics.198 In total, the EA identified 14 current, proposed, or reasonably
foreseeable actions within the geographic scope of the project, including four active
oil/gas wells;199 however, the EA determined that the project will contribute a negligible
to minor cumulative effect and would not be significant.200
For the same reasons explained above with respect to indirect impacts, because the
70.
impacts of upstream natural gas production are not reasonably foreseeable, such impacts
were correctly excluded from the EA’s cumulative impacts analysis. As we have also
explained, the Commission generally does not have sufficient information to determine
the origin of the gas that will be transported on a pipeline, and that is the case here.201
We note that Ms. Viel identifies no specific locations within the Spire Project’s
geographic scope where additional production will occur as a result of the Spire Project,
and believe that her failure to do so only highlights the speculative nature of the inquiry
she advocates. Accordingly, we continue to believe that broadly analyzing effects related
to upstream production using generalized assumptions will not assist us in making a
reasoned decision regarding the siting of proposed natural gas pipelines.202
4.

The EA Evaluated Impacts of Methane Emissions

On rehearing, Ms. Viel reiterates her prior claims that the EA’s review of methane
71.
emissions was too narrow in concluding that methane emissions would only occur during
construction, and that the Commission inaccurately identified the global warming

198

Id. at 133, Table B-25.

199

Id. at 132.

200

Id. at 145.

201

See supra P 57.

202

We are not “aware of any basis that indicates the Commission is required to
consider environmental effects that are outside of our NEPA analysis of the proposed
action in our determination of whether a project is in the public convenience and
necessity under section 7(c).” Dominion Transmission, 163 FERC ¶ 61,128 at P 43
(citing NAACP v. FPC, 425 U.S. 662, 669-70 (1976)).

Docket No. CP17-40-002

- 36 -

potential for methane.203 Ms. Viel contends that the EA did not evaluate fugitive
emissions from the project.204 Finally, Ms. Viel urges the Commission to use the global
warming potential for methane from the Intergovernmental Panel on Climate Change
Fifth Assessment Report, which provides a 100-year global warming potential for
methane of 36 or a 20-year global warming potential for methane of 87.205
We disagree. On rehearing, Ms. Viel raises no new arguments disputing the
72.
Commission’s reasoning, therefore we need not address them in detail. As explained in
the Certificate Order and the EA,206 emissions of greenhouse gases are typically
quantified in terms of carbon dioxide equivalents by multiplying emissions of each
greenhouse gas by its respective global warming potential. Methane emissions were
included in the total estimated carbon dioxide equivalent emissions for the project.207
Estimates of applicable emissions that would be generated during construction and
operation of the project are presented in the EA, including fugitive emissions of
methane.208 The EA’s use of the global warming potential for methane designated as 25,
is appropriate and specifically follows EPA guidance for methane.209 The use of a 100year global warming potential for methane of 25 is the current scientific methodology
used for consistence and comparability with other emissions estimates in the United
States and internationally, including the EPA’s Greenhouse Gas Mandatory Reporting
Rule.210 This context would be lost if we used Ms. Viel’s suggested 100-year global
203

Ms. Viel Request for Rehearing at 6-7.

204

Id. at 6.

205

Id. at 7.

206

Certificate Order, 164 FERC ¶ 61,085 at P 244. EA at 111, 143-144.

207

See EA at 110-111 (explaining that the EPA added greenhouse gases to its
definition of pollutant and specified that those greenhouse gases include carbon dioxide,
methane, nitrous oxide, hydrofluorocarbons, perfluorocarbons, and sulfur hexafluoride).
208

Id. at 113, 114.

209

Available at: https://www.epa.gov/sites/production/files/201801/documents/2018_complete_report.pdf.
210

See EPA Revisions to the Greenhouse Gas Reporting Rule and Final
Confidentiality Determinations for New or Substantially Revised Data Elements, 78 Fed.
Reg. 71,903 (Nov. 29, 2013). See also Texas E. Transmission, Lp, 146 FERC ¶ 61,086,
at P 122 (2014) (explaining that the Commission uses the global warming potentials in
EPA’s Greenhouse Gas Reporting Rule in effect when the NEPA document is prepared);

Docket No. CP17-40-002

- 37 -

warming potential for methane of 36 or a 20-year global warming potential for methane
of 87. Accordingly, we deny rehearing.
The Commission orders:
(A) The Missouri Public Service Commission’s, the Environmental Defense
Fund’s, and Juli Viel’s requests for rehearing are dismissed or denied.
(B)
(C)
withdrawn.

Juli Viel’s motion for stay is dismissed as moot.
Enable Mississippi River Transmission, LLC’s request for rehearing is

By the Commission. Commissioner Glick is dissenting with a separate statement
attached.
(SEAL)

Kimberly D. Bose,
Secretary.

Dominion Transmission, Inc., 158 FERC ¶ 61,029, at P 4 (2017) (applying the global
warming potential for methane from EPA’s 2013 Greenhouse Gas Reporting Rule).

UNITED STATES OF AMERICA
FEDERAL ENERGY REGULATORY COMMISSION
Spire STL Pipeline LLC

Docket No. CP17-40-002
(Issued November 21, 2019)

GLICK, Commissioner, dissenting:
I dissent from today’s order because there is nothing in the record to suggest that
1.
this interstate natural gas pipeline is needed. Prior to receiving a certificate pursuant to
section 7(c) of the Natural Gas Act (NGA),1 a pipeline developer must demonstrate a
need for its proposed project.2 Today’s order turns this requirement into a meaningless
check-the-box exercise.
2.

The Commission is supposed to “consider all relevant factors reflecting on the
need for the project”3 and balance the evidence of need against the project’s adverse
impacts.4 Today’s order, however, falls well short of that standard, failing utterly to
provide the type of meaningful assessment of need that Commission precedent and the
basic principles of reasoned decisionmaking require. The record suggests that this
project—the Spire STL Pipeline Project (Spire Pipeline)—is more likely an effort to
enrich the shared corporate parent of the developer, Spire STL Pipeline LLC (Spire STL),
and its only customer, Spire Missouri, Inc. (Spire Missouri), than a response to a genuine
need for new energy infrastructure. Yet today’s order refuses to engage with that
1

15 U.S.C. § 717f(c) (2018).

2

See, e.g. Certification of New Interstate Nat. Gas Pipeline Facilities, 88 FERC
¶ 61,227, 61,747-48 (1999) (1999 Certificate Policy Statement); see also Spire STL
Pipeline LLC, 164 FERC ¶ 61,085, at P 26 (2018) (Certificate Order) (beginning the
Commission’s discussion of the 1999 Certificate Policy Statement with a discussion of
the “criteria for determining whether there is a need for a proposed project”); see also
Myersville Citizens for a Rural Cmty., Inc. v. FERC, 783 F.3d 1301, 1309 (D.C. Cir.
2015) (“To ensure that a project will not be subsidized by existing customers, the
applicant must show that there is market need for the project.”).
3
4

1999 Certificate Policy Statement, 88 FERC ¶ 61,227 at 61,747.

Id. at 61,748 (“The amount of evidence necessary to establish the need for a
proposed project will depend on the potential adverse effects of the proposed project on
the relevant interests.”).

Docket No. CP17-40-002

-2-

evidence or seriously consider the arguments against giving the Spire Pipeline the
Commission’s stamp of approval. As a result, the Commission’s conclusion that the
Spire Pipeline is required by the public convenience and necessity is arbitrary and
capricious.
*

*

*

One of the foundational principles of administrative law is that an agency may not
3.
ignore an important aspect of the issue it is addressing.5 Especially where a statute vests
an agency with a broad and flexible mandate, failing to wrestle with an important “aspect
of the problem” is the essence of what it means to be arbitrary and capricious.6 But that
is exactly what the Commission has done here. The record is replete with evidence
suggesting that the Spire Pipeline is a two-hundred-million-dollar effort to enrich Spire’s
corporate parent rather than a needed piece of energy infrastructure.7 Unfortunately, the
Commission refuses to grapple with that evidence, instead insisting that a precedent
agreement between two corporate affiliates is all that is required to conclude that a
proposed pipeline is needed, regardless of the contrary evidence in the record. That is not
reasoned decisionmaking. Whatever probative weight that agreement has, the
Commission cannot simply point to the agreement’s existence and then ignore the
evidence that undermines the agreement’s probative value. In so doing, the Commission
ignores arguably the most import aspect of the problem in this case: Whether the
precedent agreement on which it rests its entire determination of need actually tells us
anything about the need for this pipeline.
The relevant evidence is straightforward and largely undisputed. The parties agree
4.
that demand for natural gas in the region is flat and that Spire Missouri is merely shifting

5

See Motor Vehicle Mfrs. Ass’n of U.S., Inc. v. State Farm Mut. Auto. Ins. Co.,
463 U.S. 29, 43 (1983) (State Farm) (listing the “normal[]” bases for finding an agency
action arbitrary and capricious, including that the agency “entirely failed to consider an
important aspect of the problem”); SecurityPoint Holdings, Inc. v. TSA, 867 F.3d 180,
185 (D.C. Cir. 2017) (“[T]he court must vacate a decision that ‘entirely failed to consider
an important aspect of the problem, or offered an explanation for its decision that runs
counter to the evidence before the agency.’”).
6

Cf. Michigan v. EPA, 135 S. Ct. 2699, 2707 (2015) (explaining that, even where
a statutory “term leaves agencies with flexibility, an agency may not ‘entirely fail to
consider an important aspect of the problem’” (quoting State Farm, 463 U.S. at 43)).
7

Certificate Order, 164 FERC ¶ 61,085, at P 9 (2018) (“Spire estimates that the
cost of the proposed facilities will be approximately $220,276,167.”).

Docket No. CP17-40-002

-3-

its capacity subscription from an existing pipeline to a new one owned by its affiliate.8
Indeed, some record evidence suggests that natural gas demand in the region may
actually be declining.9 In any case, neither Spire Missouri nor Spire STL has explained
why the capacity available on the pre-existing pipeline, owned by Enable Mississippi
River Transmission, LLC (MRT), is not sufficient to meet Spire Missouri’s needs. In
short, the record does not contain any evidence—let alone substantial evidence—
suggesting a need for additional interstate natural gas pipeline capacity in the St. Louis
region.
5.

If there is no need for new capacity, one might think that the project would at least
reduce the cost of natural gas delivered to the region.10 But the Commission itself
concluded that the natural gas transported through the Spire Pipeline would not be any
cheaper than that transported through existing infrastructure.11 Nor does the record show
that the Spire Pipeline would meaningfully diversify Spire Missouri’s access to different
sources of natural gas. Although Spire STL claimed that the project might access new
supplies, MRT convincingly explained how its existing pipeline could provide access to
the same natural gas basins12—an explanation that today’s order does not rebut.
6.

Given that evidence, it should come as no surprise that Spire Missouri repeatedly
rejected opportunities to contract for capacity on proposed pipelines that were
substantially similar to the Spire Pipeline.13 But it may be surprising that Spire Missouri
8

See Spire STL Pipeline LLC, 169 FERC ¶ 61,135, at P 24 (2019) (Rehearing
Order) (“We recognize that the current load forecasts for the St. Louis market area are
flat.”).
9

See MRT Comments at 13-15 (Oct. 25, 2019) (discussing evidence that may
indicate demand for natural gas is actually falling).
10

Cf. Empire Pipeline, Inc., 166 FERC ¶ 61,172 (2018) (Glick, Comm’r,
dissenting at P 6) (“[I]f a proposed pipeline neither increases the supply of natural gas
available to consumers nor decreases the price that those consumers would pay, it is hard
to imagine why that pipeline would be ‘needed’ in the first place.”).
11

Rehearing Order, 169 FERC ¶ 61,135 at P 30 (“The Certificate Order evaluated
cost differences of gas delivered to Spire Missouri from both the Spire Project and
MRT’s existing system and found that the differences in costs were not materially
significant.”).
12
13

See, e.g., MRT February 27, 217 Protest at 22.

Certificate Order, 164 FERC ¶ 61,085 at P 57; MRT April 10, 2017 Answer at
3; see also Missouri PSC February 27, 2017 Protest at 10 (listing additional projects that

Docket No. CP17-40-002

-4-

has now decided to enter into a contract to support the development of the Spire Pipeline,
especially since Spire STL held an open season to solicit customers for the Spire Pipeline
and no one but Spire Missouri signed up.14 Of course, there is a critical difference
between the Spire Pipeline and the similar pipelines that Spire Missouri spurned: The
profits Spire STL makes off Spire Missouri’s purchases of natural gas transportation
service will go to their shared corporate parent, rather than an unaffiliated third party.
That may make good business sense for the Spire corporate family, but that does
not necessarily mean that the project is in the public interest or consistent with the public
convenience and necessity. The Spire companies’ obvious financial motive coupled with
the abundant record evidence casting doubt on the need for the project ought to have
caused the Commission to carefully scrutinize the record to determine whether the Spire
Pipeline is actually needed or just financially advantageous to the Spire companies.
Instead, the Commission asserts that the existence of the precedent agreement between
Spire STL and Spire Missouri is sufficient, in and of itself, to find that the Spire Pipeline
is needed, no matter the contrary evidence.15 But, as explained below, the Commission’s
failure to consider that contrary evidence renders today’s order arbitrary and capricious
and not the product of reasoned decisionmaking.
7.

I.

The Commission Failed to Adequately Consider Whether Spire Is Needed

8.

The first step in reviewing an application for an NGA section 7 certificate to
develop a new, stand-alone interstate natural gas pipeline is to determine whether there is
a need for that project. A finding that a proposed pipeline is not needed would
presumably mean that the project is not consistent with the public convenience and
necessity since the project’s benefits would, almost by definition, not outweigh its

were proposed, including projects to connect the region to the REX pipeline, but that
Spire Missouri did not take service from).
14

Certificate Order, 164 FERC ¶ 61,085 at P 10. Spire STL asserts that it
“received interest from multiple prospective shippers,” but provides no evidence to
substantiate that claim. Spire STL March 17, 2017 Answer at 6; see Certificate Order,
164 FERC ¶ 61,085 at n.13.
15

See Rehearing Order, 169 FERC ¶ 61,135 at P 14 (“We disagree and affirm the
Certificate Order’s finding that the Commission is not required to look behind precedent
agreements to evaluate project need, regardless of the affiliate status of the project
shipper”).

Docket No. CP17-40-002

-5-

adverse impacts.16 Accordingly, given the importance of the need determination,
reasoned decisionmaking requires the Commission to engage in a thorough review of the
record that considers all relevant evidence.
In recent years, however, the Commission has adopted an increasingly doctrinaire
9.
position that the mere existence of agreements between a pipeline developer and one or
more shippers to contract for capacity on the proposed pipeline is sufficient, by itself, to
demonstrate the need for the proposed pipeline. The Commission describes this policy as
an unwillingness to “look behind” a precedent agreement.17 But, in practice, it amounts
to a “policy” of ignoring any record evidence that might undermine its decision to issue
an NGA section 7 certificate. Applied to this proceeding, that policy is arbitrary and
capricious in several respects.
First and foremost, it permits the Commission to ignore the record evidence
10.
suggesting that the Spire Pipeline may not actually be needed. As discussed above, there
is ample evidence suggesting that Spire Missouri’s decision to contract with Spire STL
may have reflected a business decision by the Spire companies to capture the profit
margin on Spire Missouri’s purchase of natural gas transportation service instead of
paying that margin to another company that owns an existing pipeline.18 In addition to
that clear financial motive, Spire Missouri’s pattern of behavior should have concerned
the Commission. As noted, Spire Missouri repeatedly declined to enter into precedent
agreements with similar pipelines and no party other than Spire Missouri was willing to
contract with Spire STL for capacity on the Spire Pipeline.19 Furthermore, there is no
evidence that the Spire Pipeline will provide the typical benefits of a new interstate
natural gas pipeline, such as satisfying new demand or reducing the price of delivered
natural gas.

16

See Sierra Club v. FERC, 867 F.3d 1357, 1379 (D.C. Cir. 2017) (“If FERC
finds market need, it will then proceed to balance the benefits and harms of the project,
and will grant the certificate if the former outweigh the latter.”).
17

See, e.g., Rehearing Order, 169 FERC ¶ 61,135 at P 14.

18

The Commission makes much of its refusal to question a company’s business
decision. Rehearing Order, 169 FERC ¶ 61,135 at PP 15, 24, 30. But the fact that
building a new interstate pipeline may be in a particular company’s business interest does
not necessarily mean that it is required by the public convenience and necessity or in the
public interest, which is what the Commission is actually charged with evaluating.
19

See supra n.14 and accompanying text.

Docket No. CP17-40-002

-6-

In light of that contrary evidence, the Commission must do more than simply point
11.
to the limited evidence that it believes supports its conclusion.20 At the very least, it must
consider and weigh the evidence that casts doubt on the probative value of the agreement
between Spire Missouri and Spire STL and explain why that agreement is sufficient to
establish a need for the Project notwithstanding the contrary evidence. Simply pointing
to the existence of a precedent agreement does not cut it.
That is not to say that the Commission could never have shown that the Spire
12.
Pipeline is needed or that a precedent agreement, even one among affiliated companies, is
irrelevant to the question of need. But where the record raises serious questions about the
probative value of the single precedent agreement, the Commission cannot rely only on
the evidence that supports its preferred conclusion and ignore the evidence that
undermines that finding.21
In my view, the record in this proceeding indicates that Spire STL has not met its
13.
burden to show that the pipeline is required by the public convenience and necessity.22
Although a precedent agreement can serve as an important indicator of need, an
agreement between two affiliates carries less weight because that agreement will not
necessarily be the result of the two parties’ independent business decisions or reached
through arms-length negotiations. When viewed in light of the considerable record
evidence casting doubt on the need for the Spire Pipeline, I do not believe that the
20

Genuine Parts Co. v. EPA, 890 F.3d 304, 312 (D.C. Cir. 2018) (“[A]n agency
cannot ignore evidence that undercuts its judgment; and it may not minimize such
evidence without adequate explanation.”); id. (“‘Conclusory explanations for matters
involving a central factual dispute where there is considerable evidence in conflict do not
suffice to meet the deferential standards of our review.’” (quoting Int’l Union, United
Mine Workers v. Mine Safety & Health Admin., 626 F.3d 84, 94 (D.C. Cir. 2010)); see
also Lakeland Bus Lines, Inc. v. NLRB, 347 F.3d 955, 962 (D.C. Cir. 2003) (explaining
that a court “may not find substantial evidence ‘merely on the basis of evidence which in
and of itself justified [the agency’s conclusion], without taking into account contradictory
evidence or evidence from which conflicting inferences could be drawn’” (quoting
Universal Camera Corp. v. NLRB, 340 U.S. 474, 487 (1951)).
21
22

See, e.g., Genuine Parts, 890 F.3d at 312.

See Atl. Ref. Co. v. FPC, 316 F.2d 677, 678 (D.C. Cir. 1963) (“The burden of
proving the public convenience and necessity is, of course, on the natural gas
company.”); see Williams Gas Processing—Gulf Coast Co., L.P. v. FERC, 331 F.3d
1011, 1021 (D.C. Cir. 2003) (“In a public interest analysis, the burden of proof is on the
applicant for abandonment to show . . . the public convenience and necessity.” (internal
quotation marks omitted)).

Docket No. CP17-40-002

-7-

precedent agreement between Spire Missouri and Spire STL is sufficient—on its own—
to satisfy Spire STL’s burden to show that the project is in the public interest and
required by the public convenience and necessity. Accordingly, I would deny its
application for an NGA section 7 certificate. But it is not necessary to agree my reading
of the record to see why the Commission’s reasoning is arbitrary and capricious. By
focusing only on the presence of a precedent agreement between Spire Missouri and
Spire STL and refusing to consider the evidence suggesting that the Spire Pipeline is
primarily an effort to benefit the Spire corporate family, today’s order fails to consider
“an important aspect of the problem” and is arbitrary and capricious.23
In addition, today’s order is also arbitrary and capricious because it is an
14.
unreasonable application of the Commission’s 1999 Certificate Policy Statement. As
noted, the 1999 Policy Statement provides that the Commission will “consider all
relevant factors reflecting on the need for the project” with no single factor being
determinative.24 Those factors “might include, but would not be limited to, precedent
agreements, demand projections, potential cost savings to consumers, or a comparison of
projected demand with the amount of capacity currently serving the market.”25 Contrary
to the suggestion in today’s order, the 1999 Certificate Policy Statement never adopted
the position that the Commission would not look behind precedent agreements, at least in
some circumstances. And it certainly never suggested that a single precedent agreement
between affiliated entities could excuse a full review of the record, particularly where that
record raised doubts about whether unaffiliated parties would have entered the same
agreement.26 Indeed, if the Commission had believed that precedent agreements were
always sufficient to establish the need for a project, there would have been no need to list
23

State Farm, 463 U.S. at 43.

24

1999 Certificate Policy Statement, 88 FERC ¶ 61,227 at 61,747; see also
Rehearing Order, 169 FERC ¶ 61,135 at P 14 (summarizing the 1999 Certificate Policy
Statement, including the examples of evidence that the Commission might consider).
25
26

1999 Certificate Policy Statement, 88 FERC ¶ 61,227 at 61,747.

In addition, the Commission’s 1999 Certificate Policy Statement explained that
the amount of evidence needed to demonstrate the need for a project will vary, and, for
example, “projects to serve new demand might be approved on a lesser showing of need
and public benefits than those to serve markets already served by another pipeline.” Id.
at 61,748. But the approach in today’s order does not allow for varying displays of need.
Instead, contrary to the 1999 Certificate Policy Statement, a single binary
consideration—whether or not the developer has obtained one or more precedent
agreements—is the only factor that the Commission relies upon to show need. That too
is inconsistent with the policy statement and arbitrary and capricious.

Docket No. CP17-40-002

-8-

the other types of evidence it considers alongside precedent agreements.27 To the extent
that the Commission relies on its 1999 Certificate Policy Statement as support for its
refusal to look behind the single precedent agreement in this proceeding, its explanation
is arbitrary and capricious.28
The Commission also points to two cases from the United States Court of Appeals
15.
for the District of Columbia Circuit (D.C. Circuit) to support its exclusive reliance on the
precedent agreement between Spire Missouri and Spire STL: Minisink Residents for
Environmental. Preservation and Safety v. FERC29 and Myersville Citizens for a Rural
Community v. FERC.30 Both cases are readily distinguishable since neither one involved
a precedent agreement among affiliates. Recognizing that fact, the Commission responds
by referencing a pair of more recent D.C. Circuit decisions, which did involve precedent
agreements among affiliates.31 But those cases are not much help to the Commission
either. All the court held in both cases was that basing a finding of need on precedent
agreements among affiliates was not inherently unreasonable.32 Those cases certainly do

27

Id. at 61,747.

28

See, e.g., Cal. Pub. Utilities Comm'n v. FERC, 879 F.3d 966, 977 (9th Cir.
2018) (finding the Commission’s interpretation of its own rule to be unreasonable and
arbitrary and capricious).
29

762 F.3d 97 (D.C. Cir. 2014).

30

783 F.3d 1301 (D.C. Cir. 2015).

31

Rehearing Order, 169 FERC ¶ 61,135 at P 14.

32

Both cases indicate that the court was rejecting the specific arguments advanced
by the petitioners, not categorically blessing reliance on precedent agreements among
affiliates. See City of Oberlin, Ohio v. FERC, 937 F.3d 599, 605 (D.C. Cir. 2019) (“The
Commission rationally explained that it fully credited Nexus’s precedent agreements with
affiliates because it found no evidence of self-dealing (a finding Petitioners do not
dispute).”); Appalachian Voices v. FERC, No. 17-1271, 2019 WL 847199, at *1 (D.C.
Cir. Feb. 19, 2019) (“The fact that [the pipeline’s] precedent agreements are with
corporate affiliates does not render FERC’s decision to rely on these agreements arbitrary
or capricious; the Certificate Order reasonably explained that an affiliated shipper's need
for new capacity and its obligation to pay for such service under a binding contract are
not lessened just because it is affiliated with the project sponsor. (emphasis added)
(internal quotation marks omitted)).

Docket No. CP17-40-002

-9-

not stand for the proposition that relying on a precedent agreement among affiliates is
always reasonable or will always be a sufficient basis to find need.
In addition, both cases expressly did not address the situation in which the record
16.
contained evidence of potential self-dealing or evidence that the affiliated parties may
have had ulterior motives for entering the relevant precedent agreement.33 Here, by
contrast, there is considerable evidence indicating that Spire Missouri’s decision to enter
into a precedent agreement with Spire STL may have been motivated more by a desire to
benefit the Spire corporate family than a response to a genuine need for a new pipeline.
Indeed, the principal point of this entire dissent is that the record before us suggests that it
is unreasonable to rely on the Spire Missouri-Spire STL precedent agreement because of
all the record evidence indicating that it should not be taken at face value. The weight
that the Commission places on a series of cases that, by their own measure, do not touch
the circumstances before us is some of the best evidence yet that the Commission’s
issuance of an NGA section 7 certificate was not the product of reasoned decisionmaking.
Finally, the Commission’s response to the concerns raised in the various rehearing
17.
requests are themselves arbitrary and capricious.34 In response to the Environmental
Defense Fund’s (EDF) contention that it is arbitrary and capricious for the Commission
to rely exclusively on a precedent agreement between affiliated entities,35 the
Commission asserts that an affiliation between the parties does not lessen the binding
nature of a precedent agreement or a shipper’s need for capacity.36 Similarly, in a
variation on that theme, the Commission states that where a shipper has entered a
precedent agreement with a pipeline, the Commission places substantial reliance on that
agreement, even where there is no evidence of incremental demand.37
Neither argument is a reasoned response. The point is not that a precedent
18.
agreement among affiliates is not an actual agreement; it surely is. Rather, the point is
33

See, e.g., City of Oberlin, 937 F.3d at 605 (noting that the petitioners did not
question the Commission’s finding that there had been no inappropriate self-dealing
among the affiliates).
34

See also Sherley v. Sebelius, 689 F.3d 776, 784 (D.C. Cir. 2012) (“We review an
agency’s response to comments under the same arbitrary-and-capricious standard to
which we hold the rest of its actions.”).
35

EDF Rehearing Request at 10-14.

36

Rehearing Order, 169 FERC ¶ 61,135 at P 15.

37

Id. P 23.

Docket No. CP17-40-002

- 10 -

that the Spire companies may have had reasons other than a genuine market need for
natural gas transportation capacity to enter into their precedent agreement and, therefore,
that it is arbitrary and capricious to treat that agreement as conclusive evidence of need
for the Spire Pipeline. Similarly, even if Spire Missouri would eventually have to pay for
the capacity it reserved on the Spire Pipeline, that does not address the concern that Spire
Missouri entered that agreement primarily for the purpose of benefitting its corporate
parent, meaning that the agreement may not reflect a genuine need for that capacity.38
In addition, the Commission responds by repeatedly attempting to pass the buck to
19.
the Missouri PSC using the theory that looking behind a precedent agreement would
“infringe” on state regulators’ prudence reviews.39 Not so. For one thing, that is exactly
the kind of review that the Missouri PSC—the entity over whose jurisdiction the
Commission professes to be concerned—urged us to undertake here so that we could
develop a complete picture of the need for the project.40 Indeed, the Missouri PSC
expressly argued that a precedent agreement among affiliates will not always be
dispositive of need and that the Commission must “carefully review” the need for the
Spire Pipeline.41 Moreover, although the Missouri PSC has authority to conduct a
prudence review of Spire Missouri’s decision to take service from Spire STL rather than
another pipeline,42 that review takes the Commission-jurisdictional rates as a given and
will not necessarily be able to address whether it was prudent to build the pipeline in the

38

By the same token, even if the Commission is correct that precedent agreements
are generally superior predictors of demand than a detailed market study, id.—an open
question from my perspective—that statement does not explain how this precedent
agreement is a superior indicator of need, given the record evidence calling its probative
value into question.
39

Id. at P 16; see id. P 27 & nn. 78-79.

40

Missouri PSC February 27, 2017 Protest at 4-5 (“request[ing] the Commission
thoroughly examine all of the circumstances and impacts of the proposed pipeline as the
Commission determines whether Spire has shown that construction of the pipeline is in
the public interest” and stating that “it is not clear that there is need for the project”).
41

Id. at 4-5; see id. at 4 (“[A] precedent agreement is not always dispositive of

need.”).
42

See Pike County Light & Power Co. v. Pennsylvania Pub. Util. Comm’n, 465
A.2d 735 (Pa. 1983).

Docket No. CP17-40-002

- 11 -

first place.43 Accordingly, the Missouri PSC’s review of Spire Missouri’s contracting
decisions is not a substitute for the Commission’s assessment of need.
In any case, section 7 of the NGA makes it the Commission’s responsibility to
20.
determine whether a proposed pipeline is required by the public convenience and
necessity—a determination that requires the Commission to consider more than just the
wholesale rates and terms under its jurisdiction.44 And the Commission regularly relies
on factors that it cannot regulate directly when assessing the need for a proposed
pipeline.45 Indeed, the Commission’s entire argument for why the Spire Pipeline is
needed rests on the prudence of Spire Missouri’s decision to enter into a precedent
agreement with Spire STL—a decision that, by its own admission, the Commission lacks
authority to evaluate.46 The practical effect of the approach in today’s order is that no
regulatory body would ever be able to conduct a holistic assessment of the need for a
proposed pipeline simply by virtue of the fact that Congress divided jurisdiction over the
natural gas sector between the federal and state governments. As I explained in my
dissent from the Certificate Order, if we are really going to “abdicate this responsibility
to state commissions, then Congress might as well return responsibility for the entire
siting process to the states, as there would be little remaining purpose to Commission
review of proposed pipelines.”47
Next, the Commission responds to EDF’s argument that Spire STL and Spire
Missouri may have abused their affiliate relationship to drum up a false picture of the
21.

43

See EDF Rehearing Request at 16-17 (explaining that the Missouri PSC’s
retrospective review of rates for natural gas transportation service does not consider
whether the pipeline was needed in the first place).
44

Atl. Ref. Co. v. Pub. Serv. Comm’n of N.Y., 360 U.S. 378, 391 (1959) (holding
that in consideration an application for a section 7 certificate, the Commission must
consider “all factors bearing on the public interest”).
45

The D.C. Circuit recently explained that attempting to ignore factors relevant to
the public interest because the Commission lacks authority to regulate those factors
directly is a “line of reasoning [that] get the Commission nowhere.” Birckhead v. FERC,
925 F.3d 510, 519 (D.C. Cir. 2019).
46

See Rehearing Order, 169 FERC ¶ 61,135 at P 16 (“Looking behind the
precedent agreements entered into by state-regulated utilities, would infringe upon the
role of state regulators in determining the prudence of expenditures by the utilities that
they regulate.”).
47

Certificate Order, 164 FERC ¶ 61,085 (Glick, Comm’r, dissenting at 6).

Docket No. CP17-40-002

- 12 -

need for the project by asserting (1) that it lacks jurisdiction to regulate Spire Missouri
and (2) that it required Spire STL to conduct an open season.48 Both responses are beside
the point. The argument is not that the Commission should regulate Spire Missouri, but
rather that Spire Missouri’s conduct provides evidence that is relevant to a decision that is
squarely within the Commission jurisdiction: Whether there is a need for the Spire
Pipeline. As noted above, that Commission cannot justify ignoring that conduct simply
because it lacks authority to regulate it directly.49 Similarly, Spire STL’s open season
does not indicate there was a need for the project in the first place.50 Indeed, the fact that
Spire STL conducted an open season and only Spire Missouri entered a precedent
agreement would, on its face, seem to strengthen EDF’s argument, not undermine it.
Lastly, in what might charitably be described as a throw-away paragraph, the
22.
Commission attempts to bolster its finding of need by pointing to some of the other
purported benefits that the Spire Pipeline might provide.51 That paragraph cannot
transform the Commission’s determination into a product of reasoned decisionmaking.
For one thing, it does not change the fact the Commission’s position is that the precedent
agreement itself is the basis for its determination of need. In any case, the Commission
recites the supposed non-capacity benefits of the project and then characterizes those
issues as ones that fall within the scope of a shipper’s “business decision.”52 As best as I
can tell, that phrase is intended to suggest that those other purported benefits could
potentially have supported Spire Missouri’s decision to enter into an agreement with
Spire STL and so the Commission will not question that agreement.
But the invocation of a “business decision” dredges up the same concerns
23.
regarding the precedent agreement between the two Spire companies. Under ordinary
48

Certificate Order, 164 FERC ¶ 61,085 at PP 20, 27.

49

After all, as noted above, the Commission’s entire basis for finding that the
Project is needed—the prudence of Spire Missouri’s decision to enter a contract with
Spire STL—is a decision that the Commission, by its own admission, lacks jurisdiction to
regulate. See Rehearing Order, 169 FERC ¶ 61,135 at P 16. The Commission cannot
have it both ways.
50

An open season is an important protection against concerns that a pipeline is
giving a preference to an affiliated shipper over one or more unaffiliated shippers, but it
does not necessarily tell us anything about need, especially when it is undersubscribed
and the only entity that does subscribe is an affiliate.
51

Rehearing Order, 169 FERC ¶ 61,135 at P 24.

52

Id.; see id. P 30.

Docket No. CP17-40-002

- 13 -

circumstances, deference to companies’ business judgments makes sense because they
presumably reflect the product of disinterested decisionmaking and/or arms-length
negotiations. Where those factors are not present, the invocation of a ‘business decision’
“is simply a talismanic phrase that does not advance reasoned decision making.”53
Deferring to a “business decision” is particularly problematic here because Spire
Missouri has captive customers to which it will, in the ordinary course of business, pass
on whatever costs it incurs taking service from Spire STL. That means that there is little
risk that the affiliates’ shared corporate parent will not recover its investment in the Spire
Pipeline plus a handsome rate of return.54 As a result, the financial risk that typically
disciplines a business’s judgment simply is not present in the same way. Accordingly,
although the precedent agreement is technically the result of a business decision, it does
not have anywhere near the probative value of an agreement reached through an armslength transaction with actual money seriously at risk. The Commission, however, never
wrestles with those concerns, instead simply repeating its talismanic phrase.55 The
Commission’s failure to meaningfully respond to these arguments on rehearing is yet
another reason its finding that the Spire Pipeline is needed was not the product of
reasoned decisionmaking.56

53

TransCanada Power Mktg. Ltd. v. FERC, 811 F.3d 1, 13 (D.C. Cir. 2015)
(rejecting an argument that “is simply a talismanic phrase that does not advance reasoned
decision making”).
54

The Commission granted the Spire STL an initial return on equity of 14 percent.
Rehearing Order, 169 FERC ¶ 61,135 at P 40.
55
56

EDF Rehearing Request at 11.

See Lilliputian Sys., Inc. v. PHMSA, 741 F.3d 1309, 1312 (D.C. Cir. 2014)
(“The arbitrary and capricious standard in the Administrative Procedure Act, includes a
requirement that the agency respond to relevant and ‘significant’ public
comments.” (internal citations, quotation marks, and alterations omitted)). The
Commission’s failure to respond to these detailed criticisms of its decision highlights the
error it made in refusing to hold a hearing to explore the significant issues of material fact
regarding these considerations. See EDF Rehearing Request at 4-10. The issues raised
regarding these other purported sources of need for the Spire Pipeline are exactly the type
of issue for which the evidentiary record developed in a hearing would have been useful.
The Commission might also then be able to point to actual evidence one way or another
rather than relying on unsupported incantations of a “business decision.”

Docket No. CP17-40-002
II.

- 14 -

The Commission Failed to Adequately Weigh the Pipeline’s Benefits and
Adverse Impacts

Today’s order is also arbitrary and capricious because the Commission failed to
24.
adequately balance the project’s benefits and adverse impacts. The Commission’s 1999
Certificate Policy Statement explains that it must weigh a proposed pipeline’s benefits
against its adverse impacts and that it will require more evidence of benefits in response
to greater adverse impacts.57 For example, the Commission noted that, where a project
developer was unable to acquire all the land needed to build and operate the project,
meaning that some degree of eminent domain would be necessary, “a showing of
significant public benefit might outweigh the modest use of federal eminent domain
authority.”58
Today’s order does not contain any serious effort to weigh the Spire Pipeline’s
25.
benefits against the adverse impacts. The Certificate Order included a single conclusory
sentence stating that the benefits outweigh the potential impacts59 and today’s order
reaches the same conclusion in a similarly terse fashion.60 There is no effort to balance
the benefits of the project against Spire STL’s extensive use of eminent domain, even
though that is the very example contemplated in the policy statement.61 It was clear when
the Commission issued the underlying order that building Spire Pipeline could well
require extensive use of eminent domain.62 And, in fact, it did: Spire STL prosecuted
57

1999 Certificate Policy Statement, 88 FERC ¶ 61,227 at 61,748.

58

Id. at 61,749.

59

Certificate Order, 164 FERC ¶ 61,085 at P 123 (“We find that the benefits that
the Spire STL Project will provide to the market, including enhanced access to diverse
supply sources and the fostering of competitive alternatives, outweigh the potential
adverse effects on existing shippers, other pipelines and their captive customers, and
landowners or surrounding communities.”).
60

See, e.g., Rehearing Order, 169 FERC ¶ 61,135 at P 24 (“We find the[ stated]
benefits sufficient to overcome any concerns of overbuilding.”)
61

1999 Certificate Policy Statement, 88 FERC ¶ 61,227 at 61,749 (“The strength
of the benefit showing will need to be proportional to the applicant's proposed exercise of
eminent domain procedures.”).
62

Certificate Order, 164 FERC ¶ 61,085 at P 119 (noting that Spire has yet to
“finalize easement agreements with affected landowners for most of the land required for
the project”).

Docket No. CP17-40-002

- 15 -

eminent domain actions against over 100 distinct entities and involving well over 200
acres of privately owned land.63 For comparison, the Environmental Assessment (EA)
estimated that the entire 65-mile project would affect roughly 400 acres in the course of
its permanent operations.64 All told, it appears that Spire prosecuted condemnation
proceedings against roughly 40 percent of the relevant landowners in Missouri and 30
percent of the relevant landowners in Illinois.65 It should go without saying that such
extensive use of eminent domain has a considerable effect on landowners and
surrounding communities. The Commission, however, made no effort to weigh the harm
caused by the then-likely, and now actual, use of extensive eminent domain or explain
why the benefits of the Spire Pipeline outweighed those potential adverse impacts.
Instead, the Commission notes that it encouraged Spire STL to work with landowners to
secure the necessary rights of way and that it believes that Spire STL “took sufficient

63

Spire STL brought condemnation actions against roughly 180 acres of land in
Missouri, see Docket, Spire STL Pipeline LLC v. 3.31 Acres of Land, No. 4:2018-CV1327 (RWS) (DDN) (E.D. Mo.) (listing consolidated condemnation actions against
roughly 150 acres of land); Spire STL Pipeline LLC v. 3.31 Acres of Land, No. 4:2018CV-1327 (RWS) (DDN), 2018 WL 6528667, at *1 (E.D. Mo. Dec. 12, 2018) (granting
Spire STL’s motion to condemn the land in the consolidated actions); Memorandum
Supporting Second Motion for a Preliminary Injunction, No. 2018-cv-1327 (Feb. 8,
2019), Exh. A (describing an additional roughly 30 acres of land that Spire STL sought to
condemn); Spire STL Pipeline LLC v. 3.31 Acres of Land, No. 4:2018-CV-1327 (RWS)
(DDN), 2019 WL 1232026, at *1 (E.D. Mo. Mar. 15, 2019) (granting Spire STL’s second
motion), and roughly 80 acres in Illinois, see Verified Complaint for Condemnation of
Pipeline Easements, No. 3:18-CV-1502 (NJR) (SCW) (S.D. Ill. Aug. 15, 2018) (listing
consolidated condemnation actions against roughly 80 acres); Spire STL Pipeline, LLC v.
Turman, No. 3:18-CV-1502 (NJR) (SCW), 2018 WL 6523087, (S.D. Ill. Dec. 12, 2018)
(granting Spire STL’s motion).
64
65

Rehearing Order, 169 FERC ¶ 61,135 at P 34.

Spire STL Pipeline LLC v. 3.31 Acres of Land, No. 4:2018-CV-1327 (RWS)
(DDN), 2018 WL 7020807, at *4 (E.D. Mo. Nov. 26, 2018), report and recommendation
adopted as modified, No. 4:2018-CV-1327 (RWS) (DDN), 2018 WL 6528667 (E.D. Mo.
Dec. 12, 2018) (stating that Spire STL was able to reach agreements with roughly 60
percent of the relevant landowners before beginning condemnation proceedings); Spire
STL Pipeline, LLC v. Turman, 2018 WL 6523087, at *2 (stating that Spire STL was able
to reach agreements with roughly 70 percent of the relevant landowners before beginning
condemnation proceedings).

Docket No. CP17-40-002

- 16 -

steps to avoid unnecessary landowner impacts.”66 But those statements relate to how
Spire STL acted with the authority it had, not whether it was appropriate to give it
eminent domain authority in the first place.67 The failure to consider the adverse impacts
caused by eminent domain is an arbitrary and capricious unexplained departure from the
balancing required by the 1999 Certificate Policy Statement.68
26.
In addition, the Commission’s limited discussion of many of the Spire Pipeline’s
adverse impacts was itself not the product of reasoned decisionmaking. Most
importantly, today’s order gives short shrift to the record evidence indicating that the
Spire Pipeline will cause a substantial increase in the rates for MRT’s remaining
customers. If the development of a new pipeline will cause certain customers to pay
higher rates—because, for example, they must now bear a higher share of an existing
pipeline’s fixed costs—those rate impacts are something the Commission must consider
when evaluating whether the pipeline is consistent with the public interest.69 That is

66

Rehearing Order, 169 FERC ¶ 61,135 at n.104.

67

The Commission responds by noting that, “[u]nder NGA section 7(h), once a
natural gas company obtains a certificate of public convenience and necessity it may
exercise the right of eminent domain in a U.S. District Court or a state court.” Id. That is
exactly the point. Because a section 7 certificate comes with eminent domain authority
that the Commission cannot circumscribe, we must seriously consider whether conveying
eminent domain authority is consistent with the public interest before issuing a section 7
certificate. Exhortations to work with landowners are no substitute for considering
whether the pipeline should be built in the first place.
68

ABM Onsite Servs.-W., Inc. v. Nat’l Labor Relations Bd., 849 F.3d 1137, 1142
(D.C. Cir. 2017) (“Because an agency’s unexplained departure from precedent
is arbitrary and capricious, we must vacate the Board’s order.”); Nat’l Treasury
Employees Union v. Fed. Labor Relations Auth., 404 F.3d 454, 457 (D.C. Cir. 2005)
(“[A]ny agency’s ‘unexplained departure from prior agency determinations’ is inherently
arbitrary and capricious in violation of [the Administrative Procedure Act].”).
69

1999 Certificate Policy Statement, 88 FERC 61,227 at 61,748 (“The interests of
the existing pipeline’s captive customers are slightly different from the interests of the
pipeline. The interests of the captive customers of the existing pipelines are affected
because, under the Commission’s current rate model, they can be asked to pay for the
unsubscribed capacity in their rates.”); Atl. Ref. Co., 360 U.S. at 391 (holding that the
NGA requires the Commission to consider “all factors bearing on the public interest”).

Docket No. CP17-40-002

- 17 -

particularly so here because the pre-existing pipelines in the region had already filed with
the Commission to substantially increase their rates because of the Spire Pipeline.70
Although the Commission “acknowledge[s]” this concern,71 it refuses to do
27.
anything about it. Instead, the Commission notes that any adverse impacts are the result
of Spire’s business decisions and that the Commission’s review of adverse impacts “is
not synonymous with protecting incumbent pipelines from the risk of loss of market
share to a new entrant.”72 That misses the point. As an initial matter, the fact that
adverse impacts are the result of business decisions does not excuse the Commission
from adequately considering those impacts. As noted, our responsibility is to evaluate
whether a proposed project is required by the public convenience and necessity; not
whether it is the result of business decisions (as it typically will be).73 Similarly,
although the Commission is not in the business of protecting existing pipelines from
competition, we are very much in the business of protecting customers74—a task that we
cannot accomplish if we refuse to consider the impact of a new pipeline on existing

70

See MRT Transmittal Letter, Docket No. RP18-923-00, at 3-4 (June 29, 2018)
(proposing a rate increase primarily due to the decision by Spire Missouri to shift its
capacity reservations to the Spire Pipeline); MoGas Transmittal Letter, Docket No.
RP18-877-000, at 2 (May 31, 2018) (explaining that a rate discount for Spire Missouri
was one of the principal causes of its proposed rate increase); MoGas Answer, Docket
No. RP18-877-000, at 4-5 (June 18, 2018) (explaining that MoGas was forced to offer
Spire Missouri the discounted rate because of the Spire Pipeline); see also Spire STL
Pipeline LLC, 169 FERC ¶ 61,074 (2019) (Glick, Comm’r, dissenting at P 2) (“Three
major pipelines serving the region have proposed significant rate increases that are all
due, at least in part, to the Spire Pipeline.”)
71

Rehearing Order, 169 FERC ¶ 61,135 at P 31.

72

Id.

73

In addition, even if this type of “business decision” test is often the appropriate
standard of review, the evidence suggesting that Spire Missouri’s agreement with Spire
STL may not have been an arms-length or disinterested business decision should have
caused the Commission to pause before relying on that standard to brush aside the Spire
Pipeline’s impact on existing ratepayers. See supra P 23.
74

See, e.g., City of Chicago, Ill. v. FPC, 458 F.2d 731, 751 (D.C. Cir. 1971)
(“the primary purpose of the Natural Gas Act is to protect consumers.” (citing, inter alia,
City of Detroit v. FPC, 230 F.2d 810, 815 (1955)).

Docket No. CP17-40-002

- 18 -

customers.75 When the record indicates that building a new pipeline will harm existing
customers, as it does here,76 the Commission must carefully consider that evidence and
weigh it against the purported benefits of the pipeline. Refusing to do so by framing any
such inquiry as amounting to the protection of an incumbent pipeline ignores one of the
Commission’s fundamental responsibilities under the NGA and is arbitrary and
capricious.77
All told, the Commission failed to seriously weigh the meager evidence of the
28.
need for the pipeline against the harms caused by its construction, including the harms to
ratepayers, landowners and communities (e.g., through eminent domain), and the
environment.78 As noted, the Commission’s 1999 Certificate Policy Statement explains
that “[t]he amount of evidence necessary to establish the need for a proposed project will
depend on the potential adverse effects of the proposed project on the relevant
75

It appears that the Commission would prefer to limit its inquiry only to those
impacts that it deems to be the result of “unfair” competition, however that is defined, see
Rehearing Order, 169 FERC ¶ 61,135 at P 31. But nothing in the 1999 Certificate Policy
Statement or the concept of the public interest generally supports taking such a blindered
review of the impact on existing customers. 1999 Certificate Policy Statement, 88 FERC
¶ 61,227 at 61,748 (“The interests of the existing pipeline’s captive customers are slightly
different from the interests of the pipeline. The interests of the captive customers of the
existing pipelines are affected because, under the Commission’s current rate model, they
can be asked to pay for the unsubscribed capacity in their rates.”).
76

See supra note 70.

77

In addition, the Commission suggests that any adverse impacts on existing
customers is a matter to be resolved under the Missouri PSC’s jurisdiction. Rehearing
Order, 169 FERC ¶ 61,135 at P 31. Once again though, the Missouri PSC disagrees,
urging the Commission to consider these adverse impacts when assessing the public
interest and not leave it to the state to triage the harm caused by a pipeline that was not in
the public interest in the first place. Missouri PSC Protest at 9-10.
78

The Commission notes that the Environmental Assessment performed in this
proceeding found that the Spire Pipeline would not significantly affect the human
environment. Rehearing Order, 169 FERC ¶ 61,135 at P 4. But the fact that those
adverse impacts may not have required the preparation of the Environmental Impact
Statement does mean that they should go unmentioned in the Commission’s public
interest analysis. As EDF noted, the project could potentially have a variety of adverse
impacts including through “water and Karst terrain crossings, right-of-way clearing,
construction of permanent roads, and degrading water quality.” EDF Rehearing Request
n.88 and accompanying text.

Docket No. CP17-40-002

- 19 -

interests.”79 It follows from that proposition that, where the evidence of need is
extremely limited, as it is here, the Commission must carefully scrutinize the adverse
impacts to ensure that they do not actually outweigh the need for the project and
whatever benefits it might provide. Nothing in today’s order indicates that the
Commission conducted that careful assessment or considered the strength of Spire STL’s
demonstration of need when assessing whether the Spire Pipeline’s benefits outweigh its
adverse impacts, as required by the 1999 Certificate Policy Statement. For that reason
too, today’s order is arbitrary and capricious.
III.

The Commission’s Consideration of the Spire Pipeline’s GHGs Emissions

Today’s order rehashes many of the Commission’s usual reasons for refusing to
29.
give the greenhouse gas (GHG) emissions caused by a new natural gas pipeline the ‘hard
look’ that the law demands. But, for once, the stakes of the Commission’s GHG analysis
are relatively low. Unlike most other natural gas infrastructure projects that come before
the Commission—which are usually designed to facilitate a sizeable increase in natural
gas production or consumption and can sometimes produce considerable direct emissions
themselves—the EA concludes that there is little chance that the Spire Pipeline will cause
a considerable increase in GHG emissions.80
That makes sense. After all, as noted, there is no additional demand for natural
30.
gas in the region and there is no evidence that the Spire Pipeline will reduce the cost of
natural gas in the region, which could spur production or consumption of natural gas even
without an increase in demand. Under those circumstances, the Commission’s estimate
that the project will cause roughly 15,000 tons of GHG emissions per year during
construction and roughly 10,000 tons per year after that both seems reasonable and
suggests that is unlikely to significantly contribute to climate change.81 But although that
may be good news for the climate, it only underscores my concerns about whether the
project is needed in the first place.
IV.

The Commission Has Been Fundamentally Unfair to the Litigants

Finally, I would be remiss in failing to mention the profound unfairness of how the
31.
Commission has handled the rehearing requests and the motion for stay filed by Juli Viel.

79

1999 Certificate Policy Statement, 88 FERC ¶ 61,227 at 61,748.

80

EA at 144 (“[W]e do not anticipate that the end-use would represent new GHG
emissions.”).
81

EA Tables B-16 & B-17.

Docket No. CP17-40-002

- 20 -

The Commission issued its certificate order via a 3-2 vote on August 3, 2018.82 Four
rehearing requests were filed by early September. Ms. Viel subsequently requested a stay
pending the Commission’s decision on rehearing.83 The Commission is finally acting on
those requests today, nearly 15 months84 after they were filed and more than a year after
the Commission granted Spire’s request to begin construction of the pipeline.85
While rehearing was pending—and before any party had an opportunity to
32.
challenge the Commission’s decision in court—Spire disturbed what it the Certificate
Order estimated to be over 1,000 acres of land and brought eminent domain proceedings
against over 100 distinct entities.86 Indeed, as noted, Spire successfully prosecuted
eminent domain proceedings involving well over roughly 200 acres of privately owned
land—a number equivalent to more than half of total number of acres needed to
permanently operate the pipeline.87 Those eminent domain proceedings all took place
when the Commission’s order was “final enough for [the pipeline] to prevail in an
eminent domain action,” but “non-final” for the purposes of judicial review.88
That is fundamentally unfair. Although the rehearing requests in this proceeding
33.
were not filed by landowners fighting eminent domain, as they were in Allegheny
Defense Project, and therefore do not implicate identical due process concerns to those at

82

Certificate Order, 164 FERC ¶ 61,085.

83

See Juli Viel Motion for Stay (Nov. 16, 2018). Ms. Veil’s motion requested a
stay only until the Commission acted on rehearing. The Commission denies the stay
request not on the merits, but only on the basis that it has become moot after the
Commission finally ruled on the merits of the rehearing requests, 11 months later.
84

During that time, one of the parties, MRT, withdrew its rehearing request after it
had sat at the Commission for over a year. Rehearing Order, 169 FERC ¶ 61,135 at P 6.
85

Spire STL requested authorization to commence construction on November 1
and the Commission granted it two business days later on November 5th. Compare Spire
STL Request for Notice to Proceed (Nov. 1, 2018) with Delegated Letter Order re: Notice
to Proceed with Construction (Nov. 5, 2018).
86

Certificate Order, 164 FERC ¶ 61,085 at P 117 & n.212; supra note 64.

87

See supra note 64.

88

Allegheny Def. Project v. FERC, 932 F.3d 940, 949 (2019) (D.C. Cir. 2019)
(Millett, J., concurring).

Docket No. CP17-40-002

- 21 -

issue in that case,89 good government is about more than meeting the absolute minimum
of constitutional due process. In this proceeding, several parties were stuck in limbo,
unable to even seek judicial relief, while Spire STL seized land and proceeded to build
the pipeline. A regulatory construct that allows a pipeline developer to build its entire
project while simultaneously preventing opponents of that pipeline from having their day
in court ensures that irreparable harm will occur before any party has access to judicial
relief.90 That ought to keep every member of this Commission up at night. Under those
circumstances, dismissing as moot Ms. Viel’s year-old request for a stay pending
rehearing because the Commission finally issued an order on rehearing91 is a level of
bureaucratic indifference that I find hard to stomach.
The Commission can and should do better. After all, there were plenty of options
34.
available for the Commission to act before irreparable harm occurred. For example, it
could have stayed the project pending its decision on rehearing, either on its motion or by
granting Ms. Veil’s request. Alternatively, the Commission could have taken “the easiest
path of all” by simply denying the rehearing requests by not issuing its standard tolling
order.92 Either approach would have given the parties an opportunity to pursue their day
in court before Spire STL built the project. Instead, by relying on what Judge Millett
correctly described as “twisted . . . precedent” and a “Kafkaesque regime,”93 the
Commission has guaranteed substantial irreparable harm occurs before any party can
even set foot in court.
For these reasons, I respectfully dissent.
______________________________
Richard Glick
Commissioner

89

Id. at 953-54 (Millett, J., concurring).

90

Id. at 954 (Millett, J., concurring) (citing Amoco Prod. Co. v. Village of
Gambell, 480 U.S. 531, 545 (1987) and National Wildlife Fed’n v. Burford, 835 F.2d
305, 323-325 (D.C. Cir. 1987)).
91

Rehearing Order, 169 FERC ¶ 61,135 at P 8.

92

Allegheny Def., 932 F.3d at 956 (Millett, J., concurring) (“[T]he Commission
could try the easiest path of all: take absolutely no action on the rehearing application.
That would have the effect of denying the request as a matter of law. And that approach
would have opened the courthouse doors. (internal citations omitted)).
93

Id. at 948 (Millett, J., concurring).

Exhibit H

176 FERC ¶ 61,160
UNITED STATES OF AMERICA
FEDERAL ENERGY REGULATORY COMMISSION
Before Commissioners: Richard Glick, Chairman;
James P. Danly, Allison Clements,
and Mark C. Christie.
Spire STL Pipeline LLC

Docket No. CP17-40-009

ORDER ISSUING TEMPORARY CERTIFICATE
(Issued September 14, 2021)
The United States Court of Appeals for the District of Columbia Circuit
1.
(D.C. Circuit) has issued an opinion vacating and remanding the Commission’s orders
authorizing Spire STL Pipeline LLC (Spire) to construct and operate the Spire STL
Pipeline1 and orders denying petitions for rehearing and rehearing en banc of that ruling.2
When the court’s mandate issues, Spire will lack the necessary authority required by the
Natural Gas Act (NGA) to operate its facilities.3 In order to ensure continuity of service
for a limited period while the Commission considers appropriate next steps, the
Commission is issuing Spire a temporary certificate of public convenience and necessity,
pursuant to section 7(c)(1)(B) of the NGA,4 to operate the Spire STL Pipeline.

1

Env’tl Def. Fund v. FERC, 2 F.4th 953 (D.C. Cir 2021).

2

Sep. 7, 2021, Orders Denying Petitions for Rehearing and Rehearing En Banc,
D.C. Cir. Nos. 20-1016, 20-1017.
3

On September 13, 2021, Spire filed a motion in the D.C. Circuit to stay the
mandate until December 13, 2021, which is 90 days from when the mandate would
otherwise issue. Although D.C. Circuit Rule 41(a)(2) states that the mandate will not
issue during the period in which a motion to stay the mandate is pending, the
Commission nonetheless acts today out of an abundance of caution and to ensure
adequate supply, as least temporarily, to the St. Louis region.
4

15 U.S.C. § 717f(c)(1)(B).

Docket No. CP17-40-009
I.

-2-

Background

On August 3, 2018, the Commission issued Spire a certificate of public
2.
convenience and necessity under section 7(c) of the NGA5 and Part 157 of the
Commission’s regulations6 to construct and operate the Spire Project, a 65-mile-long
interstate natural gas pipeline system, extending from an interconnection with
Rockies Express Pipeline LLC in Scott County, Illinois, to interconnections with both
Spire Missouri Inc. (Spire Missouri) and Enable Mississippi River Transmission, LLC
(MRT) in St. Louis County, Missouri.7 The Environmental Defense Fund (EDF),
Missouri Public Service Commission, MRT, and Juli Steck each filed timely requests for
rehearing, and, on November 21, 2019, the Commission issued an order on rehearing
addressing the arguments raised and dismissing, rejecting, or denying the requests for
rehearing.8 EDF and Juli Steck each petitioned for review with the D.C. Circuit.
On June 22, 2021, the D.C. Circuit issued a decision granting EDF’s petition for
3.
review and vacating the Commission’s orders authorizing the Spire Project and
remanding to the Commission for further proceedings.9 On July 26, 2021, Spire filed an
application for a temporary certificate stating that if the Spire STL Pipeline is removed
from service Spire Missouri will be unable to obtain adequate service to satisfy peak
demand during the 2021-2022 winter heating season in the St. Louis region.10 On
August 5, 2021, Spire filed petitions for panel rehearing and rehearing en banc with the
D.C. Circuit, asserting that the court should not have vacated the Commission’s orders
because it would cause service disruptions during the winter heating season.11
4.
On August 6, 2021, the Commission issued notice of Spire’s application for a
temporary certificate, establishing September 7, 2021, as the deadline for interventions

5

15 U.S.C. § 717f(c).

6

18 C.F.R. pt. 157 (2020).

7

Spire STL Pipeline LLC, 164 FERC ¶ 61,085 (2018) (Certificate Order).

8

Spire STL Pipeline LLC, 169 FERC ¶ 61,134 (2019) (Rehearing Order).

9

Env’t Def. Fund, 2 F.4th 953.

10

Spire in the alternative requested that the Commission issue, what it styled as, a
limited-term certificate issued under sections 7 and 16 of the NGA.
11

1017.

Spire Aug. 5, 2021 Petition for Rehearing at 7, D.C. Cir. Nos. 20-1016, 20-

Docket No. CP17-40-009

-3-

and comments, and October 5, 2021, as the deadline for reply comments.12 On the same
day, the Commission requested additional information from Spire, to be filed by
September 7, 2021.
5.

On September 7, 2021, the D.C. Circuit denied Spire’s petitions for rehearing.13

II.

Discussion

Section 7(c)(1)(B) of the NGA states that “the Commission may issue a temporary
6.
certificate in cases of emergency, to assure maintenance of adequate services or to serve
particular customers, without notice or hearing, pending the determination of an
application for a certificate . . . .”14
Upon issuance of the D.C. Circuit’s mandate, Spire will lack authorization to
7.
operate the Spire STL Pipeline potentially jeopardizing Spire Missouri’s ability to obtain
adequate supply, a situation that could be dire during the upcoming winter heating
season. As noted above, the Commission’s August 6, 2021 Notice of Application
established a schedule for Spire to provide additional information and for interested
parties to file comments and reply comments. Some comments filed to date suggest that
an abrupt cessation of service on the Spire STL Pipeline could negatively impact
12

All timely, unopposed motions to intervene filed in response to the August 6,
2021 notice are granted by operation of Rule 214 of the Commission’s Rules of Practice
and Procedure. Any party in the underlying certificate proceeding is deemed to be a
party to this proceeding. Any motion to intervene filed after September 7, 2021, is
untimely and must “show good cause why the time limitation should be waived” and
provide justification for late intervention by reference to the other factors set forth in
Rule 214(d) of the Commission’s Rules of Practice and Procedure. 18 C.F.R.§
385.214(d) (2020).
13

Sep. 7, 2021, Orders Denying Petitions for Rehearing and Rehearing En Banc,
D.C. Cir. Nos. 20-1016, 20-1017.
14

15 U.S.C. § 717f(c)(1)(B). Section 157.17 of the Commission’s regulations
implements section 7(c)(1)(B) and provides that:
[i]n cases of emergency and pending the determination of any application on
file with the Commission for a certificate of public convenience and
necessity under section 7 of the Natural Gas Act, application may be made
for a temporary certificate authorizing the construction and operation of
extensions of existing facilities, interconnections of pipeline systems, or sales
of natural gas that may be required to assure maintenance or adequate
service, or to service particular customers. 18 C.F.R. § 157.17.

Docket No. CP17-40-009

-4-

customers in the St. Louis region, especially during extreme weather events.15 Other
commenters disagree.16
We find that once the D.C. Circuit’s mandate issues and until the Commission can
8.
complete its assessment of the validity of these claims and determine an appropriate
course of action, an emergency exists under NGA section 7(c)(1)(B) insofar as the
vacatur presents the potential for “a sudden unanticipated loss of gas supply or capacity
that requires an immediate restoration of interrupted service for protection of life or
health or for maintenance of physical property.”17 Accordingly, we are issuing a
temporary certificate to operate the Spire STL Pipeline to assure adequate natural gas
supplies to Spire Missouri and its customers while the Commission considers Spire’s
July 26 application and other information in the record. This temporary certificate will
be issued under the previously approved terms, conditions, authorizations, and tariff,
while the Commission evaluates the application and the arguments raised in the
responsive filings. This authorization does not permit Spire to engage in any construction
or to provide any new service. As a condition of accepting this certificate, Spire must
continue all restoration activities along the project right-of-way.18
In the present case, Spire will not be allowed to expand its facilities as this
9.
temporary certificate explicitly prohibits any additional construction. Further, this order
does not provide authorization for a large swath of the industry to provide service without
Commission oversight. Instead, this temporary certificate will allow for the maintenance
of adequate service via the Spire STL Pipeline for Spire Missouri during a defined period
of time.
10.

The dissent contends that the Commission may not issue a temporary certificate
under these circumstances--notwithstanding the dissent’s admission that “dire
circumstances” may result if pipeline service is disrupted--because the emergency here,
15

See Missouri Public Service Commission, Staff’s Investigation of Spire STL
Pipeline’s Application at FERC for a Temporary Certificate to Operate, Case No.
Go-2022-0022 (Aug. 16, 2021), https://efis.psc.mo.gov/mpsc/commoncomponents
/view_itemno_details.asp?caseno=GO-2022-002224&attach_id=2022002468.
16

See Environmental Defense Fund, Aug. 5, 2021 Protest and Motion to Reject.

17

See 18 C.F.R. § 157.202(b)(13); Cf. Penn. Gas & Water Co. v. FPC, 427 F.2d
568, 575 (D.C. Cir. 1970) (finding economic hardship does not constitute an emergency).
18

Spire has stated that it would not construct any new facilities and would
continue to perform restoration, as required by the Commission, under any temporary
certificate it received. Spire Aug. 26, 2021 Answer to Landowners Aug. 5, 2021
comments at 11, 12.

Docket No. CP17-40-009

-5-

precipitated by the D.C. Circuit’s vacatur, is a condition of the Commission’s own
making. In fact, however, the emergency is the breakdown in service to existing
customers that may result from the cessation in operation of a functioning pipeline. This
scenario presents the sort of circumstances that the D.C. Circuit has found section 7(c) to
cover: “temporary emergencies and minor acts or operations, like emergency
interconnections to cope with breakdowns or sporadic excess demand for gas.”19 And
this scenario is distinguishable from the facts in Algonquin Gas Transmission Co. v. FPC
20 and Consumer Federation, which involved, respectively, a request to complete
construction of facilities needed to provide new service to a region that previously did not
have natural gas service and orders granting broad authority not tied to the needs of
specific customers. Here, the Commission addresses the risk that existing customers in
the St. Louis region will experience a disruption in service. The Commission need not
wait until such disruption is certain or imminent before acting, and may issue a certificate
in order “to assure” maintenance of service.21
We are issuing this temporary certificate sua sponte. Our action here does not
11.
prejudge the merits of Spire’s July 26 application or in any way indicate what action we
will take in response to the court ruling. The temporary certificate will remain in place
for 90 days, while the Commission evaluates Spire’s temporary certificate application
and the arguments raised in the responsive filings.
The Commission orders:
(A) A temporary certificate of public convenience and necessity is issued to
Spire STL Pipeline LLC (Spire) to continue to operate the facilities authorized by the
Commission in Docket Nos. CP17-40-000 and CP17-40-001 that are currently in service,
under the terms, conditions, and authorizations previously issued, including the approved
tariff. The temporary certificate does not authorize the construction of any additional
facilities or the commencement of any new service. As a condition of accepting this
certificate, Spire must continue restoration activities along the project right-of-way.
(B) Spire must indicate its acceptance of this certificate, in writing, within three
business days of the date of this order.
19

Consumer Federation of America v. FPC, 515 F.2d 347, 353 (D.C. Cir. 1975)
(Consumer Federation) ; see also Penn. Gas & Water Co., 427 F.2dat 574 (providing
illustrative examples of emergencies including “breakdowns in the service of operating
natural gas companies”).
20

201 F.32d 334 (1st Cir. 1953).

21

15 U.S.C. § 717f(c)(1)(B).

Docket No. CP17-40-009

-6-

(C) This order will be effective for 90 days, absent further order from the
Commission.
By the Commission. Commissioner Danly is dissenting with a separate statement
attached.
(SEAL)

Debbie-Anne A. Reese,
Deputy Secretary.

UNITED STATES OF AMERICA
FEDERAL ENERGY REGULATORY COMMISSION
Spire STL Pipeline LLC

Docket No. CP17-40-009
(Issued September 14, 2021)

DANLY, Commissioner, dissenting:
Today’s order issues a temporary certificate to Spire STL Pipeline LLC (Spire)
1.
under section 7(c)(1)(B) of the Natural Gas Act (NGA),1 the purpose of which is to allow
Spire to continue operating its pipeline system following the issuance of the court’s
mandate which will vacate Spire’s certificate. Such an issuance is necessary should the
Commission wish to ensure continuity of service and we know beyond doubt that “[n]o
single factor in the Commission’s duty to protect the public can be more important to the
public than the continuity of service furnished.”2 This duty is all the more important
immediately ahead of winter. And while I understand how critical it is to ensure service
continues uninterrupted and I appreciate the circumstances faced by Spire, I cannot vote
for this order because it violates the NGA and the Administrative Procedure Act (APA).
The majority is correct when it declares that, “the Commission may issue a
2.
temporary certificate in cases of emergency, to assure maintenance of adequate service or
to serve particular customers, without notice or hearing, pending the determination of an
application for a certificate.”3 This is an exception to the statute’s ordinary requirement
that the Commission notice and set for hearing all certificate applications and approve or
deny certificates based on whether a proposed facility is in the public convenience and
necessity.4 And I agree with the majority and the commenters who said that dire
1

15 U.S.C. § 717f(c)(1)(B).

2

Sunray Mid-Continent Oil Co. v. FPC, 267 F.2d 471, 473 (10th Cir. 1959); see
also City of Mesa v. FERC, 993 F.2d 888, 895 (D.C. Cir. 1993) (stating that part of the
Commission’s mandate “is a duty to assure that consumers, especially high-priority
consumers, have continuous access to needed supplies of natural gas.”).
3

Spire STL Pipeline LLC, 176 FERC ¶ 61,160, at P 6 (2021) (quoting 15 U.S.C. §
717f(c)(1)(B)).
4

See 15 U.S.C. § 717f(c)(1)(B) (requiring the Commission to set a certificate
application “for hearing and shall give such reasonable notice of the hearing thereon to all
interested persons . . . and the application shall be decided in accordance with the
procedure provided in subsection (e) of this section and such certificate shall be issued or

Docket No. CP17-40-009

-2-

consequences may attend a cessation of service. The present situation, however, is
simply not the type of emergency contemplated by the statute. The courts have explained
that section 7(c)(1)(B) has limits: “it was designed as a narrow exception to enable the
companies and the Commission to grapple with temporary emergencies and minor acts or
operations, like emergency interconnections to cope with breakdowns or sporadic excess
demand for gas.”5
This is not what we face here. This case is not about broken compressor stations,
3.
breached pipelines, or unexpectedly cold weather. Instead, what we have on our hands is
an unlawful Commission response to the judicial vacatur of a certificate, itself a
chastisement for our failure to adequately explain our decisions. In other words, the
Commission did not satisfy its obligations under the APA in the first instance. Section
7(c)(1)(B) is simply inapposite. The present circumstances, an “emergency” of our own
making, is not the kind of emergency for which section 7(c)(1)(B) was drafted. And we
need not argue this from first principles. The courts have already considered (if only as
dicta) the very question of whether our emergency powers can be employed as a stopgap
in the absence of a certificate. In Algonquin Gas Transmission Company v. FPC, the
court stated that “it is by no means clear [that] the statutory phrase ‘to assure maintenance
of adequate service’ would be construed to include maintenance of a natural gas service
no longer authorized by a valid outstanding certificate issued by the Commission under
the provision of the Natural Gas Act.”6 And this makes sense. If the purpose of the
provision is to allow for narrow orders to be issued in emergencies for the specific
purpose of maintaining service provided by legally-operating pipelines, a certificate of
public convenience and necessity would seem a necessary prerequisite.
4.
The majority responds by arguing that “the emergency is the breakdown in service
to existing customers that may result from the cessation in operation of a functioning
pipeline”7 and likens this emergency to “emergency interconnections to cope with

denied accordingly”).
5

Consumer Fed’n of Am. v. FPC, 515 F.2d 347, 353 (D.C. Cir. 1975); see also
Penn. Gas & Water Co. v. FPC, 427 F.2d 568, 574 (D. C. Cir. 1970) (“It appears that the
provision of [section] 7(c) for temporary certificates was meant to cover a narrow class of
situations, to permit temporary and limited interconnection, or expansion of existing
facilities in order to meet such emergencies as breakdowns in the service of operating
natural gas companies, or sudden unanticipated demands.”) (citing Algonquin Gas
Transmission Co. v. FPC, 201 F.2d 334 (1st Cir. 1953)).
6

Algonquin Gas Transmission Co., 201 F.2d at 341.

7

Spire STL Pipeline LLC, 176 FERC ¶ 61,160 at P 10.

Docket No. CP17-40-009

-3-

breakdowns or sporadic excess demand for gas.”8 I find this reasoning convenient, not
believable. These are not analogous. It also does not explain the Commission’s delay in
acting. In the face of an emergency, why would the Commission notice Spire’s request
for a temporary emergency certificate for a 30-day initial comment and 30-day reply
comment period? The imminent cessation of service during the upcoming winter season
was a possibility then just as it is now. Yet, the Commission not only declined to use its
emergency authority then but established a proceeding that deviated from standard
practice. Moreover, how can the Commission find there is an emergency warranting a
temporary certificate and still “evaluate[] Spire’s temporary certificate application and
the arguments raised in the responsive filings”?9 The Commission absolutely cannot
issue a temporary certificate merely because there is an ongoing dispute regarding
whether there is in fact an emergency.10
In sum, this order is unlawful. In order for the Commission to issue a temporary
5.
certificate under NGA section 7(c)(1)(B), it must provide an adequate, reasoned
explanation for why there is an emergency as contemplated by the statute. Failure to do
so is a violation of the NGA and APA.
Legal deficiencies aside, the predicament the Commission faces in this
6.
proceeding—that it must issue an unlawful order to maintain continuity of service—is a
Hobson’s choice of its own creation. The Commission could have taken several steps, all
simple and prudent, to avoid finding itself in its present dilemma and I would not be in
the position of voting against an order designed to continue service that I agree, at least
for the time being, is needed.
First, the Commission could have noticed Spire’s application with a comment
7.
period consistent with its standard practice when considering certificate applications—
that is, twenty-one days for comments and interventions and no reply comment period.11
8

Id. (quoting Consumer Fed’n of Am., 515 F.2d at 353).

9

Spire STL Pipeline LLC, 176 FERC ¶ 61,160 at P 11.

10

See Penn. Gas & Water Co., 427 F.2d at 575 (“Nor may an agency take
precipitate action without a hearing on the ground that it can always cancel out and
reconstruct if so advised after hearing. To act in haste, repent at leisure, is not a sound
motto for an administrative agency.”).
11

See, e.g., Commission Staff September 7, 2021 Notice of Applications and
Establishing Intervention Deadline in ANR Pipeline Company Docket No. CP21-488-000
(21-day comment and intervention deadline); Commission Staff September 1, 2021
Notice of Amendment to Application and Establishing Intervention Deadline in Roaring
Fork Interstate Gas Transmission, LLC Docket No. CP21-462-000 (21-day comment and
intervention deadline); Commission Staff August 26, 2021 Notice of Application

Docket No. CP17-40-009

-4-

Doing so would have provided the Commission greater flexibility to react to the court’s
mandate, which could have issued as early as August 13, 2021.
Instead, on August 6, 2021, at the direction of the Chairman, Commission staff
8.
noticed Spire’s application and set September 7, 2021, as the deadline for initial
comments, and October 5, 2021, as the deadline for reply comments.12 And as a result,
the majority is reacting to the mandate, creating new sub-dockets,13 acting “sua sponte,”14
and in the end issuing a temporary certificate without notice and hearing—all to get
around the fact that, under the timeline the Commission created for itself, reply
comments are not due for another twenty-one days. Noticing Spire’s application for the
standard 21-day comment period would have obviated the majority’s need to engage in
the acrobatics we see in this order by providing the Commission the procedure necessary
to issue a certificate under NGA section 7(c) and (e)15 for the winter season as the
Commission considers what to do on remand. Such order could have met the statutory
requirements that the Commission notice and set for hearing the application and approve
or deny the certificate based on whether the proposed temporary service is in the public
convenience and necessity.

Establishing Intervention Deadline in Diversified Midstream, LLC Docket No. CP21484-000 (21-day comment and intervention deadline); Commission Staff August 26,
2021 Notice of Petition for Declaratory Order in Northern States Power Company Docket
No. CP21-486-000 (21-day comment and intervention deadline); Commission Staff
August 2, 2021 Notice of Applications and Establishing Intervention Deadline in Rover
Pipeline, LLC Docket No. CP21-474-000 (21-day comment and intervention deadline). I
recognize the Commission can and has noticed applications for shorter or longer
comment periods; however, given that the Commission wants to avoid the shutdown of
the pipeline, which could have occurred as early as August 13, 2021, it was unwise for
the Commission to notice the application for longer than its standard practice.
12

It is worth noting that prior to the notice’s issuance, the Public Service
Commission of the State of Missouri requested that the Commission take expedited
action. See Missouri Public Service Commission July 30, 2021 Comments at 1, 4.
Several other commenters requested prompt consideration. See, e.g., State of Missouri
Senators Mike Cierpiot and Karla May August 3, 2021 Comments at 2.
13

Spire’s application for a temporary emergency certificate, or in the alternative, a
limited-term certificate is in Docket No. CP17-40-007. This order is issued under the
sub-docket -009.
14

Spire STL Pipeline LLC, 176 FERC ¶ 61,160 at P 11.

15

15 U.S.C. §§ 717f(c), (e).

Docket No. CP17-40-009

-5-

Second, the Commission should have sought rehearing of the court’s vacatur of
9.
Spire’s certificate order. Vacatur is an extraordinary remedy and, while the court was
correct to instruct the Commission regarding its failure to properly explain its decisions,
the court misapplied Allied-Signal, Inc. v. U.S. Nuclear Regulatory Commission,16 and
we should have sought rehearing. But, despite support among a majority of my
colleagues to seek rehearing, the Chairman declined to do so.17 Had the Commission
itself sought rehearing, the court may have reversed its decision to vacate the
Commission’s order and the Commission could have taken the time it needed on remand
to either justify its decision to the court’s satisfaction or taken any other steps it deemed
necessary.
10.

Third, at the very least, the Commission should have sought a delay of the
issuance of the court’s mandate or should have supported Spire’s request to stay the
mandate. Nothing could have been lost by making such a request. It would have
afforded the Commission time to issue a durable order that conformed to the procedural
requirements of the NGA.
16

988 F.2d 146 (D.C. Cir. 1993).

17

It is something akin to an article of faith among FERC Commissioners and staff
that the Chairman has unilateral authority over litigation positions, though that power is
not unambiguously conferred by the Department of Energy Organization Act and it has
never been tested in court. Regardless, the Commission has had a longstanding practice
of recording the votes of the commissioners on major litigation decisions. These are
typically the subject of litigation memoranda from the FERC solicitor’s office and, in the
past, the votes of the various offices were recorded by the Secretary. Recently, at the
direction of the Chairman, this practice has been abandoned. I would like to see the
Chairman reinstate it.
Indeed, in a recent proceeding, the majority chided me for a dissent that pointed
out language in a legal brief from a separate case that I believed was inconsistent with the
majority’s reasoning in that case. See Cent. Hudson Gas & Elec. Corp. v. N.Y. Indep.
Sys. Operator, Inc., 176 FERC ¶ 61,149, at P 31 n.64 (2021). The majority cited judicial
opinions reminding litigants that it is the Commission’s “institutional decisions—none
other—that bear legal significance” to argue that language from an appellate brief is in no
way controlling. Id. (quoting Pub. Serv. Comm’n of N.Y. v. FPC, 543 F.2d 757, 776
(D.C. Cir. 1974)). The decision the majority cited defined “institutional decisions” as “a
decision by a majority vote duly taken.” Pub. Serv. Comm’n of N.Y., 543 F.2d at 776.
Given that only such decisions “bear legal significance,” the Commission’s (now former)
practice of seeking the views of the body on agency litigating positions was a prudent
one—the judiciary ought to have the confidence that the positions argued before it are, in
fact, the positions of the Commission as an “entity apart from its members.” Id.

Docket No. CP17-40-009

-6-

My colleagues may believe that their 90-day temporary certificate provides
certainty or solace to the City of St. Louis. This is misguided. This temporary certificate
will lift December 12, 2021, not even halfway through the winter season. I question the
reasons for issuing a temporary certificate for any period shorter than the whole of
winter. One wonders why the Commission has taken such a parsimonious approach
toward Spire when it was the deficiency of our order, not any action of Spire’s, that has
put us where we are. The Commission must fix this infirmity in a manner that is legal
and in the public interest.

\ 1.

For these reasons, I respectfully dissent.

________________________
James P. Danly
Commissioner

Exhibit I

IN THE UNITED STATES COURT OF APPEALS FOR
THE DISTRICT OF COLUMBIA CIRCUIT
Environmental Defense Fund, et al.
Petitioners,
v.
Federal Energy Regulatory
Commission,
Respondent.

)
)
)
)
) Nos. 20-1016 and 20-1017
) (consolidated)
)
)
)
)

SECOND DECLARATION OF SCOTT CARTER
1.

My name is Scott Carter, and I am President of Spire Missouri Inc.

(“Spire Missouri”). Spire Missouri is the natural gas utility serving the St. Louis,
Missouri metropolitan area and is a local distribution company (“LDC”) regulated
by the Missouri Public Service Commission. My business address is 700 Market
St., Saint Louis, MO 63101. I have decades of experience in the natural gas utility
industry, both at Spire Missouri and other utilities throughout the United States. I
am very familiar with Spire Missouri’s natural gas supply portfolio, distribution
system and natural gas supply requirements.
Purpose of Declaration and Summary of Conclusions
2.

The purpose of this Second Declaration is to inform the U.S. Court of

Appeals for the District of Columbia Circuit of the potential disruptive impacts on
the retail customers and communities served by Spire Missouri in the event Spire
1

STL Pipeline LLC (“STL Pipeline”) were to cease operations due to a loss of
certificate authority, in support of the accompanying Motion for Stay of Mandate.1
3.

As I will explain in detail below, loss of service from STL Pipeline

would severely jeopardize Spire Missouri’s ability to provide needed energy to a
large portion of the 650,000 households and businesses that Spire Missouri serves
in eastern Missouri,2 in addition to other potentially severe disruptive
consequences. This energy is needed to fuel the economy, and to enable residents
to heat their homes and cook food.
4.

Spire Missouri cannot replace its current “firm” (contractually locked-

in) supply from STL Pipeline with sufficient other alternatives to ensure adequate
reliable gas service to the St. Louis region for at least this upcoming winter season.
Without supply from STL Pipeline, Spire Missouri would very likely be forced to
intentionally curtail natural gas service to many of its customers during the
upcoming 2021-2022 winter heating season. In addition, Spire Missouri faces the

1
As Spire Missouri continues to evaluate its supply options, there have
been certain factual devclopments and Spire Missouri has developed a fuller
understanding of the potential impacts relating to a cessation in service from STL
Pipeline; consequently this Second Declaration reflects minor changes from my
prior declaration.
2
References to Spire Missouri’s customers throughout refer only to
Spire Missouri’s customers in eastern Missouri.
2

very real threat that despite such mandated curtailments, its reduced gas supply
would lead to low pressure on its distribution system during cold periods, causing
uncontrolled loss of service to households and other high priority consumers, such
as hospitals, nursing homes, and schools. Loss of natural gas service during cold
periods would create the potential for loss of life and severe disruptive impacts to
essential services relied on by many individuals and communities served by Spire
Missouri.
5.

Therefore, it is essential that STL Pipeline be permitted to maintain

service to all of its customers, including Spire Missouri, during the upcoming
winter season and beyond.
Pertinent Background
6.

In order to provide the context for these projections, I will first

address the background that led to the current supply situation and constraints.
7.

Spire Missouri serves approximately 650,000 households and

businesses in eastern Missouri. Historically, Spire Missouri was heavily dependent
on a single interstate natural gas pipeline—the Enable Mississippi River
Transmission (“MRT”) system—to supply eastern Missouri. However, in the
normal course of the utility’s prudent system planning efforts, the MRT system
was identified as presenting a heightened reliability risk for Spire Missouri
customers because (1) MRT derived its supplies from the traditional Midcontinent
3

and Gulf Coast natural gas basins, whereas, by the mid-2010s, alternative supplies
from the developing Appalachian Basins were providing better access to more
diverse, reliable, and abundant natural gas, and (2) MRT’s system runs through the
seismically unstable New Madrid fault zone. Additionally, during these planning
efforts, operational problems were identified with Spire Missouri’s liquid propane
“peaking” facilities, as outlined in this declaration. (Peaking facilities are facilities
that are called into service to meet periods of peak demand.)
8.

Consequently, to mitigate the identified risks from prudent system

planning analyses, Spire Missouri initiated discussions with pipeline developers to
improve critical infrastructure for gas supply into the St. Louis region that could
optimize opportunities to access new prolific supplies from the Appalachian Basins
and allow Spire Missouri to remove its liquid propane peaking facilities from its
supply stack. But those discussions did not lead to any definitive agreements to
construct new capacity. Accordingly, STL Pipeline developed and proposed a
project that satisfied all of Spire Missouri’s critical infrastructure needs. STL
Pipeline proposed to build and operate a new 65-mile long pipeline to bring gas
from the Rockies Express Pipeline (“REX”), which would provide Spire Missouri
with improved access to natural gas supplies from the Rockies and Appalachian
Basins, bringing new supply diversity, reliability and cost competitiveness to the
region.

4

Changes to Spire Missouri’s Facilities and Operations Post-STL Pipeline
9.

Once STL Pipeline was placed into service in 2019, it provided Spire

Missouri with 350,000 dekatherms per day (“Dth/day”) of new firm pipeline
capacity. Because of this new firm capacity, and to preserve affordability to its
customers consistent with its obligations, Spire Missouri undertook several steps to
diversify and optimize its natural gas supply portfolio, which resulted in replacing
preexisting sources. Specifically, Spire Missouri took the following steps:
(1) allowed approximately 180,000 Dth/day of firm capacity contracts on MRT, as
well as 170,000 Dth/day of firm capacity on upstream pipelines that fed into
MRT’s East Line, to expire; and (2) retired its obsolete propane peaking facilities,
which previously had the design capacity to supply 160,000 Dth/day of peak
demand. Had Spire Missouri held onto this capacity from MRT or maintained the
propane facilities, the associated costs would have posed an additional and
unwarranted financial burden on its customers, especially because the old capacity
portfolio would not have resolved the previously identified operational risks.
10.

Spire Missouri was later able to take advantage of the high-pressure

deliveries available from the STL Pipeline system in other ways, providing
additional benefits, including some major benefits beyond those presented by Spire
Missouri in the STL Pipeline certificate proceeding before FERC.

5

11.

First, Spire Missouri was able to use the higher pressure STL Pipeline

supply to improve the injections of natural gas into Spire Missouri’s on-system
underground Lange storage facility. The high-pressure supply available from STL
Pipeline allows for direct injection into the facility without having to rely on
compressor facilities to do so. That is a more efficient and reliable process. Given
the ability to direct-inject into the Lange storage facility from STL Pipeline, Spire
Missouri retired and removed three of the six compressors that had been used for
injection into the Lange storage facility prior to STL Pipeline. These compressors
were approximately 70 years old, and were at or beyond their useful life. The
changes to the operations at Spire Missouri’s Lange storage facility resulted in
more than an 80% reduction in greenhouse gas emissions (GHG) from the Lange
storage facility. However, it is important to recognize that even aside from the
reduced pressure without STL Pipeline and the problems this would cause, there is
insufficient supply available to replenish the Lange storage facility without STL
Pipeline. The Lange storage facility has a high yield deliverability of up to
357,000 Dth/day, and Spire Missouri typically replenishes the Lange storage
facility throughout the winter heating season to maintain Spire Missouri’s
inventory level for late season cold weather events. Spire Missouri relies heavily
on the Lange storage facility to meet its customers’ needs, and now relies on the
high-pressure supply of STL Pipeline to replenish that storage inventory. Without

6

the high-pressure supply from STL Pipeline, Spire Missouri risks being unable to
operate the Lange storage facility once it is depleted. In this scenario, Spire
Missouri could face a lack of inventory availability, as it will not be able to
replenish inventory from time to time as needed throughout the winter months.
(While this risk cannot be quantified precisely, it exceeds the risk that Spire
Missouri would take when planning for the necessary winter natural gas supply, as
illustrated by the February 2021 experience described later in this paragraph.)
Accordingly, if the Lange storage facility is depleted, there is a potential for
significant disruptions to service and the potential loss of up to an additional
357,000 Dth/d of deliverability into our distribution system. This deliverability
shortfall, combined with the loss of 350,000 Dth/d from STL Pipeline, would
create an overall deficit of over half of our planned peak day supply, as illustrated
below in Table 1. Without the high pressure supply available from STL Pipeline,
using Spire Missouri’s current primary contract rights and currently available
supplies, it would likely not be able to maintain ongoing replenishment of the
Lange storage facility over the winter, thus jeopardizing the availability of that
facility to serve Spire Missouri’s customers at temperatures as high as
approximately 38 degrees Fahrenheit. As an example, this past February following

7

Winter Storm Uri,3 Spire Missouri reinjected natural gas into its Lange storage
facility for nine days, February 20-28, 2021, in order to replenish inventory in the
event of another late cold spell during that winter season. If the high pressure
supply from STL Pipeline had not been available for this purpose, Spire Missouri
would not have been able to replenish that level of inventory and would have been
at risk for customer outages throughout the rest of the winter season if there had
been another cold snap. The high-pressure supply from STL Pipeline is absolutely
critical to the operation of Spire Missouri’s on-system underground storage.
12.

Second, and not contemplated during the certificate application

process, MoGas Pipeline (“MoGas”), a 263-mile interstate natural gas pipeline
system in and around St. Louis that extends into Central Missouri, interconnected
with STL Pipeline. STL Pipeline’s high-pressure deliveries into MoGas increased
MoGas’s operating pressure,4 allowed MoGas to increase its transportation
capacity without having to undertake a major expansion of its system.5 That

3
References to Winter Storm Uri refer to the major winter and ice
storm from February 13-17, 2021 that impacted the United States (in particular,
Texas), Northern Mexico, and parts of Canada.
4
See MoGas Pipeline LLC’s Motion to Intervene Out-Of-Time and
Comments in Support, at 9, Spire STL Pipeline LLC, Dkt. No. CP17-40-007
(FERC July 28, 2021).
5

See id.
8

additional capacity allowed Spire Missouri to contract for more capacity on
MoGas, and allowed Spire Missouri to forego making certain costly expansions to
its own distribution system, which would have been absorbed by customers. The
additional capacity now held by Spire Missouri on MoGas is more than double
what Spire Missouri previously held before STL Pipeline was placed into
operations, and is used to benefit the west and southwest portions of our
distribution system that are served by MoGas. These areas are seeing increased
demand for natural gas, but the new capacity held by Spire Missouri on MoGas is
at risk of being unavailable without STL Pipeline.6 This permitted Spire Missouri
to avoid making certain costly reinforcements of its facilities to ensure adequate
supply into these areas of its distribution system. Without the additional deliveries
from MoGas, reinforcements would have been required and would have involved
building additional high-pressure pipelines in very populated areas. Without Spire
STL, MoGas deliveries would be substantially reduced and Spire Missouri would
face the prospect of curtailing customers. These deliveries cannot adequately be
replaced this winter. Based on our engineering estimates, it would take years to
install such reinforcements, putting the company at risk of not being able to serve
its customers during the construction period.

6

See id. at 10.
9

13.

The net result of all of Spire Missouri’s actions to improve reliability

and reduce costs to customers is an enormous change to its distribution operations
and supply situation. Consequently, if STL Pipeline were to cease functioning,
Spire Missouri would no longer have the firm capacity that it needs to meet winter
season demand for household, industrial, commercial, and other uses. The
following chart shows the current primary contract rights and supply capabilities of
Spire Missouri, both with and without STL Pipeline.

10

Table 1

Pipeline

Current
Portfolio w/
STL Pipeline

Winter 21/22
w/out STL
Pipeline

Winter 21/22
w/out STL
Pipeline and
Lange

(Dth/day)

(Dth/day)

(Dth/day)

Enable MRT

550,779

472,9791

472,9791

Mogas Pipeline

145,600

62,8002

62,8002

30,300

30,300

30,300

189,4003

0

0

357,000

357,0004

04

1,273,079

923,079

566,079

Southern Star Central
Spire STL Pipeline
Spire MO Underground
Storage
Total
1

Assumes the following (reflecting current Spire Missouri primary contract
rights): (1) 7,800 Dth/day of the 550,779 Dth/day now becomes upstream capacity
utilized to feed MoGas and (2) 70,000 Dth/d of capacity from STL Pipeline is no
longer available to feed a southbound contract on MRT in the market area.
2
Assumes the historical contract capacity Spire Missouri held pre-STL
Pipeline given the STL Pipeline interconnect will no longer be available.
3
Spire Missouri’s total contract with Spire STL Pipeline is 350,000 Dth/d, of
which 189,400 is delivered into Spire Missouri’s system directly, 90,600 Dth/d of
which is delivered into MoGas, and 70,000 of which is delivered into MRT, and
MoGas and MRT then deliver those volumes into Spire Missouri’s system.
4
Spire Missouri’s on-system underground storage is a finite resource. As
Spire Missouri’s underground storage is depleted, our ability to withdraw at max
rates—357,000 Dth/d—and support peak loads will also decline. STL is currently
the sole source of supply for winter re-injections and annual summer storage refill.
Without access to STL Pipeline, the Company may not be able to sustain the max
withdrawal rate long term, eliminating the city gate capacity represented by
underground storage.

11

14.

Table 1 shows a shortfall of 350,000 Dth/day in the absence of STL

Pipeline’s deliveries, and a shortfall of up to 707,000 Dth/day once Spire
Missouri’s Lange storage facility is depleted.
Loss of STL Pipeline Would Cause Severe Harm, and Potentially Loss of Life
15.

Without STL Pipeline’s firm, high-pressure deliveries into its

distribution system, Spire Missouri would face significant shortfalls of the natural
gas needed to serve its customers during the winter season. Winter weather
increases demand, and it does so during a period when natural gas is critically
needed by households, businesses, hospitals, nursing homes, schools, and other
consumers to provide space and water heat.
16.

If STL Pipeline is not in service during the upcoming winter heating

season, depending on availability of natural gas from the Lange storage facility,
and using Spire Missouri’s current primary contract rights and currently available
supplies, approximately 175,000-400,000 homes and businesses may be without
gas service for periods of time, based on Spire Missouri’s extreme cold weather
planning scenarios.
17.

Spire Missouri undertakes a planning process, consistent with industry

standards and audited by the Missouri Public Service Commission, to estimate its
planned peak day (i.e., peak customer demand) during the winter heating season,
so it may determine how that demand will be met. For these planning purposes,
12

Spire Missouri uses hydraulic modeling software to simulate its natural gas
distribution system; this software is widely used in the industry, and this modeling
process is used by Spire Missouri in the regular course of business to model
customer demand and thereby determine the natural gas supply necessary to serve
its customers. Spire Missouri has used this same software and modeling process to
arrive at the projections set forth in this section and preceding sections of this
Declaration. Based on its planning estimates, Spire Missouri would require nearly
1,300,000 Dth/day of capacity for a planned peak day.
18.

Without STL Pipeline’s 350,000 Dth/day of supply, using Spire

Missouri’s current primary contract rights and currently available supplies, it
estimates that as many as 175,000 households and businesses, or 27% of Spire
Missouri’s customers, could be without gas service on a planned peak day
assuming natural gas in the Lange storage faciltity is still available.
19.

A large portion of Spire Missouri’s peak day is served by natural gas

in the Lange storage facility, which as discussed above Spire Missouri must
replenish following withdrawals during the winter months (i.e., Spire Missouri
may withdraw large volumes to meet winter cold spells, but must refill the storage
field to maintain sufficient inventory). Without supply from STL Pipeline, the
Lange storage facility could be depleted much earlier in the winter than normal,
and therefore the inability to replenish the Lange storage facility during the winter

13

months will be even more impactful. Once the inventory in the Lange storage
facility is fully depleted, and without the ability to replenish it through the STL
Pipeline, as many as 400,000 households and businesses, or close to 62% of Spire
Missouri’s customers, could be without gas service on a planned peak day using
Spire Missouri’s current primary contract rights and currently available supplies.
20.

After Spire Missouri maximizes its available supplies and issues

curtailment orders to minimize use of natural gas by non-essential end users, our
modeling indicates that, based on current primary contract rights and currently
available supplies, customers could begin to lose service due to uncontrolled
pressure loss at an average daily temperature of approximately 9 degrees
Fahrenheit without natural gas supply from STL Pipeline, as explained further
below. These temperatures are not atypical for St. Louis. Spire Missouri has
experienced days with average daily temperatures at or below 9 degrees Fahrenheit
during four of the last five winters, according to data from National Oceanic
Atmospheric Administration’s (NOAA) National Climatic Data Center converted
to a “gas day average” (9 a.m. to 9 a.m.).
21.

This temperature threshold for potential loss of service to customers

increases to approximately 38 degrees Fahrenheit once the natural gas in the Lange
storage facility is depleted. Finally, it is important to note that these temperatures
are well above the temperature of -10.6 degrees Fahrenheit, which is the “peak day

14

temperature” Spire Missouri currently uses for planning purposes consistent with
industry standards and the oversight exercised by the Missouri Public Service
Commission.7
22.

The geographical impact of such gas supply outages is illustrated

broadly in the map attached as Appendix A, which is entitled “Missouri East
Projected Outages” (“Outage Map”). The Outage Map is based on two scenarios.
Scenario 1:
Estimated outages on a peak day without STL Pipeline, using Spire
Missouri’s current primary contract rights and currently available supplies
(yellow polygon region). This is the area that Spire Missouri expects to
have insufficient pressure to provide natural gas service should the following
occur (the total expected outages in this scenario is as many as 175,000
homes and businesses):
a.

STL Pipeline is no longer in service.

7
The -10.6 degrees Fahrenheit peak day average temperature is based
on the coldest historical gas day average temperature experienced in the St. Louis
area in recent decades, which was December 24th, 1983. A gas day is measured
between 9 a.m. and 9 a.m. the next calendar day. This figure differs from the prior
peak day temperature that Spire Missouri previously referenced in the FERC
certificate proceeding of -8 degrees Fahrenheit because the prior -8 degrees
Fahrenheit level resulted from the use of a coldest past average calendar day
temperature (12:00 a.m. to midnight).
15

b.

St. Louis experiences its peak planning scenario, with an
average daily gas day temperature of -10.6 degrees Fahrenheit.

Scenario 2:
Estimated outages on a peak day without STL Pipeline, using Spire Missouri’s
current primary contract rights and currently available supplies, and also
without inventory from the Lange storage facility (yellow and red polygon
regions). This is the area that Spire Missouri expects to have insufficient
pressure to provide natural gas service should the following occur (the total
expected outages in this scenario is as many as 400,000 homes and
businesses):
a.

STL Pipeline is no longer in service.

b.

Spire Missouri depletes its Lange storage facility.

c.

St. Louis experiences its peak planning scenario, with an
average daily gas day temperature of -10.6 degrees Fahrenheit.

These projections have both been generated using the modeling system that
is used by Spire’s system planning department in the regular course of
business, as described above, and both scenarios assume peak conditions. It
is important to note, however, that customer outages can occur at
temperatures well above our peak planning temperature of -10.6 degrees
Fahrenheit, as I referenced earlier in this Declaration.
16

23.

The practical disruptive impacts of a loss of natural gas service would

be dire. In the event of a mass outage, customers will remain without heat, hot
water, and the ability to cook for a prolonged period of time due to the time and
complexity required to reestablish service. Loss of heat during extreme cold
weather sometimes results in death.
24.

Loss of natural gas service is considerably more difficult to restore,

and is more hazardous, than the more familiar loss of electric service. Missouri
state pipeline safety regulations,8 company operating standards, and sound safety
practices require that, to restore natural gas service, a utility technician must visit
each impacted home or business to physically shut-off the meter prior to reestablishment of gas into the system. When gas flow is re-established to the
company’s facilities, a utility technician must then return later to physically turnon the meter for the customer, purge the customer’s fuel lines of any air, complete
a shut-in pressure test, and re-light all gas appliances.
25.

Moreover, natural gas outages caused by uncontrolled pressure loss

present an even more dangerous scenario. When pressure is lost to a customer’s
premise, the lack of flowing gas can extinguish gas appliance pilot lights. If
pressure is restored prior to the customer’s meter being physically shut-off, there is

8

See Mo. Code Regs. tit. 20 § 4240-40.030(12)(S)1.A.
17

a risk of explosion created by uncontrolled gas escaping into customer homes
through the unlit gas appliance pilot orifice.
26.

Even under a controlled curtailment scenario, mass restoration of

natural gas service is a formidable challenge. Depending on the size of the outage
and the resources available to restore service, Spire Missouri’s customers could be
subjected to prolonged service disruptions. It is important to note that gas flow
typically cannot be re-established until after the cold weather subsides and overall
demand on the system decreases, potentially leaving customers without service for
an even longer period of time during extreme and sustained cold weather.
27.

As discussed in more detail below, the widespread impact of a mass

outage during the winter could therefore result in loss of life and property similar
to, or even worse than, that seen in Texas during Winter Storm Uri in February
2021.
28.

In addition to loss of service to households, in the above scenarios,

gas service could be lost to more than 320 schools and nearly 20 hospitals, as well
as nursing homes, churches and government facilities. The brunt of the loss of
service will be felt by the communities who can least afford it.

18

Winter Storm Uri, in January 2021, Demonstrates Both the Need for STL
Pipeline and the Potential Disruptive Impacts of Losing Its Supplies
29.

Confirmation of STL Pipeline’s value in meeting St. Louis’s energy

needs is provided by the experience of Spire Missouri during Winter Storm Uri in
February 2021. Without STL Pipeline, Spire Missouri’s customers would have
likely experienced gas service outages and far higher costs.
30.

Spire Missouri estimates that without STL Pipeline, up to 133,000

homes and business would have been without gas service as a result of Winter
Storm Uri. (This estimate is derived by comparing the demand actually
experienced during that period with the supply that would have been available
using current primary contract rights without STL Pipeline.) Alternatively, Spire
Missouri estimates that its customers overall could have experienced a combined
increased gas cost of up to $300 million (assuming Spire Missouri would have
been able to serve all of its customers), as discussed further below.
31.

Spire Missouri’s ability to avoid that disastrous outcome was a direct

result of STL Pipeline’s access to alternative supplies other than Spire Missouri’s
traditional supply basins. During Winter Storm Uri, natural gas production in the
U.S. declined by roughly 25%,9 mostly driven by declines in Oklahoma, Texas,
9
Natural Gas Weekly Update, U.S. Energy Info. Admin. (Feb. 18,
2021), https://www.eia.gov/naturalgas/weekly/archivenew_ngwu/2021/02_18/ (“In
the wake of record-low temperatures affecting most of the country, dry natural gas
production in the United States fell by 21.0 billion cubic feet per day (Bcf/d),
19

and Louisiana. In contrast, STL Pipeline derives its supply from production in the
Rockies and Appalachian Basins, which saw little to no impact during same
period. As a result, Spire Missouri was able to provide reliable service to its
customers during this weather event.
32.

Without STL Pipeline, and based on current primary contract rights

and supplies available during that period, Spire Missouri expects that customers
would have lost gas service on eight of the nine days from February 11, 2021 to
February 19, 2021, with a peak of roughly 133,000 homes and businesses without
service on February 15, 2021. The average daily temperature on this day was 2
degrees Fahrenheit, which is approximately 13 degrees Fahrenheit warmer than
Spire Missouri’s planned peak day of -10.6 degrees Fahrenheit.
33.

Spire Missouri customers could have realized up to an estimated $300

million in gas cost savings over the course of nine days during Winter Storm Uri
because STL Pipeline delivered gas supply sourced from the Rockies and
Appalachian Basins, instead of gas from the significantly higher-priced
Midcontinent producing basins, around Texas and Oklahoma, that suffered from
major operational impediments due to the Winter Storm Uri extreme weather.
These price differentials are illustrated in Appendix B, which reflects daily

declining from 90.7 Bcf/d on February 8 to about 69.7 Bcf/d on February 17,
according to data from IHS Markit.”).
20

published index prices from Platts Gas Daily during the period of February 16-18,
2021. The map shows the extremely high prices that were experienced in the
Midcontinent region around Texas and Oklahoma (red circle) relative to those
experienced from trading points that had access to the Appalachian Basins (green
circle).
34.

Winter Storm Uri provides concrete historical evidence of the supply

security and cost benefits that STL Pipeline provides by allowing Spire Missouri to
maintain a portfolio consisting of diverse supplies of natural gas. Those benefits
would be lost if STL Pipeline were forced to cease operations.
Spire Missouri Cannot Re-Establish the Supply Sources that STL Pipeline
Replaced This Winter
35.

As discussed above, Spire Missouri faces a high risk of significant

loss of natural gas service to large areas of its service territory if STL Pipeline
ceases operation, because of changes to its supply portfolio, system, and operations
leading up to, and since, STL Pipeline commenced service. Specifically, those
changes were: (1) allowing contracts on MRT and upstream pipelines to expire;
(2) retiring the obsolete propane peaking facilities; (3) relying on high pressure
supply from STL Pipeline at the Lange storage facility ; and (4) foregoing system
reinforcements for service to the western and southwestern areas because of the
new supplies by STL Pipeline.

21

36.

None of those steps can be reversed, and none of these sources of gas

can be accessed before the upcoming winter season or beyond, as is explained in
more detail below.
37.

MRT is not available to replace the STL Pipeline supply. As noted

above, Spire Missouri allowed 180,000 Dth/day of firm transportation contract
rights on MRT to expire, as well as the nearly 170,000 Dth/day of firm upstream
contracts that fed its MRT East Line capacity via NGPL and Trunkline. These
quantities of firm entitlements may no longer be available, for several reasons.
38.

Other shippers have subsequently contracted for the pipeline capacity

that Spire Missouri allowed to expire on those pipelines. For example, MRT has
capacity available on two distinct segments, its Main Line and its East Line, but
neither can adequately replace STL Pipeline for the 2021-2022 heating season, as
explained in the next two paragraphs.
39.

MRT has told Spire Missouri that it now only has 568 Dth/day of

capacity available on MRT’s Main Line, a negligible quantity compared to the
350,000 Dth/day contracted on STL Pipeline.
40.

According to MRT’s electronic bulletin board (the generic name for

MRT’s FERC-mandated posting of pipeline and electric transmission information),
MRT has 135,548 Dth/d available on the MRT East Line for this winter (MRT
personnel have indicated via email that there is up to 181,402 Dth/d available on

22

the East Line). But MRT’s delivery point facilities at Chain of Rocks have been
removed by MRT, and replaced with STL Pipeline facilities as contemplated in the
FERC certificate proceeding, so this capacity is not a viable option for Spire
Missouri to use in place of STL Pipeline. In addition to the delivery point being
out of service, due to the changing flow dynamics associated with the Appalachian
Basins gas flowing south to the Gulf Coast area, upstream flows have not been
reliable into the MRT East Line at the pressures MRT would need to deliver gas to
the Spire Missouri service territory.
41.

At present, any MRT East Line deliveries must be made through STL

Pipeline to get into this area of Spire Missouri’s distribution system.10 The
facilities that would be needed to reconnect MRT directly with Spire Missouri’s
distribution system cannot be constructed in time for the upcoming 2021-2022
winter season, and would lack the higher pressures that STL Pipeline provides,
which would be crippling for Spire Missouri’s operations. Moreover, even if the
MRT East Line were to be re-connected to Spire Missouri’s system at some point
in the future, upstream pipeline deliveries into the MRT East Line have had

10
Assuming certain contractual changes were to be made,
approximately 80,000 Dth/d could be sourced on the MRT East Line and delivered
to Spire Missouri delivery points south of Chain of Rocks; however, these
deliveries would be made to different areas of the Spire Missouri distribution
system.
23

significant pressure reliability problems for years, making them an unreliable and
consequently unacceptable supply source to serve customers when they need it the
most, as noted in marketer filings in the temporary emergency FERC docket.11
Spire Missouri knows that firm shippers experienced interruptions of service on
their MRT East Line volumes during Winter Storm Uri. While MRT was able to
deliver quantities actually received from upstream pipelines on its MRT East Line,
interruptions occurred due to the inability of MRT to receive all scheduled gas
from the upstream pipelines, thus leaving shippers with deliveries less than their
nominated quantities. Spire Missouri is exploring availability on upstream
pipelines, NGPL and Trunkline, to feed into the MRT East Line. However, both of
these pipelines have refused Spire Missouri’s requests for guarantees that they can
deliver gas at adequate pressure levels. Trunkline announced on September 3,
2021 that it is developing a project to address these pressure issues, but
nonetheless, continues to refuse to provide firm delivery pressure commitments.
As such, even assuming the Trunkline project were to be placed in service by this
winter, Spire Missouri remains concerned, given the past performance issues,
relying on deliveries on the MRT East Line. Finally, even if—contrary to fact—
Spire Missouri could access the MRT East Line capacity at Chain of Rocks, and
11 Motion to Intervene and Comments in Support of Symmetry Energy Solutions,
LLC, filed August 23, 2021, at pp. 4-5, FERC Docket No. CP17-40-007.
24

contract for the 181,402 Dth/d this winter, it would be far from adequate to meet
the overall shortfall that Spire Missouri faces this winter since Spire STL can
deliver up to 350,000 this winter.
42.

The propane peaking facilities are no longer available. Spire

Missouri’s previously operated propane injection facilities also currently cannot be
used to meet planned peak day demand this winter season. The propane injection
facilities were designed, at two locations, to deliver 160,000 Dth/d of supply
(80,000 Dth/d per location) on a planned peak day, but were decommissioned as
planned after the STL Pipeline went into service. The injection facilities have been
disconnected from the propane supply pipeline or the vaporizers have been
repurposed. Physically reassembling these facilities at both locations cannot be
done before the 2021-2022 winter season.12 Additionally, Spire Missouri made a
strategic decision to no longer rely on propane in the future to meet customer
demand. There are many reasons for this, but in particular, vaporizing propane is
more complicated and introduces more risk than flowing natural gas supply; it
introduces higher Btu content to the system, requiring Spire Missouri to notify
large industrial customers prior to propane injection as higher percentages of

12 Spire Missouri is exploring options to determine if there is any way work can be
performed at one of the locations to allow it to operate this winter, but it still
remains uncertain whether this is possible.
25

propane can damage equipment; and to the best of Spire Missouri’s knowledge, the
Spire Missouri system was the only system of its kind in the U.S., and therefore the
specialized knowledge and expertise needed to maintain and operate the facility
presented a long-term risk. Finally, Spire Missouri may no longer retain assured
access to propane supply even if, contrary to fact, Spire Missouri could rebuild and
reconnect its facilities, because it terminated its propane contract following the
commencement of STL Pipeline service.
43.

The high-pressure supply from STL Pipeline cannot be replaced

for injection into the Lange storage facility. As noted above, the operations of
the Lange storage facility changed with the advent of STL Pipeline, to capture the
benefits of receiving direct injections from the STL Pipeline’s higher-pressure
supply. Any resumption of service from MRT (which is purely hypothetical
because there is no longer an MRT delivery location other than STL Pipeline at
Chain of Rocks) would still leave Spire Missouri without a high pressure supply
for direct injection into the field.
44.

Reinforcements to the Spire Missouri distribution system cannot

be completed in time to allow continued adequate service to the western and
southwestern service areas that have relied on the new supplies from STL
Pipeline. As noted above, STL Pipeline’s service allowed Spire Missouri to
forego certain reinforcements on its own system in order to serve demand in the

26

west and southwest areas of its eastern Missouri service territory. Instead, the
greatly improved pressure on MoGas due to its interconnection with STL
Pipeline13 has rendered these reinforcements currently unnecessary. As I
mentioned before, to construct these reinforcements would take years, making that
option unavailable for the 2021-2022 heating season, and beyond.
45.

In sum, even if Spire Missouri were to attempt to replace STL

Pipeline with the pre-existing alternatives, which would involve numerous risks
and costs even if completed, it cannot do so in time for the upcoming 2021-2022
heating season.
Conclusion: Continued Operation of STL Pipeline Remains Essential to
Continued Service by Spire Missouri to its Customers
46.

Spire Missouri is attempting to make contingency plans to ensure

customers have continued access to reliable gas supply in the event STL Pipeline is
taken out of service, including discussions with Enable MRT (and related upstream
pipelines), MoGas and Southern Star Central regarding available capacity. But
there currently is no viable alternative to replace the energy supply delivered by
STL Pipeline to ensure reliable service to customers, and no such alternative is

13

See supra n.4.
27

expected to be available by the 2021-2022 winter, making it imperative to avoid a
shutdown.
47.

For the reasons discussed above in detail, if STL Pipeline ceases

service, Spire Missouri does not have sufficient natural gas supply to meet the
anticipated demands of the St. Louis region during the upcoming winter season,
and faces the prospect of major losses in natural gas service during cold weather
events, with attendant hardships to the residents of eastern Missouri including a
significant potential for loss of life.
48.

For all of the foregoing reasons, it is critically important that STL

Pipeline continue its current operations for the upcoming 2021-22 winter heating
season.
49.

I declare under penalty of perjury that the foregoing is true and

correct. Executed on September 13, 2021.

__________________________
Scott Carter

28

Deflll

STL Pipeline is no longer in service.
St. Louis experiences its peak planning scenario, with an average daily gas day temperature of -10.60 F.

Spire Missouri depletes its Lange underground storage facili ty.
STL Pipeline is no longer in service.
St. Louis experie nces its peak planning scenario, with an average daily gas day temperature of -10.60 F.

Both scenarios were run in an industry-leading hydraulic model maintained by Spire's system planning department,
and both scenarios assume peak conditions. It is important to note, however, that customer outages can occur at
temperatures well above our peak planning temperature of -10.6° F.

a.
b.
c.

Estimated outages on a peak day without Lange underground storage and STL Pipeline (red and yellow polygon
regions): This is the area that Spire Missouri expects to have insufficient pressure to provide natural gas service
should the following occur: (the total expected outages in this scenario is as many as 400,000 customers)

Scenario 2:

a.
b.

Estimated outages on a peak day without STL Pipeline (yellow polygon region): This is the area that Spire Missouri
expects to have insufficient pressure to provide natural gas service should the following occur: (the total expected
outages in this scenario is as many as 175,000 customers)

Scenario 1:

Southpoint

!
H
!

I

!
H
!

!
H
!

Wentzville

~\ala Perk

A•

Young
Con•rvahon

'.'In Robn10n

!
H
!

Spire Missouri East Projected Outages
Appendix A
!
H
!
-- - - - - - - - - - - -

!
H
!

!

Algana
!
H

!
H
!

!
!
H

!
H
!

Ivory
!
H
!

!
H
!

!
H

#!
*

!
H
!

!
!
H

STL Lange

UGS

STL to MoGas

!
H
!

!

!
H
!

Outages on Peak Day w/o UGS

Outages on Peak Day

Spire STL Pipeline

Southern Star Central

MoGas Pipeline

Enable MRT

Company

Interstate Pipelines

D

Distribution

Supply Feeder

City Gates

Interconnect

UGS

-

-

!

!
H
!
!
H
!

#
*

Legend

STL Chain of Rocks

!

!
H
!

_,

O
MRT to MoGas

140

Be thalto

;}

I

Prices shown in $/MMBtu

Appendix B

I

Exhibit J

IN THE UNITED STATES COURT OF APPEALS FOR
THE DISTRICT OF COLUMBIA CIRCUIT
Environmental Defense Fund, et al.
Petitioners,
V.

Federal Energy Regulatory
Commission,
Respondent.

)
)
)
)
) Nos. 20-1016 and 20-1017
) ( consolidated)
)
)
)
)

DECLARATION OF SCOTT SMITH
1.

My name is Scott Smith, and I am President of Spire STL Pipeline

LLC ("Spire STL"). Spire STL is a natural-gas company, as defined by the
Natural Gas Act, 15 U.S.C. § 717a(6), which operates a 65-mile-long interstate
natural gas pipeline system ("STL Pipeline") that extends from an interconnection
with Rockies Express Pipeline LLC ("REX") in Scott County, Illinois, to
interconnections with MoGas Pipeline, LLC ("MoGas") in St. Charles County,
Missouri, and Spire Missouri Inc. ("Spire Missouri") and Enable Mississippi River
Transmission, LLC ("MRT") in St. Louis County, Missouri. My business address
is 3773 Richmond Ave, Suite 300, Houston, Texas 77046. I have over thirty years
of energy industry experience that includes asset operations, business development,
marketing and trading, market analysis, energy asset valuation and optimization,
business strategy development, and gas processing operations, at Spire STL and
1

other companies throughout the United States. I earned a B.S. in Chemical
Engineering from the University of Texas at Austin and an M.B.A. from Southern
Methodist University. I oversee the construction and operation of the STL Pipeline
and I am very familiar with Spire STL's system and its operations.
2.

Spire STL is regulated by the Federal Energy Regulatory Commission

("FERC"), which provided Spire STL with authority to construct, operate, and
maintain the STL Pipeline, pursuant to a certificate of public convenience and
necessity. The FERC certificate includes the authority for Spire STL to access
right-of-way along the pipeline route as needed to construct, operate, and maintain
the STL Pipeline.
3.

If the Court issues a mandate that vacates the FERC certificate, Spire

STL will have no authority to operate and maintain the STL Pipeline. Spire STL is
seeking a temporary certificate from FERC, which would allow Spire STL to
continue operating the STL Pipeline and to maintain the right-of-way, including
for safety and integrity purposes, in the event its current FERC certificate is
vacated. Spire STL's application for a temporary certificate is currently pending
before FERC in Docket No. CPI 7-40-007.

Purpose of Declaration and Summary of Conclusions
4.

The purpose of this Declaration is to inform the U.S. Court of Appeals

for the District of Columbia Circuit of the potential disruption and safety impacts
2

in the event the STL Pipeline were to cease operations even temporarily due to a
loss of certificate authority, and the steps required to restart operations and
maintenance if Spire STL reacquires FERC authorization to operate the STL
Pipeline.
5.

I am aware of no precedent for shutting down an operational natural

gas pipeline due to a vacated certificate where there remains a possibility that
FERC may issue either a temporary or permanent certificate soon thereafter. It
therefore is not clear exactly what steps would need to occur upon issuance of the
D.C. Circuit's mandate. Neither FERC's regulations nor those of the Pipeline and
Hazardous Materials Safety Administration ("PHMSA") contemplate shutting
down a pipeline that may be deemed necessary in the public interest in the near
future. As a result, Spire STL may need to work with FERC and PHMSA to
respond to the issuance of the D.C. Circuit's mandate in a way that balances
concerns regarding safety, impacts to the environment, and impacts to ratepayers.
6.

That said, if the D.C. Circuit does not stay its mandate and FERC has

not issued a temporary or permanent certificate before the mandate issues, Spire
STL would likely have to take the following steps to ensure the safety of the
pipeline, which could preclude recommissioning and restarting the pipeline before
the 2021-22 winter heating season.

3

7.

If Spire STL loses its certificate authority, and FERC has not yet

issued a temporary certificate or limited-term certificate, Spire STL will lose the
right to enter the pipeline right-of-way along portions of the pipeline. Without
access to these areas of the right-of-way, Spire STL would lose the ability to
monitor the integrity of the pipeline, which is necessary to ensure safety and
compliance with pipeline safety regulations issued by PHMSA. Of particular
importance, Spire STL would be unable to ensure the pipeline is not damaged,
vandalized, or sabotaged. Therefore, in order to ensure the safety of people,
property, and the environment, Spire STL would need to undertake
decommissioning activities including purging the pipeline of natural gas. As I
describe in more detail below, ceasing operations and decommissioning the
pipeline would take an estimated 6-12 weeks to plan and execute.
8.

If FERC issues a temporary certificate or reissues a certificate of

public convenience and necessity authorizing operation of the STL Pipeline after
the pipeline has been decommissioned, it would take Spire STL an estimated 10-12
weeks to recommission and restart operation of the pipeline. If Spire STL is
required to partially or fully decommission and then recommission the STL
Pipeline, the STL Pipeline may not be operational during all or parts of the 20212022 winter heating season that begins November 1, 2021.

4

9.

Therefore, it is essential that Spire STL be permitted to maintain

service on the STL Pipeline while FERC considers Spire STL's request for a
temporary emergency certificate and the Court's order on remand.

Spire STL Will Be Forced to Halt Safety and Restoration Activities
10.

If Spire STL loses its certificate authority, Spire STL would lose the

right to enter certain portions of the right-of-way along the pipeline route. Spire
STL would, therefore, lose the ability to perform certain tasks on the pipeline that
are necessary to ensure safety and compliance with the pipeline safety regulations
issued by PHMSA.
11.

Specifically, Spire STL would lose the ability to perform leakage

surveys, test its cathodic protection test stations, perform line location services in
response to planned excavation activities, and monitor the pipeline for potential
vandalism or sabotage. See 49 C.F.R. §§ 192.706, 192.465, 192.614.
Furthermore, Spire STL would not be able to complete any repair work, if needed,
on the pipeline at a location where Spire STL would not be able to enter the rightof-way.
12.

In addition, Spire STL is in the process of restoring land following

pipeline construction. Without certificate authority, landowners may seek to
prevent Spire STL from performing that work, which would cause a greater impact
to the environment.
5

13.

As a result, if Spire STL loses its certificate authority, in order to

ensure the safety of people, property, and the environment, Spire STL would need
to decommission and purge the pipeline of natural gas, as described below.
Steps Required to Cease Operations and Shut Down the STL Pipeline
14.

If the Court issues its mandate before FERC issues a temporary

certificate or acts on remand and reissues a certificate of public convenience and
necessity for the STL Pipeline, Spire STL would be forced to take steps to shut
down the STL Pipeline and ensure the safety of the right-of-way.I If that happens,
Spire STL may be required to take the following actions:
15.

If Spire STL does not have a certificate, it cannot transport natural

gas. Spire STL would need to develop and execute a depressurization and flare
procedure to remove gas from the pipeline. This will ensure that any vandalism or
sabotage done to the pipeline while Spire STL lacks access to monitor the right-of-

1
While it is my understanding that PHMSA' s pipeline safety
regulations do not specify the steps a pipeline must take upon losing certificate
authority, they do require operators to prepare and follow customized procedures
to provide safety during operations and maintenance of the pipeline. 49 C.F.R.
§ 192.605(b). The unique circumstance of losing certificate authority would
require Spire STL to develop and follow specific procedures for ceasing
operations, purging the pipeline of hazardous fluids, and shutting down the
pipeline in order to ensure the continued safety of people, property, and the
environment. The steps outlined in this section summarize the procedures and
activities that would likely be needed.
6

way does not result in an inadvertent release of natural gas. Flaring off the gas
would require contracting with a third-party service provider, and further
consultation with state and local permitting agencies concerning air emissions.
16.

Spire STL would need to physically isolate the pipeline from any

sources of natural gas. This involves cutting or otherwise removing large diameter
piping at each of the interconnects with REX, MoGas, MRT, and two with Spire
Missouri (the primary gas utility serving eastern Missouri). Isolating the pipeline
would require contracting with third-party mechanical contractors and procurement
of isolation materials such as blind flanges and weld caps.
17.

Spire STL would also be required to develop and execute a plan to fill

the pipeline with nitrogen. Filling the pipeline with nitrogen creates an inert
environment in the pipeline and prevents the development of internal corrosion.
Executing the nitrogen task would involve contracting with a third-party engineer,
mechanical contractor, and nitrogen supplier.
18.

Spire STL may also be required to obtain federal, state, and local

permits for some of these actions. While some of these steps may be accomplished
concurrently, I estimate that the entire process of ceasing operations and shutting
down the pipeline would take 6-12 weeks.

7

Steps Required to Recommission and Restart Operations of the STL Pipeline
19.

In the event the STL Pipeline is decommissioned, and then FERC

subsequently issues a temporary certificate or reissues a permanent certificate on
remand for the STL Pipeline, Spire STL would need to undertake the following
steps to recommission the pipeline and restart transportation service. Some of
these steps may require federal, state, or local permits.
20.

Spire STL would likely need to reverify the integrity of the pipeline,

prior to restarting operations to ensure no damage or vandalism occurred after
Spire STL lost its right to enter the permanent right-of-way and physically inspect
the pipeline facilities. Specifically, Spire STL may need to design and implement
a hydrostatic pressure test of the entire 65 miles of pipeline.2 Hydrostatically
testing the pipeline will ensure that the pipeline is fit to operate at its certificated
operating pressures. Hydrostatically testing the pipeline would involve contracting
with third-party mechanical and testing contractors, procuring large volumes of
water and land to store the water, and acquiring state-mandated hydrostatic
discharge permits.

2
Simply put, a hydrostatic test is the process of filling a pipeline with
water and pressurizing the medium to test the system's integrity. Depending on
the design, a hydrostatic test of the STL Pipeline may require as much as 7.6
million gallons of water.
8

21.

Spire STL would then design and execute a geometry tool or similar

inline inspection tool run to ensure the pipeline was not dented or otherwise
damaged while Spire STL did not have access to certain parts of the right-of-way.
Performing an inline inspection would involve contracting with a third-party inline
inspection tool vendor and mechanical contractor.
22.

Spire STL would also need to remove the physical isolation measures

previously installed at the metering and regulating stations to restore connectivity
at the interconnection points. Restoring connectivity at the interconnects would
involve procuring and testing materials and contracting with a third-party
mechanical contractor. Spire STL would then refill and pack the pipeline with
natural gas in order to be ready for receipt of customer gas for transportation in
interstate commerce.
23.

Spire STL would need to recommission the five STL Pipeline

metering and regulating stations, which would include purging air and nitrogen out
of all equipment, performing functional acceptance tests of all equipment, and
performing point-to-point verification of all equipment communications with the
STL Pipeline gas control room.
24.

Spire STL may also be required to obtain federal, state, and local

permits for some of these actions. While some of these steps may be accomplished
concurrently, the whole process of recommissioning and restarting service on the

9

pipeline would take an estimated 10-12 weeks, assuming Spire STL is able to
quickly negotiate with landowners for use of temporary, additional workspace for
staging areas and to situate equipment used for hydrostatic testing processes. This
estimate can vary greatly and is subject to weather delays, material and contractor
availability, and permitting authorities.

Summary
25.

As explained above, if there is a lapse in certificate authority for the

STL Pipeline, Spire STL will lose the right to enter the pipeline right-of-way along
portions of the pipeline. Without access to these areas of the right-of-way, Spire
STL would lose the ability to monitor the integrity of the pipeline, which is
necessary to ensure safety and compliance with PHMSA's pipeline safety
regulations. Spire STL would also be ill-equipped to prevent damage,
vandalization, or sabotage to the pipeline while it is denied access to the permanent
right-of-way during any lapse in authorization. Therefore, to ensure the safety of
people, property, and the environment, Spire STL would need to undertake
decommissioning activities including the purging of natural gas from the pipeline.
26.

As detailed above, if a lapse in authorization occurs, then Spire STL

would likely need to undertake decommissioning activities for the pipeline
facilities, which would take an estimated 6-12 weeks. If FERC issues a temporary
certificate or reissues a certificate of public convenience and necessity authorizing
10

operation of the STL Pipeline after the pipeline has been decommissioned, it could
take Spire STL an estimated 10-12 weeks to recommission and restart operations
of the pipeline. If Spire STL is required to partially or fully decommission and
then recommission the STL Pipeline, the STL Pipeline may not be operational
during all or parts of the 2021-2022 winter heating season that begins November 1,
2021 even if, after the conclusion of the pending temporary certificate proceeding
at the FERC, the FERC determines that STL Pipeline is necessary to avert an
emergency of gas service projected outages this coming winter in the Greater St.
Louis region.
27.

For all of the foregoing reasons, it is critically important that STL

Pipeline continue its current operations for the upcoming 2021-22 winter heating
season.
28.

I declare under penalty of perjury that the foregoing is true and

correct. Executed on September 13, 2021.

.-

L~
Scott R.

11

